<html>
<title> - A WORK IN PROGRESS: IMPLEMENTATION OF THE FAA REAUTHORIZATION ACT OF 2018</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


A WORK IN PROGRESS: IMPLEMENTATION OF THE FAA REAUTHORIZATION ACT OF 
                                  2018

=======================================================================

                                (116-35)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 26, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                                 __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-198 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                            
 
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      ELIJAH E. CUMMINGS, Maryland
DANIEL WEBSTER, Florida              RICK LARSEN, Washington
THOMAS MASSIE, Kentucky              GRACE F. NAPOLITANO, California
MARK MEADOWS, North Carolina         DANIEL LIPINSKI, Illinois
SCOTT PERRY, Pennsylvania            STEVE COHEN, Tennessee
RODNEY DAVIS, Illinois               ALBIO SIRES, New Jersey
ROB WOODALL, Georgia                 JOHN GARAMENDI, California
JOHN KATKO, New York                 HENRY C. ``HANK'' JOHNSON, Jr., 
BRIAN BABIN, Texas                   Georgia
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DAVID ROUZER, North Carolina         DINA TITUS, Nevada
MIKE BOST, Illinois                  SEAN PATRICK MALONEY, New York
RANDY K. WEBER, Sr., Texas           JARED HUFFMAN, California
DOUG LaMALFA, California             JULIA BROWNLEY, California
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
LLOYD SMUCKER, Pennsylvania          DONALD M. PAYNE, Jr., New Jersey
PAUL MITCHELL, Michigan              ALAN S. LOWENTHAL, California
BRIAN J. MAST, Florida               MARK DeSAULNIER, California
MIKE GALLAGHER, Wisconsin            STACEY E. PLASKETT, Virgin Islands
GARY J. PALMER, Alabama              STEPHEN F. LYNCH, Massachusetts
BRIAN K. FITZPATRICK, Pennsylvania   SALUD O. CARBAJAL, California, 
JENNIFFER GONZALEZ-COLON,            Vice Chair
  Puerto Rico                        ANTHONY G. BROWN, Maryland
TROY BALDERSON, Ohio                 ADRIANO ESPAILLAT, New York
ROSS SPANO, Florida                  TOM MALINOWSKI, New Jersey
PETE STAUBER, Minnesota              GREG STANTON, Arizona
CAROL D. MILLER, West Virginia       DEBBIE MUCARSEL-POWELL, Florida
GREG PENCE, Indiana                  LIZZIE FLETCHER, Texas
                                     COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California

                        Subcommittee on Aviation

  RICK LARSEN, Washington, Chair
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DON YOUNG, Alaska                    STACEY E. PLASKETT, Virgin Islands
DANIEL WEBSTER, Florida              STEPHEN F. LYNCH, Massachusetts
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON,
SCOTT PERRY, Pennsylvania              District of Columbia
ROB WOODALL, Georgia                 DANIEL LIPINSKI, Illinois
JOHN KATKO, New York                 STEVE COHEN, Tennessee
DAVID ROUZER, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
LLOYD SMUCKER, Pennsylvania          Georgia
PAUL MITCHELL, Michigan              DINA TITUS, Nevada
BRIAN J. MAST, Florida               JULIA BROWNLEY, California
MIKE GALLAGHER, Wisconsin            ANTHONY G. BROWN, Maryland
BRIAN K. FITZPATRICK, Pennsylvania   GREG STANTON, Arizona
TROY BALDERSON, Ohio                 COLIN Z. ALLRED, Texas
ROSS SPANO, Florida                  JESUS G. ``CHUY'' GARCIA, Illinois
PETE STAUBER, Minnesota              EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri (Ex Officio)    SEAN PATRICK MALONEY, New York
                                     DONALD M. PAYNE, Jr., New Jersey
                                     SHARICE DAVIDS, Kansas, Vice Chair
                                     ANGIE CRAIG, Minnesota
                                     GRACE F. NAPOLITANO, California
                                     SALUD O. CARBAJAL, California
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, and Chairman, Subcommittee on Aviation:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. Garret Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Subcommittee on Aviation:

    Opening statement............................................     5
    Prepared statement...........................................     5
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     6
    Prepared statement...........................................     8
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................    10
    Prepared statement...........................................    11
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................   121

                               WITNESSES
                                Panel 1

Daniel K. Elwell, Deputy Administrator, Federal Aviation 
  Administration, accompanied by Lirio Liu, Acting Deputy 
  Associate Administrator, Federal Aviation Administration:

    Oral statement of Mr. Elwell.................................    12
    Prepared statement of Mr. Elwell.............................    14
Hon. Joel Szabat, Acting Under Secretary for Policy, Department 
  of Transportation, accompanied by Blane Workie, Assistant 
  General Counsel, Office of the Secretary of Transportation:

    Oral statement of Hon. Szabat................................    20
    Prepared statement of Hon. Szabat............................    22

                                Panel 2

Sara Nelson, International President, Association of Flight 
  Attendants--CWA, AFL-CIO:

    Oral statement...............................................    64
    Prepared statement...........................................    65
Captain Bob Fox, First Vice President, Air Line Pilots 
  Association, International:

    Oral statement...............................................    77
    Prepared statement...........................................    78
Gregory S. Walden, Aviation Counsel, Small UAV Coalition:

    Oral statement...............................................    85
    Prepared statement...........................................    87
Mark Baker, President and Chief Executive Officer, Aircraft 
  Owners and Pilots Association:

    Oral statement...............................................    92
    Prepared statement...........................................    94
John Breyault, Vice President, Public Policy, Telecommunications, 
  and Fraud, National Consumers League:

    Oral statement...............................................    99
    Prepared statement...........................................   100
David Zurfluh, National President, Paralyzed Veterans of America:

    Oral statement...............................................   105
    Prepared statement...........................................   107

                       SUBMISSIONS FOR THE RECORD

Letter of September 26, 2019, from Brian P. Wynne, President and 
  CEO, Association for Unmanned Vehicle Systems International, 
  Submitted for the Record by Hon. Daniel Webster................    32
Letter of September 26, 2019, from Ellen Saracini, Widow of 
  Captain Victor J. Saracini, United Flight 175, Which Struck the 
  South Tower of the World Trade Center on September 11, 2001, 
  Submitted for the Record by Hon. Brian K. Fitzpatrick..........    60
Letter of September 23, 2019, from Consumer Reports, Submitted 
  for the Record by Hon. Rick Larsen.............................   121
Letter of July 3, 2019, to Hon. Elaine Chao, Secretary of 
  Transportation, Submitted for the Record by Hon. Andre Carson..   124

                                APPENDIX

Questions from Hon. Albio Sires to Daniel K. Elwell, Deputy 
  Administrator, Federal Aviation Administration.................   127
Questions from Hon. Sam Graves to Daniel K. Elwell, Deputy 
  Administrator, Federal Aviation Administration.................   127
Questions from Hon. Garret Graves to Daniel K. Elwell, Deputy 
  Administrator, Federal Aviation Administration.................   129
Questions from Hon. David Rouzer to Daniel K. Elwell, Deputy 
  Administrator, Federal Aviation Administration.................   131
Questions from Hon. Mark Meadows to Daniel K. Elwell, Deputy 
  Administrator, Federal Aviation Administration.................   131
Questions from Hon. Don Young to Daniel K. Elwell, Deputy 
  Administrator, Federal Aviation Administration.................   132
Questions from Hon. Greg Stanton to Hon. Joel Szabat, Acting 
  Under Secretary for Policy, Department of Transportation.......   133
Questions from Hon. Sam Graves to Hon. Joel Szabat, Acting Under 
  Secretary for Policy, Department of Transportation.............   134
Questions from Hon. Garret Graves to Hon. Joel Szabat, Acting 
  Under Secretary for Policy, Department of Transportation.......   134
Questions from Hon. Pete Stauber to Hon. Joel Szabat, Acting 
  Under Secretary for Policy, Department of Transportation.......   135
Questions from Hon. Don Young to Hon. Joel Szabat, Acting Under 
  Secretary for Policy, Department of Transportation.............   137
Questions from Hon. Garret Graves to Sara Nelson, International 
  President, Association of Flight Attendants--CWA, AFL-CIO......   137
Questions from Hon. Sam Graves to Captain Bob Fox, First Vice 
  President, Air Line Pilots Association, International..........   138
Questions from Hon. Garret Graves to Gregory S. Walden, Aviation 
  Counsel, Small UAV Coalition...................................   139

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           September 23, 2019

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Aviation
    FROM:  LStaff, Subcommittee on Aviation
    RE:      LSubcommittee Hearing on ``A Work in Progress: 
Implementation of the FAA Reauthorization Act of 2018''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Aviation will meet on Thursday, 
September 26, 2019, at 10:00 a.m. in 2167 Rayburn House Office 
Building to hold an oversight hearing titled, ``A Work in 
Progress: Implementation of the FAA Reauthorization Act of 
2018.'' The hearing will examine progress within the Federal 
Aviation Administration (FAA) and Department of Transportation 
(DOT) in implementing the long-term FAA reauthorization act 
enacted last year.

                               BACKGROUND

    On October 5, 2018, President Trump signed into law the FAA 
Reauthorization Act of 2018 (Pub. L. No. 115-254), a five-year 
reauthorization of FAA and DOT aviation programs. Enactment of 
the bill followed a series of short-term extensions of aviation 
program authorizations after the most recent long-term 
reauthorization expired on September 30, 2015.
    The FAA Reauthorization Act of 2018 altogether contains 
more than 400 mandates for FAA and DOT to issue regulations, 
prepare reports to Congress, and conduct studies in the fields 
of aviation safety, airport infrastructure, agency management, 
and aviation consumer protections. This memo reflects the 
status of the more widely-watched mandates.

                           I. AVIATION SAFETY

A. FLIGHT ATTENDANT FATIGUE

----------------------------------------------------------------------------------------------------------------
                 MANDATE                                  DEADLINE                             STATUS
----------------------------------------------------------------------------------------------------------------
To FAA: Require that flight attendants     November 4, 2018                        DELAYED
 receive a minimum of 10 hours' rest
 between flight duty periods.
----------------------------------------------------------------------------------------------------------------

    While FAA in 2012 started requiring U.S. commercial 
airlines to provide pilots with a rest period of at least 10 
consecutive hours preceding a flight duty period,\1\ the flight 
and duty period limitation for flight attendants has not been 
updated since 1994.\2\ In contrast to the rules for pilots, the 
current regulation allows a flight attendant to remain on duty 
for 14 hours with only an eight-hour break between flights.
---------------------------------------------------------------------------
    \1\ 14 C.F.R. part 117.
    \2\ 59 Fed. Reg. 42974 (Aug. 19, 1994); see also 60 Fed. Reg. 52625 
(Oct. 10, 1995) (detailing the date of compliance with respect to the 
duty limitations and rest requirements in the 1994 final rule).
---------------------------------------------------------------------------
    The FAA bill directed the Secretary of Transportation to 
update the outdated rule by requiring a 10-hour minimum rest 
period for flight attendants between duty periods, establishing 
parity with pilots, by November 4, 2018. The bill also required 
airlines to adopt and submit, to FAA, fatigue risk management 
plans similar to those adopted for pilots to reduce the 
incidence of fatigue among flight attendants.\3\
---------------------------------------------------------------------------
    \3\ Pub. L. No. 115-254, Sec.  335.
---------------------------------------------------------------------------
    The DOT missed the statutory deadline of November 4, 2018, 
for updating the 1994-era regulation, and in fact did not even 
initiate a rulemaking proceeding on the matter until February 
21, 2019.\4\ Although the FAA bill afforded the Secretary no 
discretion with respect to the contents of the revised rule, 
DOT has nonetheless determined that the rule revision must be 
subject to full notice-and-comment rulemaking requirements, 
further delaying issuance of a final rule. As of this writing, 
the Department was expected to issue an advance notice of 
proposed rulemaking this week, seeking comments on the costs to 
airlines and other interested stakeholders, and will follow up 
with a notice of proposed rulemaking in spring 2020.
---------------------------------------------------------------------------
    \4\ Dep't of Transp., Report on DOT Significant Rulemakings, August 
2019, available at https://www.transportation.gov/sites/dot.gov/files/
docs/regulations/350431/august-2019-significant-
rulemaking-reportfinal.docx.
---------------------------------------------------------------------------
    Despite the Department's delay, some airlines--Alaska, 
Delta (starting in 2020), Frontier, Hawaiian, JetBlue, 
Southwest, and United--have voluntarily opted into the 
requirements of the bill by building at least 10 hours of rest 
into flight attendants' work schedules, while others, including 
multiple regional carriers that operate on behalf of American, 
Delta, and United, have not.\5\
---------------------------------------------------------------------------
    \5\ Information provided by the Association of Flight Attendants 
(AFA) (on file with staff).
---------------------------------------------------------------------------

B. EMERGENCY EVACUATIONS

----------------------------------------------------------------------------------------------------------------
                 MANDATE                                  DEADLINE                             STATUS
----------------------------------------------------------------------------------------------------------------
To FAA: Establish minimum dimensions for   November 4, 2019                        PENDING
 passenger seats on air carrier aircraft.
To FAA: Assess and report to Congress on   November 4, 2019                        PENDING
 whether the assumptions and methods for
 certifying compliance with evacuation
 requirements should be revised.
----------------------------------------------------------------------------------------------------------------

    The Federal Aviation Regulations require that the design of 
an airliner, by virtue of the locations and types of emergency 
exits, must permit all passengers to evacuate the aircraft 
within 90 seconds with half the exits blocked.\6\
---------------------------------------------------------------------------
    \6\ See 14 C.F.R. Sec. Sec.  25.803, 25.807; 14 C.F.R. part 25, 
app'x. J.
---------------------------------------------------------------------------
    But recent accidents have raised concerns about whether all 
passengers can, in fact, evacuate an airliner in 90 seconds, 
given passengers' propensity to carry on large bags such as 
roll-aboard suitcases and other behavioral shifts over the last 
decade. For example, the NTSB concluded that it took at least 2 
minutes and 21 seconds--51 seconds longer than the FAA 
assumes--for 161 passengers to evacuate a lightly-loaded 
American Airlines 767-300ER after an uncontained engine failure 
and fire during takeoff at Chicago O'Hare in 2016.\7\ In its 
January 2018 report on that accident, the NTSB concluded that:
---------------------------------------------------------------------------
    \7\ Nat'l Transp. Safety Bd., NTSB/AAR-18/01, Uncontained Engine 
Failure and Subsequent Fire, American Airlines Flight 383, Boeing 767-
323, N345AN, Chicago, Illinois, October 28, 2016, at 27 (2018).

        [E]vidence of passengers retrieving carry-on baggage during 
        this and other recent emergency evacuations demonstrates that 
        previous FAA actions to mitigate this potential safety hazard 
        have not been effective. Therefore, the NTSB recommends that 
        the FAA conduct research to (1) measure and evaluate the 
        effects of carry-on baggage on passenger deplaning times and 
        safety during an emergency evacuation and (2) identify 
        effective countermeasures to reduce any determined risks, and 
        implement the countermeasures.\8\
---------------------------------------------------------------------------
    \8\ Id. at 66. The Safety Board found that ``some passengers 
evacuated from all three usable exits with carry-on baggage. In one 
case, a flight attendant tried to take a bag away from a passenger who 
did not follow the instruction to evacuate without baggage, but the 
flight attendant realized that the struggle over the bag was prolonging 
the evacuation and allowed the passenger to take the bag. In another 
case, a passenger came to the left overwing exit with a bag and 
evacuated with it despite being instructed to leave the bag behind.'' 
Id. at 65.

    The FAA is responding to those recommendations. Moreover, 
in-cabin video footage of passengers evacuating Emirates flight 
521, a Boeing 777-300 that crash-landed in Dubai in 2016, shows 
passengers retrieving large carry-on items from overhead bins 
despite smoke billowing into the cabin from a large fire on the 
wing that eventually destroyed the aircraft.\9\ And the U.K. 
Civil Aviation Authority issued a notice to U.K. airlines in 
2015 warning that ``significant numbers of passengers attempt 
to take hand baggage with them when evacuating an aircraft'' 
and encouraging the airlines to change their procedures to 
address this trend.\10\
---------------------------------------------------------------------------
    \9\ The Aviation Herald, Emirates Boeing 777-300 Registration A6-
EMW, http://avherald.com/h?article=49c12302&opt=0; YouTube (Aug. 3, 
2016), https://www.youtube.com/watch?v=
nUg7zOBB3Ig.
    \10\ U.K. Civil Aviation Auth., Safety Notice No. SB-2015/06, 
``Management of Cabin Baggage in the Event of an Aircraft Evacuation'' 
(Oct. 23, 2015), available at http://publicapps.caa.co.uk/docs/33/
SafetyNotice2015006.pdf.
---------------------------------------------------------------------------
    In addition to passengers' propensity to carry on large 
bags, reduced spacing between seats to accommodate more 
passengers per flight may affect cabin evacuation times. 
Accordingly, the FAA bill directs FAA to ``issue regulations 
that establish minimum dimensions for passenger seats on 
aircraft operated by air carriers . . ., including minimums for 
seat pitch, width, and length, and that are necessary for the 
safety and health of passengers.'' \11\
---------------------------------------------------------------------------
    \11\ Pub. L. No. 115-254, Sec.  577.
---------------------------------------------------------------------------
    The bill also directs FAA to reassess the assumptions and 
methods for certifying transport-category airplane designs' 
compliance with the requirement that evacuations must be 
possible within 90 seconds.\12\
---------------------------------------------------------------------------
    \12\ Id. Sec.  337.
---------------------------------------------------------------------------

C. SECONDARY COCKPIT BARRIERS

----------------------------------------------------------------------------------------------------------------
                 MANDATE                                  DEADLINE                             STATUS
----------------------------------------------------------------------------------------------------------------
To FAA: Require installation of a          October 5, 2019                         LIKELY
 secondary cockpit barrier on each newly                                           DELAYED
 manufactured airplane delivered to a
 major air carrier.
----------------------------------------------------------------------------------------------------------------

    After the terror attacks of September 11, 2001, FAA and 
other civil aviation authorities worldwide mandated that 
passenger airlines equip their fleets with impenetrable cockpit 
doors. However, the Air Line Pilots Association and other 
stakeholders have expressed continued concern that, when one 
pilot leaves the cockpit during flight (to use the lavatory, 
example), a passenger could forcibly gain access to the cockpit 
during the moments when the cockpit door is open. In those 
moments, the only protection for the cockpit is a flight 
attendant or service cart stationed in front of the cockpit 
entry area.
    To protect the cockpit during these moments of 
vulnerability, aviation vendors have developed a device called 
a secondary cockpit barrier, which flight attendants can extend 
from one side of the cabin to the other, near the forward 
lavatory and galley, when a pilot needs to exit the cockpit 
during flight. The barrier would make it much more difficult 
for a would-be attacker to reach the cockpit entryway while the 
cockpit door is open.
    Accordingly, the FAA bill directed FAA to require 
installation of secondary cockpit barriers on ``each new 
aircraft that is manufactured for delivery to a passenger air 
carrier'' in the United States by October 5, 2019.\13\
---------------------------------------------------------------------------
    \13\ Id. Sec.  336.
---------------------------------------------------------------------------
    We do not, however, expect FAA to meet the statutory 
deadline. On June 20, 2019, FAA tasked a working group of the 
standing Aviation Rulemaking Advisory Committee to make 
recommendations regarding, among other things, ``a full range 
of options to achieve the objectives of [the mandate]'' and 
``costs and benefits for recommended actions and alternative 
actions.'' The working group's recommendations were due to FAA 
on September 19, 2019,\14\ although FAA staff advised that the 
working group will request a short extension of the deadline to 
finalize the recommendations.
---------------------------------------------------------------------------
    \14\ FAA, Aviation Rulemaking Advisory Committee Task Notice, June 
20, 2019, available at https://www.faa.gov/regulations_policies/
rulemaking/committees/documents/media/Section
%20336%20Secondary%20Barrier%20ARAC%20Tasking%20Notice%20(6-20-
19)%20Corrected
%206-21-19.pdf.
---------------------------------------------------------------------------

D. LITHIUM BATTERIES

----------------------------------------------------------------------------------------------------------------
                 MANDATE                                  DEADLINE                             STATUS
----------------------------------------------------------------------------------------------------------------
To DOT: Conform U.S. safety regulations    January 3, 2019                         COMPLETED
 regarding air transport of lithium
 batteries with international standards.
----------------------------------------------------------------------------------------------------------------

    For some years, the aviation community has known that 
lithium batteries transported as cargo pose special risks to 
the safety of flight. When ignited, either through self-induced 
thermal runaway within a single cell or by an independent 
source, they burn at extremely high temperatures, and 
traditional aircraft fire suppressants cannot extinguish the 
ensuing fire.
    FAA testing in 2015 established that a fire involving just 
eight lithium-ion batteries at 50 percent charge in the cargo 
hold of a passenger airplane could be uncontrollable and result 
in catastrophic failure of the airplane structure.\15\ 
Recognizing the safety hazards associated with lithium battery 
shipments, the U.N. International Civil Aviation Organization 
(ICAO) voted to ban bulk shipments of lithium batteries from 
the cargo holds of passenger jets in 2016 until safety 
regulators and airframe manufacturers can understand more about 
preventing and containing lithium-fed fires.
---------------------------------------------------------------------------
    \15\ See, e.g., https://www.fire.tc.faa.gov/ppt/systems/
Oct15Meeting/Maloney-1015-Lithium_
Battery_Vent_Gas.pptx.
---------------------------------------------------------------------------
    The FAA and other civil aviation authorities have likewise 
begun requiring that spare lithium batteries be placed in 
carry-on baggage, rather than checked baggage, so that fires 
can be detected and extinguished before they become 
uncontrollable. Regulators have also considered banning all 
portable electronic devices (PEDs) from checked baggage for the 
same reason; a U.S. submission in 2017 to the ICAO Dangerous 
Goods Panel stated that FAA testing ``indicates that large PEDs 
in checked baggage mixed with an aerosol can produce an 
explosion and fire that the aircraft cargo fire suppression 
system . . . may not be able to safely manage,'' leading to 
``the loss of the aircraft.'' \16\
---------------------------------------------------------------------------
    \16\ Angela Stubblefield, Portable Electronic Devices Carried by 
Passengers and Crew (Oct. 27, 2017), available at https://www.icao.int/
safety/DangerousGoods/DGP26/DGP.26.WP.043.2.en.pdf.
---------------------------------------------------------------------------
    The FAA bill directed DOT to harmonize U.S. standards with 
those adopted by ICAO with respect to air transportation of 
lithium batteries.\17\ The Department issued an interim final 
rule fulfilling that mandate on March 6, 2019.\18\ Importantly, 
the interim final rule prohibits the carriage of lithium 
batteries as cargo on passenger aircraft and limits the state 
of charge of lithium batteries shipped on all-cargo aircraft to 
no more than 30 percent.
---------------------------------------------------------------------------
    \17\ Pub. L. No. 115-254, Sec.  333.
    \18\ Hazardous Materials: Enhanced Safety Provisions for Lithium 
Batteries Transported Aboard Aircraft, 84 Fed. Reg. 8006 (March 6, 
2019).
---------------------------------------------------------------------------

E. UNMANNED AIRCRAFT SYSTEMS

----------------------------------------------------------------------------------------------------------------
                 MANDATE                                  DEADLINE                             STATUS
----------------------------------------------------------------------------------------------------------------
To FAA: Require recreational UAS           April 3, 2019 (aeronautical knowledge   DELAYED
 operators to pass an aeronautical          and safety test); remainder of
 knowledge and safety test and receive      provision self-enacting
 FAA-authorization to fly in controlled
 U.S. airspace. In addition, permit the
 FAA to issue standards for remotely
 identifying recreational UAS operators
 and any other parameters or standards to
 maintain the safety and security of the
 NAS.
----------------------------------------------------------------------------------------------------------------

    Unmanned aircraft systems (UAS) are proliferating in the 
national airspace system (NAS). In fact, in its most recent 
aerospace forecast, the FAA estimates the hobbyist 
(recreational or model) UAS fleet will increase from 1.25 
million units to as many as 1.66 million units by 2023. For the 
non-model (commercial) UAS fleet, the FAA projects as much as a 
36 percent annual growth rate over the next five years, from 
277,000 units in 2018 to nearly 1.3 million units by 2023.\19\ 
UAS offer a virtually unlimited number of potential 
applications, including inspecting critical infrastructure, 
surveying wide swaths of land to monitor wildlife and inventory 
forests, and delivering commercial products to homes and 
medical supplies to isolated areas.
---------------------------------------------------------------------------
    \19\ FAA Aerospace Forecasts, Fiscal Years 2019 to 2039: Unmanned 
Aircraft Systems, at 43, 48, available at https://www.faa.gov/
data_research/aviation/aerospace_forecasts/media/
Unmanned_Aircraft_Systems.pdf.
---------------------------------------------------------------------------
    However, the full integration of UAS into the NAS is at a 
relative standstill due to stalled FAA activity and continuing 
concerns over the safety and security of UAS operations, 
particularly regarding the risks UAS can pose to airspace users 
and people and property on the ground.\20\ In addition, the 
identification of UAS operators is a key concern of FAA and law 
enforcement community. On December 20, 2018, FAA issued a 
request for information to inform an ongoing remote 
identification rulemaking. To date, FAA has not issued a 
proposed rule on remote identification standards for UAS 
operations.
---------------------------------------------------------------------------
    \20\ The FAA receives more than 100 UAS sighting reports each 
month. While the Government Accountability Office (GAO) has concluded 
that the extent to which these reports represent actual incidents of 
unsafe UAS use is unclear, the volume of the reported sightings 
reflects the risk of collision between UAS and manned aircraft near 
airports, critical infrastructure, and over populated areas. See GAO, 
Small Unmanned Aircraft Systems, FAA Should Improve Its Management of 
Safety Risks, GAO-18-110 (May 2018).
---------------------------------------------------------------------------
    The FAA bill includes numerous provisions intended to 
accelerate the safe and efficient integration of UAS into the 
NAS. Most notably, section 349 of the Act authorizes FAA to 
fully regulate hobby and recreational UAS, which had been 
prohibited previously under Federal law. The provision permits 
the FAA to apply any requirements or standards on any UAS 
operator (commercial or recreational) consistent with 
maintaining the safety and security of the NAS, which should 
have allowed the FAA to move forward on its remote 
identification standards rule described herein. The provision 
also requires FAA, by April 2019, to develop an aeronautical 
knowledge and safety test for UAS operators to pass before 
flying in U.S. airspace, and requires recreational users to 
receive FAA authorization before flying in controlled airspace, 
which captures commercial service airports.
    Beyond this foundational framework, the bill requires FAA 
to update its outdated comprehensive plan for integrating UAS 
into the NAS and report to Congress on the agency's strategy to 
align and leverage its work across programs and avoid 
duplication of its efforts; \21\ update existing regulations to 
authorize the delivery of goods and property by UAS for 
compensation or hire; \22\ update and improve processes to 
allow public operators to use UAS quickly in response to 
disasters or emergencies; \23\ develop a strategy to provide 
outreach to State and local governments, including law 
enforcement and first responders, on how to use UAS to enhance 
their own work and respond to public safety threats posed by 
UAS.\24\ The bill also prohibits the use of UAS armed with 
dangerous weapons \25\ and creates a criminal penalty for 
operators that operate UAS and recklessly interfere with 
wildfire suppression or emergency response efforts,\26\ or 
disrupt the operation of a manned aircraft.\27\ Finally, the 
bill requires the FAA to develop a plan for the short- and 
long-term implementation of UAS traffic management 
services,\28\ which will include systems necessary to manage 
UAS traffic in low-altitude airspace, allowing FAA to 
communicate real-time airspace status and constraints to 
operators, and provide services to prohibit UAS from operating 
in certain airspace or colliding with other aircraft.\29\
---------------------------------------------------------------------------
    \21\ Pub. L. No. 115-254, Sec.  342.
    \22\ Id. Sec.  348.
    \23\ Id. Sec. Sec.  353, 368.
    \24\ Id. Sec.  366.
    \25\ Id. Sec.  363.
    \26\ Id. Sec.  382.
    \27\ Id. Sec.  384.
    \28\ Id. Sec. Sec.  376, 377.
    \29\ NASA, UAS Traffic Management, https://utm.arc.nasa.gov/
index.shtml.
---------------------------------------------------------------------------

F. CABIN AIR QUALITY

----------------------------------------------------------------------------------------------------------------
                 MANDATE                                  DEADLINE                             STATUS
----------------------------------------------------------------------------------------------------------------
To FAA: Establish educational materials    October 5, 2019                         PENDING
 for aircrews and mechanics about how to
 respond to incidents on board aircraft
 involving smoke or fumes.
To FAA: Issue guidance for aircrews and    April 3, 2019                           DELAYED
 mechanics about how to report smoke or
 fume incidents through the FAA's Service
 Difficulty Reporting System.
To FAA: Commission a study by the          April 3, 2019                           DELAYED
 Airliner Cabin Environment Research
 Center of Excellence to assess potential
 health effects of contaminants from
 bleed air and to identify mitigating
 technologies.
To FAA: Report to Congress on the          April 6, 2020                           PENDING
 feasibility of technologies to monitor
 the purity of aircraft air supply in
 flight.
----------------------------------------------------------------------------------------------------------------

    The year 2018 began with yet another example of a 
worryingly frequent occurrence in civil aviation. On January 6, 
a U.S. jetliner flying from Boston to Punta Cana returned to 
Boston after passengers and crew reported noxious fumes in the 
cabin.\30\ The fumes ``caused passengers and crew to feel 
unwell,'' according to a media report, although no one was 
taken to a hospital. Similar examples abound. In fact, an 
airline pilot union estimates that as many as 20,000 such 
events have occurred over the past decade.\31\ Another recent 
media report details accounts of several deaths of flight crew 
or passengers in which exposure to toxic fumes on board 
aircraft may have been a contributing factor.\32\
---------------------------------------------------------------------------
    \30\ Simon Hradecky, Incident: Jetblue A320 Near Boston on Jan 6th 
2018, Fumes on Board, The Aviation Herald (Jan. 7, 2018), http://
avherald.com/h?article=4b3573e5&opt=0.
    \31\ Bloomberg, `Toxic Fume Events' on Planes Worry Airline 
Workers, Fortune (Aug. 9, 2017), http://fortune.com/2017/08/09/
dangerous-cabin-fumes-planes/.
    \32\ Kate Leahy, `There Are Hundreds of Sick Crew': Is Toxic Air on 
Planes Making Frequent Flyers Ill?, The Guardian (Aug. 17, 2017), 
https://www.theguardian.com/science/2017/aug/19/sick-crew-toxic-air-
planes-frequent-flyers-ill.
---------------------------------------------------------------------------
    Labor stakeholders and others have raised concern about 
these and other incidents in which passengers and crew have 
been sickened by cabin fumes, which in many cases originate in 
air that is ``bled'' off of engines. The bill contains 
provisions directing FAA to issue guidance to aircrews and 
mechanics on responding to incidents involving smoke or fumes 
in cabins, as well as to commission a study on the issue and 
mitigation options.\33\
---------------------------------------------------------------------------
    \33\ Pub. L. No. 115-254, Sec.  326.
---------------------------------------------------------------------------

          II. AIR TRAVEL ACCESSIBILITY AND CONSUMER PROTECTION

A. ACCESSIBILITY IN AIR TRAVEL

----------------------------------------------------------------------------------------------------------------
                 MANDATE                                  DEADLINE                             STATUS
----------------------------------------------------------------------------------------------------------------
To U.S. Access Board in consultation with  October 5, 2020                         PENDING
 DOT: Requires a study on the feasibility
 of in-cabin wheelchair restraint
 systems.
To DOT: Requires development, if           No deadline                             PENDING
 appropriate, of specific recommendations
 regarding improvements to wheelchair
 assistance provided by air carriers.
To DOT: Requires development of an         No deadline                             PENDING
 ``Airline Passengers with Disabilities
 Bill of Rights'' describing the basic
 protections and responsibilities of air
 carriers, their employees and
 contractors, and people with
 disabilities.
To DOT: Requires rulemaking defining       April 6, 2020                           PENDING
 ``service animal'' and development of
 standards for passengers bringing
 service animals and emotional support
 animals in aircraft cabins.
To DOT: Directs DOT to establish advisory  No deadline                             PENDING
 committee for the air travel needs of
 passengers with disabilities.
To DOT: Requires review, and if necessary  April 3, 2019                           DELAYED
 revision, of applicable regulations to
 ensure that passengers with disabilities
 who request assistance while traveling
 in air transportation received
 dignified, timely and effective
 assistance.
----------------------------------------------------------------------------------------------------------------

    1. ADVISORY COMMITTEE

    The bill contains numerous provisions intended to improve 
the air travel experience for passengers with disabilities. 
Among other things, the bill requires DOT to establish an 
advisory committee for the air travel needs of passengers with 
disabilities and directs the committee to assess current 
regulations with respect to practices for ticketing, advance 
seat assignments, and stowage of assistive devices for 
passengers with disabilities.\34\ DOT is currently reviewing 
nominations for committee membership and expects to announce 
the committee's membership in the coming weeks.
---------------------------------------------------------------------------
    \34\ Id. Sec. Sec.  438, 439.
---------------------------------------------------------------------------

    2. SERVICE AND EMOTIONAL SUPPORT ANIMALS

    The bill also directs DOT to promulgate standards governing 
the transportation of service animals and emotional support 
animals on airline flights.\35\ A notice of proposed rulemaking 
is set to be released by November 2019 and was sent to the 
Office of Management and Budget (OMB) in August 2019. For the 
interim, DOT released a policy statement on service animals in 
August 2019.\36\ In the policy statement, DOT stated airlines 
should be prepared to accept ``the most commonly recognized 
service animals (i.e., dogs, cats, and miniature horses) . . . 
for transport'' but may decline to accept ``snakes, other 
reptiles, ferrets, rodents, and spiders.'' \37\ The DOT will 
also permit airlines to seek ``credible verbal assurance'' from 
a passenger that the passenger is traveling with service or 
support animal--not simply a pet.\38\
---------------------------------------------------------------------------
    \35\ Id. Sec.  437.
    \36\ Guidance on Nondiscrimination on the Basis of Disability in 
Air Travel, 84 Fed. Reg. 43480 (Aug. 21, 2019).
    \37\ Id. at 43481.
    \38\ Id. at 43482.
---------------------------------------------------------------------------

B. CONSUMER PROTECTION

    1. CELL PHONES AND E-CIGARETTES

    The bill contains two self-executing provisions--provisions 
that are automatically effective without the need for 
rulemaking by DOT or FAA--to improve airline passengers' on-
board experience. First, the bill prohibits passengers from 
making or receiving cell phone calls during flight.\39\ Second, 
the bill prohibits the use of e-cigarettes in flight.\40\
---------------------------------------------------------------------------
    \39\ Pub. L. No. 115-254, Sec.  403.
    \40\ Id. Sec.  409.
---------------------------------------------------------------------------

    2. INVOLUNTARY DENIED BOARDING

----------------------------------------------------------------------------------------------------------------
                 MANDATE                                  DEADLINE                             STATUS
----------------------------------------------------------------------------------------------------------------
To DOT: Issue a final rule to clarify      December 4, 2018                        DELAYED
 that there is no maximum amount of
 compensation that an air carrier must
 pay to a passenger who has been
 involuntarily denied boarding as the
 result of an oversale.
----------------------------------------------------------------------------------------------------------------

    An oversold flight is one on which more passengers hold 
confirmed reserved space than there are seats available. Before 
bumping a passenger from an oversold flight, an airline must 
first seek volunteers to forego their reserved space on the 
flight (often for compensation).\41\ But if an insufficient 
number of passengers volunteer to take another flight, the 
airline is permitted to begin bumping passengers in accordance 
with the airline's boarding priority rules--which may include 
factors such as a passenger's time of check-in, the fare paid 
by the passenger, and the passenger's status as a frequent 
flyer.\42\ Subject to limited exceptions, under current 
requirements, bumped passengers are entitled to denied boarding 
compensation in amounts that vary based on the length of the 
delay, up to 400 percent of their one-way fare (but not more 
than $1,350).\43\
---------------------------------------------------------------------------
    \41\ 14 C.F.R. Sec.  250.2b(a).
    \42\ Id. Sec.  250.3(b).
    \43\ Id. Sec.  250.5.
---------------------------------------------------------------------------
    The FAA bill directs DOT to revise its regulations to 
clarify that, among other things, ``there is not a maximum 
level of compensation an air carrier or foreign air carrier may 
pay to a passenger who is involuntarily denied boarding as the 
result of an oversold flight.'' \44\ The Department has not yet 
complied with that mandate.
---------------------------------------------------------------------------
    \44\ Pub. L. No. 115-254, Sec.  425(e).
---------------------------------------------------------------------------

    3. REFUNDS OF FEES FOR UNUSED SERVICES

----------------------------------------------------------------------------------------------------------------
                 MANDATE                                  DEADLINE                             STATUS
----------------------------------------------------------------------------------------------------------------
To DOT: Issue regulations requiring each   October 5, 2019                         PENDING
 air carrier to promptly refund any
 ancillary fees that a passenger paid for
 services that the passenger did not
 receive.
----------------------------------------------------------------------------------------------------------------

    The bill directs DOT to issue regulations requiring 
airlines to refund ancillary fees paid for services that a 
passenger does not receive. The DOT is combining this 
requirement with a related requirement from the short-term 
extension bill enacted in 2016 that directs DOT to require 
refunds of checked baggage fees when checked bags arrived 
late.\45\
---------------------------------------------------------------------------
    \45\ Pub. L. No. 114-190, Sec.  2305.
---------------------------------------------------------------------------

                        III. AVIATION WORKFORCE

----------------------------------------------------------------------------------------------------------------
                 MANDATE                                  DEADLINE                             STATUS
----------------------------------------------------------------------------------------------------------------
To FAA: Establish a Youth Access to        January 3, 2019                         DELAYED
 American Jobs in Aviation Task Force.
To FAA: Appoint members to a Women in      July 5, 2019                            DELAYED
 Aviation Advisory Board.
To FAA: Issue final rule to modernize      April 3, 2019                           DELAYED
 training programs at aviation
 maintenance technician schools.
To DOT: Establish two grant programs to    Self-enacting, with grants to be        ON TIME
 support aircraft pilot and aviation        issued in fiscal years 2019-2023
 maintenance technical worker education     (subject to appropriations)
 and development.
----------------------------------------------------------------------------------------------------------------

    The FAA bill included several provisions aimed at 
increasing the aviation workforce pipeline, including directing 
the FAA to establish a Youth Access to American Jobs in 
Aviation Task Force to develop recommendations and strategies 
on how the FAA can facilitate and encourage high school 
students to enroll in STEM courses and courses of study related 
to aviation careers; \46\ create and facilitate the Women in 
Aviation Advisory Board to promote organizations and programs 
that provide education, training, mentorship, outreach, and 
recruitment of women into the aviation industry; \47\ issue a 
final rule to modernize the training programs at aviation 
maintenance technician schools; \48\ and establish aviation 
workforce development grant programs ($5 million per year for 
FY 2019-23) to support the education of future pilots and the 
education and recruitment of aviation maintenance technical 
workers.\49\
---------------------------------------------------------------------------
    \46\ Pub. L. No. 115-254, Sec.  602.
    \47\ Id. Sec.  612.
    \48\ Id. Sec.  624.
    \49\ Id. Sec.  625.
---------------------------------------------------------------------------
    The appendix at the end of this memo contains status 
updates from FAA on additional provisions.

                               WITNESSES

PANEL 1

    <bullet>  Mr. Daniel K. Elwell, Deputy Administrator, FAA
    <bullet>  The Hon. Joel Szabat, Acting Undersecretary for 
Policy, DOT

PANEL 2

    <bullet>  Ms. Sara Nelson, President, Association of Flight 
Attendants
    <bullet>  Capt. Bob Fox, First Vice President, Air Line 
Pilots Association, International
    <bullet>  Mr. Greg Walden, Aviation Counsel, Small UAV 
Coalition
    <bullet>  Mr. Mark Baker, President, Aircraft Owners and 
Pilots Association
    <bullet>  Mr. John Breyault, Vice President, Public Policy, 
Telecommunications, and Fraud, National Consumers League
    <bullet>  Mr. David Zurfluh, National President, Paralyzed 
Veterans of America

                                APPENDIX

               Additional Work From FAA Bill in Progress

    Unless otherwise noted, FAA and DOT have not specified 
estimated dates of fulfillment of the mandates listed below.

----------------------------------------------------------------------------------------------------------------
                                                                         Statutory
  Section               Title                      Description           Deadline              Status
----------------------------------------------------------------------------------------------------------------
                                                 Airplane Noise
----------------------------------------------------------------------------------------------------------------
      173    Alternative airplane noise    FAA to complete evaluation      10/5/19        FAA has completed the
             metric evaluation deadline     of alternative metrics to                    evaluation as directed
                                                the current day-night
                                            decibel level measurement
      175    Addressing community noise   FAA to consider feasibility         None  FAA is finalizing the formal
                               concerns      of dispersal headings or                 process to use related to
                                                  other lateral track                              this section
                                          variations to address noise
                                          concerns when proposing new
                                            area navigation departure
                                               procedures or amending
                                            existing procedures under
                                                   certain conditions
      176   Community involvement in FAA    Report on review of FAA's       6/2/19  The review is complete. FAA
            NextGen projects located in         community involvement                 is working on this report
                            metroplexes         practices for NextGen
                                              projects in metroplexes
      179   Airport noise mitigation and   Report on FAA's review and      10/5/19  The study has been initiated
                           safety study   evaluate existing studies of                     consistent with this
                                          the relationship between jet               section. The report on the
                                            aircraft approach/takeoff                   study is due in 10/2020
                                             speeds and corresponding
                                            noise impacts communities
      180            Regional Ombudsman   FAA regional administrators      10/5/19      All ombudsmen have been
                                                to designate regional                  designated and are going
                                                            ombudsmen                          through training
      188    Study of Day-Night Average      FAA report on results of      10/5/19        FAA has completed the
                                 Sound Levstudy to evaluate metrics to               evaluation. FAA is working
                                              average day-night level                            on this report
                                                             standard
      189     Study on potential health      FAA report on study with       7/2/19     FAA has formally entered
                and economic impacts of       higher ed. institute on                 into the partnership with
                       overflight noise    health impacts of aircraft                    institutions of higher
                                                   noise on residents                   education (MIT & Boston
                                                                                                    University)
----------------------------------------------------------------------------------------------------------------
                                                 Aviation Safety
----------------------------------------------------------------------------------------------------------------
      303      Safety critical staffing   DOT-IG report to Congress on    12/29/19  FAA has updated the Aviation
                                              results of audit of FAA                 Safety Inspector Staffing
                                             Safety Critical Staffing               Model. FAA will adopt future
                                                                                    updates to the model as new
                                                                                     data becomes available and
                                                                                    recommendations are received
                                                                                     by the future DOT IG audit
                                                                                     required in Section 303(b)
      308        FAA and NTSB review of   FAA & NTSB conduct study of      10/5/19  FAA initiated study and held
                general aviation safety   general aviation safety and                   first meeting with NTSB
                                                   report to Congress                      staff on 10/31/2018.
                                                                                       Recommendations from the
                                                                                    study and report to Congress
                                                                                            are being developed
      317        Helicopter fuel system      Issue bulletin notifying       4/3/19            Completed 12/3/18
                                 safety           operators of system
                                                        modifications
      318         Medical certification   FAA to modify 14 C.F.R. Sec.      4/3/19     FAA is pursuing required
              standards of air balloons    61.3(c), to require medical               rulemaking. FAA is working
                              operators      certification of balloon               with the Balloon Federation
                                                 pilots operating for                 on a voluntary program to
                                                         compensation               encourage balloon pilots to
                                                                                    pursue second class medical
                                                                                                   certificates
      333         Safe air transport of         Report to Congress on       6/2/19   Report drafted, DOT saying
              lithium cells & batteries   policies on lithium battery               it ``captures many completed
                                               packaging requirements                    and ongoing activities
                                                                                                consistent with
                                                                                     Congressional direction''.
                                                                                    FAA hopes to give the report
                                                                                               to Congress soon
     339A   In-Flight Sexual Misconduct   Establish National In-Flight     10/5/19    Task Force established by
                             Task Force   Sexual Misconduct Task Force              DOT 02/2019, + subcommittee
                                                    and submit report               of the Department's Aviation
                                                                                    Consumer Protection Advisory
                                                                                       Committee (ACPAC) follow
                                                                                        requirements of Section
                                                                                    339A. Task Force has met in
                                                                                      April, May, June and July
                                                                                       2019. Additional two-day
                                                                                       meeting scheduled in 09/
                                                                                    2019. Task Force expected to
                                                                                    conclude its work by the end
                                                                                     of 2019. DOT awaiting Task
                                                                                    Force recommendations before
                                                                                    determining action(s) needed
     339B   Reporting process for sexual  In coordination w/ relevant      10/5/20  Awaiting establishment. DOJ
            misconduct onboard aircraft     agencies, AG to establish               function, not a DOT function
                                          process based on 339A report
----------------------------------------------------------------------------------------------------------------
                                                Unmanned Aircraft
----------------------------------------------------------------------------------------------------------------
      342   Update of FAA comprehensive        FAA to update UAS plan       7/2/19   The FAA is working on this
                                   plan          required by the 2012               update. Per the requirement
                                                      reauthorization                 in the section, the draft
                                                                                    plan will be provided to the
                                                                                       Drone Advisory Committee
                                                                                    (DAC) and the FAA will task
                                                                                    the DAC to provide feedback
                                                                                                 within 60 days
      348       Carriage of property by   FAA to update regulations to     10/5/19    FAA is meeting the intent
             small UAS for compensation         authorize carriage of               through the issuance of part
                                or hire    property by users of small                            135 exemptions
                                          UAS for compensation or hire
      352     Part 107 transparency and   FAA to revise online waiver    11/4/18 &       FAA posted a sample of
                technology improvements               and COA process       1/3/19  waiver safety justifications
                                                                                       online and allows waiver
                                                                                    applicants to see status of
                                                                                    their waiver request through
                                                                                       FAA's DroneZone platform
      376     Plan for full operational     FAA to develop a plan for      4/11/20  The FAA, in partnership with
                 capability of unmanned         UTM implementation in                3 UAS test sites and other
               aircraft systems traffic      coordination with NASA &                 stakeholders, completed 3
                       management (UTM)       stakeholders, report to               successful test flights this
                                                             Congress               summer under phase 1 of the
                                                                                         UTM Pilot Program. FAA
                                                                                     continues to study initial
                                                                                    results as the agency moves
                                                                                        into phase 2, informing
                                                                                      future test scenarios and
                                                                                       protocols in partnership
                                                                                        with NASA. The FAA will
                                                                                    define regulatory framework
                                                                                         in which providers can
                                                                                                        operate
----------------------------------------------------------------------------------------------------------------
                                          Aviation Consumer Protections
----------------------------------------------------------------------------------------------------------------
      418     Advisory committee on air        DOT to create advisory      12/4/18  Committee established 09/12/
                  ambulance and patient   committee to review options               2019 with appointment of 13
                                billing   to improve pertinent medical                 members. First committee
                                                             services                 meeting expected ``in the
                                                                                    near future and will be open
                                                                                                to the public''
      424    Aviation consumer advocate     Directs DOT to appoint an      9/30/19      Blane Workie, Assistant
                                           aviation consumer advocate                   General Counsel for DOT
                                             and to prepare an annual                        Office of Aviation
                                                   report to Congress               Enforcement and Proceedings,
                                                   summarizing annual               appointed Aviation Consumer
                                                complaints by carrier                  Advocate 03/2019. Report
                                                                                                will be drafted
      425                   TICKETS Act       Prohibits airlines from      12/4/18          DOT has initiated a
                                          removing a passenger from a                 rulemaking (2105-AE77) to
                                          flight after the passenger's                   codify the Tickets Act
                                               boarding pass has been                               requirement
                                            scanned, unless safety or
                                             security reasons dictate
                                                           otherwise.
      433          Improving wheelchair              DOT to establish           No    Awaiting report from 2016
                             assistance            recommendations re     timeline   extension. DOT anticipates
                                            wheelchair assistance, if    specified     it being reviewed by Air
                                               appropriate, following               Carrier Access Act Advisory
                                              report required in 2016                Committee once established
                                                            extension
      434   Passengers with Disabilities  DOT to establish a ``Bill of          No   DOT anticipates this topic
                         Bill of Rights   Rights'' for passengers with    timeline   being addressed by the Air
                                                         disabilities    specified  Carrier Access Act Advisory
                                                                                     Committee once established
      439     Advisory committee on the    DOT to establish committee    Report to          DOT began reviewing
                    air travel needs of    on the air travel needs of   DOT due 14   committee applicants 5/28/
            passengers with disabilities              passengers with       months      19. It has finished its
                                                  disabilities, incl.        after        review and expects to
                                          recommendations, called the       estab-    announce the formation of
                                               Air Carrier Access Act    lishment;           the committee soon
                                             Advisory Committee (ACAA   DOT report
                                                  Advisory Committee)           to
                                                                          Congress
                                                                            due 60
                                                                         days from
                                                                           receipt
      440          Regulations Ensuring   Requires a review and change      4/3/19         DOT has reviewed the
              Assistance for Passengers      to regulations governing                  Department's Air Carrier
               with Disabilities in Air     accommodations for person               Access Act regulations, and
                         Transportation         with disabilities, if                       reviewed complaints
                                                            necessary               received. DOT will determine
                                                                                        whether regulations are
                                                                                                      necessary
      441            Compliance Date of    The compliance date of the      12/4/18    On 10/28/2018, DOT issued
               Mishandled Baggage Rules   November 2, 2016, final rule              notice providing guidance to
                                                on mishandled baggage                 affected U.S. carriers on
                                          reporting shall be effective               compliance with mishandled
                                          not later than 60 days after                   baggage and wheelchair
                                                     enactment of act                    reporting requirements
      551   Employee Assault Prevention          Directs part 121 air       1/3/19        In July 2019, the FAA
                     and Response Plans     carriers to submit to the               published an Information to
                                                   FAA for review and                 Operators (InFO) advising
                                               acceptance an employee               part 121 air carriers of the
                                               assault prevention and                 process for submission of
                                                        response plan                                 the plans
----------------------------------------------------------------------------------------------------------------
                                         Aviation Workforce Development
----------------------------------------------------------------------------------------------------------------
      602     Establish a Task Force on   FAA to establish task force       1/3/19    The FAA is finalizing the
               Youth Access to American      to study increased youth                     necessary charter and
                       Jobs in Aviation       access to aviation jobs               associated Federal Register
                                                                                                         notice
      612          Establish a Women in   FAA to create and facilitate      7/5/19    The FAA is finalizing the
                Aviation Advisory Board   the board to increase access                    necessary charter and
                                                 to women in aviation               associated Federal Register
                                                                                                         notice
      625            Aviation workforce   DOT to establish programs to        None         Implementation being
                   development programs   provide grants for eligible                    reviewed, not expected
                                              projects to support the                      before 2021, per FAA
                                           education of future pilots
                                            and maintenance personnel
----------------------------------------------------------------------------------------------------------------
 
 A WORK IN PROGRESS: IMPLEMENTATION OF THE FAA REAUTHORIZATION ACT OF 
                                  2018

                              ----------                              


                      THURSDAY, SEPTEMBER 26, 2019

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m. in 
room 2167, Rayburn House Office Building, Hon. Rick Larsen 
(Chairman of the subcommittee) presiding.
    Mr. Larsen. Good morning, and I want to thank the witnesses 
for joining today's hearing on the implementation of the FAA 
Reauthorization Act of 2018.
    One year ago, this committee wrote comprehensive bipartisan 
legislation to raise the bar on aviation safety, improve the 
flying experience for the traveling public, better prepare and 
diversify the aviation workforce, and foster innovation in the 
U.S. airspace.
    Today's hearing is a critical milestone in the 
subcommittee's oversight work to ensure the timely 
implementation of the law in accordance with our intent, and to 
address new challenges. Although the FAA has made some progress 
on fulfilling the law's directives, ongoing implementation 
delays threaten the important work needed to advance U.S. 
aviation and aerospace, and maintain our global leadership.
    Our first panel of witnesses are Dan Elwell, the FAA's 
Deputy Administrator, and Joel Szabat, Acting Under Secretary 
for Policy at the Department of Transportation.
    Mr. Elwell and Mr. Szabat, I do expect your testimony will 
offer substantive updates on the administration's efforts to 
swiftly implement last year's law.
    I would note they are joined by staff from FAA and DOT, and 
the staff will be available to help us answer any of our 
questions, as well.
    Witnesses on today's second panel reflect a broad range of 
aviation stakeholders who are uniquely positioned to comment on 
what is working, what is not, and what Congress can do to keep 
the FAA and DOT on track.
    I expect we will cover a lot of ground today, so let me 
walk briefly through a few of my priorities.
    Safety is the subcommittee's top priority. The FAA's 
current aerospace forecast predicts passenger traffic will 
increase roughly 2 percent per year over the next 20 years. 
Congress must ensure appropriate safety rules are in place to 
safely accommodate this demand.
    Notably, the lack of modern rest requirements for flight 
attendants remains a critical aviation safety issue. The 
current regulation, issued in 1994, allows airlines to roster 
flight attendants for just 8 hours of rest. Instead of 
modifying the 1994 rule and flight attendant rest to provide at 
least 10 hours of rest by November 4th of last year, as 
directed in the bill, the FAA just this week issued an advanced 
notice of proposed rulemaking, ANPRM, soliciting comments on 
the cost and benefits of compliance with the mandate. I am 
concerned that this action is yet another unnecessary delay.
    So, Mr. Elwell, I will expect you to shed some more light 
on the FAA's decisionmaking related to this issue.
    Further, I look forward to hearing more about the necessity 
of the ANPRM, particularly as some 15 airlines have already 
implemented the mandate, or are currently working towards 
compliance.
    The bill also requires the FAA to issue guidance to 
aircrews and mechanics on responding to incidents involving 
smoke or fumes in cabins, as well as a commission to study in-
cabin air quality. These directives are overdue, so I hope you 
can provide an update on how the FAA plans to fulfill these 
mandates.
    Congress, as well, must assure the FAA efficiently 
integrates unmanned aircraft systems, or UAS, into the National 
Airspace System. But Congress must also ensure that integration 
is safe. This committee made the necessary reforms in last 
year's bill to ensure the agency could move forward on a remote 
identification rule. Although rulemaking was initiated more 
than 1 year ago, the publication date has been repeatedly 
delayed.
    In July I joined Chair DeFazio and Ranking Member Sam 
Graves and Garret Graves on a letter to the FAA and the Office 
of Management and Budget raising questions about the delays in 
issuing the remote ID rule. But our questions remain 
unanswered.
    So, Deputy Administrator Elwell and Mr. Szabat, I expect 
you will provide us with those answers today.
    Further, according to recent reports, the FAA, in 
partnership with three UAS sites, has successfully completed 
test flights under phase 1 of the UAS Traffic Management Pilot 
Program, and we look forward to hearing more about the lessons 
learned from that program to date.
    As the committee continues to support advances in U.S. 
aviation, the success of those efforts is possible with the 
investment in the next generation of engineers, pilots, 
mechanics, and innovators. The FAA Reauthorization Act includes 
a comprehensive workforce development title, including my 
provision to create a new task force to encourage high school 
students to enroll in aviation manufacturing, maintenance, and 
engineering apprenticeships.
    With global aviation becoming more competitive, I am 
concerned by the FAA's lack of progress on this mandate, as 
well as continued delays to establish a Women in Aviation 
Advisory Board to encourage women and young girls to pursue 
aviation careers. Improving access to workforce training and 
diversifying the aviation workforce is an all-around win for 
employers, job seekers, and the aviation and aerospace sectors.
    And the FAA Reauthorization Act includes numerous 
provisions to improve the air travel experience for more than 
the 900 million passengers who fly in the U.S. each year.
    For years I have championed the effort to improve 
accessibility of air travel for passengers with disabilities, 
and I am pleased to see the Reauthorization Act included a 
robust title focused on improving the curb to curb experience 
for these passengers. However, the Department's commitment to 
these goals has rightly been called into question as 
significant delays on rulemaking for several of these key 
mandates persist.
    Moreover, the public is still waiting for final action on 
rulemaking to ensure passengers with disabilities can access 
lavatories on single-aisle airplanes, an action that I asked be 
required in the 2016 FAA extension. Additionally, last year's 
act improved safety for the traveling public and airline 
employees by addressing sexual harassment and assault through 
open reporting and increased accountability.
    There is no doubt the FAA and DOT and this committee have 
our work cut out for us. Timely implementation of the long-term 
Reauthorization Act will provide stability for the Nation's 
aviation community, support the advancement of new 
technologies, improve American competitiveness, and, above all, 
ensure aviation safety.
    So I want to thank again the witnesses for being here 
today. I look forward to the discussion.
    [Mr. Larsen's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Rick Larsen, a Representative in Congress 
  from the State of Washington, and Chairman, Subcommittee on Aviation
    Good morning and thank you to the witnesses for joining today's 
hearing on the implementation of the FAA Reauthorization Act of 2018.
    One year ago, this Committee wrote comprehensive, bipartisan 
legislation to:

    <bullet>  Raise the bar on aviation safety;
    <bullet>  Improve the flying experience for the traveling public;
    <bullet>  Better prepare and diversify the aviation workforce; and
    <bullet>  Foster innovation in U.S. airspace.

    Today's hearing is a critical milestone in the Subcommittee's 
oversight work to ensure the timely implementation of the law, in 
accordance with our intent, and to address new challenges.
    Although the Federal Aviation Administration (FAA) has made some 
progress on fulfilling the law's directives, ongoing implementation 
delays threaten the important work needed to advance U.S. aviation and 
aerospace and maintain our global leadership.
    On our first panel of witnesses are Dan Elwell, the FAA's Deputy 
Administrator, and Joel Szabat, Acting Undersecretary for Policy at the 
Department of Transportation (DOT). Mr. Elwell, Mr. Szabat, I expect 
your testimony will offer substantive updates on the administration's 
efforts to swiftly implement last year's law.
    Witnesses on today's second panel reflect a broad range of aviation 
stakeholders who are uniquely positioned to comment on what is working, 
what is not and what Congress can do to keep the FAA and DOT on track.
    I expect we will cover a lot of ground, so let me walk briefly 
through a few of my priorities.
    Safety is this Subcommittee's top priority.
    The FAA's current aerospace forecast predicts passenger traffic 
will increase roughly 2 percent per year over the next 20 years.
    Congress must ensure appropriate safety rules are in place to 
safely accommodate this demand. Notably, the lack of modern rest 
requirements for flight attendants remains a critical aviation safety 
issue.
    The current regulation, issued in 1994, allows airlines to roster 
flight attendants for just eight hours of rest. Instead of modifying 
the 1994 final rule on flight attendant rest to provide at least 10 
hours of rest by November 4 of last year, as directed in the bill, the 
FAA just this week issued an advance notice of proposed rulemaking 
(ANPRM) soliciting comments on the costs and benefits of compliance 
with the mandate. I am concerned this action is yet another unnecessary 
delay.
    Deputy Administrator, I expect you can shed more light on the FAA's 
decision-making related to this issue.
    Further, I look forward to hearing more about the necessity of the 
ANPRM, particularly as some 15 airlines have already implemented the 
mandate or are currently working toward compliance.
    The bill also requires the FAA to issue guidance to aircrews and 
mechanics on responding to incidents involving smoke or fumes in 
cabins, as well as commission a study on cabin air quality. These 
directives are overdue, so I hope you can provide an update on how the 
FAA plans to fulfill these mandates.
    Congress must ensure that the FAA efficiently integrates unmanned 
aircraft systems (UAS), which are rapidly emerging, into the national 
airspace system. But Congress must also ensure that integration is 
safe.
    This Committee made the necessary reforms in last year's bill to 
ensure the agency could move forward on a remote identification rule. 
Although rulemaking was initiated more than one year ago, the 
publication date has been repeatedly delayed.
    In July, I joined Chair DeFazio and Ranking Members Sam Graves and 
Garret Graves on a letter to the FAA and Office of Management and 
Budget raising questions about the delays in issuing the remote ID 
rule. But our questions remain unanswered.
    Deputy Administrator Elwell and Mr. Szabat, I expect you will 
provide us with those answers today.
    Further, according to recent reports, the FAA, in partnership with 
three UAS test sites, has successfully completed test flights under 
phase 1 of the UAS traffic management (UTM) Pilot Program.
    I look forward to hearing more about the lessons learned from this 
program to date and the potential impacts on the UAS industry.
    As this Committee continues to support technological advances in 
U.S. aviation, the success of these efforts is possible with investment 
in the next generation of engineers, pilots, mechanics and innovators.
    The FAA Reauthorization Act includes a comprehensive workforce 
development title, including my provision to create a new task force to 
encourage high school students to enroll in aviation manufacturing, 
maintenance and engineering apprenticeships.
    With global aviation becoming more competitive, I am concerned by 
the FAA's lack of progress on this mandate, as well as continued delays 
to establish a Women in Aviation Advisory Board to encourage women and 
girls to pursue aviation careers.
    Improving access to workforce training and diversifying the 
aviation workforce is an all-around win for employers, job seekers and 
the aviation and aerospace sectors.
    The FAA Reauthorization Act includes numerous provisions to improve 
the air travel experience for the more than 900 million passengers who 
fly in the United States each year.
    For years, I have championed efforts to improve accessibility of 
air travel for passengers with disabilities.
    I was pleased to see the reauthorization act included a robust 
title focused on improving the ``curb to curb'' experience for these 
passengers.
    However, the Department's commitment to these goals has been 
rightly called into question, as significant delays on rulemaking for 
several of these key mandates persist.
    Moreover, the public is still waiting for final action on a 
rulemaking to ensure passengers with disabilities can access lavatories 
on single-aisle airplanes--action that I required in the 2016 FAA 
extension.
    Additionally, last year's act improves safety for the traveling 
public and airline employees by addressing sexual harassment and 
assault through open reporting and increased accountability.
    There is no doubt that the FAA, DOT and this Committee have our 
work cut out for us.
    Timely implementation of the long-term reauthorization act will 
provide stability for the nation's aviation community, support the 
advancement of new technologies, improve American competitiveness, and 
above all, ensure aviation safety.
    Thank you again to today's witnesses, and I look forward to our 
discussion.

    Mr. Larsen. And for an opening statement I turn to Ranking 
Member Garret Graves.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman, and thank 
you for holding this hearing. I want to thank all the witnesses 
for being here today.
    Often we pass laws and move on. We send out press releases, 
we have signing ceremonies, and we move on. This bill was 
signed into law about a year ago, almost a year ago. It 
includes over 400 pages of text. As Under Secretary Szabat 
includes in his testimony, it includes nearly 360 deliverables 
to the Congress, to this committee, 360. There is an awful lot 
of work that went into this legislation, and we need to make 
sure that the outcomes actually yield or represent that 
congressional intent.
    The process of signing a bill into law is just the 
beginning. The reality is that implementation is everything, as 
is the case in many circumstances. This bill lays out or 
addresses policy debates in many longstanding areas where there 
has been dispute, or been differences, or a lack of a decision. 
It truly lays the groundwork for the future of aviation and the 
future of aviation infrastructure.
    This legislation makes a lot of progress in terms of 
addressing the future of aviation safety, how that applies not 
just to the aircraft, but also to the information systems and 
the on-the-ground networks, as well.
    This bill was a bipartisan bill, with strong, strong 
support from Republicans and Democrats, a strong vote in the 
House of Representatives moving forward. But I want to say it 
again. All of this is for naught if the FAA doesn't do what we 
directed them to do in the first place.
    Mr. Chairman, I am glad we are holding this hearing today. 
I think that we need to ensure that we stay on top of this, and 
stay on top of implementation, and carry out our oversight 
responsibilities properly. I understand what has been 
accomplished and what still needs to be done. It is important 
we look to the future and decide what we are going to do next, 
and we fully understand the implementation of this legislation. 
I want to thank the witnesses in both panels for being here 
today and for your input. I am interested in hearing how the 
FAA has implemented provisions related to the new entrants and 
new technologies such as unmanned aircraft systems. I also want 
to learn the status of numerous safety process streamlining and 
consumer protection efforts.
    Thank you again, Mr. Chairman, for holding today's hearing, 
and I yield back the balance of my time.
    [Mr. Graves of Louisiana's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Garret Graves, a Representative in Congress 
   from the State of Louisiana, and Ranking Member, Subcommittee on 
                                Aviation
    So often in Congress, we focus solely on either the problems of the 
day or what we're going to do next and we forget to look back.
    We can't pass laws and move on. Signing a law is just the 
beginning--the process of changing things in the real world is just 
beginning, and implementation is everything. Part of our job is to make 
sure that the laws we've already passed are being implemented as 
intended before adding new laws and new work. At more than 400 pages 
and almost 360 deliverables, the FAA Reauthorization Act of 2018 
certainly gave the FAA and DOT more than enough work.
    In this comprehensive law, which was developed and passed with 
strong bipartisan support, Congress addressed many longstanding policy 
debates while laying the groundwork for our aviation system's future. 
We included provisions that will improve aviation safety and help build 
the next generation of aviation infrastructure. And we require various 
reports and studies to inform legislative and regulatory efforts in the 
future.
    But Mr. Chairman, all those provisions, all the good bipartisan 
work we accomplished, and even all the reports that will inform our 
future efforts, all of it is for naught if the FAA doesn't do what we 
directed them to do in the first place.
    So Mr. Chairman, I'm glad we're finally holding a hearing to ensure 
that the FAA Reauthorization is being properly implemented. 
Understanding what has been accomplished and what work remains to be 
done will be important as we look to the future and decide what we're 
going to do next.
    I thank the witnesses on both panels for their participation today. 
I am interested in hearing how the FAA has implemented provisions 
related to new entrants and new technologies, such as unmanned aircraft 
systems. I also want to learn the status of the numerous safety, 
process streamlining, and consumer protection efforts.

    Mr. Larsen. Thank you, Mr. Graves. I turn to the chair of 
the full committee, Mr. DeFazio of Oregon for 5 minutes.
    Mr. DeFazio. Thanks, Mr. Chairman. Welcome to the witnesses 
here today.
    We did send a lot of mandates. The chair listed a number. I 
share his concerns over those, and I will list a few others 
that are at the top of my list. I understand it was a big 
workload, but if you prioritize and address the principal 
concerns, particularly those that relate to safety, that will 
be good progress.
    So flight attendant fatigue. Twenty-five years. The FAA has 
recognized that fatigue is a real issue, and that when you are 
dealing with safety-critical personnel--pilots, we have adopted 
rules. When it comes to flight attendants, safety-critical 
personnel, we haven't.
    The rules allow an airline to keep a flight attendant on 
duty for 14 hours. Then you get an 8-hour break. Now, that is 8 
hours to get off the plane, get out of the airport, get on the 
shuttle, go to the hotel, maybe make a phone call, take a 
shower, go to bed, get up, and be back within 8 hours. Now, I 
don't know. Maybe you get 3, 4 hours of sleep, if you are 
lucky.
    So, it is well past time. And I thought we were very, very 
definitive and clear, and it would not be necessary to go 
through a lengthy rulemaking. And I am hoping that we can 
expedite that in the near future.
    And then we have the issue of cabin evacuations. When I 
first came to Congress, I was aware of the Manchester crash, 
where people died piled up like cordwood, trying to get out the 
overwing exit. It was a survivable crash. It took me 5 years in 
Congress to get a rule that said we would take out and make 
space to get at the overwing exits. Two years later, the 
industry came back with a fake study saying, oh, no, that 
actually delays evacuations if you take those seats out. Well, 
we pushed back on that, and they didn't put them back in. But 
now they are cramming in more, and more, and more seats, closer 
and closer together. People are getting bigger.
    And we haven't done a real safety evacuation drill in, I 
think, 20 years or 25 years. We are using computer simulations. 
I don't believe we can beat the standard anymore of 90 seconds, 
which has been deemed to be critical. Now, if the FAA thinks 
you could have 5 minutes in a survivable crash and a fire, 
well, then, tell us that. But if you don't think that, then we 
have to find out whether or not the current rules accommodate a 
90-second evacuation.
    We have a real-life example, which was the American 
Airlines flight in Chicago, which was a widebody. So it wasn't 
one of the new, really crammed-in planes. And it took them well 
over 2 minutes and 21 seconds to evacuate the plane, and the 
plane wasn't even full. So telling me that these new economy 
carriers that have crammed people in so they are sitting like 
this [indicating]--I want to get the CEOs here someday, and I 
am going to get some of those seats, and I am going to put them 
in, and we are going to keep them here for 4 or 5 hours, and 
see what they think about what they are doing to----
    Mr. Larsen. I won't be chairing that meeting.
    [Laughter.]
    Mr. DeFazio. Secondary cockpit barriers. Bill Lipinski, not 
Dan, and I were on this issue before 9/11, the vulnerability of 
the flight decks. And United actually installed a few barriers 
in 757s, and I was down there visiting their maintenance 
facility in San Francisco once, and I said, ``What of that? 
What is--what do you call that?''
    And they said, ``Oh, we call those DeFazios, because you 
are bugging us so much.'' But they didn't equip all the planes, 
and we had a preventable tragedy, had we been able to prohibit 
access.
    Yes, we have armed the doors, and now we have flight 
attendants menacingly behind a cart. And it wouldn't be very 
hard for a person with strength and skill to vault over that 
cart, knock the flight attendant down, take out the pilot, and 
get to the flight deck. That was really, really, really clear.
    Now the industry is very opposed. It is going to put a 
little more weight on the plane. And the manufacturers and the 
former chairman tried to say, no, no, we didn't mean what the 
law said. We meant new types. No, the law is clear. All newly 
manufactured airplanes will have these barriers.
    And again, you know, this is being slow-walked. I see that 
there--you know, asked for another delay, and they are not 
releasing the recommendations. We have got to get that out.
    Drones took--it took me about 5 years to roll the very, 
very powerful model airplane lobby and the Chinese toy 
manufacturers to require that we could have remote ID. They 
prohibited the FAA from regulating these things. Sooner or 
later we are going to ingest a drone. What is going to happen? 
Well, we don't know. In fact, I asked the FAA 3 years ago, 
``What happens if one of those crappy little quadcopters goes 
into a turbine?''
    And they said, ``Well, we don't know.''
    And I said, ``Well, maybe you should find out.'' We still 
haven't had the live test. I don't know what the delay is.
    This is very serious. The commercial drone people are all 
with me on this, because if we have one accident because of 
some jerk illegally flying a toy drone, they are all going to 
get grounded, and it is going to be quite a mess. So we really, 
really need that rule.
    And now I think we are not even going to see a proposed 
rule until December. You know--I don't know. Is it the model 
aircraft people? Is it the Chinese? Who is holding this up?
    And then, finally, foreign repair stations. We just had an 
incident last week of what appears to be a terrorist action on 
domestic soil by a domestic employee. I have for years--again, 
with Bill Lipinski, that is how long it has been--expressed 
concerns, and with Jerry Costello, about foreign repair 
stations. And we did some visits.
    And, you know, we can't do unannounced visits, because the 
State Department says, ``Oh, well, then they could do 
unannounced visits here.'' Who cares? We don't have anything to 
hide, I hope. They don't do drug testing, as we require by law. 
They don't do alcohol, drug, and they don't do background 
checks.
    And now we are doing massive, massive amounts of 
maintenance overseas. This is an incredible vulnerability, just 
like this guy tried to sabotage the plane there. What about 
someone doing a D check down in one of these foreign repair 
stations? That is a way to take down a plane without having to 
get on board, and without having to access the flight deck.
    So these are safety-critical, potentially life-threatening 
rules that we need, and we need them as quickly as possible.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Larsen, for calling today's hearing on 
implementation of the FAA Reauthorization Act of 2018--a bipartisan 
bill that, barring another senseless government shutdown, will keep the 
lights on at the Federal Aviation Administration (FAA) for the next 
four years.
    By my count, the bill contains more than 400 mandates for FAA and 
Department of Transportation (DOT) rulemakings, studies, and reports to 
Congress--many with the same deadline of either six months or a year 
from enactment. I'm a realist. I recognize it will take time for the 
FAA and the DOT to work through the list. But I want to highlight a few 
mandates whose implementation is either late or about to be late--and I 
want to put this administration on notice that I will be monitoring 
progress on these mandates very, very closely.
    First and foremost is the issue of flight attendant fatigue. Much 
has happened in aviation safety over the last 25 years. We've seen new 
pilot fatigue rules, new pilot training rules, new pilot qualifications 
rules, reduced vertical separation between airplanes, and the list goes 
on.
    But here's what we haven't seen from the FAA in the last 25 years: 
updated rules recognizing that cabin crewmembers do not get adequate 
rest between flights under the FAA's 1994 requirement on cabin crew 
rest.
    Those rules allow an airline to keep a flight attendant on duty for 
14 hours and then provide only an eight-hour break between flights. 
That's not eight hours of rest; that eight hours includes walking 
through the terminal, finding the stop for the shuttle bus to the hotel 
and waiting for it to arrive, riding the shuttle bus to the hotel, 
checking into a hotel room, maybe calling home, and then it's lights 
out for a few hours until the next 14-hour clock starts at the airport 
just five or six hours later.
    The FAA itself has acknowledged the effects of fatigue on the human 
body. The agency's rulemaking proposal for improved pilot fatigue rules 
in 2010 cited the following effects, among others:

    <bullet>  Lapses of attention and vigilance;
    <bullet>  Delayed reactions;
    <bullet>  Impaired decision-making, including a reduced ability to 
assess risk; and
    <bullet>  Reduced situational awareness.

    We've seen accident after accident in the United States where 
flight attendants' quick action saved lives. To name but a few: 
American Airlines flight 1420, which overran the runway in Little Rock 
in 1999; US Airways flight 1549, which ditched into the Hudson River in 
2009; and Asiana flight 214, which crash-landed in San Francisco in 
2013. When a situation unravels from routine to total chaos, that's 
when the flying public expects cabin crews to be rested and ready to 
spring into action.
    The bill set a deadline of November 4 of last year for the 
Secretary of Transportation to issue a final rule guaranteeing flight 
attendants a minimum of 10 hours' rest, no exceptions. Yet all we've 
seen so far is an advance notice of proposed rulemaking, soliciting 
information from airlines and others on the costs of complying with 
that mandate--even as some 15 airlines have adopted some version of a 
10-hour rest rule voluntarily. I consider the administration to be 
woefully delinquent in fulfilling this important mandate.
    Second is a related issue: cabin evacuations. In 1985, before I was 
elected to Congress, 55 people died during the botched evacuation of 
British Airtours flight 28M in Manchester. After I was elected, I 
persisted in response to that tragedy until the FAA finally adopted 
spacing requirements for exit-row seats in 1992.
    But evacuations continue to be a problem. After a Boeing 767 became 
engulfed in flames following an uncontained engine failure during its 
takeoff roll in Chicago in 2016, the scene in the cabin was a complete 
melee as passengers tried to evacuate the burning plane dragging huge 
carry-on bags with them. To quote from the National Transportation 
Safety Board's report:

        In one case, a flight attendant tried to take a bag away from a 
        passenger who did not follow the instruction to evacuate 
        without baggage, but the flight attendant realized that the 
        struggle over the bag was prolonging the evacuation and allowed 
        the passenger to take the bag.

    The FAA says it should take 90 seconds to evacuate a burning plane. 
It took 161 passengers and eight crew two minutes and 21 seconds to 
evacuate the 767 at O'Hare. So that to me begs the question: Are the 
FAA's assumptions valid about how long it takes for cabin evacuations?
    At my insistence, the bill requires the FAA Administrator to 
reassess the assumptions and methods behind certification of evacuation 
times and report to Congress on the matter. The deadline is coming up 
on October 5.
    At a time when airlines are cramming more and more seats to reduce 
their costs per available seat-mile, the bill also requires the FAA to 
issue regulations on minimum dimensions of seats on airliners. Again, 
the final rule is due next week, on October 5, and I look forward to 
hearing from Deputy Administrator Elwell on the FAA's progress in 
meeting this important safety-critical mandate.
    Third is the requirement for installation of secondary cockpit 
barriers on transport-category airplanes. After 9/11, cockpit doors 
were reinforced, but pilots still need to leave the cockpit from time 
to time during flight. Although United installed what I understand were 
called ``DeFazio barriers'' on some of its 757s in recognition of my 
advocacy on this subject, in most cases the only protection for the 
flight deck during the moments when the cockpit door is open during 
flight is a flight attendant or beverage cart stationed in front of the 
entryway.
    Thank God no terrorist has exploited this vulnerability since 9/11, 
but it's long past time to close the loophole, so the bill requires the 
FAA--again, by October 5--to require installation of secondary cockpit 
barriers on all newly manufactured airliners. Inasmuch as the working 
group tasked with developing this requirement has asked for an 
extension of the September 19 deadline for submitting its 
recommendations, I'm pessimistic that the FAA will meet the deadline, 
and I'll be keen to hear from Deputy Administrator Elwell as to when 
we'll see some further action on this mandate.
    Fourth is a provision I authored that removed a foolish ban on FAA 
regulation of recreational drones, which account for more than one 
million of the drones in U.S. airspace today. For more than six years, 
that ban prevented the FAA from addressing the serious safety and 
security risks drones pose, many of which can be alleviated through 
basic remote identification (ID) requirements for operators. These 
risks have held back the U.S. commercial drone industry, as additional 
FAA rules permitting expanded commercial drone operations, such as 
routine operations over people and at night, have been at a standstill.
    I was under the impression that my provision would provide the FAA 
with the authority and tools needed to move forward with its remote ID 
rulemaking, which the industry at large agrees is the foundation 
necessary for the full and safe integration of drones. I was 
disappointed to learn that the agency's efforts are again delayed--the 
third time this year--with the rule now expected in December. The FAA 
and its security partners must commit to issuing this rule as 
expeditiously as possible, and I look forward to hearing from the 
Deputy Administrator about efforts underway to ensure this happens.
    Fifth is the safety and security of foreign aircraft repair 
stations. While not addressed in last year's legislation, the 2016 FAA 
extension required the FAA to issue rules requiring that safety-
sensitive workers at foreign repair stations be subject to alcohol and 
substance abuse screening and background investigations, just as 
workers at U.S. facilities are, and the 2012 reauthorization similarly 
required a rulemaking on substance abuse screening. However, to date, 
the FAA has failed to implement these important mandates.
    I have been concerned for years over the FAA's lax oversight of 
these facilities. Report after report by successive DOT Inspectors 
General has revealed troubling deficiencies in FAA oversight of foreign 
repair stations that perform more and more critical safety work on 
U.S.-registered aircraft. In fact, representatives of one airline told 
the Government Accountability Office in 2016, in a study at my request, 
that the airline uses 100 foreign repair stations. I intend to do 
whatever is necessary in Congress to ensure parity between U.S. and 
foreign repair stations.
    While I've highlighted just a few provisions in my remarks, by no 
means do I want to imply that there aren't dozens of other important 
provisions in the FAA bill in the areas of safety, consumer 
protections, accessibility for disabled passengers, and workforce 
development. For every requirement in the bill, this Subcommittee will 
remain focused on ensuring that Congress' will is respected, however 
long it takes.
    Thank you, Chair Larsen, and I yield back.

    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Larsen. Thank you. I now turn to Ranking Member Graves 
for 5 minutes for his opening----
    Mr. Graves of Missouri. Thanks, Chairman Larsen and Ranking 
Member Graves, for having this hearing. I am very glad that the 
subcommittee is focusing on implementation of FAA 
reauthorization for 2018, very glad about that.
    This act is the longest reauthorization in more than two 
decades, and its passage last October was very bipartisan, and 
it was widely praised.
    But, among other things, FAA reauthorization, it gives the 
FAA and industry much-needed stability. It provides steady 
funding for airport and infrastructure across the country, and 
it allows manufacturers to get products to market on time, stay 
competitive, and provide millions of good-paying American jobs.
    And it also streamlines the regulatory process to encourage 
innovation in new technologies. And I am particularly proud in 
the reauthorization of the provisions that address issues 
important to the general aviation community, such as supporting 
small and rural airports through the new supplemental grant 
program; increase in aircraft registration times from 3 years 
to 7 years; commonsense changes in FAA hangar use; and policy 
related to the construction of an aircraft; tackling important 
general aviation safety issues, such as marking towers; ending 
FAA fees for large aviation events such as AirVenture in 
Oshkosh, Wisconsin, and Sun 'n Fun in Lakeland, Florida; a 
clarified FAA policy relating to nonprofits when it comes to 
accepting donations for living history flight experiences. It 
promoted the streamlining and evaluation of regulations related 
to certificates for pilots of experimental aircraft, including 
the restoration of the ``all makes and models'' Certificate, 
and supported programs to develop the aviation workforce of the 
future. This is just to name a few.
    It is vitally important that the workforce grant program, 
training requirements, and studies directed by the law--it is 
very important that they are implemented in a timely manner.
    During the next 7 days the general assembly of the 
International Civil Aviation Organization, ICAO, is going to 
meet in Montreal. And I am pleased that FAA leadership is going 
to be there with other regulators to discuss international 
standards. And I am also pleased that one of those items to be 
discussed is international pilot training standards. And I 
understand the United States is going to present a white paper 
on automation and dependency in the cockpit.
    I have said this before, and I am going to say it again, 
because I don't think it can be repeated enough, that the pilot 
is the most important safety feature in any cockpit. And his or 
her ability to fly the plane when technology fails is 
absolutely critical to safety.
    The growth of the commercial aviation industry around the 
world is so important to our global economy, and it has 
numerous benefits. But that growth and rapid expansion, 
especially in developing nations, cannot come at the expense of 
safety and good training.
    I look forward to hearing from today's witnesses. I wish--
and this isn't a criticism, Mr. Chairman, but I wish that we 
could hear from other segments of the aviation community, such 
as general aviation, the airlines, manufacturers, airports, 
safety inspectors, air traffic controllers, on the GA 
community. So I hope today's hearing is just the first in a 
series on the implementation of the reauthorization law.
    And again, I want to thank our witnesses for being here 
today. And I would yield back the balance of my time. Thank 
you.
    [Mr. Graves of Missouri's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    I am glad the Subcommittee is focusing on implementation of the FAA 
Reauthorization Act of 2018. This is the longest reauthorization of the 
FAA in more than two decades, and its passage last October was 
overwhelmingly bipartisan and widely praised.
    Among other things, the FAA Reauthorization Act of 2018 gives the 
FAA and industry much needed stability; provides steady funding for 
airport infrastructure across the country; allows manufacturers to get 
products to market on time, stay competitive, and provide millions of 
good-paying American jobs; and streamlines regulatory processes to 
encourage innovation in new technologies.
    I am particularly proud of provisions in the Reauthorization that 
address issues important to the general aviation community, such as 
supporting small and rural airports through a new supplemental grant 
program; increasing aircraft registration renewal times from three 
years to seven years; commonsense changes to FAA hangar use policy 
related to construction of aircraft; tackling important general 
aviation safety issues, such as marking towers; ending FAA fees for 
large aviation events such as Oshkosh and Sun `n Fun; clarifying FAA 
policy related to non-profits accepting donations for living history 
flight experiences; promoting the streamlining and evaluation of 
regulations related to certificates for pilots of experimental aircraft 
including the restoration of an `all makes and models' certificate; and 
supporting programs to develop the aviation workforce of the future.
    It is vitally important that the workforce grant programs, training 
requirements, and studies directed by the law be implemented in a 
timely manner.
    This is particularly true in the aftermath of the tragic Boeing MAX 
accidents in Indonesia and Ethiopia.
    There are numerous reviews and investigations underway and we are 
awaiting the much anticipated recommendations. Experts are considering 
many factors for each accident, including aircraft certification and 
design, airline operations and maintenance, and pilot training and 
experience.
    During the next seven days, the General Assembly of the 
International Civil Aviation Organization (ICAO) is meeting in 
Montreal. I am pleased that FAA leadership is there to meet with other 
regulators to discuss the MAX. I am also pleased that one of the items 
to be discussed is international pilot training standards.
    I understand that the United States will present a white paper on 
automation dependency in the cockpit.
    I have said it before, but I can't repeat it enough--the pilot is 
the most important safety feature in the cockpit and his or her ability 
to manually fly the plane when technology fails is critical to safety.
    The growth of the commercial aviation industry around the world is 
so important to our global economy and has numerous benefits. But that 
growth and rapid expansion, especially in developing nations, cannot 
come at the expense of safety and good training.
    I look forward to hearing from today's witnesses, but it is 
unfortunate that we will not hear from other segments of the aviation 
community, such as airlines, manufacturers, airports, safety 
inspectors, and air traffic controllers. So, I hope today's hearing is 
just the first in a series of hearings on the law.

    Mr. Larsen. Thank you, Mr. Graves, and so noted on your 
request.
    I want to welcome the witnesses to our first panel: Mr. Dan 
Elwell, Deputy Administrator of the FAA, and the Honorable Joel 
Szabat, Acting Under Secretary of Policy at the U.S. DOT.
    Thanks for being here today. We all look forward to your 
testimony.
    Without objection, our witnesses' full statements will be 
included in the record. And since that is the case, the 
subcommittee requests that you limit your oral testimony to 5 
minutes.
    Mr. Elwell, you are recognized.

 TESTIMONY OF DANIEL K. ELWELL, DEPUTY ADMINISTRATOR, FEDERAL 
   AVIATION ADMINISTRATION, ACCOMPANIED BY LIRIO LIU, ACTING 
       DEPUTY ASSOCIATE ADMINISTRATOR, FEDERAL AVIATION 
 ADMINISTRATION; AND HON. JOEL SZABAT, ACTING UNDER SECRETARY 
FOR POLICY, DEPARTMENT OF TRANSPORTATION, ACCOMPANIED BY BLANE 
 WORKIE, ASSISTANT GENERAL COUNSEL, OFFICE OF THE SECRETARY OF 
                         TRANSPORTATION

    Mr. Elwell. Thank you, Chairman Larsen, Chairman DeFazio, 
Ranking Member----
    Mr. Larsen. Get close and speak up.
    Mr. Elwell. Thank you, Chairman Larsen, Chairman DeFazio, 
Ranking Member Graves, and Ranking Member Graves, and members 
of the committee. Thank you for the opportunity to appear 
before you today to discuss the FAA's ongoing work to implement 
the provisions of the FAA Reauthorization Act of 2018.
    Before I begin, I would like to recognize our guests today, 
the family and friends of those who passed in the accidents in 
Indonesia and Ethiopia. It is in honor of their loved ones that 
we stay so intensely committed to improving safety.
    Although the act authorized aviation programs for 5 years, 
the vast majority of the specific mandates require FAA action 
within the first year. We remain committed to completing the 
work you have given us, and I am pleased to report we have made 
substantial progress on fulfilling the mandates. I will discuss 
accomplishments in several key areas, including aircraft 
certification, aviation safety, unmanned aircraft systems, and 
commercial space.
    The FAA's approach to aircraft certification has evolved 
over time in order to adapt to an ever-changing industry, with 
safety always paramount. Continuous improvement is an integral 
component of the FAA safety culture, and we are committed to 
learning from our experiences and using what we have learned to 
improve our process.
    The 2018 act furthers this work. As required in the 
reauthorization, Secretary Chao this summer established a 22-
member Safety Oversight and Certification Advisory Committee to 
advise the Department on policy-level topics related to 
certification, including Organization Designation Authority, or 
ODA.
    The reauthorization also required the FAA to establish an 
ODA Office within the Aviation Safety Organization to ensure 
consistency in ODA oversight functions throughout the agency. 
We formally established the ODA Office in March.
    The 2018 act requires the FAA to initiate 33 separate 
rulemakings in addition to creating new aviation rulemaking 
committees, and expanding the work of the existing Aviation 
Rulemaking Advisory Committee, ARAC, to consider new 
objectives.
    We have made significant progress on key rulemakings on 
flight attendant duty and rest periods. As the chairman 
mentioned, we published an advance notice of proposed 
rulemaking yesterday that asks respondents for data to assist 
us in developing the proposed rule.
    In a related requirement, in June we published advisory 
information to airlines for developing flight attendant fatigue 
risk management plans. Currently, we are receiving and 
reviewing these plans from airlines.
    In June we also directed the ARAC to evaluate a 
reauthorization requirement for airlines to install secondary 
cockpit barriers in new passenger aircraft. The FAA is 
committed to implementing Congress' mandate for this safety and 
security enhancement, and we are working with the ARAC to 
ensure it is done correctly.
    The FAA is also making good progress on several airport-
related requirements, ranging from contract towers and 
environmental concerns with firefighting agents to streamlining 
the passenger facility charge program. We are acutely aware of 
the need to continue balancing the interests of airports, 
airlines, and other aeronautical users, neighboring 
communities, and the traveling public, among others.
    The 2018 act devoted considerable attention to the FAA's 
continued work on the integration of UAS into the National 
Airspace System. Key to this integration will be the ability to 
remotely identify a UAS and link it to its operator, a 
capability that is fundamental to the safety and security of 
UAS operations. A notice of proposed rulemaking on this subject 
is presently in executive-branch clearance.
    Recognizing the capabilities of commercial UAS operations 
to carry cargo, Congress required that the FAA update existing 
regulations to allow for the practice. The FAA and industry 
have been demonstrating increasingly complex operations in this 
area as part of the UAS integration pilot program. We are using 
exemptions and waivers in the interim to meet the intent of the 
mandate, while gaining the experience necessary to change the 
rules.
    The commercial space industry is booming, with an 
increasing number of launches and reentries every year. 
Congress, recognizing the growing importance of this industry, 
required that the FAA stand up an Office of Spaceports within 
the FAA's Office of Commercial Space Transportation, and I am 
pleased to say the Office of Spaceports is up and running, and 
we are actively working with spaceport licensees and 
stakeholders.
    In conclusion, I want to assure you that we are fully 
committed to carrying out the reauthorization provisions as 
quickly as possible, while making sure we do not sacrifice the 
substance behind each requirement in a rush to declare 
completion.
    I would be happy to answer your questions. Thank you.
    [Mr. Elwell's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Daniel K. Elwell, Deputy Administrator, Federal 
                        Aviation Administration
    Chairman Larsen, Ranking Member Graves, Members of the 
Subcommittee:
    Thank you for the opportunity to appear before you today to discuss 
the Federal Aviation Administration's (FAA) ongoing work to implement 
the provisions of the FAA Reauthorization Act of 2018 (2018 Act or 
Act). The 2018 Act is a wide-ranging reauthorization measure that 
provided the FAA with a host of critical new authorities and 
responsibilities on a broad range of aviation issues including 
enhancing safety, improving infrastructure, and enabling innovation. 
Although the 2018 Act reauthorized aviation programs for five years, 
the vast majority of the specific mandates require FAA action within 
the first year. The Act's focus on the first year of the 
reauthorization period, as well as other challenges that the FAA has 
encountered since enactment, has required the FAA to prioritize its 
implementation strategy. Despite these challenges, I am pleased to 
report that the FAA has made substantial progress on fulfilling the 
congressional mandates in the Act, and I would like to summarize for 
you some of the FAA's accomplishments.
               Aircraft Certification & Flight Standards
    The regulations and policies that guide the FAA's approach to 
aircraft certification and flight standards have evolved over time in 
order to adapt to an ever-changing industry, and to ensure that safety 
is always our first priority. Continuous improvement is an integral 
component of the FAA's safety culture and we are committed to learning 
from our experiences and using what we have learned to improve our 
process.

    <bullet>  Safety Oversight and Certification Advisory Committee. 
The 2018 Act requires the Secretary of Transportation to establish a 
Safety Oversight and Certification Advisory Committee (SOCAC) to advise 
the Secretary on policy-level issues facing the aviation community 
related to FAA safety oversight and certification programs and 
activities. The Act further requires the new advisory committee to 
focus on a number of specific aspects of the FAA's safety oversight 
role including, for example, organization designation authorization 
(ODA).
         Secretary Chao this summer announced the appointment of 22 
members to the advisory committee.\1\ The SOCAC consists of members 
representing stakeholders from across the aviation sector. 
Additionally, the Secretary created a Special Committee within the 
structure of the SOCAC to specifically review FAA procedures for the 
certification of new aircraft.\2\ Through this framework, leading 
outside experts will help determine if improvements can be made to the 
FAA's aircraft certification process. As Secretary Chao emphasized, 
safety is the number one priority of the Department. The FAA embraces 
meaningful oversight to make air transportation safer. We welcome the 
work of the SOCAC and the Special Committee and look forward to 
reviewing their recommendations.
---------------------------------------------------------------------------
    \1\ https://www.transportation.gov/briefing-room/us-secretary-
transportation-elaine-l-chao-announces-appointees-safety-oversight-and-

    \2\ https://www.transportation.gov/briefing-room/dot1619
---------------------------------------------------------------------------
    <bullet>  Organization Designation Authorization Office. The use of 
delegation, in some form, has been a vital part of our Nation's 
aviation safety system since the 1920s. Congress has continually 
expanded the designee program since creation of the FAA in 1958, and it 
is critical to the success and effectiveness of the certification 
process. In March 2019, consistent with requirements under the 2018 
Act, the FAA formally established the Organization Designation 
Authorization (ODA) Office within the Office of Aviation Safety. This 
Office will ensure consistency of ODA oversight functions. It will 
facilitate standardized application of policy, ensure the proficiency 
of ODA staff in executing oversight processes, monitor risk and 
performance issues, and facilitate continuous improvement of ODA 
program performance.
    <bullet>  Aircraft Certification Performance Objectives and 
Metrics. The 2018 Act requires the FAA to establish, in conjunction 
with the SOCAC, aircraft certification performance metrics and to apply 
and track the metrics for both the FAA and industry. After a months-
long effort to develop the metrics, the FAA, in collaboration with the 
Safety Oversight and Certification Aviation Rulemaking Committee, 
established a list of 14 metrics in August 2019. The FAA is prepared to 
track the metrics after coordinating with the SOCAC at their initial 
meeting in November 2019. We expect that tracking these metrics will 
allow the FAA to identify inefficiencies, increase accountability, and 
improve safety.
    <bullet>  Flight Standards Performance Objectives and Metrics. The 
Act also requires FAA to establish, in conjunction with the SOCAC, 
flight standards performance metrics. In August 2019, the FAA 
established the Flight Standards Transparency, Performance, 
Accountability, and Efficiency Aviation Rulemaking Committee. This 
rulemaking committee has been tasked to make recommendations concerning 
the performance metrics for both the FAA and industry.
                            Aviation Safety
    The 2018 Act is the most comprehensive aviation reauthorization 
measure enacted in over 30 years. In addition to the 33 separate FAA 
rulemakings required under the Act, Congress also required the FAA to 
create new Aviation Rulemaking Committees (ARCs) and to task the 
existing Aviation Rulemaking Advisory Committee (ARAC) with specific 
responsibilities concerning various aviation safety objectives. The 
list below provides a glimpse into some of the important work the FAA 
has accomplished in this area since enactment.

    <bullet>  Flight Attendant Duty/Rest Period. Ensuring that 
crewmembers are properly rested is a critical component of aviation 
safety. In April 2019, the FAA initiated a rulemaking in accordance 
with the 2018 Act, to modify applicable rules to require a minimum rest 
period of 10 hours for any flight attendant scheduled to a duty period 
of 14 hours or less.\3\ In support of this effort, the FAA drafted an 
Advanced Notice of Proposed Rulemaking that published earlier this 
week. We expect the process will provide us with data from aviation 
stakeholders and the general public to assist us in developing the 
proposed rule.
---------------------------------------------------------------------------
    \3\ https://www.reginfo.gov/public/do/
eAgendaViewRule?pubId=201904&RIN=2120-AL41
---------------------------------------------------------------------------
         Additionally, on June 18, 2019, the FAA published information 
to advise the industry of the flight attendant fatigue risk management 
plan requirements contained in the 2018 Act. The FAA is actively 
receiving and reviewing air carrier flight attendant fatigue risk 
management plans.\4\
---------------------------------------------------------------------------
    \4\ https://www.faa.gov/other_visit/aviation_industry/
airline_operators/airline_safety/info/all_infos/media/2019/
InFO19007.pdf
---------------------------------------------------------------------------
    <bullet>  Designated Pilot Examiners. On June 20, 2019, the FAA 
directed the ARAC to review all regulations and policies related to 
designated pilot examiners.\5\ Through the ARAC, the FAA will gather 
recommendations on regulatory and policy changes necessary to ensure 
that an adequate number of designated pilot examiners are deployed and 
available to perform their duties to meet the growing needs of the 
public.
---------------------------------------------------------------------------
    \5\ https://www.faa.gov/regulations_policies/rulemaking/committees/
documents/index.cfm/document/information/documentID/3944
---------------------------------------------------------------------------
    <bullet>  Secondary Cockpit Barriers. The 2018 Act requires the FAA 
to issue an order requiring the installation of a secondary cockpit 
barrier on each new aircraft that is manufactured for delivery to a 
passenger air carrier in the United States operating under part 121 of 
title 14, Code of Federal Regulations.\6\ The FAA is committed to 
implementing this requirement. On June 20, 2019, the ARAC accepted an 
FAA tasking to provide recommendations regarding implementation of this 
provision. The FAA looks forward to reviewing the ARAC's 
recommendations and moving forward on this mandate.
---------------------------------------------------------------------------
    \6\ https://www.faa.gov/regulations_policies/rulemaking/committees/
documents/index.cfm/document/information/documentID=3942
---------------------------------------------------------------------------
    <bullet>  Pilot Duty/Rest Period. On May 21, 2019, the FAA 
established the Part 135 Pilot Rest and Duty Rules Aviation Rulemaking 
Committee.\7\ The 2018 Act requires the FAA to convene the committee to 
review, and develop findings and recommendations regarding, pilot rest 
and duty rules under part 135 of title 14, Code of Federal Regulations.
---------------------------------------------------------------------------
    \7\ https://www.faa.gov/regulations_policies/rulemaking/committees/
documents/index.cfm/document/information?documentID=3965
---------------------------------------------------------------------------
    <bullet>  Emergency Evacuation Standards. On April 24, 2019, the 
FAA established the Emergency Evacuation Standards Aviation Rulemaking 
Committee. This ARC will provide a forum for affected parties to 
discuss and provide recommendations to the FAA on certification of 
emergency evacuation systems, designs, and procedures.\8\ The formation 
of the ARC is a significant step forward in fulfilling the requirements 
under the 2018 Act to review and report on cabin evacuation procedures.
---------------------------------------------------------------------------
    \8\ https://www.faa.gov/regulations_policies/rulemaking/committees/
documents/index.cfm/document/information?documentID=3983.
---------------------------------------------------------------------------
    <bullet>  Safety Critical Staffing. The 2018 Act requires the FAA 
to update its safety critical staffing model. The staffing model is an 
important mechanism to help determine the number of aviation safety 
inspectors needed to fulfill the FAA's safety oversight mission. The 
staffing model has been updated and new staffing forecasts have been 
developed. The FAA's Aviation Safety Workforce Plan was delivered to 
Congress in March 2019.\9\
---------------------------------------------------------------------------
    \9\ https://www.faa.gov/about/plans_reports/media/fy19_avs_wfp.pdf
---------------------------------------------------------------------------
                    Unmanned Aircraft Systems (UAS)
    The 2018 Act devoted considerable attention to the FAA's continued 
work on the integration of UAS into the National Airspace System (NAS). 
The points below highlight some of the Agency's important work in this 
area.

    <bullet>  Remote ID. To further the overall objective of 
integrating UAS into the NAS, Congress recognized the importance of 
remote identification when it enacted the FAA Extension, Safety, and 
Security Act of 2016. That Act laid the foundation for the FAA's work 
with operators and security partners to realize the importance of 
remote identification and reach a consensus on how to address it. More 
recently, the 2018 Act provided the FAA with the authority to continue 
its work on this important issue. In May 2019, the FAA published a 
notice implementing the 2018 Act's legislative exception for limited 
recreational operations of unmanned aircraft.\10\ Additionally, in July 
2019, the FAA expanded the Low Altitude Authorization and Notification 
Capability (LAANC) system to include recreational flyers.\11\ This 
action increased the safety of the NAS and the ability of recreational 
UAS operators to gain rapid authorization for access to controlled 
airspace nationwide. Further, the 2018 Act provided clarity on the 
requirements for recreational UAS operations and has allowed the FAA to 
move ahead with work on UAS registration and remote identification--
both of which are critical to the success of commercial UAS operations 
and UAS integration more broadly.
---------------------------------------------------------------------------
    \10\ https://www.govinfo.gov/content/pkg/FR-2019-05-17/pdf/2019-
10169.pdf
    \11\ https://www.faa.gov/news/updates/?newsId=94105
---------------------------------------------------------------------------
         Remote identification is fundamental to both safety and 
security of UAS operations. Remote identification will be necessary for 
routine beyond visual line-of-sight operations, operations over people, 
package deliveries, operations in congested areas, and the continued 
safe operation of all aircraft in shared airspace. It will also be 
foundational for the advancement of automated passenger or cargo-
carrying air transportation, which is often referred to as Urban Air 
Mobility. With remote identification, the FAA and our national security 
and public safety partners will be better able to identify a UAS and 
its operator, assess if a UAS is being operated in a clueless, 
careless, or criminal manner, and take appropriate action if necessary. 
Remote identification is the FAA's highest priority UAS-related 
rulemaking effort. A draft Notice of Proposed Rulemaking (NPRM) on this 
subject is presently in Executive Branch clearance.
    <bullet>  Carriage of Property by Small Unmanned Aircraft Systems. 
Congress also recognized, in the 2018 Act, the growing potential of UAS 
to deliver cargo. In particular, the Act requires the FAA to update 
existing regulations to authorize the carriage of property by operators 
of UAS for compensation or hire in the United States. The FAA has been 
working closely with the participants in the UAS Integration Pilot 
Program (IPP) to accelerate safe UAS operations. The IPP has evaluated 
a host of operational concepts including operations at night, over 
people, beyond the pilot's line of sight, and package delivery. This 
work is ongoing, and the FAA is currently meeting the intent of the 
mandate through an exemption process. Earlier this year, the FAA 
granted the first air carrier certification to a commercial UAS 
operator for package deliveries in rural Blacksburg, Virginia. Although 
the regulatory framework for broader UAS operations is not complete, 
the IPP has helped to inform the FAA and UAS operators of the extent to 
which operations can begin under existing rules.
    <bullet>  Local Public Safety Engagement on UAS Operations. The 
2018 Act directed the FAA to develop a comprehensive strategy to 
support and provide guidance for state and local public safety partners 
to identify and respond to threats posed by UAS as well as 
opportunities to use UAS to enhance the effectiveness of first 
responders. The FAA has made a substantial and continuing effort to 
make the information needed by Federal, state and local entities 
readily available. The FAA has assembled a great amount of useful and 
easily accessible information on its web page dedicated to public 
safety and government UAS issues.\12\ Here, government stakeholders can 
find information on how to operate UAS, how to start a UAS public 
safety program, and information on waivers and authorizations 
supporting emergency UAS operations. The website also provides guidance 
on understanding local authority and the handling of UAS sightings and 
reports of non-compliant UAS operations. The FAA's informational 
toolkit consists of videos, guidance, and other resources that can 
assist local law enforcement agencies in their handling of situations 
involving UAS, including a public safety engagement plan.\13\ 
Throughout this information, the FAA has sought to emphasize that: (1) 
flying UAS is a regulated activity and there are Federal rules for 
flying UAS legally and safely; (2) flying at night, too close to 
people, or in restricted or controlled airspace is generally prohibited 
without FAA authorization; (3) the small UAS rule--part 107 of title 
14, Code of Federal Regulations--provides the framework for routine, 
low-altitude small UAS operations; and (4) FAA's Law Enforcement 
Assistance Program (LEAP) can help local public safety partners 
distinguish between what is and is not allowed under Federal rules.
---------------------------------------------------------------------------
    \12\ https://www.faa.gov/uas/public_safety_gov/
    \13\ https://www.faa.gov/uas/resources/policy_library/media/
Public_Safety_Engagement_
Plan.pdf
---------------------------------------------------------------------------
                                Airports
    In keeping with this Administration's goal of improving our 
Nation's airport infrastructure, the 2018 Act prioritized efforts to 
improve airport infrastructure planning and development. The FAA is 
making continuous progress in carrying out the congressional mandates 
contained in the Act. Some of the more important initiatives that the 
FAA is working on include the following:

    <bullet>  Passenger Facility Charge (PFC) Streamlining. In the 2018 
Act, Congress directed the FAA to expand the streamlining concept for 
PFC applications to all eligible airports (no longer limiting it to 
just non-hub primary airports). The FAA is making excellent progress in 
developing a proposed approach to a new pilot program, while also 
identifying opportunities to improve the existing process in the 
interim. This potential approach would yield near-term benefits for the 
Nation's airports, while also providing the necessary data to support 
the regulatory changes that are still required under the statute. It 
will also help the FAA address concerns expressed by the airline 
community.
    <bullet>  Airfield Pavement for Non-Primary Airports. The 2018 Act 
authorized states to request the use of highway specifications for 
airfield paving and construction if aircraft serving the airport do not 
exceed 60,000 pounds and safety would not be affected. The FAA's draft 
guidance on this provision is nearing completion and we anticipate that 
this authority will create some opportunities for capital cost 
reductions without eroding safety. Additionally, as required by the 
Act, the FAA stands ready to provide technical assistance to any state 
that may want to develop alternative airport pavement standards where 
local conditions and locally available materials may make this 
desirable.
    <bullet>  Contract Towers. The FAA is making significant progress 
in implementing the 2018 Act concerning the processing of new 
applications to the Contract Tower program and benefit-cost analysis of 
contract towers. In June 2019, the FAA re-opened the applications for 
new towers to the program. To date, we have received nine applications 
for entry into the program. In accordance with congressional direction, 
the FAA has conducted updated benefit-cost analyses for existing cost-
share participants and will notify sponsor airports of the results by 
the end of September.
         In addition, the FAA is making significant progress on 
implementing the 2018 Act's elimination of the $2 million cumulative 
Airport Improvement Program (AIP) cap, and authorization for the FAA to 
use resources from the Small Airport Fund (a key component of the AIP) 
for eligible contract tower projects. The FAA has moved swiftly to 
implement these changes with updated guidance, and is working with 
potential recipients of these funds for high-priority tower projects.
    <bullet>  Limited Land Use Regulation for Airports. As part of the 
2018 Act, Congress imposed limitations, with certain exceptions, on the 
FAA's authority to regulate an airport's acquisition, use, lease, 
encumbrance, transfer, or disposal of land and facilities. 
Implementation of this section is a high priority for the FAA. We have 
already identified more than 25 projects where airports have been able 
to move forward with minimal FAA involvement. These early examples have 
provided valuable information that is helping the FAA to develop 
guidance to ensure that the provision is consistently implemented.
    <bullet>  Airport Firefighting. The 2018 Act enacted limitations on 
the FAA's authority to require the use of certain firefighting 
chemicals. In particular, starting three years after the date of 
enactment, the FAA is prohibited from requiring the use of fluorinated 
chemicals to meet performance standards for firefighting agents. The 
FAA is making great progress in both the development of a facility to 
conduct live firefighting agent testing and, in its collaboration with 
other agencies, to advance identification and evaluation of alternative 
firefighting agents. In the meantime, we have also implemented short-
term changes to reduce the release of fluorinated chemicals into the 
environment by airports, including the approval of three testing 
systems that do not result in the external discharge of fluorinated 
chemicals. We also issued guidance to airports alerting them to their 
ability to use AIP funds to purchase these testing systems.
               Hazardous Materials in Air Transportation
    Within the Department of Transportation, the Pipeline and Hazardous 
Materials Safety Administration (PHMSA) has the primary responsibility 
for establishing multi-modal regulations for the safe transportation of 
hazardous materials, to include establishing rules for the 
classification, containment, and communication of the presence of 
hazardous materials. PHMSA is leading critical lithium battery 
regulatory initiatives prescribed by the 2018 Act and the FAA is 
working to ensure compliance with air transport safety regulations as 
well as conducting a public awareness campaign.

    <bullet>  Lithium Battery Safety Working Group and Safety Advisory 
Committee. PHMSA is establishing a working group to promote and 
coordinate efforts related to the safe manufacture, use, and 
transportation of lithium batteries and cells. PHMSA is also 
establishing a lithium ion and lithium metal battery air safety 
advisory committee to facilitate communication between manufacturers, 
air carriers, and the Federal Government regarding the safe air 
transportation of lithium ion and lithium metal batteries as well as 
the effectiveness, economic, and social impacts of the regulation of 
such transportation.
    <bullet>  FAA Cooperative Efforts to Ensure Compliance with Safety 
Regulations. In support of the broader hazardous materials safety 
effort, the FAA focuses on conducting oversight of the integration of 
hazardous materials safety measures into the aviation transportation 
system. Accordingly, the FAA is leading efforts, consistent with the 
2018 Act requirements, to improve interagency and international 
cooperative efforts to ensure compliance with safety regulations for 
air transport of lithium batteries.
    <bullet>  Undeclared Hazardous Materials Public Awareness Campaign. 
The FAA launched a new website that provides stakeholders--including 
shippers, air carriers, and the traveling public--with a one-stop shop 
they can easily access to find information and answers to their 
questions.\14\ The FAA recently provided Congress with an update of our 
public awareness campaign to reduce undeclared dangerous goods in air 
commerce. The FAA is also participating in an industry/government/labor 
coalition that meets regularly to strategize on improvements to the 
messaging and other tools that industry uses to educate their customers 
on the proper procedures for transporting hazardous materials by 
aircraft. Additionally, the FAA is supporting a PHMSA-led public 
education campaign known as ``Check the Box'' to increase public 
awareness of the risks associated with undeclared shipments of 
hazardous materials.\15\
---------------------------------------------------------------------------
    \14\ https://www.faa.gov/hazmat/
    \15\ https://checkthebox.dot.gov
---------------------------------------------------------------------------
                               Innovation
    This Administration has made it a priority to engage with new and 
emerging technologies and enable innovation wherever possible. 
Innovations in aviation and aerospace have benefitted our economy, 
transformed the way we travel, helped the environment, and saved lives. 
In the 2018 Act, Congress recognized the importance of innovation and 
the FAA is working to foster it while maintaining the safety of the 
NAS.

    <bullet>  Supersonics. In the 2018 Act, Congress supported FAA 
leadership on the creation of policies, regulations, and standards to 
enable the safe and efficient operation of civil supersonic aircraft. 
As part of the FAA's efforts to implement this authority, the FAA in 
June 2019 published an NPRM intended to clarify and streamline the 
procedures for special flight authorizations for supersonic 
aircraft.\16\ The FAA is currently reviewing the comments we received 
on the NPRM and considers this rulemaking to be one of the FAA's first 
actions in a continued and concerted effort to advance the operation of 
civil supersonic aircraft consistent with our other statutory and 
international obligations concerning noise and emissions.
---------------------------------------------------------------------------
    \16\ https://www.federalregister.gov/documents/2019/06/28/2019-
13079/special-flight-authorizations-for-supersonic-aircraft
---------------------------------------------------------------------------
    <bullet>  Noise. Over the decades, the aviation industry has made 
significant progress in the development of technology to reduce noise 
from aircraft. Congress and the FAA have worked closely on this 
continued effort and the FAA is currently working to complete the 
noise-related requirements contained in the 2018 Act. One provision 
directs the FAA to complete a study on the potential health and 
economic impacts of overflight noise. The FAA recently awarded a $1.7 
million grant to university members from the FAA's Air Transportation 
Center of Excellence for Alternative Jet Fuels and the Environment in 
order to carry out the study. The Act also required the FAA to 
designate a regional ombudsman for each of the FAA's regions to act as 
a liaison with the public on issues of noise, pollution, and safety. 
The FAA elected to designate our community engagement officers as the 
regional ombudsman. They are in the process of being on-boarded and 
trained. The FAA will announce the individuals as soon as training is 
completed, which we anticipate will be in October of this year. The FAA 
is constantly working to foster better communication between the Agency 
and affected communities.
    <bullet>  Commercial Space. The commercial space transportation 
industry in the United States is innovative, dynamic, and growing. In 
Fiscal Year 2018, there were 32 launches and 3 reentries of commercial 
space vehicles for a total of 35 licensed activities--a record. For 
Fiscal Year 2019, we had 32 licensed and permitted operations. We are 
forecasting 35 to 54 licensed or permitted operations in Fiscal Year 
2020, and between 33 and 56 licensed or permitted operations in Fiscal 
Year 2021. In anticipation of this expected growth, the FAA has 
intensified its efforts to fulfill its commercial space transportation 
mission, maintaining the highest level of safety without stifling 
industry expansion and innovation. Congress has recognized the 
importance of this growing industry and the 2018 Act called for the FAA 
to stand up an Office of Spaceports within the FAA's Office of 
Commercial Space Transportation. That Office of Spaceports is up and 
running and we are actively working with Spaceport licensees and 
stakeholders. Additionally, although not mandated in the 2018 Act, the 
FAA is engaged in an important rulemaking to streamline existing 
launch/reentry regulations to create an environment that promotes 
economic growth, minimizes uncertainty, protects safety, fosters 
security, aligns with foreign policy interests, and encourages American 
leadership in space commerce.\17\ The commercial space transportation 
market is changing rapidly and our regulatory process needs to keep up 
in order to protect public safety while enabling U.S. industry to 
innovate. We are currently analyzing industry comments to determine the 
best path forward to complete the rule.
---------------------------------------------------------------------------
    \17\ https://www.federalregister.gov/documents/2019/04/15/2019-
05972/streamlined-launch-and-reentry-licensing-requirements
---------------------------------------------------------------------------
    <bullet>  Cyber Testbed. Cybersecurity has become a significant 
component of nearly every modern aviation technological development. 
The 2018 Act required the FAA to develop a cyber testbed for research, 
development, evaluation, and validation of air traffic control 
modernization technologies to ensure that they are compliant with FAA 
data security regulations before they become operational. The FAA 
completed this action and the Cybersecurity Test Facility (CyTF) is now 
operational at the William J. Hughes Technical Center in Atlantic City, 
New Jersey. The CyTF provides the FAA with an adaptable cybersecurity 
test environment to evaluate technologies prior to their integration 
into the National Airspace environment. The facility is also used for 
the cybersecurity training of the FAA workforce. Also, as part of an 
additional cybersecurity requirement under the Act, the FAA is updating 
its overall Strategic Cybersecurity Plan. The Agency's Cybersecurity 
Steering Committee has completed the yearly update, and we expect to 
publish the FAA's 2020-2025 cybersecurity strategy in the coming weeks.
                               Conclusion
    Chairman Larsen, I want to assure you, and each member of the 
Subcommittee, that the FAA is fully committed to carrying out the 
provisions of the 2018 Act as quickly as possible.
    The FAA takes the congressional direction we receive very seriously 
and our employees work hard to achieve the mandated goals and 
directives. We have to ensure, however, that the substance behind each 
requirement is not sacrificed in a rush to declare completion. We are 
confident that we are making substantial and meaningful progress and we 
fully intend to keep Congress apprised of that progress on a regular 
basis. This concludes my statement and I will be glad to answer your 
questions.

    Mr. Larsen. Thank you, Mr. Elwell. I will now turn to Joel 
Szabat for 5 minutes.
    You are recognized.
    Mr. Szabat. Chairman Larsen, Chairman DeFazio, Ranking 
Members Graves, members of the subcommittee, thank you and 
Congress for passing the 2018 FAA reauthorization last fall, 
and for inviting me to testify on behalf of the Department of 
Transportation.
    I also thank the committee for allowing Ms. Blane Workie to 
join us. She is our assistant general counsel for the 
Department's Office of Aviation Enforcement and Proceedings 
and, thanks to a provision in the reauthorization, our new 
aviation consumer advocate.
    The more than 550 sections of the act cover a wide range of 
aviation issues, many supporting Secretary Chao's and this 
committee's first priority of safety, and the Department's 
mission to ensure the safest and most efficient airspace in the 
world.
    Despite the Government shutdown last winter and our daily 
operational safety priorities within the Department, we have 
made great progress on the safety, civil rights, and consumer 
protection provisions of the act.
    The reauthorization includes more than 360 deliverables for 
the Department of Transportation, as Ranking Member Graves 
noted, including those assigned to the FAA. We are not able to 
tackle every deliverable simultaneously, or produce all the 
required reports and regulations within the first year. We 
remain committed to accomplishing all of the provisions of the 
reauthorization as quickly as practicable.
    We have already responded to key reauthorization 
requirements by establishing new offices to deal with important 
issues, such as offices providing oversight of the Organization 
Designation Authorization, and relating to consumer advocacy 
and support of our Nation's spaceports.
    In other cases, provisions of the law provide useful 
guidance and authority to ensure that our grant programs are 
more accessible, and that innovative programs, such as the 
integrated pilot program for unmanned aircraft systems, or UAS, 
can continue and expand.
    On the safe transportation of lithium batteries, the FAA 
and the Pipeline and Hazardous Materials Safety Administration 
have already coordinated to match our rules with international 
standards, and allow lithium battery carriage exceptions for 
medical devices. They have established groups to provide 
research, evaluation, and safety recommendations on the issue.
    The reauthorization bolstered our efforts to maintain the 
world's safest airspace through the formation of several new 
advisory bodies and mechanisms to ensure safety. In addition to 
calling for reviews of the certification process for the Boeing 
737 MAX, the Secretary and Administrator have also created 
groups such as the Safety Oversight and Certification Advisory 
Committee to augment the work of multiple ongoing inquiries.
    Within 1 month, the DOT reconstituted the Aviation Consumer 
Protection Advisory Committee, and established the National In-
Flight Sexual Misconduct Task Force. We are determined to 
address the problem of in-flight sexual misconduct to enable a 
safe flight in every sense of the word.
    To ensure more accessible air service, we will develop the 
Airline Passengers with Disabilities Bill of Rights. We will 
review with input from stakeholders and, if necessary, revise 
regulations to ensure that passengers with disabilities receive 
dignified, timely, and effective assistance from trained 
personnel.
    We will also ensure regular training occurs for personnel 
charged with providing physical assistance to those passengers 
with disabilities.
    We have also issued notices and solicited applications for 
the Air Ambulance and Patient Billing Advisory Committee and 
the Air Carrier Access Act Advisory Committee. Both committees 
are established now. We will announce meeting dates after 
coordination with the committee members.
    We have taken steps to advance each of the 33 required 
rulemakings that Deputy Administrator Elwell mentioned from the 
act. We expect to publish recommendations harmonizing the 
carriage of dangerous goods, including lithium batteries, and 
providing for remote identification of UAS, a critical step in 
enabling advanced operations. Other planned regulations will 
ensure that we are being responsive to the flying public.
    The upcoming rulemaking agenda for the fall will include 
seven rules focused on improving customer experience with 
airlines. These proposed rules will advance requirements for 
limiting cell phone usage on aircraft, ensure the public 
receives refunds for denied or unprovided service, and clarify 
the rights of passengers.
    While we have not yet completed all our obligations under 
the reauthorization, we have demonstrated our commitment to 
meeting them. And we have the right principles in place to 
accomplish the work.
    On behalf of the Secretary, I commit to continue our work 
to achieve a safe, accessible vision for aviation. I am happy 
to join the Deputy Administrator, Dan Elwell, and our staff to 
answer any further questions you may have.
    [Mr. Szabat's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Joel Szabat, Acting Under Secretary for 
                  Policy, Department of Transportation
    Chairman Larsen, Ranking Member Graves, Members of the 
Subcommittee:
    Thank you to the Committee and to Congress for passing the 2018 FAA 
Reauthorization Act last fall and for inviting me to testify on behalf 
of the U.S. Department of Transportation (DOT). The more than 550 
sections of the Act cover a wide range of aviation issues, many 
supporting Secretary Chao's first priority of safety and the 
Department's mission to provide the safest and most efficient airspace 
in the world. Our team is working to accomplish the directives Congress 
set forth in the Act, which provided the stability and direction needed 
to continue the important missions we oversee on a day-to-day basis and 
to address new challenges.
    Despite the government shutdown last winter and our ongoing 
response to the fatal accidents and grounding of the 737 MAX, we have 
made great progress on the safety, civil rights, and consumer 
protection provisions of the Act. We identified more than 360 
deliverables for the Department, and, while we have not been able to 
address all of the deliverables simultaneously or meet all the 
requirements in this first year, the Department has demonstrated 
unwavering commitment to the provisions of the Act. We will continue to 
deliver on the goals and realize the vision of this Committee and this 
Congress as a whole.
    With many different mandates, each meriting timely completion, the 
responsible course of action is to distribute and schedule the work in 
a way that reflects the key principles of our mission. This also must 
be done without disrupting ongoing work in matters of safety, policy, 
oversight, and operations.
    Working with the Federal Aviation Administration (FAA), our other 
modal administrations, and other agencies as necessary, we have 
addressed safety, accessibility and consumer rights, and a stronger, 
more efficient infrastructure. We have also advanced the integration of 
new technologies into the airspace that hold promise for improved 
safety, accessibility, and economic opportunity, such as Unmanned 
Aircraft Systems (UAS). I am sure the members of this Committee share 
these goals, and I look forward to discussing some of our achievements 
to date.
                                 Safety
    DOT takes pride in our extremely successful safety record and 
appreciates the additional authorities and measures taken in this 
latest reauthorization to continue that legacy. We have already 
responded to Reauthorization requirements to establish new offices to 
deal with important issues, such as oversight of delegated authorities, 
(e.g. Organization Designation Authorizations), consumer advocacy, and 
support of our Nation's spaceports.
    To help maintain the safety of passengers with respect to lithium 
batteries, the FAA and the Pipeline and Hazardous Materials Safety 
Administration (PHMSA) are taking action to implement Reauthorization 
provisions. We have harmonized domestic regulations with the ICAO 
Technical Instructions, begun working with stakeholders to identify and 
mitigate risks, and established inter-governmental and industry working 
groups to provide research, evaluation, and safety recommendations for 
the safe air transportation of lithium batteries.
    The Reauthorization has also augmented our work in maintaining the 
world's safest airspace through the formation of several new advisory 
bodies and mechanisms. For example, the Secretary has already created 
task forces such as the Safety Oversight and Certification Advisory 
Committee. The continued authority and certainty provided by the 
Reauthorization has been helpful in allowing us to continue to provide 
the world's highest expectation of safety for the flying public.
    These efforts are taking place in the context of evaluating 
Boeing's 737 MAX aircraft for clearance to fly in the United States. As 
the Secretary has said repeatedly, the 737 MAX will not return to 
service until the safety experts at the FAA have determined it is safe 
to fly. The Secretary and the FAA Administrator have called for 
multiple objective and substantive reviews of the FAA's certification 
process and its analysis of the 737 MAX safety issues and potential 
resolutions. The issues with the 737 MAX are now being reviewed, 
studied, and addressed by the NTSB, the Special Air Certification 
Committee convened in March, the DOT Inspector General, an interagency 
Technical Advisory Board, the Joint Authorities Technical Review Team, 
various Congressional committees, and others. We will continue this 
important work, including ongoing coordination with other nations' 
safety certification authorities.
                           Consumer Advocacy
    The Department is also actively working to implement the many 
aviation consumer protection and civil rights provisions of the Act, 
and we are doing it with the help of the people whose voices need to be 
heard. The Act requires us to establish four advisory committees, 
develop seven mandatory rulemakings, consider four discretionary 
rulemakings, and conduct twelve studies, reports or other tasks. Here 
are some highlights of our accomplishments.
    Key mandates in the Reauthorization include establishing an 
Aviation Consumer Advocate within DOT to assist consumers in resolving 
airline service complaints filed with the Department, to identify 
actions the Department can take to improve the resolution of airline 
service complaints and enforcement of aviation consumer protection 
rules, and to identify regulations and policies that can be amended to 
resolve airline service complaints more effectively. In March 2019, we 
selected Blane Workie, Assistant General Counsel for the Department's 
Office of Aviation Enforcement and Proceedings, to serve as the 
Aviation Consumer Advocate. To help her fulfill the responsibilities of 
the Aviation Consumer Advocate, Ms. Workie has already established two 
new positions in her office--Director of Consumer Advocacy and Director 
of Civil Rights Advocacy.
    Approximately a month after the passage of the bill, DOT 
reconstituted the Aviation Consumer Protection Advisory Committee 
(ACPAC) and established the National In-Flight Sexual Misconduct Task 
Force (Task Force) as an ACPAC Subcommittee. The first ACPAC meeting 
was scheduled for January 16, 2019, but had to be canceled because of 
the government shutdown. The meeting was then held in early April, and 
focused on the transparency of airline ancillary service fees, 
involuntary changes to travel itineraries, and the operation of the 
Task Force. The work of the ACPAC is ongoing.
    Also, the Task Force members have been actively exploring how best 
to address and prevent incidents of sexual misconduct on board 
aircraft. The Department is very committed to addressing the problem of 
in-flight sexual misconduct and assault to provide a safe flight in 
every sense of the word. The Task Force members have already met five 
times this year in one or two-day meetings that occurred in April, May, 
June, July and September. The work focused on training, reporting, and 
data collection regarding incidents of sexual misconduct. As part of 
their duties, Task Force members have heard and reviewed first-hand 
accounts from passengers and flight attendants who have experienced 
sexual misconduct onboard commercial aircraft. We expect the Task Force 
to conclude its work this calendar year.
                         Accessible Air Service
    The Reauthorization also contains several provisions requiring DOT 
to review its Air Carrier Access Act regulation and take certain 
actions as appropriate. For example, section 433 directs us to consider 
developing specific recommendations regarding improvements to 
wheelchair assistance by U.S. airlines, and how airline training 
programs can address consumer complaints regarding wheelchair 
assistance. Section 434 requires us to develop the ``Airline Passengers 
with Disabilities Bill of Rights.'' As required by section 440, we will 
also review, and if necessary, revise regulations to ensure that 
passengers with disabilities receive dignified, timely, and effective 
assistance from trained personnel. We will also require training to 
occur on an annual schedule for personnel charged with providing 
physical assistance to passengers with disabilities.
    We have already started the process of reviewing the regulations to 
determine what actions need to be taken in these areas. We look forward 
to consulting with stakeholders, including disability organizations, 
airlines, and their contractors. We also just established the Air 
Ambulance and Patient Billing Advisory Committee (AAPB Advisory 
Committee) and the Air Carrier Access Act Advisory Committee (ACAA 
Advisory Committee). Both necessitated issuing of notices to find the 
best-suited members, and both committees are now in place. The active 
ongoing work of the Department in forming and engaging with these 
committees as well as with ACPAC, reflects our commitment to protecting 
the rights of air travelers, to human dignity in general, and to the 
American ideal of balanced representation.
    The AAPB Advisory Committee will make recommendations regarding 
disclosure of charges and fees for air ambulance services and insurance 
coverage, as well as consumer protection and enforcement authorities of 
both DOT and State authorities, and the prevention of balance billing 
to consumers. The ACAA Advisory Committee will identify and assess 
barriers to accessible air travel, determine the extent to which DOT is 
addressing those barriers, recommend improvements, and advise the 
Secretary on implementing the Air Carrier Access Act. We will announce 
the date of the first meeting of the AAPB Advisory Committee as well as 
the first meeting of the ACAA Advisory Committee after coordinating 
with the advisory committee members.
                      Consumer-Focused Regulation
    The Department is committed to enhancing consumer protection and 
access in the aviation sector. We believe that there should be no more 
regulations than necessary, and those regulations should be 
straightforward, clear, and designed to minimize unnecessary and costly 
burdens on aviation stakeholders. During the past year, we made strides 
in implementing the consumer protection and access rulemaking mandates 
in the Reauthorization. These rulemakings are all identified in the 
Department's upcoming fall Unified Agenda of Regulatory and 
Deregulatory Actions as actions we plan to issue in the near and long 
term. Among these rules are regulations that would issue guidance on 
cell phone communications on aircraft, require refunds to customers for 
services not received, require minimum customer service standards of 
large ticket agents, and streamline the consumer complaints process.
    The Reauthorization also prohibits U.S. and foreign airlines from 
denying boarding to a revenue passenger traveling on a confirmed 
reservation, or involuntarily removing that passenger from the aircraft 
once the passenger has checked in for flight before the check-in 
deadline, and his or her boarding pass has been collected or accepted 
by the gate agent.
    We will also be issuing a proposed rule related to traveling by air 
with service animals. There is rising concern that passengers are 
increasingly bringing untrained emotional support animals onboard 
aircraft--which could put the safety of crewmembers and other 
passengers at risk. Our rulemaking will define ``service animal,'' 
develop minimum standards for what is required for service animals and 
address the issue of emotional support animals. Last year, DOT 
published an Advance Notice of Proposed Rulemaking on service animals, 
and we plan to issue a Notice of Proposed Rulemaking later this year. 
We want individuals with disabilities to continue using their service 
animals, while also maintaining safety and reducing the likelihood that 
other passengers will be able to falsely claim their pets are service 
animals.
                     Innovation and Infrastructure
    We remain in close communication with industry, international 
regulatory bodies, and the public when it comes to the technology that 
is promising to reshape aviation as we know it--Unmanned Aircraft 
Systems (UAS). We are entering the final year of the President's 
Integration Pilot Program, where we have been working steadily with 
industry, State, local, and tribal governments to enable unique 
operations, and more importantly, to uncover the key issues we face as 
a Nation in adapting a disruptive, but promising technology into a 
complex, highly coordinated airspace system. We continue to receive 
recommendations from the Drone Advisory Committee (DAC), our test 
sites, our centers of excellence for research, standards bodies, and 
international partners on what the focus of our work should be and the 
next steps that will continue UAS integration on a larger scale.
    We are engaging with the public through the rulemaking process and 
the DAC. Earlier this year, we published our proposed amendment to Part 
107 that will allow for limited, safe operations over people, flights 
at night, and easier ways for Part 107 pilots to remain current in 
their certifications. We are working with our intergovernmental 
partners and the Office of Management and Budget to publish a proposed 
rule that will establish remote identification requirements for UAS. 
This will be a key milestone in promoting the safe operations of UAS as 
we continue to work with industry to develop the technologies that will 
enable routine beyond-visual-line-of-sight (BVLOS) and truly integrated 
operations. These advances offer significant new opportunities, and we 
will continue to work with the public and all relevant government and 
industry partners to realize these milestones.
    We are doing more than rulemaking. Under Section 349 of the Act, we 
opened airspace authorizations to recreational flyers of UAS for quick, 
automated access to airspace. We are establishing a framework for 
broad, electronic testing that will make UAS instructions more 
accessible, and more understandable to more potential flyers, than ever 
before. This year, the FAA granted the first air carrier certification 
to a commercial drone operator for package deliveries in rural 
Christiansburg, Virginia, and other similar certifications will follow. 
The Department has not only been innovating the way forward, but we 
have been collaborating, building consensus, and constructing UAS 
solutions that promote safety, security, and responsibility, along with 
greater UAS operations.
    We also have a responsibility to invest in our Nation's 
infrastructure, and the funding for grant programs, including the 
Airport Improvement Program, in the Reauthorization will help to 
provide the best possible environment and experience for travelers to 
small and large airports. We have already implemented all of the 
statutory changes to the Essential Air Service (EAS) Program and the 
Small Community Air Service Development Program (SCASDP), and we have a 
keen interest in administering these small community programs as 
effectively as possible.
                               Conclusion
    While we have not yet completed all of our obligations under the 
Reauthorization, we have demonstrated our commitment to meeting them, 
and we have the right principles in place to accomplish the work. On 
behalf of the Secretary, I assure you that we will continue our 
diligent work and push forward, collaboratively, to achieve the safe, 
accessible vision for aviation that Congress set forth as a shared 
ideal in the Reauthorization. I am happy to join Dan Elwell and our 
staff to answer any further questions you may have on these provisions.
    Thank you all for your time and attentiveness.

    Mr. Larsen. Thank you. I will recognize myself for 5 
minutes.
    And I think the committee members appreciate both of you 
saying that FAA and DOT remain committed to completing the 
mandates that we put into the bill.
    I also think I convey the frustration that you haven't 
moved fast enough.
    For instance, on the 10-hour rest rule, we were very 
specific about what we wanted to see, and how we wanted to see 
it, and when we wanted to see it. I guess we thought that we 
didn't leave a lot of ambiguity in the law about what we 
wanted. And yet, here we are in September, still waiting on a 
10-hour rest rule. So can either of you address what has been 
the delay, specifically, to implementing a 10-hour rest?
    Mr. Elwell. Yes, Chairman Larsen, thank you for that 
question. I will start.
    We will implement that rule and that provision, consistent 
with the law. And you, I believe, mentioned it--or, Chairman 
DeFazio, I think you mentioned--that we are in the process of 
processing the fatigue risk management plans. There are 48 
airlines in the country that have flight attendants. We have 
received 28 fatigue risk management plans to date; 10 have been 
approved. And these are plans that are designed to meet the 
requirement.
    It was not ambiguous language, sir. But what we weren't 
cleared from doing is normal Administrative Procedure Act 
requirements. We have to do notice and comment for a rule like 
this. We have to do benefit-cost analysis. And that entails 
rulemaking.
    So, as we said, the ANPRM has been dropped--yesterday, I 
believe. Sir, you and Chairman DeFazio, we commit that those 
comments that come from the ANPRM will inform and, actually, 
should--my hope is--should accelerate the eventual passage of 
the rule because the writing of the NPRM will be informed by 
those initial comments, and I think lead to a better written 
rule and, hopefully, expedition. But we have every intention of 
getting that done, sir.
    Mr. Larsen. I am sure others will have followup questions 
on that.
    I want to ask Mr. Szabat what your timeline is for 
establishing the bill of rights for travelers with 
disabilities.
    Mr. Szabat. Thank you, Mr. Chairman, for the question. As I 
mentioned in my testimony, we are committed to fulfilling the 
requirements of establishing an Airline Passengers with 
Disabilities Bill of Rights.
    We have established the Air Carrier Access Act Advisory 
Committee, and one of our very first steps, the first charges 
to that committee, is for them to take a look at the 
requirements that are set in statute for developing such a bill 
of rights, and to make recommendations back to us. So, if you 
will, the first step is we have established the committee to 
look at this. They will make recommendations back to us. And 
then our obligation is to look at those recommendations and 
implement them as quickly as possible for the passenger bill of 
rights.
    Mr. Larsen. The next panel will have the president of the 
Paralyzed Veterans of America, and so just prepping the PVA to 
give us some guidance on how we can give you guidance to move 
forward more quickly.
    Also, with regards to workforce, the workforce development 
title, I assume that is under your jurisdiction, as well, Mr. 
Szabat. Yes.
    So the law directed the FAA to establish the Women in 
Aviation Advisory Board, to get moving on the Youth Access to 
American Jobs in Aviation Task Force. It does not seem that DOT 
has moved forward on those aspects of the workforce 
development. Do you have ideas for timelines on those?
    Mr. Szabat. Thank you again for the question, Mr. Chairman. 
As with you, the importance of first developing a strong 
workforce are recognizing the shortfalls in the workforce. And 
one of the key possible ways to address that--and just good in 
its own merits--by bringing more women into the aviation 
workforce are high priorities for us.
    As it happens, within the last few days the paperwork for 
the Women in Aviation Task Force crossed my desk--we can expect 
to see an announcement that that task force has been formed 
within days, not weeks.
    Mr. Larsen. How many more desks does it have to cross, 
then, for it to become a reality?
    Mr. Szabat. In this case I think it has crossed the last 
desk. But until it is announced, I don't want to make any 
commitments, except to say it will be out within days, not 
weeks.
    Mr. Larsen. All right. Mr. Elwell, do you have any followup 
on anything there?
    Mr. Elwell. Sir, workforce is a very big priority to us, as 
it is to the Department. We are working apace on section 631, 
on the workforce grants. There are some technical difficulties 
on getting that processed, and getting it forward.
    We also have a huge emphasis on STEM aviation and space 
education initiatives. We have increased our employee 
engagement with young people by 200 percent in the past year, 
and that is a program voluntarily FAA folks reach out to young 
people for getting into this industry.
    It is a difficult challenge, because STEM--there is a 
shortage of STEM graduates across all sectors. So we are 
competing with other sectors on a shortage of these graduates. 
But we are trying to get them early. We are talking to them in 
elementary school.
    Mr. Larsen. So I will have my staff follow up with you, 
rather than ask the question about how we can help you get 
through these technical difficulties on the grants, and 
conclude, and recognize Ranking Member Graves of Louisiana for 
5 minutes.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    Mr. Elwell, you and I have discussed on a number of 
occasions my frustration with scenarios where Congress 
implements a law, and when you have an agency either come back 
and not follow it, or invent their own interpretation that 
wasn't consistent with congressional intent. And when deadlines 
are in the law, and those deadlines aren't adhered to, it does 
cause a great bit of frustration.
    Now, I know there were some anomalies with the FAA bill in 
that the conference negotiations between the House and the 
Senate were very, very quick. I know that there was some 
feedback expressed by the agency about the inability to meet 
certain deadlines without some expedited procedures, including 
potentially waiving the APA in some scenarios.
    But I do want to reemphasize that adhering to these 
deadlines is important. We want to make sure that we continue 
to work together to ensure that we comply with many of these, 
including, as the chairman mentioned, the flight attendant 
rule--although I know, as I recall--and I am sure we can get an 
update later--I believe the number of the contracts that have 
been implemented between airlines and the flight attendants do 
include the 10 hours.
    You mentioned in your testimony remote ID. Can you give a 
bit more verbose update on remote ID and what the 
administration can do to expedite implementation? And I think 
that this is one of the key areas, as you and I have discussed 
in the past, about the evolution of this technology and all 
the, I think, advances that it potentially brings to different 
sectors, including safety and disaster response and many, many 
others. Could you talk a little bit about efforts to expedite?
    Mr. Elwell. Yes, Mr. Graves. Thank you for the question. 
And I was remiss earlier when I started to not introduce the 
lady to my right. Ms. Lirio Liu is the resident expert at FAA 
on all things rulemaking. She is the Acting Deputy of the 
Office of Safety. But I expect I will be leaning to her a few 
times during this hearing today. Particularly on this, perhaps, 
Lirio can weigh in.
    First, let me say, sir, I share your frustration. I hate to 
miss deadlines. And--but I won't--and, as the agency, we won't 
make a deadline and compromise, of course, safety. You wouldn't 
want us to. We are not going to do it. And not all deadlines 
are missed because of that, but you are right. And, in this 
case, there is just a volume of first-year requirements that, 
in light of other things going on in the past year, the 
deadline slipped.
    On the remote ID, I too share your points that it is the 
foundational rule upon which everything else we do with UAS is 
going to flow. And we need to get it out. We had a lot of 
issues, a lot of technical issues with it at the beginning. A 
lot of it was interagency, quite frankly, law enforcement 
requirements and issues, and title 18 requirements, and the 
like. And we are very appreciative of Chairman DeFazio changing 
the provision on recreational modelers.
    However, that caused us to basically start almost from 
scratch on writing the provision. So there has been a number of 
things. But, nevertheless, the rule is moving. We are going to 
get it done.
    And I would turn to Ms. Liu if there is anything on the 
actual technical writing side of it that you wanted to add.
    Ms. Liu. Thank you. Thank you, Mr. Elwell.
    Yes, on the remote ID, it has actually been one of the 
priorities for the organization--quite a long period of time, I 
think you heard that, within the FAA, and many other 
testimonies that have been presented here--that it is sort of 
the linchpin for integrating UAS in the future.
    The rule never stopped, from the time we started to work on 
it. And I think, as Mr. Elwell indicated, we had drafted a rule 
and were very close to finalizing it, but it had a lot of 
carve-outs as it relates to the section 336 of the previous 
reauthorization that counted for recreational users. Because of 
that limitation, we had to consider how we would actually do 
identification in various scenarios. So that was one reason 
why, when we got the provision now to include them, which we 
consider a great benefit, we did have to go back and rewrite 
the rule. But it is a benefit to us, and I think that we will 
end up with a much better regulatory framework in the end.
    The rule currently is over at OIRA, which is the Office of 
Information and Regulatory Affairs at OMB. We expect that they 
will be expediting that review as well, because I think they 
recognize the significance. We have already done an in-brief 
with them just last Friday, as well as with the technical 
officer for the United States at the Office of Management and 
Budget there. So it would seem to be well received.
    Mr. Lynch. I am sorry. Could you move that mic a little 
closer to you? Yes, I am having trouble hearing. It is me, it 
is not you. Thank you.
    Ms. Liu. Well, I probably have the same. But we have 
already had an in-brief with the rule. And as Mr. Elwell 
indicated, it is a technical rule, because it will set the 
basis for how we will do--what we do equivalently for manned 
aircraft is ADS-B. And it is going to also set the framework 
for our UTM in the future, which is the UAS air traffic 
management system.
    And I think what is important is, even if the rule is not 
in place, what we are trying to do through a number of other 
aspects is to increase the compliance and expedite that.
    I think another thing that is important is that this is 
going to be a unique role. And I think it is pretty innovative 
on our part, because it is going to be a partnership similar to 
what we do with the notification right now to get authorization 
to fly UAS. So it will use the public interest through a 
website.
    I think that we have--yes, I think that we actually have a 
good framework in place. There was an RFI, request for 
information, that went out that outlined the provisions, so 
that the remote ID standards can be put out for it, so they can 
be starting to design towards that. And I feel that, for what 
we--even though there is a delay in the rulemaking, there is 
very good progress being made to support the remote 
identification----
    Mr. Graves of Louisiana. Thank you very much. Mr. Elwell, I 
do--I am going to submit questions for the record regarding 
section 506, 509, 549 regarding cybersecurity.
    And Mr. Szabat, I also want to learn a little bit more 
about the status of emotional support animals, and what DOT is 
doing there. So I will be submitting some questions on that, as 
well.
    Thank you, Mr. Chairman.
    Mr. Larsen. Thank you. Before I recognize Mr. DeFazio for 5 
minutes, just the next three on the--after Mr. DeFazio, the 
next three on the Republican side will be Webster, Mitchell, 
and Gallagher. And the next three on the Democratic side will 
be--after DeFazio will be Lipinski, Cohen, and Davids, in that 
order. So just a heads-up for folks.
    Chair DeFazio for 5 minutes.
    Mr. DeFazio. I thank the chairman. Mr. Elwell, can you 
assure me that--the Congress said irreducible 10-hour break. 
That is not going to change, right? No matter what is going on 
in this rulemaking, or whatever, if we are that explicit, even 
if airlines complain it is going to cost them a bunch of money, 
or whatever, you can't reduce that. Would that be correct? That 
is a statute.
    Mr. Elwell. Sir--and I can commit that, under the confines 
of the reviews that it has to go through, and the other 
agencies that have to weigh in, that that is the intent, is to 
meet your----
    Mr. DeFazio. Well, you--right. You can't----
    Mr. Elwell [continuing]. Meet your rule. And to meet the 
language----
    Mr. DeFazio. I had a lengthy hearing with GSA yesterday 
where, you know, the law isn't the law. I just want to make 
sure, in this case, the law is the law. It says 10 hours. It is 
very explicit.
    But here is the other side. I understand, you know, and I 
know--perhaps in the future, when we have to do these sorts of 
things, we will anticipate and obviate somehow the rulemaking 
process. But you are also--the air carriers, part 121, were 
supposed to submit fatigue risk management plans no later than 
90 days. Now, they don't have to go through a rulemaking, they 
just have to send you a plan. What is the holdup with--you said 
you have only got 11 who have completed this.
    Mr. Elwell. Sir, we have 28 submitted. And as far as their 
meeting that 90 days, we are talking to them along the way.
    Mr. DeFazio. Is there a possibility of fining them if they 
are not in compliance with that?
    Mr. Elwell. I will have to get back to you on the 
enforcement side of it. I don't have that right in front of me.
    Mr. DeFazio. Right. I mean, we are pretty explicit. And it 
really shouldn't take more than 90 days. I was just informed 
that United had theirs in at the first--in January. So I don't 
want this to--you know, it is some low common denominator out 
there dragging this out unnecessarily.
    And then, on the secondary barriers, we asked that an order 
be issued. Essentially, it would be like a corrective action 
having something to do with the structure of the plane, or 
whatever. An order. But now we are going to go through a 
rulemaking or an advisory committee on secondary barriers.
    What would happen if you just ordered the airlines to do 
it?
    Mr. Elwell. Mr. Chairman, even an order would require 
rulemaking, unless it was an emergency order, and----
    Mr. DeFazio. Well, it could be an emergency order. We don't 
want to have another 9/11.
    Mr. Elwell. Well, sir, that--the process still requires 
rulemaking. Making changes to the interior of a 121 aircraft is 
an STC, a supplementary type certificate. That requires 
approval from the FAA. The FAA has to provide for all the 
carriers the standards and the performance requirements for the 
barrier, which, again, would normally entail rulemaking.
    And we have to think about--these barriers have to cover 
everything from a 50-seat regional jet to a twin-aisle 
international carrier. And so there are serious things to 
consider, both on safety, on the manufacturer of these doors, 
what kind of doors----
    Mr. DeFazio. OK, but--all right. That is good. I get that. 
But you do agree with what the law says. There is no question 
that the former chairman was incorrect in saying we meant new 
types, that we said ``all newly manufactured aircraft.''
    Mr. Elwell. New production aircraft. Yes, sir.
    Mr. DeFazio. OK, that is good. And then, you know, the UAS 
rule at OMB--and perhaps Ms. Liu can answer--the trolls at OMB 
delay a lot of necessary things. This is a critical rule. How 
are they going to calculate their cost benefit when we haven't 
done a test yet on ingesting a drone. We don't know if it is 
going to cause uncontained failure and take the plane down, or 
whatever.
    What are they using? What are the costs that are involved? 
There are no costs to the Government.
    Ms. Liu. I don't think we can address directly the 
ingestion for an aircraft engine of a UAS, but the intent of 
remote ID is to actually allow for us to detect before you 
would actually have that encounter.
    Mr. DeFazio. Right.
    Ms. Liu. So there are benefits because of what we have seen 
already, and dispenses of resources to do the tracking for UAS. 
And I think it is more the benefit that we can find in allowing 
the new industry to operate in a safer manner than what we have 
been using, in some cases, manned aircraft. So----
    Mr. DeFazio. Right, but I just don't know what OMB is 
dithering--for instance, last summer we had a bad fire summer. 
I had planes, the whole fleet of planes and helicopters, taken 
down because some jerk was taking photographs of the fire, and 
there was a drone in the restricted airspace.
    I don't know how anybody can't find that there is a huge 
benefit. We have shut down airports when we have drones in the 
airport. There is no downside to this, correct?
    Ms. Liu. And actually, those are accounted for in the cost-
benefit analysis.
    Mr. DeFazio. OK, thank you. My time has expired.
    Mr. Larsen. Thank you. I recognize Mr. Webster for 5 
minutes.
    Mr. Webster. Thank you, Mr. Chairman. I would like to 
discuss an issue concerning the registration of an aircraft 
where a constituent of mine has gone through kind of a 
nightmare experience in trying to get his aircraft, which he 
purchased from the U.S. Marshals auction, and it was owned by a 
member of the drug cartel in Mexico.
    So he tried to get it registered here. The FAA told him it 
is still registered in Mexico. ``You are going to have to fix 
that.'' He tried to get that done.
    As a matter of fact, you aided him in trying to do that, 
but the Mexican authorities just basically answered politely, 
``Your request is warmly received,'' but they have done 
nothing.
    And there is no dispute over ownership, or anything like 
that. So the Mexican authorities, I think, are operating in bad 
faith. I mean, he hired a lawyer in Mexico. They told him that 
giving $150,000 and--``We will get your plane registered for 
you,'' which is a little steep. It is plain and simple 
extortion, something, I don't know, whatever you want to call 
it.
    So the particular case kind of sheds light on a glowing 
flaw in U.S. policy, because it is questioning the sovereignty 
of this country, in a sense. There is clearly a negative impact 
on citizens if a foreign government could stop a United States 
citizen here of getting an aircraft registered. It is like some 
kind of hostage.
    So anyway, I guess my question is what is the next step, if 
the Mexican Government continues to refuse to give him--or to 
de-register the plane in Mexico?
    Mr. Elwell. Sir, I have been apprised of this situation. 
And it is sort of a new area for me, and my understanding is 
that there are international agreements that don't permit us to 
register an aircraft that has a foreign registry. And in the 
past, this has been sort of a very quick thing done between 
state departments and the--and the ICAO agreement is met, 
because our State Department calls their state department, and 
the government in question says, ``Yes, we release the 
registration, go ahead.''
    And for some reason, in this case, as you rightly 
described, the Government of Mexico is not doing what they 
normally do. So we are looking into it. We are talking to DOJ. 
We are talking to the State Department. And the intent is to 
get this resolved, sir.
    Mr. Webster. So you are committed to going to the highest 
level with the Mexican authorities to try to get this squared 
away?
    Mr. Elwell. Yes, sir, we will do everything we can under 
the current agreements and law to get to the bottom of this, so 
that your constituent can register the airplane.
    Mr. Webster. OK. Thank you very much.
    Mr. Chairman, I would like to ask unanimous consent for the 
insertion of a letter into the record that goes to the issue 
that several have talked about, and that is the unmanned 
vehicle. So if I could do that, that would be great.
    Mr. Larsen. Without objection.
    [The information follows:]

                                 <F-dash>
 Letter of September 26, 2019, from Brian P. Wynne, President and CEO, 
 Association for Unmanned Vehicle Systems International, Submitted for 
                   the Record by Hon. Daniel Webster
                                                September 26, 2019.
Chairman Rick Larsen,
Subcommittee on Aviation,
House Transportation & Infrastructure Committee, 2113 Rayburn House 
        Office Building, Washington, DC.
Ranking Member Garret Graves,
Subcommittee on Aviation,
House Transportation & Infrastructure Committee, 430 Cannon House 
        Office Building, Washington, DC.

RE: ``A Work in Progress: Implementation of the FAA Reauthorization Act 
of 2018''

    Dear Chairman Larsen, Ranking Member Graves and Members of the 
Subcommittee:
    Thank you for the opportunity to submit this letter for the record 
for today's hearing on the Federal Aviation Administration (FAA) 
Reauthorization Act of 2018. My organization, the Association for 
Unmanned Vehicle Systems International (AUVSI), serves as the world's 
largest nonprofit organization devoted exclusively to advancing the 
unmanned systems and robotics community. More than 35 local AUVSI 
chapters in the United States and around the world advocate for 
policies at the state, federal and international level that will enable 
the tremendous potential of unmanned systems, including unmanned 
aircraft systems (UAS) or drones.
    The passage of the FAA Reauthorization Act of 2018 (Public Law 115-
254) was a major step forward for the UAS industry. This Act provides 
the entire U.S. aviation community with much-needed, multi-year 
stability and includes several provisions that will launch the UAS 
industry to new heights. Perhaps most importantly, Congress directed 
the FAA to implement remote identification (remote ID) standards, which 
will enhance the safety and security of the airspace by enabling the 
FAA to identify and track UAS flying in the airspace--in real time. 
However, the rulemaking process for remote ID has been delayed three 
times, with a proposed rule now expected in December 2019.
    The need for remote ID cannot be overstated. Law enforcement needs 
remote ID to determine whether a drone is friend or foe, and to 
determine whether mitigation is necessary. The industry needs remote ID 
to advance expanded operations, including flights over people and 
beyond visual line of sight. That will help make operations like 
package delivery--and even autonomous air taxi service--a reality in 
the coming years. It is also critical for the realization of a UAS 
Traffic Management (UTM) system, which would work alongside the 
existing air traffic control system to reduce barriers to innovation 
and improve security of the national airspace.
    While we await the rulemaking process, the industry is looking for 
ways to voluntarily provide remote ID on a tactical basis for certain 
situations. We are collaborating with our government partners through 
channels such as the FAA's Drone Advisory Committee to help inform this 
rulemaking. In addition, the FAA's UAS Integration Pilot Program (IPP) 
is collecting valuable data from state, tribal and municipal government 
partners, including research on remote ID. The 10 participants in this 
program, which will soon conclude, are also actively providing input on 
expanded operations, including low-altitude operations, and how they 
might impact their interests. We look forward to seeing the results of 
the IPP and how its research will help the FAA shape UAS policy going 
forward.
    That said, identifying and tracking UAS in the airspace is just the 
first step. AUVSI supported granting additional authorities to the 
Department of Homeland Security and the Department of Justice as part 
of the FAA Reauthorization Act of 2018, including the authority to 
deploy appropriate countermeasures against UAS that threaten security. 
It is also important to note that Congress gave limited authorities to 
the Departments of Defense and Energy in the 2017 National Defense 
Authorization Acts. In addition, Section 2209 of the FAA Extension, 
Safety and Security Act (Public Law 114-41), which was also adopted in 
the FAA Reauthorization Act, created a process through which state and 
local government entities can petition the FAA to prohibit or restrict 
the operation of a UAS in close proximity to a fixed-site facility, 
such as critical infrastructure. UAS mitigation technology has already 
been successfully deployed at major events such as the Super Bowl.
    The FAA Reauthorization Act also called for rulemaking on a UTM 
system, which will reduce barriers to innovation and improve safety and 
security for all aircraft--both manned and unmanned. AUVSI members have 
partnered with government to advance UTM concepts, beginning with Low 
Altitude Authorization and Notification Capability (LAANC). However, 
the ability to track and identify all users of the airspace is a 
necessary requirement for low altitude traffic management. As stated 
earlier, before a UTM system can be realized, remote identification 
standards must be in place.
    Finally, the importance of safety cannot be overlooked. We were 
pleased that the FAA Reauthorization Act of 2018 authorized $1 million 
to the Know Before You Fly education campaign, which AUVSI and the 
Academy of Model Aeronautics co-founded in partnership with the FAA. 
Funding for Know Before You Fly will help raise awareness of the 
changing regulatory environment around UAS and thereby increase 
compliance, enhancing the safety of the national airspace.
    In addition, the FAA plans to mark the first-ever National Drone 
Safety Awareness Week in November to further stress the importance of 
safe and responsible UAS operations. This nationwide event will focus 
on the safety of several different sectors of the UAS industry, 
including public safety, photography, agriculture, infrastructure 
inspections and package delivery. It will also stress safety for 
recreational users and those flying UAS for educational purposes to get 
students excited about Science, Technology, Engineering and Math (STEM) 
careers. This multifaceted approach will help build a culture of safety 
among operators that will further deter careless and reckless behavior.
    AUVSI greatly appreciates your important work to ensure the 
successful implementation of the FAA Reauthorization Act of 2018. We 
would be happy to address any questions you may have about its UAS 
provisions going forward.
        Sincerely,
                                            Brian P. Wynne,
                                                 President and CEO.

    Mr. Webster. I also have sort of an issue there, too; you 
brought it up, and others did.
    I am a district where there are parks, theme parks, bunches 
of them, big ones. They are worlds, in some cases. There is 
real concern about that in that area, too, and how they are 
going to be able to proceed; even some of the smaller parks, 
really, have more concern how they are going to proceed in 
getting some sort of ability to stop UAS activity in proximity 
to their parks. So I just throw that in to say I am in on 
whatever we can do to speed that up. I know twice it was in one 
of our reauthorization bills. And anyway, it would be good to 
get on it.
    I yield back.
    Mr. Larsen. Thank you. Mr. Lipinski is recognized for 5 
minutes.
    Mr. Lipinski. Thank you, Mr. Chairman. A lot have talked 
about the delays in rulemaking. The reason why it is important 
to be concerned about delays is because we are talking about, 
first and foremost, safety. And I know Chairman DeFazio and 
others have talked about the secondary cockpit barrier, the 10-
hour rest rule for flight attendants. And so a delay in 
rulemaking is a delay in safety.
    You also have quality of life issues that we are talking 
about here, both for people who fly and those who live around 
airports. And I am going to have a question about that.
    And you also have delays in technology, which hurts the 
United States.
    And the remote ID rule has to do with safety, first and 
foremost, but it also has to do with the advancement of UAS, 
and that impacts jobs in this country. We want to be the leader 
in innovation in all areas.
    But I want to start out asking, you know, on the technology 
side. I included a provision in the FAA reauthorization section 
192 for R&D demonstration projects for zero-emission 
technology. And I wanted to ask what the FAA has been doing to 
implement this program. It is advanced technology, zero 
emissions, obviously, something important, looking at 
protecting the environment.
    And is there anything that, Mr. Elwell, you can tell me 
about this?
    Mr. Elwell. Mr. Lipinski, I am not immediately familiar 
with the section that you are asking about. I will certainly 
get back to you, if that is OK, with a detailed response.
    I will tell you that innovation is a major priority for 
Secretary Chao, for the administration, and for us. In fact, 
one initiative that we are trying to effect within the FAA is 
to create an Office of Innovation whose charge would be to take 
in new technologies and assimilate them into our culture 
quicker than we currently do.
    Technology today moves, as we all know, so much faster than 
it did a few decades ago. And the FAA and aviation were slow to 
begin with, as you point out, because of our safety concerns. 
But anything that we can do to, on the R&D side or on the 
operational testing side, anything we can do to accelerate 
innovation, especially as fast as it is moving, I am all for 
that, sir.
    Mr. Lipinski. And I look forward to hearing about section 
192, what you are doing, and also what you are talking about in 
terms of innovation and what we can do to be helpful on that.
    I wanted to move on to a quality-of-life issue. I have 
Midway Airport in my district; everyone loves Midway Airport 
for the economic engine that it is. But everyone hates the 
noise, obviously. And this is a 1-square-mile airport that has 
houses on all four sides. So section 188 required a report on 
the day-night average sound levels, the DNL. So when can we 
expect the report to be completed on that?
    Mr. Elwell. Well, sir, the section asking for a report on 
DNL, I am not sure I can give you a date on the completion of 
that report.
    Mr. Lipinski. Well, I appreciate you----
    Mr. Elwell. I will have to get back to you on that, sir.
    Mr. Lipinski [continuing]. Getting back to me on that. I 
was wondering if there is--you have any expectation that the--
you know, it is currently at 65 decibels--if it could be maybe 
lowered after this comes out, the report comes out.
    Mr. Elwell. Sir, actually, we are going to get that DNL 
report out before the end of the year.
    Mr. Lipinski. OK, thank you. It has been an issue with 
NextGen and new technology. There have been increases in noise 
levels in certain areas around airports. And this is something 
that I would like to talk more with you about, and we need to 
continue to work, because this has been a major issue for many 
people who live not just around Midway Airport in my district, 
but O'Hare, just outside my district, and across the country.
    So thank you, I will yield back.
    Mr. Larsen. I recognize Mr. Mitchell of Michigan for 5 
minutes.
    Mr. Mitchell. Thank you, Mr. Chair. The FAA Reauthorization 
Act contained, as we have already discussed, numerous mandates 
and expectations for the FAA for implementation of changes.
    One of the biggest challenges we had in the reauthorization 
was the discussion about NextGen, how it should be structured, 
moving it forward. It is no secret the air traffic control 
system is--it has antiquated equipment, some procedures as a 
result, and needed improvement. How we got there was a 
significant discussion. We came to a bipartisan agreement. Over 
the past few years we spent billions of dollars and countless 
hours. We recently had an update on NextGen, which was really 
helpful.
    We don't have to rehash the details of how we got here, but 
I do want to talk about one provision. In the bill we included 
section 547, the enhanced air traffic services provision. The 
amendment, described briefly, required a creation of a pilot 
program to demonstrate the full promise of NextGen 
technologies, to designate certain airports to provide limited 
access for planes that have full NextGen technology, and to 
demonstrate the benefits and the cost savings as a result of 
that--and the safety improvements, to be honest with you. A 
report to come back to Congress.
    There was a timeframe then of 90 days. We talked a little 
bit before the hearing. I would like to get an update. I think 
we would all like an update of where we are at on that pilot 
program, and when we expect that to move forward.
    Mr. Elwell. Well, thank you for that question, Mr. 
Mitchell. And this is a project that we have a lot of energy 
behind, and three airports to do enhanced air traffic system 
testing--I believe it is for 3-hour blocks, continuous 3-hour 
blocks in the day.
    And the NextGen Advisory Committee, who has been tasked--
and, as you know, that is the committee of all the stakeholders 
invested in NextGen--to give us their recommendations, and they 
have promised us the airports recommended by spring of 2020. 
And then we will do a 2-year pilot program on the enhanced air 
traffic services from 2021 to 2023.
    Mr. Mitchell. So we don't expect any further progress 
until--any definitive progress until spring of 2020?
    Mr. Elwell. Yes, sir, and 2020 is when we will have the 
airports named.
    Mr. Mitchell. Will it be at three airports, or five? Do you 
have an idea? Because we----
    Mr. Elwell. The current----
    Mr. Mitchell. We required three. You were talking maybe 
more. Is there a----
    Mr. Elwell. So it is currently three. But, sir, I will take 
that back to the NAC, and we will look at the possibility of 
increasing that, because I think it is a very valid and 
worthwhile program to be able to look at what full equipage--to 
your point--full equipage, what will it do to efficiency at any 
airport.
    Mr. Mitchell. I mean I think the--and your report, I would 
ask that not just efficiency, but also in terms of its impact 
on safety.
    Mr. Elwell. Right.
    Mr. Mitchell. Because of your ability to route aircraft, 
and separations, and all those far more accurately using that 
type of system, so that report would be helpful and important 
as we move forward.
    Mr. Elwell. Yes.
    Mr. Mitchell. So I encourage implementation of that as 
timely as we can.
    Mr. Elwell. Yes, sir.
    Mr. Mitchell. Let me change gears a little bit. I share 
Chairman DeFazio's concerns about evacuation. The 
reauthorization contained a couple of mandates that I think are 
important.
    Establishing minimum dimensions for passenger seats on air 
carriers--and it will surprise you to know I am not exactly a 
dainty guy. I want you to look around the room. There are a lot 
of not-so-dainty people. Seat size, dimensions between seats, 
exits--I am not sure that the models that are being used, to be 
honest with you, really reflect current air travelers, 
certainly not in the United States, North America, at 6, 2" and 
240 pounds or so, you know.
    Where are we at, in terms of moving forward? Because we 
mandated establishing minimum dimensions for passenger seats, 
evaluating the evacuation procedures and time. That could 
become pretty critical. Can you advise us on how we move 
forward on that? Because, besides whether or not I cram my 
backside in a seat, getting out would be a really useful thing. 
So could you update us?
    Mr. Elwell. Yes, and thank you for that question, Mr. 
Mitchell. We are looking at the language. We are thankful that 
Mr. Cohen's provision asked us to look at seat size and seat 
pitch and seat dimensions--and, obviously, in the construct of 
safety, which is what our mandate is.
    We are going to perform testing for this section, including 
human testing. And later this year we are going to establish 
the necessary seat pitch, width, length, based on safety, which 
would be the basis for any rulemaking if we----
    Mr. Mitchell. Let me stop you if I can, because he is going 
to hit the gavel in a minute. Is there a timeframe on when you 
are going to do that testing, and when we are going to get some 
feedback?
    Mr. Elwell. Yes, Lirio, do you have an update on the timing 
of it?
    Ms. Liu. Pardon me.
    Mr. Mitchell. No, it is----
    Ms. Liu. I understand it is supposed to occur before the 
end of the year. We have set up the Aviation Rulemaking 
Advisory Committee, as well, and--ARAC--that is also going to 
look at the evacuation study. So taking all that data in, we 
will be able to determine the appropriate----
    Mr. Elwell. And----
    Ms. Liu [continuing]. The rule.
    Mr. Elwell. I will just add we have 12 days of testing 
planned in November, with 720 live bodies, and the collection 
of 3,000 data points.
    Mr. Mitchell. He likes that gavel, but that is----
    Mr. Elwell. I heard the gavel, thank you.
    Mr. Mitchell. Thank you very much. I do yield back, sir.
    Mr. Larsen. You were doing so well, Mr. Mitchell.
    [Laughter.]
    Mr. Larsen. Mr. Cohen for 5 minutes.
    Mr. Cohen. Thank you, Mr. Chair.
    And first, Mr. Mitchell, I appreciate your questioning.
    And I rue your absence from the Congress, because you have 
been such a good Member. But I understand your logic, and I 
commend you on it.
    In the last Congress we passed the FAA Reauthorization Act, 
and I sponsored, as Director Elwell has mentioned, along with 
Representative Adam Kinzinger, the SEAT Act, which mandated 
that you provide us within a year, for safety purposes, pitch, 
width, the whole rigamarole with seats. And yet we don't have 
it.
    Tests in the past have been done with computers, and I 
think their computers--if I am not totally incorrect, I think 
they were provided by the airline, or the manufacturer, and 
they were simulations provided by them.
    We don't need to have another crisis like we had with the 
Boeing airplane, that we have a crash and we come back and we 
have to ask the FAA, ``People couldn't get out of the plane in 
90 seconds, why did you not comply with the SEAT Act?''
    So tell me again why this hasn't been accomplished. We are 
almost a year. And if it is going to be human conditions to 
where you have got people Mr. Mitchell's size, Mr. DeFazio's 
size, Mr. Trump's size----
    [Laughter.]
    Mr. Cohen [continuing]. All in coach class, trying to get 
out of a plane in 90 seconds. Are you going to have those 
people?
    Mr. Elwell. Sir, we are. We are looking at it. Obviously, 
as Chairman DeFazio said, Americans are getting bigger. And so 
seat size is important. But it has got to be looked at in the 
context of safety, and that requires testing.
    And to answer Chairman DeFazio's earlier question, the most 
recent live full air evacuation testing was actually done in 
2018, not 20 years ago. It was the Airbus 350. So we have done 
it.
    And, despite what----
    Mr. Cohen. Well, you did this test with the Airbus. Was 
that done here, or in Europe?
    Mr. Elwell. I am not--it was done in Europe. We also did 
it. Our most----
    Mr. Cohen. Why has not the FAA done it in America, with 
Americans? We are widening out more than Europeans. They are 
doing vegan, multigrain, and eating fruit. We aren't.
    Mr. Elwell. Sir, we did--the 787, 777 were the most recent 
times we have done live testing. And, as I said, we are lined 
up to do 12 days of evacuation testing in November with 720 
people. We are going to collect 3,000 data points.
    But one thing--I want to allay your concerns a little bit. 
In the most recent examples of full-hull loss accidents, 100 
percent evacuation.
    Mr. Cohen. Within 90 seconds?
    Mr. Elwell. Asiana in San Francisco, Aeromexico in Mexico--

    Mr. Cohen. Were they done within 90 seconds?
    Mr. Elwell. I can get back to you on whether it happened in 
90 seconds. But survivability today is much, much better, due 
to a lot of great work that we do at the Tech Center in New 
Jersey, and great improvements in flammability and 
survivability.
    But you are right; we need to do testing on evacuation, and 
we are going to do live testing, and we are going to get you an 
answer on seat pitch as it pertains to safety, sir.
    Mr. Cohen. And where are you going to get these people? You 
are not going to go to SlimFast, are you?
    Mr. Elwell. Sir, we are going to try to use a good 
demographic sampling. And we will maybe invite you.
    Mr. Cohen. It would be good to invite me, because I have 
got a bad leg. And you have got people in this country who are 
larger, but you have also got people with disabilities who fly.
    Mr. Elwell. Yes, sir. Yes, sir.
    Mr. Cohen. And you need to have a representative sample. 
And you have got, you know, children, and whatever.
    Mr. Elwell. Oh, so we do incorporate all of those things: 
lap children, animals. We incorporate all of that, and we will 
in the testing.
    And I don't know, Lirio, if there is anything I have missed 
on how we do that testing.
    Ms. Liu. I can reflect back on that from my certification 
days.
    Yes. In fact, when we simulate the test during 
certification, we will actually block half the exits. It will 
also be in a dark environment. The attendants that are on the 
evacuation test don't know which exits are blocked, to simulate 
a live situation.
    The demographics are typically volunteers from anyone, so 
there is no specific demographic sought for.
    So, as you will see, it will also be dark in the cabin, so 
they try to simulate the worst-case scenario.
    Mr. Cohen. Thank you. If you would invite me, I would love 
to be at least an observer. And if you pick Democrats, you will 
get a good representative demographic of America.
    Mr. Larsen. Mr. Gallagher is recognized for 5 minutes.
    Mr. Gallagher. I have much less exciting--dare I say 
dainty--questions to offer.
    But Northeast Wisconsin Technical College, which is located 
in Green Bay, Wisconsin, is concerned about the implementation 
of section 631, a program known as the Community and Technical 
College Centers of Excellence in Small Unmanned Aircraft System 
Technology Training.
    This program was intended to help community colleges like 
NWTC extend their role in education and training for small 
drone technology. It seems like a good idea. But Northeast 
Wisconsin Technical College reports there hasn't been much 
progress made to implement this program, even though it was 
created with a deadline of 180 days after the enactment, which 
should have been April 5th, 2019, if my math is correct.
    So I would ask what is the current status of establishing a 
process to designate community colleges' UAS Centers of 
Excellence?
    Mr. Elwell. Thank you for that question, Mr. Gallagher. We 
did briefly mention section 631 a little bit earlier. One of 
the issues is that the way this provision was presented, it was 
with Centers of Excellence, which are not grant programs, they 
are not grant recipient programs. So we are working through 
that. And I told Chairman Larsen we will work through the 
wording issues, so that we can get this done. I am a huge 
proponent.
    I was recently up at Vaughn College, which is a CTI college 
for controllers, and had a wonderful conversation with a 
student, a young lady who is a dynamo aviation enthusiast, and 
is going to graduate in the spring with $86,000 in debt.
    So you know, if we are going to excite young people into 
this profession, both for Government service and in industry, 
we have to get a handle on this, and we got to get them 
trained.
    And I agree with you, 100 percent. I know that section 632, 
which is related, we hope to have that done by the end of the 
year. And it is going to certainly help community colleges 
specialize.
    So we understand the need, sir. And I hate to talk about 
technicalities, but we are going to work through them.
    Mr. Gallagher. Well, we often find ourselves dealing with 
technicalities here.
    Can you give us a flavor--and I don't know if it is--who--
which one of you two would address just kind of what the 
consultation that has taken place between FAA, Department of 
Transportation, Education, and Labor, all the other interagency 
players in this, on section 631?
    Or, perhaps more broadly, do you feel like there is 
interagency buy-in to the program?
    Mr. Elwell. So I am not aware of an interagency discussion 
on section 631. So--and I am not sure it is required, if it is 
a program that we can implement and do.
    I am just advised from--the language has been a problem, 
and--but I certainly will get to interagency discussion if we 
have to do it, and we will use it.
    I know that, you know, last year around this time we had a 
workforce summit at National Airport, where we did have all 
the--we had the Air Force Secretary, we had Secretary Chao, we 
had Department of Labor, Department of Education all coming 
together to come up with solutions on these workforce issues.
    So it is a high priority of ours, and we will get back to 
you on the work--and if there is anything that you can do, we 
certainly won't be shy to ask----
    Mr. Gallagher. Sure.
    Mr. Elwell [continuing]. How you can help, sir.
    Mr. Gallagher. I really appreciate that, and look forward 
to working with you.
    Final question. So, for these colleges, technical colleges, 
you know, a college like Northeast Wisconsin Technical College, 
who want to be forward-leaning, they want to take full 
advantage of section 631, I mean, what advice would you have 
for them right now?
    Mr. Elwell. Well, first of all, I think getting the CTI 
accreditation, 2-year programs will suffice for that. Get 
recognized as a preferential--controllers do preferential 
hiring. It is a separate pool. If they come from a CTI school, 
I think that is an incentive unto itself.
    And then the extent to which a college can be eligible for 
assistance, Federal assistance, that is the issue that we need 
to look into and get back to you on.
    Mr. Gallagher. I appreciate that. I think we have an 
opportunity here. I mean there is a lot of bipartisan goodwill 
around the idea of elevating our technical, our vocational 
schools. And this would seem to be a growth industry and an 
industry that could attract the attention of a lot of 
millennials and whatever we are calling the generation that is 
younger than millennials these days.
    So I appreciate it.
    Mr. Larsen. Thank you, Mr. Gallagher. Before I go to 
Representative Craig, just in order we have, on the Republican 
side, Balderson, Rouzer, and Perry. And then, on our side, 
Craig, Davids, Carbajal--so to get people prepared.
    So I recognize Representative Craig for 5 minutes.
    Ms. Craig. Thank you so much, Mr. Chairman. It is 
absolutely clear that our communities who are near our airports 
have benefitted from the employment opportunities and 
convenient access to domestic and international travel. But 
those who live around those major airports also live with the 
burden of often overwhelming overhead noise, especially as the 
number of flights around the country continues to increase, and 
their flight paths become more streamlined and precise.
    Where I live in Eagan, Minnesota, we are severely impacted 
by aviation noise, and the city has recently taken the 
opportunity to come up with some measures to address and 
mitigate these issues, which I applaud.
    Although I wasn't in office for the passage of the 2018 FAA 
reauthorization, I am encouraged by many of the provisions that 
address these noise concerns and problems, nationwide.
    Mr. Elwell and Mr. Szabat, I would like to ask you a few 
questions on the status and intended outcomes of a few of those 
provisions, if you don't mind.
    Section 189 instructs the FAA to conduct a study on 
potential health and economic impact of overflight noise. You 
formally entered into a partnership for this research, which is 
a great first step.
    Can you tell me a little bit more about the parameters of 
this study, and how you are weighing the effects of noise on 
children and families like our city in Eagan?
    Mr. Elwell. Thank you for that question, Ms. Craig. We have 
entered into an agreement with MIT and Boston University on the 
commencement of that study, and I can get back to you on the 
parameters and what the agreed parts of that study are with MIT 
and Boston University.
    Ms. Craig. Mr. Szabat, anything to add to that?
    Mr. Szabat. Representative, thank you for the question, but 
no.
    Ms. Craig. Thank you. So section 175 is titled, 
 Addressing Community Noise Concerns,'' and it effectively 
compels the FAA Administrator to shift flight take-off and 
landing patterns if an airport operator and community jointly 
make a reasonable and safe request to do so.
    The city of Eagan is currently urging this consideration 
with the Metropolitan Airports Commission. As a Member of 
Congress, how can I be supportive of my constituents during 
this process? What more can my constituents do to raise their 
voices on issues related to noise concerns?
    Mr. Elwell?
    Mr. Elwell. Well, community engagement is critically 
important. We understand that. We are refining and improving 
our community engagement.
    We have our naming noise ombudsman at all of our regional 
offices. Those noise ombudsmen will report directly to the 
regional administrators. In your case, I believe that would be 
Great Lakes.
    And community engagement, across-agency engagement led by 
the regional administrators and the ombudsmen, is critically 
important.
    The goal, of course, is to engage, listen, as you said, and 
make adjustments as necessary. And there are quite a few 
communities around the country where we are doing that.
    I would say just a couple of data points on noise that I 
found intriguing.
    In 1970 there were 200 million passenger enplanements, and 
7 million people subjected to significant noise over the 65 
DNL. Today we carry 900 million enplanements, and 400,000 
people are subjected to noise above 65 DNL.
    We acknowledge this is, for your constituents and many 
others, a critical issue, and we are engaging it. But I will 
tell you that both in engine design, aircraft design, and 
procedural design there are huge advances being made in getting 
aviation quieter. But there is more we can do, and we are 
anxious to engage with the communities and all the stakeholders 
to see how we can make the air quieter above your constituents.
    Ms. Craig. Thank you so much. I appreciate the thoughtful 
answer you gave, and I hope you will also be given the 
opportunity to review the very thoughtful recommendations from 
the city of Eagan. So thank you so much.
    And, Mr. Chairman, I yield back my time.
    Mr. Larsen. Thank you. I recognize Representative Balderson 
for 5 minutes.
    Mr. Balderson. Thank you, Mr. Chairman. And thank you, 
panelists, for being here this morning.
    Mr. Elwell, I will direct my first question to you, and 
just kind of follow up what Mr. Gallagher was referring to with 
workforce development. That is something that is very 
important.
    But what is the FAA doing to improve the aviation workforce 
pipeline? For the pilots I know there is an extreme shortage 
for the pilots, projected that there are going to be 790,000 
pilots short by 2037. So what are you all doing for that 
pipeline?
    Mr. Elwell. Thank you for that question, Mr. Balderson. As 
I referenced, the workforce summit--I think in the day-long 
summit we had maybe five different panels that covered the 
gamut.
    We do anticipate a pilot shortage in the coming decade, but 
it is not just pilots, it is all of the technical fields in our 
sector. And, you know, it is not a mandate of the FAA to ensure 
a large pilot population, but we do believe that a shrinking 
pilot demographic is not good for the system and, ultimately, 
probably not good for safety.
    So, what we are doing is we are engaging. We have a 
workforce task group within the FAA. It is engaging many 
different organizations: Women in Aviation, for instance; the 
Aircraft Owners and Pilots Association, AOPA; all of the sort 
of groups that represent interest in our sector.
    The Air Force Junior ROTC, they came to the FAA and said, 
``We are trying to do a program where we take kids after their 
sophomore year in high school, send them to a university''--I 
think Auburn is one of them that they contracted with. ``We 
take a kid coming out of 10th grade who doesn't even know what 
an airplane looks like, and by the end of the summer they have 
their private pilot's license. But FAA, you have a restriction 
of 17 years old to get a private pilot's license. Can you work 
with us to get it back to 16, so we can get those kids before 
they commit to some other profession?'' These are the kinds of 
engagements we want to have.
    It was mentioned already, Women in Aviation. Women are 
woefully underrepresented in our sector, and I think that is a 
huge demographic in population that we should be creating 
interest for for this industry.
    We have an MOU with the Air Force to look at their pilot 
training research. They are doing some very, very interesting 
things in pilot training that we think can be mirrored in the 
civil sector.
    So this is a huge initiative. We are anxious for any and 
all ideas and help that we can get, because we know that this 
committee is as passionate about this as we are. And we are 
ready, willing, and able to engage on how we can improve the 
workforce, the strength of the workforce.
    Mr. Szabat. And, Congressman, if I can just tag on for a 
minute in support of Mr. Elwell's comments, this is something 
that matters to the Department, as a whole, as well as the 
Federal Aviation Administration.
    Secretary Chao herself kicked off the Forces to Flyers 
initiative, so working with the Air Force and elsewhere in the 
military to ensure the transition for pilots, for other 
qualified aviation personnel to move to the civilian sector.
    Dan has also mentioned Women in Aviation. As part of that, 
the Department is working through the Department of State 
internationally, APEC, the Asia-Pacific Economic Cooperation. 
We are working for a Women in Aviation prioritization within 
all of the countries that border on the Pacific.
    Mr. Balderson. Thank you. And I will follow up, and both of 
you may answer this question, also. Do you believe the FAA 
currently has the necessary resources to take on the pilot 
shortcomings?
    And I know you said reaching out to--my office would love 
to communicate with you all of--giving you leads, or some way 
of--not necessarily leads, but how you can--we can make it, you 
know, so you can attract young adults. And whether that is--I 
have a very good friend of mine, and his son is finishing his 
private pilot's license right now, and he is--you are correct, 
he is 17 years old. He probably could have started flying 
earlier than that. Not much, but we would love to work with you 
in ways to change that.
    So thank you both very much for your response.
    Mr. Szabat. Thank you, sir.
    Mr. Balderson. I yield back, Mr. Chairman.
    Mr. Larsen. Thank you, Representative Balderson. I 
recognize the vice chair of the subcommittee, Representative 
Davids of Kansas.
    Ms. Davids. Thank you, Chairman, Ranking Member, and thank 
you to the witnesses for coming here today. I appreciate your 
time and your expertise.
    I wasn't here when we passed the reauthorization 
previously. So I am hoping for just a little bit of insight. So 
my first question is for Deputy Administrator Elwell, who--I 
know you have been here before. Welcome back in your new role.
    There has been a troubling number of media reports about 
passengers and crews falling ill, or becoming sick because of 
cabin fumes and air quality in the cabins. And I am hoping to 
hear from you briefly about how the fumes and smoke might even 
make it into the plane for folks who don't already know that.
    Mr. Elwell. Thank you for that question, Ms. Davids. We are 
working toward completing all the requirements that are 
included, including engaging with stakeholders on useful 
education materials--this is all parts of what was in the 
bill--useful education materials, developing reporting guidance 
for carriers, reminding carriers to use their SMS, their safety 
management system, to identify issues--that is what SMS is for, 
it is what it is all about, to identify issues--and share with 
crew, their crewmembers and their technicians, and engaging--we 
are engaging in the research of bleed air.
    You know, when it comes to cabin air issues, it often comes 
down to the bleed air, what is coming in the cabin to 
pressurize the cabin from the outside, and the refresh rate, 
you know, the recirculation rate. So we are looking into it in 
all the areas that the bill mandated.
    And I--if it is OK, I would like to check with Lirio to see 
if you can expound on that.
    Ms. Davids. That would be great.
    Ms. Liu. It is part of the certification requirements of 
the aircraft that right now----
    Ms. Davids. Will you--oh, thank you.
    Ms. Liu. I don't know that I have anything more to say on 
that. I think it is under research. We have the appropriate 
working groups starting the process, and using the data, as was 
indicated by the Deputy Administrator.
    Ms. Davids. And actually, that is a great point to hit a 
followup question I had, which is I know that there were a 
number of requirements in the reauthorization, and 
commissioning a study was one of those requirements. And it 
seems as though that has been something that has been delayed.
    So I am curious if you could give maybe a progress update 
on what kind of research you have been able to do into--if I 
have the language correct, it is to assess the potential health 
effects of the contaminants from bleed air, which you 
mentioned, and--yes, any other updates you might have around 
that.
    Mr. Elwell. Yes, ma'am. We have begun that process, begun 
that research and that testing. And I remember reading through 
it, but I will have to get back to you on the details of that 
research. But I am--oh, getting a note.
    Ms. Davids. Oh, I love this.
    Mr. Elwell. Yes, yes, so we are actually meeting next week 
with the stakeholders and the participants, and we will get 
back to you, ma'am, on exactly what we are doing in that area.
    Ms. Davids. That would be great. I, of course, am very 
concerned about passengers, and I am very concerned about all 
the folks who make their livelihoods spending time on planes.
    So thank you for your time, and I yield back.
    Mr. Larsen. Thank you. I recognize Representative Rouzer 
for 5 minutes.
    Mr. Rouzer. Thank you, Mr. Chairman.
    And I want to thank each of you for being here this 
morning. As you know, my home State of North Carolina is one of 
the nine participants in the FAA's UAS integration pilot 
program, and their focus has been on routine drone delivery of 
medical packages. And, so far, there have been more than 1,200 
operations on the WakeMed Hospital campus there, in Raleigh.
    Now, this is the first routine drone medical package 
delivery operation for compensation in our country, and a 
significant step forward for faster and easier delivery between 
medical facilities.
    Can you speak to how the data gathered from this pilot 
program is helping the FAA find solutions to--or restraints on 
integration within the current regulatory framework, such as 
restrictions on flying beyond visual line of sight, or flight 
over people? How are these efforts coming along?
    Mr. Elwell. Well, thank you for that question, Mr. Rouzer. 
The UAS implementation integration pilot program specific to 
your district has been a huge success, as you mentioned. The 
delivery on campus back and forth has greatly expedited the 
delivery of samples which, of course, in turn, gets results 
quicker for patients.
    I understand--I am told that--I think UPS is going to try 
to operationalize that, much the way Google Wing has 
operationalized their IPP project in Blacksburg, Virginia, to 
do deliveries.
    And what the IPP has done--the project in North Carolina 
and in Virginia and at seven other pilot projects around the 
country--has given us the data we need to start certifying 
these operations for eventual integration.
    Google Wing, for instance, went through a part 135 
certification, and it was unprecedented, it hadn't been done 
before. We did it for that drone operation to prove that we can 
use our regulatory structure that exists today, and modify it 
for UAS operations.
    We have about a year--a little bit more than a year--left 
in the study, in the pilot program for the nine different 
projects. We are going to take the lessons learned--and they 
are many--and that, tied to rules like remote ID, eventually 
will get a beyond-visual-line-of-sight rule, over people rule.
    These are not easy tasks, by any stretch. But putting them 
together, we will be able to integrate drones safely into the 
airspace.
    And our goal also is that, when this pilot program rolls 
up, we are not going to tell the nine participants, ``OK, thank 
you very much, go home.'' The idea is to allow those that wish 
to stay and operationalize their programs, our goal is to help 
them do that.
    Mr. Szabat. And again, if I may add to the Administrator's 
comments, Congressman, from the Department of Transportation's 
perspective, what the IPP allows is, insofar as it is possible 
for a regulatory agency to become a cutting-edge regulator, 
this is allowing us to be on the cutting edge of developing 
regulations, as Dan mentioned, integrating drones safely into 
our manned national airspace.
    Other countries are experimenting, as we are. But what they 
are doing is mostly on a catch-as-catch-can and exception 
basis. We are trying to develop this systematically, so that we 
can actually have the regulations in place based on these pilot 
programs that will allow us to give, for example, more part 135 
certifications so whatever lessons we learned can be applied 
nationally.
    Mr. Rouzer. Talk about the role of local and State 
government, and the interface there, and how that will operate.
    Mr. Elwell. So that was in the Presidential directive of 
something we wanted the IPP--the nine different programs--to 
examine. federalism versus preemption.
    And it is a great question, because what we don't want to 
foster are hundreds of different regulatory frameworks that the 
industry would eventually have to comply with. You know, if I 
am in this county I have got to do this.
    But at the same time, we have to strike that balance to 
allow localities--localities know their issues better than--
obviously, better than the Federal Government. So we got to 
strike that balance, to your point, to allow municipalities, 
States, Tribal organizations the ability to make restrictions 
that don't challenge federalism, but are good for the 
community, good for the industry, but ultimately safe for all 
the participants.
    And we are learning a lot from the pilot program in that 
regard.
    Mr. Rouzer. What about sharing of radar feeds? Do you 
anticipate FAA to share radar feeds at a local and State level?
    Mr. Larsen. Yes or no?
    Mr. Elwell. No.
    Mr. Larsen. I didn't hear the question.
    Mr. Elwell. Sir, I am sorry----
    Mr. Larsen. You will have to take it for the record.
    Mr. Elwell. OK. We will get back to you, sir.
    Mr. Rouzer. Thank you, Mr. Chairman.
    Mr. Larsen. You are welcome. Next we have Mr. Carbajal. 
Before Representative Carbajal starts, on our side it will be 
Carbajal, Stanton, and Lynch, in that order. On the Republican 
side it will be Perry, Katko, and Stauber, in that order.
    Representative Carbajal for 5 minutes.
    Mr. Carbajal. Thank you, Mr. Chair.
    Administrator Elwell, thank you for coming to our 
subcommittee today, and for giving us an update of this FAA 
Reauthorization Act of 2018.
    Building on some of the questions by my colleagues 
regarding colleges, college Centers of Excellence, section 631 
of that measure authorized a new program known as Community and 
Technical College Centers of Excellence in Small Unmanned 
Aircraft System Technology Training. This section is intended 
to help establish an expanded role for community colleges in 
education and training in various applications of small drone 
technology.
    In my district Allan Hancock College is a community college 
that is focused on innovation, and has the interest in the 
section 631 Centers of Excellence program. The college is 
located on the site of the former Hancock College of 
Aeronautics, which opened its doors 90 years ago, and trained 
thousands of pilots for service during World War II. Section 
631 provides opportunities for a school such as Allan Hancock 
College to work with industry partners to train students in the 
latest applications of drone technology.
    April 5, 2019, was the deadline for the FAA to have 
established a process to designate community colleges UAS 
Centers of Excellence. Could you update this subcommittee on 
the status of section 631 for the Centers of Excellence 
program?
    And two, what type of consultation has taken place with the 
Departments of Education and Labor to develop this program?
    Mr. Elwell. Thank you, Mr. Carbajal, for that question. In 
the discussion earlier with Mr. Gallagher, we have no issue 
with the intent, nor the deadline. The problem we ran into, 
ultimately, was that Centers of Excellence are not--we have 
many Centers of Excellence agreements, but they are not 
vehicles for grants.
    So I would love to see a lot more small colleges get help 
with providing UAS training. And so would Secretary Chao. That 
was one of the key conversations we had in our workforce summit 
last year around this time.
    I will commit to get back to you, sir, on the engagement 
that we have had with DOL and DOE, and the extent to which we 
have brought them into the discussion. And if we need to expand 
that interagency discussion, we will certainly do that.
    The goal is to improve and increase and energize our 
secondary education in these fields. And so I commit to work 
with you and the other agencies as necessary.
    Mr. Carbajal. To that end, how could schools such as Allan 
Hancock College prepare for future consideration of this 
section's benefits?
    Mr. Elwell. I think a desire to have curricula that address 
these emerging technologies is preparation enough. I think it 
is incumbent upon the Government entities to facilitate, and 
certainly not to provide any sort of hindrance to those who are 
willing and want to bring that into their curricula.
    You know, one of the things that we have at the FAA is 
accreditation for aviation schools. We have 4-year 
accreditation, 2-year accreditation. And we are trying to 
advertise to young people that, you know what? Education is 
expensive. But you can go to a 2-year vocational tech school in 
the aviation world, and come out with really good careers, 
really good professions, and I am sure that, as the UAS 
industry grows, there will be more and more opportunities in 
that area, as well.
    Mr. Carbajal. Thank you. As was discussed by some of my 
previous colleagues, I too have been contacted by a number of 
my constituents about airplane noise. And the FAA 
reauthorization included several provisions to address this 
issue.
    What is the estimated timeframe for the FAA to implement 
these mandates? And how is the FAA working with communities 
like mine to address these issues?
    Mr. Elwell. Well, sir, there is--noise is a huge issue, 
nationwide. And we are actively working all of the provisions 
in the bill. We have every intention of meeting all the 
requirements.
    Since they are different, a number of different provisions 
and different requirements, different lengths of 
implementation, I can assure you, sir, that we are working all 
of them, and we have every intention of meeting the 
requirements of the bill.
    Mr. Carbajal. Since I am out of time, if you could just get 
me some timelines, that would be great.
    Mr. Elwell. I will get back to you on the timeline, sir.
    Mr. Carbajal. Mr. Chair, I yield back.
    Mr. DeFazio [presiding]. Before I recognize Representative 
Perry, I just want to clarify the record. The last time the 
United States conducted a full-scale evacuation was 1999 for 
the 777. And then Boeing based their certification on the 787, 
through comparative analysis, to that. And I don't know whether 
EASA requires it or not, but Airbus, you know, did that in 
Europe, and not under our auspices.
    And then, finally, in terms of recent incidents, a number 
of people died on an Aeroflot plane who were unable to 
evacuate. We don't know all the circumstances here, since it 
took place in Russia.
    Anyway, Mr. Perry?
    Mr. Perry. Thank you, Mr. Chairman.
    Administrator Elwell, the provision that I had placed in 
the FAA bill required the FAA to update existing regulations to 
authorize the carriage of property by owners of UAS for 
compensation or hire. In your testimony you state, ``This work 
is ongoing, and the FAA is currently meeting the intent of the 
mandate through an exemption process.''
    I am pleased to see the FAA grant the first certification 
this year, but it came only after a long and arduous process of 
seeking numerous exemptions from part 135 provisions that do 
not and cannot apply to UAS.
    Avoiding this type of unnecessary drawn-out and burdensome 
exemption process was actually the intent of the mandate. The 
deadline to update these rules is October 5th of this year, 9 
days from now. But we have yet to see any FAA action on this 
mandate, so it doesn't appear that this deadline will be met.
    Can you just provide us with a status update on the 
mandate, and a new timeline for meeting it, if you have one?
    Mr. Elwell. Yes, Mr. Perry, thank you for that question. 
The desire to have UAS perform those certificated activities we 
share. We share the goal to get that done.
    It is important to point out there is frustration, how long 
this is taking. But I think what we need to understand is, 
unlike a lot of other countries that are trying to integrate--
or trying to fly UAS and get UAS to do things, many other 
countries are doing that segregated. They are taking UAS, and 
they are flying UAS in airspace where there is nothing else.
    We are integrating UAS, and it is a far, far more complex 
endeavor. Some of the activities you mentioned, sir, would 
require beyond-visual-line-of-sight carriage, or over people. 
And these are rulemaking activities that have significant 
safety implications, and we have to make sure that we do the 
rulemaking for those specific abilities, the ability of an 
unmanned aviation vehicle to fly over people or beyond visual 
line of sight. These are very complex.
    And both of those capabilities, which would eventually be 
needed for commercial activity, rely upon remote ID, which we 
have talked about is going to take a little while.
    So I absolutely share your desire to see this happen. I 
think we are in a very, very dynamic time in aviation in this 
country, between the attempts to integrate UAS, the doubling of 
commercial space launches. I mean there is so much going on. 
But it is not going to be done as quickly as many would like, 
me included. We have to----
    Mr. Perry. Administrator, we get it, I am sure, and we know 
it is complicated. And at the same time, you know, also 
deadlines, suspenses, requirements motivate agencies, 
individuals, you name it, to get to a result, right?
    I mean the Federal Government isn't immune to producing 
what is asked of it. Its bosses and my bosses, the taxpayers 
and constituents, demand it. They don't want to hear--they 
understand that sometimes things don't go as we wish they 
would, as we hope they could, or what have you.
    But it doesn't sound like you have any idea--I hate to say 
it that way, but if you do, I mean--this was the timeline that 
we had. So I think it is fair to say that we are not going to 
meet it. But, you know, 6 months? One hundred years? What are 
we looking at?
    Mr. Elwell. Mr. Perry, the only real suspense in putting a 
new type of activity into the airspace, the only deadline the 
FAA really has, at the end of the day, is safety.
    And I agree with you, placing a deadline out there does 
motivate people. But at the end of the day, if it can't be 
effectuated, if it can't be done and signed off on safely, it 
is going to be extended. And for that reason, you know, I 
always hesitate in these questions, ``What is the timeline to 
do X or Y''----
    Mr. Perry. Well, I am not going to pin you down to a day or 
something, but can you give us some idea if this is years, if 
this is months?
    You know, you try and meet a deadline, you find out what is 
in your way, and then you figure out what is it going to take 
to get through these six barriers, or three things, or 
whatever. You make a new timeline.
    Mr. Larsen [presiding]. I recommend you get back to 
Representative Perry with a timeline. Can you do that? Can you 
get back to Representative Perry and the committee with a 
timeline?
    Mr. Elwell. Yes.
    Mr. Larsen. I recognize Representative Stanton from Arizona 
for 5 minutes.
    Mr. Stanton. Mr. Elwell, one of the key purposes of the 
Congress, of course, is to put the appropriate things into the 
law, and then to ask about the timelines for implementation. 
That is one of the key roles of the people up here on this 
dais. I appreciate the nature of your concerns about it, but 
that is what we do for the people that we represent.
    Mr. Elwell, the FAA Reauthorization Act includes several 
important changes related to the contract tower program, 
including section 152, authorizing the FAA to make grants to 
these airports from the small airport fund to construct or 
improve their air traffic control towers.
    In Arizona, Phoenix-Mesa Gateway Airport is one of the 
fastest growing regional airports, and the busiest contract air 
traffic control tower in the country. In just the last 5 years, 
annual operations have increased 80 percent, and commercial 
activity continues to grow by double digits. The existing tower 
was constructed in 1970 by the Air Force, not intended for 
commercial use.
    An FAA siting study identified the need for a new tower, 
due to several safety issues with the existing tower. A new air 
traffic control tower is critical for this airport. And with 90 
percent of the design completed for a new tower, Federal 
funding for its construction must be a priority.
    What is the status of the FAA's implementation of section 
152?
    Mr. Elwell. Sir, we are meeting all the requirements on 
contract towers, and we don't see any problem with it. We are 
going to meet them all.
    With respect to Williams Gateway, a personal connection 
there, that is where I learned to fly, Williams Air Force Base. 
And then it came full circle in--one of the first meetings I 
had in this capacity was the mayor of Mesa telling me, ``We 
need a new tower, but we are only eligible for $2 million 
towards it.''
    And I am really glad to see that we fixed that, and that 
you are going to get a new tower. It is the busiest contract 
tower in the country, and I am glad to see we finished--we just 
gave $1.3 million for the design study. It is going to be a 20-
some-odd-million-dollar project, but it will be funded.
    Mr. Stanton. All right. We are nostalgic for the name 
``Williams Gateway.'' It is now Phoenix-Mesa Gateway Airport, 
as it has gone commercial. But thanks for your service, we 
appreciate that very much.
    In April the FAA hosted a series of workshops in the 
Phoenix area to hear from residents about flight noise. Those 
workshops were part of the 2017 lawsuit settlement over noise 
in the area, a lawsuit filed by the city of Phoenix when I was 
mayor.
    I appreciate the FAA holding these workshops. Going 
forward, it is important for the FAA to work closely with the 
impact to communities to incorporate what was learned at these 
workshops, and to make adjustments necessary to lessen the 
noise impacts from the eastbound flight paths.
    What are the FAA's next steps in this process, particularly 
additional engagement with the impaired communities, 
Scottsdale, Fountain Hills, and what is the expected timeline?
    Mr. Elwell. Well, sir, it is a two-step process, as you are 
aware. We finished step 1, looking at departure route changes 
based on the community engagement. We have now completed the 
engagement phase of step 2, and looking at those 
recommendations.
    As you know, there is no commitment to make changes after 
consultation of step 2. But what--anything we can do, we are 
going to do.
    And I would have to get back to you on the timeline of 
that. I am sure that the folks that are having those meetings 
have a deadline for when they are going to get back.
    Mr. Stanton. We will follow up. I appreciate that very 
much.
    Let's talk staffing shortages in the FAA and the impact it 
is having on your regulatory functions. These staffing 
shortages are causing delays in approval of environmental 
reviews. And I and so many other Members of Congress are 
concerned that these delays will have a ripple effect in 
delaying important construction projects.
    What steps has the FAA taken to address current staffing 
needs, particularly on the regulatory side, to ensure timely 
environmental reviews?
    Mr. Elwell. Well, sir, I will have to get back to you on 
that. I am--to get any specifics on staffing shortages for 
environmental reviews I will get back to you.
    I know that they--you know, depending on whether it is a 
CATEX or an EA or an EIS, they can be rather lengthy. And, 
obviously, the size of the examination can have a big impact. 
But unless Lirio----
    Mr. Stanton. That is fair. We will follow up, and I 
appreciate you taking the time to get back to me on that issue.
    I want to turn now to Flagstaff's Pulliam Airport in 
northern Arizona. Flagstaff averages more than 100 inches of 
snow, annually. Its airport is classified as a very large 
airport, meaning there is at least 1 million square feet of 
total paved runway that must be cleared during snow events.
    The airport has applied for an FAA supplementary discretion 
grant to construct a multiuse equipment building. The airport's 
current storage facility is at full capacity, doesn't have room 
to store additional equipment, including no additional room for 
snow equipment that the airport purchased last year. The 
proposed multiuse building will provide much-needed storage to 
protect the airport's extensive equipment.
    I just want you to know that I support their request, and 
look forward to working with you, and want you to keep me 
updated on the status of that project.
    Mr. Elwell. We will keep you updated on that request, sir.
    Mr. Stanton. Thank you so much.
    Mr. Larsen. Thank you. I recognize Representative Katko for 
5 minutes.
    Mr. Katko. Thank you, Mr. Chairman. And I want to note for 
the record that Syracuse gets a lot more snow than what you are 
talking about in Arizona.
    [Laughter.]
    Mr. Katko. I am talking over 190 inches----
    Mr. Larsen. Without objection, so noted.
    [Laughter.]
    Mr. Katko. Thank you. Thank you all for testifying today.
    And Mr. Elwell, I want to talk to you about something I 
presume you are familiar with, and that is the unmanned 
aircraft system facilities and testing programs that we have in 
central New York in my district and adjacent.
    The Griffiss NUAIR complex, which is out of the former 
Rome, NY, Griffiss Air Base, there is a corridor, a testing 
corridor from there to Syracuse. It is well established. It has 
a tremendous amount of State support, local support, municipal 
support. It is also partly--included is a Tribal reservation, 
the Oneida Indian Reservation. And there is a lot of testing 
and research going on already, which we are quite proud of.
    There have been two times where we have submitted funding 
requests or a test pilot request to the FAA. And, given our 
very mature program, it was shocking to see that both times, 
despite having very, very high rankings, neither time were we 
chosen as test sites. And, in fact, some that were clearly 
inferior were chosen over us. And that is, to say the least, 
concerning to us.
    So now, here we are again. In June the UAS Integration 
Office issued a broad agency announcement calling for 
development proposals from participating UAS test sites. We 
submitted a proposal--we, being the Griffiss NUAIR complex--
submitted a proposal, and we are waiting on the status. It was 
supposed to be reported this month. And I would like to know 
what the--any updates on when we are going to find out about 
that.
    Mr. Elwell. Thank you, Mr. Katko. Could you repeat what the 
program you are applying for is?
    Mr. Katko. It is the UAS Integration Office at FAA issued a 
broad agency announcement calling for development proposals 
from participating UAS test sites. We submitted a proposal--we, 
being the NUAIR Griffiss and the local.
    And I say ``we'' because we are a team, all of us together, 
on all levels of Government. And it has been very frustrating 
with the selection processes in the past for support of these 
things.
    So I am asking now. I know we are waiting for a 
decisionmaking process, which we are--suspected to get this 
month. And that is what we were told. And we haven't heard 
anything. So we are waiting--we are asking from you if you can 
give us any updates on that.
    Mr. Elwell. Yes, sir. I will get you an update on that. I 
am not familiar with that particular application and proposal, 
but I will certainly look into it and get back to you on that.
    Mr. Katko. Are you familiar at all with the NUAIR Griffiss 
test site?
    Mr. Elwell. I am.
    Mr. Katko. OK. How--what do you know about it?
    Mr. Elwell. I know--I believe, at least, a year or so ago 
Hoot Gibson was running a part of the operations there, and it 
is a colleague and a friend who I worked with at the FAA, I 
know that they have--I know--I am familiar with the corridor, I 
am familiar with the testing and the activities they are doing 
there.
    Mr. Katko. OK. Are you familiar with the application they 
put in a year or two ago for the integrated pilot program, and 
to be selected as one of the sites? And we have been, by far, 
the most well-funded site, and all had excellent ratings, and 
we didn't get it? Are you familiar with that process?
    Mr. Elwell. Well, sir, I know that--I remember the process, 
but I don't remember all of the individual applicants.
    Mr. Katko. Are you familiar with the second application 
that the Rome Griffiss made of the UTM pilot program, which we 
were already working on there, which was already well 
established?
    And again, we had superior marks on everything, and we 
didn't get that. Are you familiar with that process?
    Mr. Elwell. I am familiar with the--again, I am familiar 
with the UTM program, but I can't say that I am familiar with 
the details of that application of----
    Mr. Katko. Well, I would ask to get a quick response to my 
first question. That was when--we are waiting to hear on the 
application we have made.
    Mr. Elwell. OK.
    Mr. Katko. And I would like to get that quickly. But it 
brings up a broader point.
    This UAS testing is a very important thing to the future of 
our country. I also sit on the Committee on Homeland Security. 
And on Homeland Security, it is clear that the safety component 
and the antiterrorism component of what they are doing at 
Griffiss Rome is extremely important to the future of this 
industry.
    And it seems like some of the programs that FAA has rolled 
out, the testing programs, the pilot programs, have been 
influenced by things other than just getting the best possible 
sites to get the money. And I would ask that you take a look at 
that, and I ask that FAA take a look at that. Lord knows, they 
have heard from me.
    But it is concerning that, in such an important and vital 
program, that extraneous things seem to be influencing who gets 
test pilots and who gets priority in funding and priority in 
testing. And we have the best monied base, one of the best 
supported test sites in all the country. And we have been 
supported greatly by industry. And I ask that you take it a 
little more seriously, moving forward.
    Thank you, and I yield back.
    Mr. Larsen. Thank you. Before we move forward, just for 
those Members who are here in order on our side, we have Lynch 
and Garcia. And on the Republican side, Stauber, Massie, and 
Fitzpatrick.
    And before we go to Steve Lynch, I just want to ask Mr. 
Stauber if he wanted to get in on the who has the most snow in 
the world contest taking place in the committee.
    [Laughter.]
    Mr. Stauber. Mr. Chair, I was thinking the same thing, but 
I will yield back.
    Mr. Larsen. OK, great, all right. I will go with 
Representative Lynch from Massachusetts for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman and the ranking member, 
for this hearing. And thank you to the full committee chair, 
Mr. DeFazio.
    I do want to take a moment to recognize and acknowledge Ms. 
Nadia Milleron. She is the mother of Samya Stumo from my State 
of Massachusetts. By all accounts her daughter was a bright and 
remarkable young woman. She was tragically killed in the 
Ethiopian 737 MAX air disaster. She is here with other members 
of victims' families, and we are indeed grateful for their 
willingness to come forward and to hold people accountable in 
memory of their loved ones.
    Mr. Elwell, so I have to just take some exception to your 
description of the FAA's willingness to engage with the 
community, local communities. You know where this is going, 
right?
    In your response to Ms. Craig and Ms. Davids you talked 
about the way the FAA goes out and meets with local communities 
that are affected. And I have to tell you I have been here 18 
years. I have been looking for meetings probably for the last 
12. We have had one community meeting in my area, Logan 
Airport, in Milton. We got 700 people there. There was a 
Celtics game that night, and we still got 700 people there.
    People are--my phone blew up. When you were saying how good 
the FAA was with community engagement, my phone blew up. I know 
of the people in Milton and South Boston and Dorchester are 
throwing stuff at their TVs right now because of your 
statement. So that is totally false. That is totally false, and 
we need to do better, OK?
    I am not going to go further than that, but it is 
deplorable, your outreach. The only reason that we had the one 
meeting that we had--I put a floor amendment on to pull $25 
million from the last FAA authorization because you weren't 
doing outreach. And Mr. Shuster, who was the Republican chair, 
agreed with me. And then we had a meeting with the DOT 
Secretary, myself, and Mr. Shuster. And for $25 million, me 
withdrawing my amendment to remove $25 million from the FAA 
budget, they gave me a meeting. And I will do it again, if that 
is what it takes. But it shouldn't. It shouldn't.
    By the way, there is some good news from the FAA. Look, I 
was one of the people that sponsored this healthy study, 
because you are putting thousands and thousands of planes over 
the same houses in Milton, Massachusetts, and Hull in South 
Boston, and Dorchester. And I think it is impacting the health 
of my constituents. So we are going to do a study.
    We could do a meeting, a public meeting, and the FAA could 
come in and talk about their work with the Boston University 
School of Public Health. You know, Dr. Levy is running that. 
That is good news. You could talk about the fact that the FAA 
has funded--you didn't say this, but the FAA has funded the 
emissions study that we asked for for pollution over these 
homes. And also, the noise study. You have done that, as well. 
That is good news. You could come into my district and talk to 
my constituents and explain about the good things you are 
trying to do.
    But that is not the history we have had with you. It is 
like pulling teeth to get the FAA to come in and talk to 
people.
    I have to describe the attitude of the Boston office of the 
FAA is, you know, they treat us with contempt. They really do. 
They really do. And so people are upset.
    You have got some good news to tell of the things you are 
trying to do, you just need to tell them, come in and tell 
them.
    They yell at me, they will probably--you know, they will 
probably--the folks are pretty mad about what is going on, you 
know. You get thousands and thousands of flights over the same 
homes every single day, and that gets people upset.
    You have got a study in here to talk about dispersal. Let's 
talk about that. But, you know, we need to do better.
    Also, on behalf of my colleague, Ms. Eleanor Holmes Norton, 
who sits beside me--and she is also my cochair of the Quiet 
Skies Caucus--we have been trying to get the new Administrator 
for the FAA in to meet with the Quiet Skies Caucus for a while 
now. We sent a letter on August 5th, and we have not heard 
back. So we would really appreciate it if they would deign to 
just attend with us and talk about these issues.
    But I think that is all I have got, Mr. Chairman. But we 
really got to do much better. And I think I speak on behalf of 
my other colleagues that represent metro areas that have 
airports in them, that we really got to do a much better job 
with community communication between us and the FAA, OK? Thank 
you, I yield back.
    Mr. Larsen. Thank you, Mr. Lynch. I recognize 
Representative Stauber for 5 minutes.
    Mr. Stauber. Thank you very much, Mr. Chair. I appreciate 
you holding this meeting. I want to give you a scenario, and I 
will be--I think I could be pretty detailed on it to make my 
point.
    Let's say a husband and wife, four kids, one with special 
needs--let's say it is Down syndrome--the child is severe and 
profound, walks very slow, loveable kid. And that family 
decides to leave Duluth, Minnesota, let's say, to come to 
Washington, DC, for example. And the special needs child in 
that family walks slow, he is being pushed down the aisle. And 
the plane is delayed, the family has that connection in 
Minneapolis to come to DC.
    The plane is delayed, and the family were to ask the flight 
attendant, ``Can you help? We have a special needs child. We 
are delayed now.'' Is there some wheelchair accessible folks 
that can meet that family to get them--to make their flight to 
DC? And keep in mind this child walks slow, he walks at his 
pace. And the answer is, ``We are not sure.''
    So the family gets off the plane. They have got about 17 
minutes to get down to a gate that is in the different part of 
the airport. And they make their flight, barely. Mom and Dad 
are stressed. The other kids are frustrated. And so is the 
child.
    Can you imagine? I just gave you the scenario. Do you know 
who that family is? That is my family. The new Reauthorization 
Act requires the assistance of individuals with special needs 
to have the best practices. I would say, Mr. Szabat, please, as 
you put this forward, talk to the special needs community and 
those people with disabilities. They know the best and their 
families.
    With that being said, as the gentleman spoke earlier, FAA 
is doing some great things. I fly it every week. I see the 
successes. But please take that seriously, when there are 
suggestions, because the stress that my family was put under to 
make the inauguration of me, the swearing in, was critically 
important. And it was very stressful during that period of 
time, when we couldn't get that assistance we needed.
    And I am not blaming anybody, Mr. Szabat. I am telling you 
the experience from a Member of Congress on this subcommittee. 
I am so grateful to be here to share this with you, because I 
think personal stories matter. And I trust that you will take 
not only my concern, but the others' concern as you put in best 
practices for our special needs and disabled community.
    And with that I want to quickly ask what is--what are we 
doing--are you seeing some good suggestions coming forward to 
make it easier, less stressful, and to make it--the special 
needs population, where they are treated fairly and equally? 
Can you give me some ideas where you are at right now?
    Mr. Szabat. Thank you for the question, Congressman, for 
your obvious passion on the issue, and for your work and the 
committee's work of putting these provisions into the FAA 
reauthorization, both for wheelchair access and for trained 
service for the people who are required to take wheelchairs. 
Like you, we take these requirements seriously.
    With that, I want to turn this over to Assistant General 
Counsel Blane Workie, who is also our aviation consumer 
advocate, and has been working with advocates on this issues.
    Ms. Workie. Thank you for that question. I am very sorry to 
hear about what happened to your family, or any family that 
experiences that kind of difficulty in obtaining access when 
they travel. That is simply not acceptable.
    We enforce the Air Carrier Access Act, which prohibits 
discrimination against air travelers with disability. We 
investigate every disability complaint that we receive, and we 
send a response to the complainant, let them know how their 
complaint has been resolved.
    We also work very closely with the----
    Mr. Stauber. So I just have 30 seconds. What I am asking is 
do you have anything today on some best practices that you are 
implementing that--with the information you have? And I only 
have 20 seconds.
    Ms. Workie. Sure. So if you only have 20 seconds, I will 
say take a look at our website. We do have best practices 
available on our website, airconsumer.dot.gov. There is 
information on disability access.
    We are also going to be working on some of these issues 
with the Air Carrier Access Act Advisory Committee.
    Mr. Stauber. I look forward to the results, and thank you, 
Mr. Chair, for bringing up the special needs population in your 
opening statement.
    Mr. Larsen. You are very welcome. I now turn to Mr. Garcia 
for 5 minutes.
    Mr. Garcia. Thank you, Chairman and Ranking Member, as 
well. While I was not a Member of the Congress when the 115th 
Congress passed the long-term FAA reauthorization, I have 
followed its implementation.
    Mr. Elwell, Mr. Szabat, I understand that some of the over 
400 mandates in the FAA bill had short implementation 
timelines. Having said that, I am really concerned about the 
time it has taken to advance several safety provisions that I 
personally think ought to be advanced more quickly. I will just 
leave it at that.
    A question for Mr. Elwell. Before I get into the 2018 FAA 
bill I do want to ask you directly, like I did earlier this 
year, of safety workers testifying before this committee.
    In 2012 and 2016--twice, now--Congress directed the FAA to 
address safety gaps between domestic aircraft repair stations 
and foreign repair stations. The FAA is now more than 7 years 
overdue to create an enforceable rule to raise the standards 
for foreign repair stations regarding security background 
checks and alcohol testing. When will the FAA implement this 
rule?
    Mr. Elwell. Mr. Garcia, thank you for that question. 
Obviously, as testified before this committee on several 
occasions, it is a very, very complex rule, requires 
navigation. The law requires that we navigate the home country 
laws with regard to alcohol testing.
    But obviously, also, the beginning of this rulemaking and 
the law that was first passed predates me. And so, if you would 
permit, I would ask our expert----
    Mr. Garcia. Briefly, please.
    Mr. Elwell. Yes.
    Ms. Liu. Good afternoon, sir. So we did actually publish an 
ANPRM, an advanced notice for proposed rulemaking in 2014. We 
were seeking comments on how we would implement the provision 
because of the complexity of working with the various 
international partners.
    We were able to get some information on cost-benefit 
analysis, as well as the systems that are in place in the 
foreign locations where we have repair stations that are 
certified.
    I think we have drafted an ANPRM. It is actually in 
coordination. It is not easy to draft a rule of general 
applicability with the various international frameworks that 
are existing related to drug and alcohol testing. So I would 
say that it is a rule that we have drafted. We hope to move it 
through the executive coordination, so that we can publish that 
notice for comment, so that we can gather some more 
information, so that we can prepare for the implementation.
    However, in the meantime, I think we have made improvements 
to address the risk. Under part 145 certification, which is for 
the repair station, we actually established an MOU with TSA and 
the FAA in the background checks, so that we can address the 
security aspects of those people. We may not be able to look at 
drug and alcohol, but we can look at the security application, 
based on their background checks.
    And also, as a 121 operator, which is an air carrier 
operator, they--has the responsibility to have a safety 
management system. Any part of their system which could include 
repair station certifications, if they would be utilizing 
through contractual benefits, they are responsible to address 
any risks that they would see there, and ensure that they 
mitigate that risk.
    Mr. Garcia. OK, thank you. I think that will suffice for 
now, because my time will run out if I let you continue.
    On the topic of safety, in the 2018 bill the questions of 
minimum seat size, distance between rows, safety, and 
evacuation times has been addressed by Chairman DeFazio. I 
thank him for that.
    The third question, Mr. Elwell, after leaving them out in 
the 2012 bill, the 2018 FAA bill instructed the Department of 
Transportation to implement a 10-hour rest period for flight 
attendants. Mind you, these flight attendants can often work up 
to 16-hour shifts, and the rest period does not take into 
account time for deplaning to get to and from hotel to actually 
rest.
    The DOT missed the statutory deadline to implement the rule 
by November 4 of 2018, and did not even begin a formal process 
until February of this year. I understand you may be starting 
action now. What took so long, and why did DOT feel the need to 
do a full comment period when the law this body passed gave no 
discretion to augment how the regulation should be written?
    Mr. Elwell. Well, sir, thank you for that question. As we 
talked about this earlier, the law was clear. However, it did 
not absolve us of the responsibility to do notice and comment. 
And for a rule that does not impose directly on the operators, 
FAA has no choice but to go through rulemaking, and notice and 
comment, and benefit-cost analysis, which is the biggest reason 
why it has taken so long.
    But, as we mentioned earlier, sir, the fatigue risk 
management plans are being submitted at a good clip by the 48 
different carriers that have flight attendants, and that is--
meets the need while we go through this rulemaking period.
    Mr. Garcia. Thank you. I yield back, Mr. Chair.
    Mr. Larsen. Thank you. Before we go to Mr. Massie and Mr. 
Fitzpatrick--those are the only two Members I have left, 
barring any other Members who come--I do plan to take a 5-
minute break to reset the panelists.
    However, if folks who are on the second panel want to take 
an opportunity now for a comfort break, the timing is about 
right. So if folks want to think about that--but we will be 
taking a 5-minute break between panelists.
    And with that I will turn to--I think Mr. Massie is next.
    Mr. Massie. So I am the only thing standing in between them 
and their break?
    Mr. Larsen. You can handle the pressure, Tom.
    Mr. Massie. All right. Maybe I will get quick answers.
    Mr. Elwell, I am glad to see a pilot in your position, a 
commercial pilot. I am sure that is helpful to the taxpayers 
and to all of us, to have your view of things.
    I want to focus on the data communications portion of 
NextGen, and the implementation of that. Specifically, the 
controller-pilot data link. Can you talk about the benefits of 
that, and the projected benefits, and what some of the benefits 
are we have seen?
    Mr. Elwell. So thanks for that question. CPDLC, controller-
pilot data link communications, actually was--the test base for 
that was Miami and the 757, when I was flying the 757 for 
American. So I am proud to be----
    Mr. Massie. I thought you might have some relevant 
experience.
    Mr. Elwell. Yes. So I am proud to be one of the first 
pilots to tear off that strip of paper from the controller 
saying to climb to 16,000.
    And so--but that--I don't mean to be light about that. The 
DataComm, as it is called now, has huge benefits, especially--
we implemented it over 50 towers on the surface, because, 
instead of sitting there for 20 minutes, waiting to get a word 
in edgewise at a very, very busy airport, you just get a 
display of what your clearance is, you push a button, you 
accept it. It vastly eliminates read-back and transcription 
errors. And, of course, in efficiency and time, not having the 
chatter on the radio cleans up the radio. Situational awareness 
is enhanced. I could go on for a long time about the value of 
it.
    And I know where you are going. If you want me to help on 
CVG----
    Mr. Massie. Yes, that is exactly where I am going, because, 
also, fuel savings and safety are benefits of that system.
    But what I am told by people who like the system--and they 
say it is a bright spot, actually, in the NextGen 
implementation--that there are some less bright spots and some 
delays here and there, but--and this is one example where it 
has been helpful.
    Mr. Elwell. Yes.
    Mr. Massie. And I am told at the CVG Airport--and then I 
will open up and let you tell me if this is true--that they 
have already made the capital investment to implement this, and 
that most of the planes that land and take off there have made 
that capital investment on their own.
    And just for your information, which I am sure you probably 
are already aware of, the CVG Airport, cargo has doubled there 
in the past 5 years. Amazon located their hub there, DHL moved 
their hub there. Passenger flights originating there have 
doubled in the last 5 years. And what they are wondering is 
when can they turn that on, because it is--and I will open it 
up to you.
    Mr. Elwell. Yes, sir. I am well aware of that, and CVG has 
had exciting growth, and they have--importantly, have the 
capacity for that growth, so it is a good thing to see.
    One of the criteria for doing and putting DataComm into an 
airport is to assess the equipage rate by all operators at it. 
Because if you don't have the equipage critical mass, then 
turning it on doesn't make much sense. So we are in the process 
of looking at that. And once we have the capabilities in the 
tower, and we have the equipage on the ground, I don't see a 
reason why we wouldn't turn it on.
    So we will get back to you. If there is something that 
either--CVG can help us to get there, we will let you know. But 
I agree, it is the right thing to do, and in every place we can 
do it, we are trying to do it.
    Mr. Massie. Obviously, the air traffic controllers would 
need some training on it, but the capital investment is just 
sitting there, unused. That is the capital investment that the 
taxpayer or the feepayers at the airports have made.
    And then entire fleets there have this technology already 
in their planes. They were told, ``You make this investment, 
then FAA will uphold its side of the deal, and you will reap 
these benefits.'' And so they have made those investments, the 
FAA has made those investments. And it is --I mean the volume 
there, I think, easily justifies it. Now, maybe it didn't 5 
years ago, when the plan was put forward, but of the--I mean I 
am glad there are 62 airports that have it. Please get back to 
me and let me know when you think we can get that at CVG.
    We are a little bit--I am a little bit concerned that the 
focus has already moved on to phase 2, which is the en route 
system. But that is a little--having a little rockier roll-out. 
Why don't we go ahead and get some of the benefits of the 
system? We know it works at other airports.
    So thank you very much for your time, thank you for being 
aware of that situation.
    Mr. Elwell. Yes, sir.
    Mr. Larsen. Thank you, Representative Massie. I recognize 
Representative Fitzpatrick for 5 minutes.
    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    Mr. Elwell, the question that I have for you pertains to an 
issue myself, my Democratic colleague, Josh Gottheimer, and 
many, many of my Democratic and Republican colleagues both in 
the House and the Senate care deeply about: the issue of 
secondary barriers.
    Ellen Saracini--she is with us here today--is the widow of 
Victor Saracini, a constituent of mine who was the pilot of 
flight 175 that flew into the South Tower of the World Trade 
Center at 9:03 that morning. And last year Congress passed the 
FAA Reauthorization bill, including section 336, named the 
Saracini Aviation Safety Act of 2018, which mandated secondary 
barriers in the cockpit of all new aircrafts.
    The mission is not complete until we get retrofitting. We 
will not stop until we get secondary barriers in every single 
aircraft that carries passengers. It is one of the few, if not 
the only 9/11 Commission report yet to be implemented 18 years 
after 9/11. The deadline is coming up for the implementation of 
secondary barriers. And where does the process stand, and what 
has caused the slow progress on implementation?
    Mr. Elwell. Well, sir, thank you for that question. And as 
someone who was intimately familiar in 9/11 as a DC-based pilot 
with American Airlines at the time, and someone who knew the 
entire crew of flight 77, I can connect very strongly to this 
effort. We are committed--I personally am committed--to seeing 
that it gets done, and consistent with the law.
    And to answer your question, right now the Aviation 
Rulemaking Advisory Committee has this task to provide comment. 
And I know that we have had this discussion, we have gone back 
and forth a few times. Rulemaking is required. It just--it is 
just--it just is. Rulemaking is required for the secondary 
barriers. And we have begun that process, and we will see it to 
its conclusion. And it will apply to new production, and--but 
we have to do it safely, we have to do it by the law with notes 
and comment, and--but it--but we are going to get it done.
    Mr. Fitzpatrick. Do you anticipate that it will be done by 
the deadline?
    Mr. Elwell. I am sorry, the question is by the 18-month 
deadline?
    Mr. Fitzpatrick. Correct.
    Mr. Elwell. So we won't have the rulemaking done by that 
deadline.
    Mr. Fitzpatrick. Do you know when it will be done?
    Mr. Elwell. Well, sir, we will work as expeditiously as the 
rulemaking allows. Rulemaking, once--the issue, of course, is 
giving enough notice and comment time for each stage of the 
process, which is what always elongates rulemaking. And I 
can't--it is--I can get back to you on a more granular 
prediction, but I don't have one right----
    Mr. Fitzpatrick. Please do, sir.
    And, Mr. Chairman, I would like to ask unanimous consent to 
enter into the record a letter written by Ms. Saracini to this 
committee.
    Mr. Larsen. Without objection, so ordered.
    [The information follows:]

                                 <F-dash>
  Letter of September 26, 2019, from Ellen Saracini, Widow of Captain 
Victor J. Saracini, United Flight 175, Which Struck the South Tower of 
the World Trade Center on September 11, 2001, Submitted for the Record 
                      by Hon. Brian K. Fitzpatrick
                                                September 26, 2019.
Chairman Larsen and Ranking Member Graves,
House Aviation Subcommittee,
U.S. House of Representatives, Washington, DC.
    Dear Chairman Larsen and Ranking Member Graves,
    Late last year, the Congress passed the FAA Re-authorization Bill, 
including section 336, named the Saracini Aviation Safety Act of 2018 
which mandated secondary barriers in the cockpit on new aircraft.
    The law required the FAA to report back to Congress by Oct 6, 2019 
how they were going to implement this important new security 
enhancement. Now, with less than a month before the due date, the FAA 
has just recently selected the working group but today has no meetings 
scheduled, making it nearly impossible to meet the Congress mandated 
timeline. How can this be allowed? Instead of moving forward on 
protecting Americans, the FAA will once again drag their feet and ask 
for an extension.
    America just commemorated the 18th anniversary of the terrorist 
attacks on September 11, 2001. At the core of our commercial aviation 
security failures was an acknowledgment of the vulnerability of 
airplane flight decks. Congress spoke, passed laws meant to secure our 
aircraft, but key weaknesses still exists. The known vulnerability to 
the flight deck during door transition, was never resolved. The fact 
that we have installed an impenetrable cockpit door that still opens 
unprotected during flight, validates this truth. The vulnerability 
remains and now we cannot protect the cockpit if breached and a 
terrorist closes the door behind them. After 18 years, a comprehensive 
RTCA study and an FAA Advisory Circular certified this vulnerability, 
we are still exposed to a 9-11 type attack. And now, a year after 
passage of this bill, this vulnerability still exists and we are no 
closer to protecting our crews and passengers than we were 18 years 
ago.
    Why? Why would the FAA apparently thwart the will of Congress by 
not doing their job? Why would the FAA fail to act when the RTCA 
Committee made it clear that current flight deck protection procedures 
don't work? Why would they water down interpretation of AC 120-110 to 
the point of irrelevance? Why would they only ``suggest'' we hold off a 
200-pound intruder for 5 seconds, but do nothing to regulate this, when 
they know it is not being adhered to and when they know that the most 
robust procedures currently used will not thwart off an attack unless 
we use a secondary barrier? Why would the industry's trade association, 
A4A, fight so hard to keep from closing up this vulnerability to the 
flight deck?
    What is Congress prepared to do to make sure its will is respected? 
How many delays will be tolerated as the FAA fails at doing as directed 
by Congress? Who will be held accountable? Clearly Congress should not 
consider that the FAA actually would do their job with passage of a 
bill mandating secondary barriers only on newly manufactured airplanes. 
Even when the FAA reluctantly implements this law, there will still be 
the issue of the vulnerability to the thousands of existing airplanes 
that will not be required to install secondary barriers, until Congress 
decides to finish the job they set out to do 18 years ago and 
``prohibit unauthorized access to the airplane cockpit''.
    In the 9/11 Commission report, the authors expressed the essence of 
the Nation's failures that led to 9/11. They called it, ``a failure of 
imagination''.
    This known vulnerability remains. The obvious fix, secondary 
barriers on every commercial airplane, still eludes us. What will our 
excuses be next time airplanes are used as a weapon of mass 
destruction? Will we be able to live with these excuses? I know 2,977 
innocents who didn't have that luxury. I know 2,977 families that just 
might feel that their loved one died in vain, and that our own country 
failed to protect its innocent citizens from a repeat attack.
    On September 11, 2001, an infamous day in our history, 19 Islamist 
extremists took advantage of the many weaknesses and loopholes we had 
in our Visa systems, Federal law enforcement and intelligence 
capabilities, and in particular, weaknesses in our aviation security 
systems. By simply observing our vulnerabilities, they executed a 
devastating attack on our Nation. Our collective failure to protect 
America led to the murder of 2,977 innocent citizens. And our enemies 
danced in the streets, we shouldn't act as if we'd allow that to happen 
again.
    Congress, the power is in your hands. Please don't wash your hands 
of this responsibility with the blood of my husband, 2,976 other 9/11 
victims, and potential future innocents. America is watching, and 
inaction could carry dire consequences for us all.
        Respectfully,
                                            Ellen Saracini,
Widow of Captain Victor J. Saracini, United Flight 175 that struck 
the South Tower of the World Trade Center on September 11, 2001 at 
                                                            9:03AM.

        Excerpt from: A Congressional Mandate

        On Nov. 19, 2001, the U.S. Congress enacted the Aviation and 
        Transportation Security Act (ATSA), which directs the FAA to 
        take action to improve airplane security both immediately and 
        in the long-term. The law gives the FAA the authority to carry 
        out the ATSA's directives.

        The ATSA required that ``as soon as possible'' the FAA prohibit 
        unauthorized access to the airplane cockpit control authorized 
        access to the cockpit, require strengthening of the cockpit 
        door and door locks to ensure that the door cannot be forced 
        open from the passenger cabin, require that flight deck doors 
        remain locked during flight, and prohibit the possession of a 
        key to the cockpit door by anyone not assigned to the cockpit.

    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    Sir, one last question regarding drones. The United States 
has already fallen behind the rest of the world when it comes 
to unmanned aircraft systems technology. And these regulatory 
delays are stifling innovation and investment.
    What are the reasons for the FAA's delays in this area? And 
can you commit to the committee today that the FAA will stick 
to its current schedule and complete these rulemakings as 
expeditiously as possible?
    Mr. Elwell. Yes, sir. We are working on all of the 
rulemakings, and getting them done as quickly as we possibly 
can.
    But I would tell you I don't ascribe to the statement that 
we are falling behind other countries. There is no other 
country that can compare to rule 107. There is no other country 
that gives the waivers that we have given, or is doing the 
pilot programs that we have which integrate--and this is the 
most important distinction we need to make, sir. Other 
countries are primarily doing operations in the way of 
segregating UAS from the rest of the NAS, or the rest of the 
airspace.
    We are going in with the assumption that our UAS in the 
U.S. will be integrated. It is a much more complex endeavor. 
And--but I wouldn't characterize it as us falling behind. We 
are tackling larger issues in the most complex--largest and 
most complex airspace in the world.
    Mr. Fitzpatrick. My time has expired, Mr. Chair. I yield 
back.
    Mr. Larsen. Thank you. I recognize Representative Norton 
for 5 minutes.
    Ms. Norton. Thank you very much. I am sorry I couldn't be 
here for the entire hearing. I am pleased I could be here for 
part of it. And I do want to ask a question that I think is 
probably more relevant to my colleagues than to me. I may be 
the only of my colleagues who doesn't have to get on an 
airplane every week. I just go nine blocks to Capitol Hill, 
where I live.
    But I read recently something that troubled me a great 
deal. It--there were incidents where the planes came down 
safely--I was pleased to hear that--but passengers had to 
evacuate the airline.
    Now, under the existing regulations, you are supposed to 
evacuate aircraft within 90 seconds. That is a very short 
period of time after a plane goes down. But what these 
incidents reported, or what the press reported, was that, as 
people were trying to get out of the airline, they were 
grabbing their carry-on baggages and, obviously, thereby 
slowing up evacuation. That can be a life-and-death matter. You 
got your baggage, but you don't survive.
    Our authorization does ask the FAA--of course, you haven't 
had time to fully assess, but it asks the FAA to assess and 
report to Congress on whether the assumptions and methods 
certifying compliance with evacuation requirements should be 
revised.
    Mr. Elwell, I am bringing that up because already it seems 
to me that some revision should occur. And I understand that 
the FAA has initiated a rulemaking committee to address this 
issues. I would be very interested, given recent events, to 
know the status of that mandate you apparently are working on 
now.
    Mr. Elwell. Thank you, Ms. Norton, for that question. We 
have created an Emergency Evacuation Standards Aviation 
Rulemaking Committee, ARC, and its first meeting is in a matter 
of weeks, I believe. And we are going to use the ARC, which, of 
course, as you know, is a gathering of stakeholders and 
industry experts, for their comment and their advice on how to 
go forward.
    We have been having an active conversation with this 
committee, and with our stakeholders, and I can't remember if 
you were here when we talked about ground evacuation live 
tests. We have 12 days of testing that is scheduled for 
November. I believe it starts November 3rd or 5th through 
December. We are going to have 12 days. We have 720 folks that 
are going to participate. We are going to gather over 3,000 
data points.
    To your point, it is to--and I agree, and agree with 
Chairman DeFazio--it is a priority of his, as well--we need to 
look at evacuation and make sure that we have all the right 
assumptions, and to ensure that in these instances folks can 
get out of airplanes in emergencies.
    Ms. Norton. I wasn't here, and didn't hear that, 
essentially, this is going to be testing these assumptions, 
with people getting on and off airplanes?
    Mr. Elwell. Mm-hmm.
    Ms. Norton. Because my last question was going to be where 
did 90 seconds come from. One of the things I will be 
interested in is whether or not anybody tested to see whether 
it is realistic to believe that people--a full airplane can get 
off in 90 seconds, and if that was just pulled out of the air, 
or if it was based on testing.
    Mr. Elwell. I can get back to you on the assumptions, of 
the original assumptions of the 90 seconds. Of course, the 
assumptions of getting off an airplane have to do with 
flammability, survivability, cabin filling with smoke or not, 
and every incident is different, of course. Ninety seconds 
could be more than enough in some instances, or nowhere near 
enough. Or the accident or the incident could be such that you 
have all the time in the world. And other times it is just a 
matter of seconds.
    So it is very complex, which is why we have formed the ARC, 
which is why we have asked industry experts to give us advice 
on what we need to be looking at. We want to look at the right 
things, and we want to do it expeditiously. But we want to make 
sure we are answering the right questions.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Larsen. Thank you. I recognize Mr. DeFazio.
    Mr. DeFazio. Oh, thanks, Mr. Chairman. I will make this 
brief.
    I appreciate the amount of time that you have given, but 
you won't be here for the second panel, and this goes back 
again to the secondary barriers. And this is in the testimony 
from ALPA. And it--I was not aware of this, that you had 
already--the FAA has previously developed and published 
guidelines for secondary barriers using RTCA, a private, not-
for-profit corporation, that contained design characteristics, 
minimum performance criteria, installation and certification 
guidance. And it is DO3292011.
    And, you know, that seems like maybe we don't need to go 
through a whole new evaluation process, and we can rely on that 
and then move forward.
    Mr. Elwell. Was that a question, sir?
    Mr. DeFazio. Well, I guess. I mean are you aware of that? 
And is there----
    Mr. Elwell. No, sir. We are very aware of 329. In fact, 
that is what has--since 2011, that is what the airlines are 
adhering to, the guidance that--when you did the example of the 
flight attendant standing behind the cart, that is part of 
D0329 guidance.
    Mr. DeFazio. Right, but he--ALPA is saying that it has 
actual design characteristics, minimum performance criteria, 
and installation and certification guidance for secondary 
barriers, not flight attendants behind food carts.
    I don't know, I am not familiar with the document, but I 
would suggest that we will get the document, we will review it, 
and I would suggest that perhaps, you know, there is more in 
there than menacing-looking flight attendants behind food 
carts. So thank you.
    Thank you, Mr. Chairman.
    Mr. Larsen. Thank you, Mr. Elwell and Mr. Szabat and your 
team. I thank the teams. Thank you very much for testifying 
today. You can tell by the breadth of the questions there is a 
lot of interest in the full implementation of the bill we 
passed last year, not partially.
    And you can also tell by the urgency of the questions the 
impatience about the timelines. And so we ask you to keep us 
informed of meeting the timelines that we have asked you to set 
out, and--on a variety of issues.
    So thank you. And, with that, we are going to recess for 5 
minutes. And we will get the room reset. Thank you.
    We are in recess for 5 minutes.
    [Recess.]
    Mr. Larsen. I will call us back from break for the second 
panel. I want to thank the panelists for your patience. As you 
can tell from the first panel, from our Members, there is a lot 
of interest in practically every part of the bill that we 
passed last year. And that is actually good news. So I 
appreciate you being here and hanging with us, and for your 
patience. I am looking forward to your testimony.
    And rather than go through biographies, I am sure--for the 
record, I will just put that in later. I think I am allowed to 
do that. And we will start with Sara Nelson, with AFA-CWA. You 
are recognized for 5 minutes.

TESTIMONY OF SARA NELSON, INTERNATIONAL PRESIDENT, ASSOCIATION 
OF FLIGHT ATTENDANTS--CWA, AFL-CIO; CAPTAIN BOB FOX, FIRST VICE 
PRESIDENT, AIR LINE PILOTS ASSOCIATION, INTERNATIONAL; GREGORY 
 S. WALDEN, AVIATION COUNSEL, SMALL UAV COALITION; MARK BAKER, 
  PRESIDENT AND CHIEF EXECUTIVE OFFICER, AIRCRAFT OWNERS AND 
   PILOTS ASSOCIATION; JOHN BREYAULT, VICE PRESIDENT, PUBLIC 
   POLICY, TELECOMMUNICATIONS, AND FRAUD, NATIONAL CONSUMERS 
   LEAGUE; AND DAVID ZURFLUH, NATIONAL PRESIDENT, PARALYZED 
                      VETERANS OF AMERICA

    Ms. Nelson. Thank you, Chairman Larsen, Chairman DeFazio, 
Ranking Members Graves and Graves, as well. But I would like to 
recognize Congressman Fitzpatrick, who is sticking with us.
    So, first of all, I would like to thank this committee for 
the extraordinary work that you did with all of the 
stakeholders to get a long-term FAA reauthorization bill 
passed. It had been a long time since that had happened, and 
everyone came together, and the votes that you received--we 
were 393 in the House and 93 in the Senate. This was a clear 
mandate to move forward with very important safety provisions 
for our aviation system. And among those was our issue of 10 
hours' rest for flight attendants.
    Now, this was an issue of safety, health, and equality. 
Safety. We had been raising the flag on this issue for more 
than 30 years, identifying flight attendant fatigue, getting 
through other FAA reauthorization bills the commission of 
fatigue studies--seven, in fact--that determined that flight 
attendant fatigue does exist, and the best way to combat it is 
rest. And yet still here today, we don't have that in place.
    Health. Harvard conducted a flight attendant health study, 
and the results of those studies were published in the summer 
of 2018. It determined that flight attendants have, on average, 
between 50 and 400 percent greater rates of cancer than the 
public, even though they are a more healthy population. And one 
of those factors that contributes to cancer, to the greater 
rates of cancer, is interrupted rest.
    Equality. We are the only country in the world with 
aviation regulations that do not harmonize flight attendant and 
pilot rest. This is an issue of equality.
    So we worked with you very closely to write language that 
would make it very clear and very simple. And I believe you 
were very clear with the Deputy Administrator earlier that it 
was intended that the rule would be changed within 30 days. 
Simply changing one character, 8 hours, to a two-character, 10 
hours, to address flight attendant fatigue. The major 
mitigating factor that can address flight attendant fatigue is 
by increasing that minimum rest by 2 hours.
    For whatever reason, that did not happen. We had a 
Government shutdown. We had a grounding of the 737 MAX. And 
just now, right before this hearing, days before this hearing, 
we have an announcement of a rulemaking.
    Now, I appreciate the attention of the newly confirmed 
Administrator Dickson on this issue. But there is not a need 
for a rulemaking on this. This has been litigated. It has been 
heard. It has been studied. There is a determination that this 
is a safety loophole in our aviation system, and it needs to be 
fixed.
    Flight attendants do not understand how you can write such 
clear language and not get this in place. We have been 
negotiating with the airlines to put this in place in the 
meantime, and we have successfully negotiated three new 
contracts that have the 10 hours' rest. In each of those 
contract negotiations at Miami Air, Frontier, and PSA, the 10 
hours' rest was implemented within a matter of weeks, and there 
was no cost associated with it in the negotiations.
    Delta Airlines, hours after the rulemaking process was 
announced, announced that they would be implementing the 10 
hours' rest, as is defined in the law, by the February bid 
month--this coming February bid month--demonstrating that this 
can be done in a very short period of time. This is not 
complicated.
    We still have flight attendants who are out there reporting 
to us that they have forgotten how they traveled home, how they 
drove home from their trip. They were pulled over by the police 
saying that they were driving as though they were impaired, 
when only moments later they were conducting very serious 
safety functions that the FAA currently says they were safe to 
perform, but they were impaired.
    Others have written to us, ``Why do we have to go through 
drug testing, when the FAA has rest rules that has us impaired 
doing our work?''
    Others say, ``I had a medical emergency onboard. I had a 
long day and a short night. And thank goodness there were 
medical personnel onboard, because I didn't have the mental 
capacity to address this, or to address the conflicts between 
passengers, or to conduct CPR to save a life.''
    This is serious. We are safety professionals. We are 
aviation's first responders. Fatigue exists. You gave very 
specific instruction to the FAA, and this needs to be 
implemented right away.
    Now we are talking with the FAA. This rulemaking will move 
forward, but we would ask that you do everything in your power 
to get this to be expedited. I did hear the Deputy 
Administrator talk about an emergency order of rulemaking. And 
this seems to be a topic that is ripe for that.
    So thank you very much. I would like to talk on many more 
provisions, and answer your questions throughout the testimony.
    [Ms. Nelson's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Sara Nelson, International President, Association 
                   of Flight Attendants--CWA, AFL-CIO
    Chairman Peter DeFazio, Chairman Rick Larsen, Ranking Member Sam 
Graves, Ranking Member Garret Graves and Members of the Committee:
    My name is Sara Nelson, International President of the Association 
of Flight Attendants--CWA, AFL-CIO (AFA), representing 50,000 Flight 
Attendants at 20 airlines. Thank you for the opportunity to testify 
today on the status of implementation of the FAA Reauthorization Act of 
2018 (``Act''). This committee deserves tremendous credit for ushering 
the bill to overwhelming bipartisan support. It is nearly a year ago, 
on October 5, 2018, that this comprehensive legislation with long-term 
funding containing dozens of important safety provisions and 
initiatives for U.S. aviation became law. Our union counts eighteen key 
items in the bill specific to the work of Flight Attendants and safety 
in the aircraft cabin. Chief among these items and included in my 
testimony today are efforts to combat Flight Attendant fatigue with 
improved rest, a study of evacuation certification standards in the 
reality of today's aircraft cabin, installation of flight deck 
secondary barriers, and addressing the troubling rise of assaults 
against customer service agents.
     Fighting Flight Attendant Fatigue with Increased Minimum Rest
    Flight Attendant rest is a safety issue. It also affects Flight 
Attendant health. Further, it is an issue of equality. As a refresher 
for lawmakers and regulators we will include the details that 
determined the need to close this safety loophole in the Act, while 
first addressing the status of implementation and need to act quickly 
on implementing the law.
    The Act provided specific instruction on implementing increased 
minimum rest for Flight Attendants.

      SEC. 335. FLIGHT ATTENDANT DUTY PERIOD LIMITATIONS AND REST 
REQUIREMENTS.
       (a) MODIFICATION OF FINAL RULE.--
        (1) IN GENERAL.--Not later than 30 days after the date of 
enactment of this Act, the Secretary of Transportation shall modify the 
final rule of the Federal Aviation Administration published in the 
Federal Register on August 19, 1994 (59 Fed. Reg. 42974; relating to 
flight attendant duty period limitations and rest requirements) in 
accordance with the requirements of this subsection.
        (2) CONTENTS.--The final rule, as modified under paragraph (1), 
shall ensure that--
         (A) a flight attendant scheduled to a duty period of 14 hours 
or less is given a scheduled rest period of at least 10 consecutive 
hours; and
         (B) the rest period is not reduced under any circumstances.

    The intent of this language was to implement the rest without a 
rulemaking process in order to close the safety loophole of Flight 
Attendant fatigue as quickly as possible. The change to the duty and 
rest rules is singular, only increasing minimum domestic rest from 8 
hours to 10 hours. There is no change to duty limitations or extensive 
rules such as the FAR 117 that provided comprehensive duty, rest, and 
flight time limitations for pilots. It was understood that FAA would 
allow a normal implementation period for airlines and direct carriers 
to comply with the new rest provision by a date certain, typically 
allowing a six-month implementation. Flight Attendants therefore 
expected the 10 hour minimum rest to be reflected in schedules and the 
operation by approximately May of 2019. That did not happen.
    We have heard that a few airlines mounted significant opposition to 
the implementation and argued to the FAA that the minimum rest would be 
too costly and difficult to implement. These arguments were, in our 
view and experience, without merit. Further complicating efforts to 
press for implementation of the rest provision was the 35-day 
Government Shutdown that halted all progress, as well as the grounding 
of the Boeing 737 MAX.
    In the interim, AFA pressed airlines to comply with the law's 
intent. Where we were involved in contract negotiations, we locked in 
the provision as defined by the law. This was relatively simple to 
achieve as airlines recognized that this would become the required 
standard across the industry once the FAA implemented the law and 
enforced the regulation. Specifically, Frontier Airlines, PSA Airlines, 
and Miami Air International have ratified agreements with rest that 
mirrors the Act since the October 5, 2018 signing. Other airlines where 
negotiations are on-going have also already agreed to mirror the rest 
provided by the Act.
    Frontier Airlines, an ultra low cost carrier with nearly 2500 
Flight Attendants, agreed to include the 10 hours irreducible rest in a 
contract that was ratified on May 15, 2019. The airline was able to 
implement the new rest rule by the July schedule month, less than six 
weeks later. The company did not mention a specific cost for this as it 
was rolled into the overall cost of the contract.
    PSA Airlines, a regional airline with 1300 Flight Attendants, also 
agreed to 10 hour minimum rest language that mirrors the Act. The 
contract was ratified July 15, 2019 and the new rest rules were fully 
implemented in schedule and operation on September 1, 2019. PSA 
management did not give this improvement any incremental cost during 
negotiations.
    Miami Air, a charter airline with approximately 100 Flight 
Attendants, agreed to language that mirrors the Act also. This contract 
was ratified on October 12, 2018 and the rest provision was implemented 
within a month. The airline did not assign a cost to this change during 
negotiations.
    Horizon Air, a regional airline with approximately 500 Flight 
Attendants, agreed outside of contract negotiations to implement the 
rest as defined by the Act.
    Alaska Airlines, jetBlue, Omni Air, Silver Airways, Southwest, and 
United Airlines all schedule at or over the 10 hours minimum rest, but 
based on either the Flight Attendant or company discretion the rest can 
be reduced in the operation.
    Most regional airlines that do not have contractual 10 hour minimum 
rest are already bidding schedules with 10 hour rest because the 
airline schedules the Flight Attendants with the pilots to avoid 
operational issues. Examples of this are Piedmont Airlines, Mesa 
Airlines, and Envoy Airlines.
    However, language in an airline contract can be negotiated away or 
worse. We know through experience that when an airline faces serious 
financial challenges, management uses bankruptcy as a business model, 
to ask a judge to abrogated contracts. If the DOT and FAA do not change 
minimum rest standards as written in the Act, Flight Attendants will 
never be assured 10 hours rest.
    Recently confirmed FAA Administrator Steve Dickson assured AFA and 
lawmakers he would make implementation of 10 hours rest a priority. On 
September 6, 2019, under his leadership the FAA took a public step 
forward announcing an Advance Notice of Proposed Rulemaking (ANPRM) for 
implementing the 10 hours minimum rest. Within hours, Delta Air Lines 
announced (see Appendix 1) they would implement the rest as defined by 
the Act with the February 2020 bid month--demonstrating the truth that 
all airlines can do this within a few months' time.
    The Office of Management and Budget (OMB) has cleared the ANPRM. 
While we do not believe that a rulemaking process is necessary or 
consistent with the Act, we do want to acknowledge the effort on the 
part of Administrator Dickson and FAA staff to take definitive steps to 
move forward with implementation of the 10 hours irreducible minimum 
rest. We urge the FAA to move with urgency through this process to 
conduct fact finding expeditiously through the ANPRM in order to issue 
the final rule as soon as possible.
    AFA will continue to work with FAA to provide all necessary data to 
expedite the final rule. While we are heartened by the efforts of 
Administrator Dickson, we urge Congress to do everything in its power 
to support expediting the process. The reality is that rulemaking can 
be a lengthy process and critical safety issues should be on a 
different track for implementation.
    Flight Attendants are daily experiencing reduced rest and the 
difficulty of performing our safety and security sensitive duties while 
fatigued. In a May 2019 AFA survey that included nearly 20,000 
responses from Flight Attendants at 30 airlines, implementation of the 
10 hour irreducible minimum rest continues to be the overwhelming 
regulatory priority for Flight Attendants. We continue to receive 
reports of rest reduced to the 8 hour FAA minimum between extremely 
long duty days. This is a critical issue of safety that needs to be 
fixed now.
Background on Flight Attendant Fatigue, Health, and 10 Hour Rest Equal 
                               to Pilots
    In 1994, the FAA promulgated the first rule for Flight Attendants 
setting minimum duty period limitations and rest requirements. The FAA 
stated the action was necessary to ensure Flight Attendants would be 
rested sufficiently to perform their routine and emergency safety 
duties. Until that time, unlike pilots, dispatchers, air traffic 
control operators and maintenance technicians, Flight Attendants were 
the only safety-sensitive aviation group that had no regulations with 
respect to flight or duty limitations and rest requirements.
    In 2005 and 2007 Congress directed the FAA's Civil Aerospace 
Medical Institute (CAMI) to conduct a series of fatigue studies for 
Flight Attendants.
    The Omnibus Appropriations for FY '05 contained an appropriation 
for $200,000 directing the FAA to conduct a study of Flight Attendant 
fatigue. The FAA was to report back to Congress by June 1, 2005 with 
their findings.\1\
---------------------------------------------------------------------------
    \1\ United States, Congress, House, Committee on Appropriations, 
Department of Transportation and Treasury and Independent Agencies 
Appropriations Bill, 2005. 108th Congress, 2nd session, House Report 
671. Page 18
---------------------------------------------------------------------------
    Report language stated: ``The Committee is concerned about evidence 
that FAA minimum crew rest regulations may not allow adequate rest time 
for flight attendants. Especially since the terrorist attacks of 
September 11, 2001, the nation's flight attendants have been asked to 
assume a greater role in protecting the safety of air travelers during 
flight. Current flight attendant duty and rest rules state that flight 
attendants should have a minimum of 9 hours off duty, that may be 
reduced to 8 hours, if the following rest period is 10 hours. Although 
these rules have been in place for several years, they do not reflect 
the increased security responsibilities since 2001, and only recently 
have carriers begun scheduling attendants for less than 9 hours off. 
There is evidence that what was once an occasional use of the `reduced 
rest' flexibility is now becoming common practice at some carriers.''
    Given these increased responsibilities, an inability to function 
due to fatigue could seriously jeopardize the health, safety and 
security of the traveling public and other crewmembers.
    We have received reports from Flight Attendants admitting that due 
to fatigue they had forgotten to arm their evacuation slides, or due to 
fatigue had forgotten they had unaccompanied minors onboard and allowed 
them to leave the aircraft by themselves. There are examples of Flight 
Attendants falling asleep or nearly falling asleep on their jumpseats 
during landing. These are the same jumpseats that are located next to 
the emergency exit doors which would need to be used in the event of an 
emergency evacuation \2\.
---------------------------------------------------------------------------
    \2\ Speech ``Fatigue: The Flight Attendant Perspective'' given by 
Candace Kolander, AFA-CWA Air Safety, Health and Security Coordinator 
at the 26th Annual International Aircraft Cabin Safety Symposium, 
February 2009.
---------------------------------------------------------------------------
    We also have examples from Flight Attendants that have said they 
are too fatigued to operate their car, for fear of getting into an 
accident. We even have reports of members being stopped by law 
enforcement when driving due to the fact that police believed they were 
driving under the influence of alcohol because of their erratic 
driving. Just prior to that they would have, by the FAA's account, been 
okay to operate the emergency equipment onboard an aircraft in a 
fatigued fashion. However, as a fatigued driver on the road they are a 
hazard to others.
    In 2007, an interim review of existing literature on the issue, an 
evaluation of Flight Attendant duty schedules, and a comparison of 
those schedules to the current regulations regarding rest concluded 
that Flight Attendants are ``experiencing fatigue and tiredness and as 
such, is a salient issue warranting further evaluation.'' They also 
stated, ``not all the information needed could be acquired to gain a 
complete understanding of the phenomenon/problem of Flight Attendant 
fatigue.'' The report recognizes fatigue as a problem, acknowledges 
that the very limited 6-8 month time frame the researchers were given 
by the FAA to conduct the study was not adequate, and clearly stated 
that a more meaningful, detailed study needed to be conducted, 
including surveys and research. Follow-on research began in 2007 and 
resulted in six additional reports.
    The October 2011 report, Flight Attendant Fatigue: A Quantitative 
Review of Flight Attendant Comments, concluded that long duty days, 
consecutive duty days, length of layovers, long delays, breaks, and 
nutrition were issues of concern.
   Summary: 10 Hours Minimum Rest for Flight Attendants is a Science-
                         Confirmed Safety Issue
Confirmed Safety Risk
    Fatigue studies commissioned by Congress and conducted by the Civil 
Aeromedical Institute (CAMI) confirm Flight Attendant fatigue exists 
and the best way to combat this fatigue is to increase rest. This is an 
aviation safety loophole that must be closed, but it is also a Flight 
Attendant health issue and an issue of equality. Pilot minimum rest is 
10 hours and cannot be reduced. Flight Attendants need the same minimum 
rest rule.
    Currently the minimum rest requirement for Flight Attendants is a 
short 8 hours between 14 hour duty periods. This ``rest period'' often 
includes deplaning passengers, exiting the airport, securing local 
transportation to a rest facility (hotel), getting a meal, preparation 
for bed at night, waking in time to board transportation back to the 
airport, transiting the airport and preparing to start the workday. 
This means 4-5 hours sleep, if all goes well, between 14 hour scheduled 
duty periods.
Equal Minimum Rest Decades in the Making
    In 1994, the FAA issued guidance that Flight Attendants should have 
the same rest as pilots. When pilot minimum rest was increased in 2013, 
Flight Attendants were left behind with an 8-hour minimum rest 
requirement. Section 335 of the Act finally accomplishes the 1994 
guidance, with 10 hours minimum rest and a Fatigue Risk Management Plan 
(FRMP) for Flight Attendants.
Minimum Rest Doesn't Restrict Scheduling of Duty Days or Flight Time
    While the pilot rules (FAR 117) included a complete overhaul of 
duty and rest requirements, Flight Attendants are only seeking an equal 
minimum rest period of 10 hours. Don't confuse this issue with the 
rules in place for pilot scheduling. Those suggesting 10 Hours minimum 
rest will up-end Flight Attendant scheduling are purposely attempting 
to mislead the public. The language to address Flight Attendant fatigue 
is only changing the minimum rest--the top recommendation identified by 
the fatigue studies that confirm Flight Attendant fatigue exists. Rest 
does not change duty days, maximum flight hours or other scheduling 
functions. But the Act does provide equal minimum rest with the flight 
deck for Flight Attendants who hold a physical, front-facing, demanding 
job that surely requires, at minimum, equal rest with our flight deck 
counterparts.
    The United States lags behind other countries in equalizing rest 
regulations for both pilots and Flight Attendants. In 2009, the 
International Civil Aviation Organization (ICAO) made recommendations 
introducing new definitions and amendments with respect to the limits 
for flight time, flight duty periods and rest periods for fatigue 
management.\3\ The ICAO recommendations help ensure an equal rest and 
safety from nose to tail.
---------------------------------------------------------------------------
    \3\ International Civil Aviation Organization (ICAO), Annex 6, 
Operation of Aircraft, Part I: International Commercial Air Transport--
Aeroplanes Ch. 9.6, Attachment A, Ninth Edition (July 2010)
---------------------------------------------------------------------------
    Safety is at risk as long as fatigue exists. Flight Attendants, 
aviation's first responders, must be adequately rested and free from 
fatigue to respond to in-flight emergencies such as firefighting, 
decompression, medical emergencies, security threats, sexual assault, 
and passenger conflicts. In the event of an emergency landing, fatigue 
must not interfere with a successful evacuation.
    Implementing the 10 hour irreducible minimum rest is about safety, 
health and equality.
                           Secondary Barriers
    Another bipartisan provision that needs to be properly implemented 
is the requirement for secondary cockpit barriers. Section 336 of the 
bill requires the FAA to issue an order within one year to ensure that 
all newly manufactured aircraft delivered to passenger air carriers 
include these important security barriers. Already, efforts are 
underway to water down this mandate by claiming the provision should 
only apply to new models of aircraft that require a new type 
certificate. A ``new type'' standard would only cover aircraft that are 
not currently in production and require wholesale redesigns. This would 
delay application of this post-9/11 security requirement for decades. 
For this reason, Congress' language is specific to exclude any mention 
of new type certificates or models and instead deliberately chose 
secondary barriers to apply to all newly manufactured passenger 
aircraft off the production line after the specified date in the law. 
Any FAA action that does not mandate secondary barriers on all newly 
manufactured aircraft within one year will undermine the purpose of the 
provision and jeopardize a key aviation security protocol.
    In response to the slow response to installation of secondary 
barriers, a new bicameral, bipartisan legislation, S. 911 (Casey-PA) 
and HR. 911 (Fitzpatrick-PA), has been introduced calling for 
installation of secondary cockpit barriers on all Part 121 commercial 
aircraft.
  Realistic Seat Pitch and Evacuation Certification in Current Cabin 
                              Environment
    Seat pitch continues to shrink in the aircraft cabin as airlines 
try to squeeze as much revenue out of each flight as possible. At the 
same time, passengers are on average are significantly larger in body 
mass; electronics can become projectiles and charging cords can 
obstruct egress; and more passengers are in the cabin than ever before 
with more baggage. Meanwhile, Flight Attendant staffing is at FAA 
minimums based on standards set only for aircraft evacuation, not 
current-day duties and responsibilities of aviation's first responders. 
Flight Attendants are left to manage the frustrations of passengers 
jammed into ever-shrinking space. This is not an issue the market will 
fix. Safety needs to provide a bottom line.
    Some problems with shrinking seat pitch and seat size:

    <bullet>  Questions about safe evacuation
    <bullet>  Increase passenger angst leads to air rage and passenger 
disruptions
    <bullet>  More passengers, more bags and conflict over bag storage
    <bullet>  Difficult to provide safe passage for passengers with 
disabilities

    Flier's Rights, a passenger rights group, filed a petition with the 
FAA to call for rule making that would set a minimum seat pitch which 
airlines could not decrease. The FAA refused to move forward with rule 
making. The response from the FAA (see Appendix 2), in summary, was 
that seat pitch has no impact on passenger evacuation and that seats 
are designed for safe collapse with seat pitch as low as 27 inches. 
Without a science-based approach and stakeholder involvement, it is 
clear that this FAA is not prepared to provide minimum seat pitch 
standards that will help conditions in the cabin and may in fact 
further harm conditions.
    In 2017 legislation was introduced in both the House (H.R. 1467) 
and Senate (S. 596) to address cabin seat pitch. The legislation is 
referred to as the SEAT Act of 2017. There were three key components in 
the bill:

    1.  ``establishing minimum standards for space for passengers on 
passenger aircraft, including the size, width, and pitch of seats, the 
amount of legroom, and the width of aisles on such aircraft for the 
safety and health of passengers''
    2.  ``requiring each air carrier to prominently display on the 
website of the air carrier'' the seat size, pitch, amount of leg room, 
and width of aisles.
    3.  Stakeholder involvement and science-based approach--``the 
Administrator shall consult with the Occupational Safety and Health 
Administration, the Centers for Disease Control and Prevention, 
passenger advocacy organizations, physicians, and ergonomic 
engineers.''

    This SEAT Act language was included in the Act. However, in the 
conference process, however, items 2 and 3 of the SEAT Act were 
removed. The final Act stripped-down seat pitch language is in Section 
577 of the Act.
    The good news is that the FAA Reauthorization Bill also contains a 
provision in Section 337 to require the FAA conduct ``a study on 
evacuation certification of transport-category aircraft used in air 
transportation'' and to report back to Congress within one year. This 
provision includes consultation with the NTSB and all stakeholders 
including our unions. The FAA convened the first teleconference for 
this issue just last week, with an in-person meeting yet to be 
scheduled.
    Congressman DeFazio said in a floor speech before the Act was 
passed that the FAA should not move forward with Section 577 until 
completing Section 337 on evacuation certification standards. 
Congressman Steve Cohen (one of the original lawmakers to introduce the 
SEAT Act) also encouraged the evacuation study to be used as the basis 
for setting seat pitch.
    T&I Committee Ranking Member Peter DeFazio stated, ``We have to see 
whether or not we can actually meet the standard of evacuating a plane 
in 90 seconds as budget carriers and others cram more and more seats in 
that are narrower and narrower, less and less pitch. Can we still meet 
those standards? We are going to find out whether we can or not. A 
provision later in the bill inserted by another of my colleagues, Steve 
Cohen, will require the FAA, particularly if instructed by this study, 
to set minimum pitch width and length requirements for passenger 
seats.'' \4\
---------------------------------------------------------------------------
    \4\ Representative DeFazio, Congressional Record September 26, 
2018, pg. H9034
---------------------------------------------------------------------------
    Congressman Steve Cohen stated, ``Americans have become larger. 
Seats have become smaller. They have become more dangerous. There needs 
to be a study on the width and the pitch of seats to make sure that 
they are safe to be evacuated within the approximate 90 seconds they 
are supposed to be able to evacuate a plane.'' \5\
---------------------------------------------------------------------------
    \5\ Representative Cohen, Congressional Record September 26, 2018, 
pg. H9037
---------------------------------------------------------------------------
    AFA continues to urge the FAA to conduct the Evac Certification 
standards study. We also referenced the very real need to do this in 
our testimony on June 19, 2019 at the House Committee on Transportation 
& Infrastructure Subcommittee on Aviation hearing on the ``Status of 
the Boeing 737 MAX: Stakeholder Perspectives.'' \6\
---------------------------------------------------------------------------
    \6\ Written testimony of Sara Nelson, ``Status of the Boeing 737 
MAX: Stakeholder Perspectives.'', U.S. House of Representatives Hearing 
of the Subcommittee on Aviation, June 19, 2019.
---------------------------------------------------------------------------
                        Customer Service Assault
    Our passenger service brothers and sisters represented by the 
Communications Workers of America (CWA) have worked hard to address the 
decades' long problem of assault on the job from passengers which was 
partially addressed in the FAA Reauthorization. This is not a new 
issue. In fact, because of the problem, Congress made assault of 
passenger service agents a felony in 2001. In 2017, the Department of 
Justice and the Department of Transportation reiterated that the 
statute making assault a felony did indeed apply to passenger service 
agents. However, passenger service agents continue to experience 
assault on almost routine basis and have been frustrated by the failure 
of carriers to prepare for assault situations and especially to develop 
clear protocols in how to handle assault occurrences.
    The recent FAA Reauthorization bill took further action on this 
ongoing issue by directing carriers to develop and implement assault 
incident protocol by January of 2019 as well as a study by the GAO. I'm 
happy to report that the GAO report was finalized and released 
recently. The report clearly states that assault of passenger service 
agents both verbally and physically is indeed an ongoing problem \7\. 
It further reinforced that the recent FAA Reauthorization mandate for 
carriers to develop and implement assault incident protocols are 
needed. We are pleased to report that American Airlines, with which CWA 
passenger service representatives have been working, is close to 
formally implementing their protocol and we are hopeful that other 
airlines are doing the same with their passenger service agents.
---------------------------------------------------------------------------
    \7\ Information on Passenger Assaults against Airline Customer 
Service Agents at Airports GAO-19-683, Published: Sep 17, 2019. 
Publicly Released: Sep 17, 2019.
---------------------------------------------------------------------------
    CWA does remain concerned however that proper passenger 
notification in terms of prominent and visible signage that assaulting 
a passenger service agent is a felony is not happening. We believe that 
this is necessary and needs to be part of the protocols that are being 
developed. We believe that this must be part of any process. In 
addition, unlike the law enforcement personnel interviewed in the GAO 
report, we think that coordination between various law enforcement 
agencies and personnel is lacking. More must be done in this area to 
ensure that greater collaboration and reporting happens where 
jurisdiction is shared or in question. We believe it is important for 
this Committee to exercise its oversight responsibilities and push the 
FAA to ensure that all airlines are abiding by these requirements.
    AIR RAGE: Almost all of the 104 airline customer service agents 
surveyed for a new GAO report said they had been verbally harassed by 
passengers, and about 10 percent said they'd been physically assaulted 
by passengers in the past year.
                               Conclusion
    On September 19, 2019 the U.S. House of Representatives passed a 
stopgap spending measure to fund the government through the end of 
November. If passed by the Senate, we will avert another Government 
Shutdown in September. However, we are once again setting up a cycle of 
short-term funding measures. This will further slow work on the 
implementation of the Act. The Senate Homeland Security Committee 
estimates that the 35-day Government Shutdown cost the DOT 2,413 years 
in worker productivity \8\. Further, the dedicated work of federal 
employees deserves our respect and support with long-term funding 
measures.
---------------------------------------------------------------------------
    \8\ Shutdown cost DOT, DHS thousands of years in lost productivity, 
POLITICO Pro, https://t.co/O3478qNmFc?amp=1, September 17, 2019
---------------------------------------------------------------------------
    In addition, Congress should pass bills like H.R. 1108, the 
Aviation Funding Stability Act of 2019--passed out of this committee in 
March--to ensure the FAA receives funding in the event of a government 
shutdown.
    I would like to again thank the Chairman, the Ranking Member and 
the Members of this Subcommittee for this opportunity to testify. We 
are proud of our work as aviation's first responders and the last line 
of defense in aviation security. We appreciate your attention and 
diligent efforts to ensure we have the proper tools to perform our work 
and keep U.S. aviation safe.
                               appendix 1
                                                 September 6, 2019.

Investing in you

    Hi everyone,
    Ed announced last week not only a well-deserved raise, but also our 
commitment to significant investments that we will make to improve your 
work experience.
    Today, I'm excited to announce that we are making significant 
investments over the next few years to address many of the challenges 
that you have raised to your leaders and the EIG, and through the 
employee survey and FASS. While we're just at the beginning of rolling 
out the work, I'm very pleased about introducing these initiatives, 
which include:

    1.  Reducing schedule values by hiring year-round at maximum 
capacity
    2.  Introducing a monthly override program
    3.  Implementing 10-hour rest--release to report--ahead of an FAA 
requirement
    4.  Blocking aft seats on three additional fleet types for your 
safety during turbulence
    5.  Improving catering performance
     REDUCE SCHEDULE VALUES BY HIRING 2,500-3,000 FLIGHT ATTENDANTS
    We've heard you--schedule values are too high and the summer rush 
now stretches from early spring through late fall. In response, we will 
limit peak system schedule values to 83 hours or less (from 86 hours 
this year). We believe 83 hours is a good balance between providing 
flexibility and not allowing your hours to fall low enough in winter 
months to negatively affect your income.
Move to year-round hiring at maximum levels
    <bullet>  We planned to hire 1,800 flight attendants for the 
forecasted 2020 network schedule. Now we will hire approximately 2,500-
3,000 flight attendants in 2020 in order to reduce schedule values. 
This also will have positive effects on base growth, A-day holder 
seniority and schedule flexibility. This will be the largest number of 
flight attendants hired in a single year in our company's 95-year 
history.
    <bullet>  This unprecedented hiring will give us the breathing room 
that is needed in order to bring schedule values down.

    This kind of movement cannot be achieved overnight, and we 
appreciate your patience as we work to accomplish this goal. We're 
confident this investment will help us move toward a better work-life 
balance. As we progress on this journey and consistently have system 
schedule values at or below 83, we can reevaluate this number.
                  INTRODUCE A MONTHLY OVERRIDE PROGRAM
    The EIG has identified a monthly override as a top issue. We 
support the introduction of a monthly override program and will partner 
with the EIG on finalizing the specifics and will share those details 
soon.
            PROACTIVELY IMPLEMENTING 10-HOUR REST ON JAN. 31
    Layover rest has been on our radar since the EIG elevated the issue 
in 2017 shortly before the passage of the 2018 FAA Reauthorization Act. 
So while the FAA and DOT have yet to set a deadline for airline 
implementation, we are listening to your feedback and enacting this new 
policy ahead of any requirement or deadline. This rule requires a 
guaranteed minimum 10 hours of rest from release to report, that cannot 
be reduced under any circumstances.
    Implementing the 10-hour rest rule will affect trip construction as 
we have previously communicated. As we work to finalize the plan, we'll 
share more details with you about our approach to implement this rest 
on a regular basis.
              EXPANDING SEAT BLOCKING FOR IMPROVED SAFETY
    As part of our continued investment in your personal safety, we are 
expanding the current 767 seat block policy to other fleet types, 
including the A321, A332 and A350. We look forward to sharing the 
implementation timeline in the coming weeks.
    We appreciate the EIG and EIG HSS committee for pushing this change 
forward on your behalf and thank all of you who have reported 
turbulence events. Turbulence injuries are our fastest growing injury 
category and your reports provide us with the important data we need to 
be able to drive changes to keep you safe.
                   EVOLUTION OF CATERING PERFORMANCE
    We continue working hard to address catering issues such as missing 
items, broken carts and catering quality to set a new standard for how 
everything gets done right. I want to outline some of the initiatives 
we're working on to create the Delta catering standard as well as to 
improve your everyday experience as quickly as possible:
Standardizing processes to improve station performance
    <bullet>  We're working with each of our caterers to improve 
performance tracking by introducing consistent metrics and holding all 
of our partners accountable for reporting out on their station's 
performance. We also want to standardize the layout and processes in 
each kitchen so when you walk in you know it's a Delta kitchen with a 
Delta way of running that kitchen.
Tracking our carts to improve your safety and increase the accuracy of 
        provisioning
    <bullet>  We have worked to improve the overall condition of our 
cart fleet by identifying and removing damage-prone carts from our 
aircraft so they're no longer a hazard or inconvenience to you. The 
next step is electronic cart tracking, which will give us full 
transparency to all of our carts--where they are and if they are 
broken. We plan to introduce this technology next year, and it will 
also eventually enable us to know what's on the carts and if you have 
everything you need, where you need it.
Introducing airside commissaries
    <bullet>  In an effort to provide faster, more consistent catering 
for you we're moving provisions closer to you and the aircraft. We'll 
start by testing this concept in ATL on beverage only flights in 
September and hope to expand to more hubs in 2020.
Using IMCR to launch a new catering handoff
    <bullet>  The handoff between catering and flight attendants is a 
common source of frustration. Unclear paperwork and rushed loading, at 
a very busy time in the aircraft, are key contributing factors to 
missing items. This November we will pilot a new visual map of the 
galley showing the location of provisions and providing a clear handoff 
process with catering.

    All of the above represent significant and necessary investments, 
but we're not stopping there. We continue working hard, in partnership 
with the EIG, to enhance IFS tools and technology; improve the 
reliability of our wheelchair program by overhauling technology and 
processes; refresh flight attendant lounges and more. And with EIG 
prioritization coming up later this month, there are additional 
improvements to look forward to.
    My goal is to make sure that our flight attendants are inspired to 
have a fulfilling career at Delta as well as to lead the world in 
safety and on-board service.
    Thank you again for your engagement and ideas. Your commitment and 
care for our customers and one another inspires me every day.
                               appendix 2
                 U.S. Department of Transportation,
                           Federal Aviation Administration,
                                           Aviation Safety,
                                 800 Independence Ave., SW,
                                      Washington, DC, July 2, 2018.
Mr. Paul Hudson,
President,
FlyersRights.org, 1440 G Street NW, Washington, DC 20005

    Dear Mr. Hudson:

    This letter is in response to the July 28, 2017 decision of the 
United States Court of Appeals for the District of Columbia Circuit and 
supplements our responses dated February 1, 2016 and March 14, 2016. 
The court remanded your petition for a ``properly reasoned disposition 
of [your] safety concerns about the adverse impact of decreased seat 
dimensions and increased passenger size on aircraft emergency egress.''
    In accordance with 14 CFR  11.73, the FAA considers the following 
criteria when making a decision about whether to amend current 
regulations based on a petition for rulemaking:

    1.  The immediacy of the safety or security concerns you raise;
    2.  The priority of other issues the FAA must deal with; and
    3.  The resources we have available to address these issues.

    After reconsidering your request in accordance with the Court's 
instructions to address the first of these criteria, we have again 
determined that your request does not merit rulemaking at this time.
               Immediacy of Safety or Security Concerns.
    While your petition asserts that seat width and pitch, in 
conjunction with passenger size, raise a safety concern, the FAA has no 
evidence that there is an immediate safety issue necessitating 
rulemaking at this time. The FAA has no evidence, and nothing in your 
petition, or the letter you submitted on April 2, 2018, or the ``Post-
Remand Submission'' you submitted on June 1, 2018, demonstrates that 
current seat dimensions (width and pitch) hamper the speed of passenger 
evacuation, or that increasing passenger size creates an evacuation 
issue.
    The reason that seat width and pitch, even in combination with 
increasing passenger size, do not hamper the speed of an evacuation is 
the timeline and sequence of the evacuation. The time it takes 
passengers to get out of their seats, even if those seats are 
relatively narrow and close together, is less than the time it takes 
for the emergency exits to begin functioning and for the line that 
begins forming in the aisle to clear. This is demonstrated during 
evacuation tests, several videos of which are now available for public 
review by being placed in the docket for your petition.
    An evacuation begins when ordered by the flight crew or a flight 
attendant, or on passengers' own initiative, when the aircraft comes to 
a stop. The flight attendant must then unbuckle his or her seat belt, 
stand up, move to the exit, look outside to confirm that the area 
around the exit is safe, open the door, and verify that the escape 
slide, if applicable, has deployed and is usable. All of these flight-
attendant actions take a minimum of about 10 seconds under the ideal 
conditions of a demonstration test, and are likely to take 
significantly longer in an actual accident. Declaration of Jeffrey C. 
Gardlin, attached (``Gardlin Declaration''), at para. 10. If 
responsibility falls upon a passenger to open an exit, especially an 
overwing exit that must be discarded, this time can be even longer. A 
line then develops at each exit, because passengers can get to the exit 
faster than they can get through the exit. Passengers in an actual 
accident or incident likely will experience a delay of more than 10 
seconds before being able to use an emergency exit. They can use this 
time to get out of their seats, and then either enter the aisle or wait 
to enter the aisle. The key is that the time it takes to stand up from 
one's seat, even if the seat is relatively narrow and installed at a 
28-inch pitch, and even if the passenger is relatively large, is less 
than the time it will take to get the emergency exits opened and 
functional and for the line that begins forming in the aisle to clear. 
Id.
    This timeline has been repeatedly demonstrated during evacuation 
tests. Airplane manufacturers typically film these evacuation tests. 
While the FAA receives and preserves general information about each 
test, such as whether it was successful and conducted under the 
required conditions, the FAA does not retain videos of evacuation tests 
and such data are considered to be proprietary by the manufacturers. 
However, airplane manufacturers have recently provided the FAA with 
videos and statements about their evacuation tests and agreed to allow 
the FAA to make these videos and statements available for review by you 
and the public. The FAA will place this information in the docket for 
your petition. These videos of recent tests show that passengers take 
no more than a second or two to get out of their seats, even from seats 
as narrow as 16 inches wide and installed as closely as at a 28-inch 
pitch. Gardlin Declaration at paras. 10, 18, and attachments.
    The FAA has no evidence that a typical passenger, even a larger 
one, will take more than a couple of seconds to get out of his or her 
seat, or that such time will approach the time necessary to get the 
emergency exits functional. The FAA also has no evidence that current 
seat sizes are a factor in evacuation speed, nor that current seat 
sizes create a safety issue necessitating rulemaking, because the time 
to stand up from one's seat is less than the time it will take for the 
exit door to be opened and, for most passengers, for the aisle to 
clear. Moreover, the FAA does not expect seat pitch to drop so 
significantly from current levels that it meaningfully affects 
evacuation speed. Gardlin Declaration at paras. 21, 22, and 27.
    Regarding seat pitch, although some airlines have operated with 
less than 30-inch average seat pitch for decades, seat pitches below 30 
inches are still not common today. Gardlin Declaration at para. 21. 
Also, seat pitch is unlikely to go below 27 inches under current 
technology and regulations. FAA regulations (14 CFR  25.562(c)(8)) 
require that seats not deform in a crash to the point that they would 
impede rapid egress. Advisory Circular 25.562-1B, Appendix 2, discusses 
the FAA's application of this requirement, but it effectively results 
in a minimum of 9 inches between the front of one seat (the front of 
the seat cushion) to the nearest point on the back of the next seat. 
Gardlin Declaration at para. 21. Seat bottoms are typically 
approximately 18 inches front-to-back, and have been for many years. 
Id. Thus, seat pitch is unlikely to go below 27 inches (9+18), in order 
to maintain compliance with  25.562(c)(8), even if a carrier could 
persuade passengers to purchase tickets for flights with seat pitches 
that low.
    Turning to your particular safety concerns, the FAA has no evidence 
that your concerns raise an immediate safety issue. Nothing presented 
in your petition demonstrates that decreases in seat pitch and 
increases in passenger girth create an immediate safety issue with 
regard to passenger evacuation that necessitates rulemaking.
Safety Concern: Evacuation Testing.
    The first safety issue alleged by the petition (p. 6) states that 
evacuation tests have not been run in airplanes with seat pitch of less 
than 31 inches. This is not true. The comments of the FAA employee that 
you cited referred to studies that the FAA itself has conducted, not to 
evacuation tests conducted by airplane manufacturers for certification. 
Gardlin Declaration at footnote 3.
Safety Concern: Seating Capacity.
    The second safety issue alleged by the petition (p. 6) is that the 
tests are conducted with fewer passengers than can be carried on the 
aircraft. This is also not true. As noted in the FAA's first response 
to your petition (p. 2), the number of passengers substantiated for 
evacuation becomes the certified maximum number of passengers that the 
airplane can carry in operation. 14 CFR Sec.  25.803.
Safety Concern: Human Panic.
    Your petition states (p. 7) that ``a decreased amount of space 
between seats would likely increase . . . panic, and cause delays in 
evacuations during an emergency.'' Your petition offers no support for 
why a lower seat pitch would increase human panic. And the evidence is 
to the contrary, as discussed below.
    First, numerous successful passenger evacuation tests have been 
conducted with 28-inch seat pitch, and the FAA did not observe any 
indication that seats installed at that pitch affect passenger 
behavior. Gardlin Declaration at para. 24. In addition, there have been 
several actual accidents and incidents in recent years in which the 
passengers successfully evacuated in the presence of an actual or 
potential post-crash fire. Gardlin Declaration at para. 25.
    The FAA and other civil aviation authorities have conducted 
research testing to assess the effects of ``panic-like'' behavior 
during evacuations. These tests simulate the urgency of panic by 
offering passengers a financial incentive to be among the first out of 
the emergency exits. From these, the FAA learned the effects of panic-
like behavior on evacuation. The FAA learned that performance by test 
participants is largely driven by whether they paid attention to 
evacuation instructions. The FAA has no data supporting speculation 
that current seat widths or pitches increase human panic or otherwise 
slow evacuations. Gardlin Declaration at para. 24.
Safety Concern: Passenger Demographics.
    Your petition claims that emergency evacuation demonstrations do 
not consider human factors, such as older passengers, passengers with 
children, or passengers with disabilities, who may need more time to 
evacuate. This is true for several reasons, but it does not invalidate 
those tests.
    First, evacuation tests are conducted with volunteers and introduce 
elements that would increase the safety risk to the test participants. 
Injuries, even serious ones, occur during emergency evacuation 
demonstrations. Thus, the FAA has chosen not to require elderly 
passengers or children in demonstration tests after learning that they 
are more likely to sustain injury. Gardlin Declaration at para. 13. 
Second, actual emergency evacuations are subject to a high degree of 
variability, such as the amount of damage to the airplane, and not 
every variable can be safely and reliably replicated. Gardlin 
Declaration at para. 14. Therefore, a key purpose of the 90-second 
evacuation test is to provide a repeatable comparison of the airplane 
design to a specific standard, not to simulate every potential variable 
that may occur in an evacuation such as the amount of airplane damage 
and the diversity of human ages and abilities. These variables are 
addressed by several other regulations, including regulations 
prescribing minimum widths of aisles, cross-aisles, and passageways; 
minimum sizes of exits; requirements for emergency lighting and exit 
marking; and the minimum number and location of exits, at 14 CFR  
25.815, 25.813, 25.807, 25.812, and 25.811 respectively. While the 
evacuation tests required by the FAA do not specifically take into 
account changes in the size of passengers, such tests continue to be 
conducted with volunteers from the general population who have a 
variety of sizes and weights. Gardlin Declaration at para. 14.
Safety Concerns Raised by Other Commenters.
    In response to your petition, one commenter stated that current 
seat spacing made it ``necessary to climb onto [her] seat to get out.'' 
Another commenter asserted that, given current seat spacing, ``[i]n an 
emergency, there is no way we would have been able to get to an exit 
row in less than three or four minutes.'' As noted above, the videos of 
evacuation tests that the FAA received from airplane manufacturers show 
that it is not necessary to climb onto one's seat to get out, and that 
passengers take no more than a second or two to get out of their seats, 
even from seats as narrow as 16 inches wide and installed as closely as 
at a 28-inch pitch.
    Another commenter said that, given his height, ``it is physically 
impossible for [him] to assume the `crash position' '' in a regular 
economy-class seat. Decreased seat pitch, however, does not prevent 
passengers, even taller ones, from assuming a brace position, because 
an acceptable brace position is leaning forward with your head on the 
back of the seat in front of you. Gardlin Declaration, footnote 7.
                          Other Two Criteria.
    Neither your petition nor the Court's decision challenged the FAA's 
decision regarding its two other criteria for rulemaking (the priority 
of other issues the FAA must deal with, and the availability of 
rulemaking resources). The FAA continues to regard the issues and 
requested actions from your petition as having a lower priority than 
the other issues before the FAA, and, given the FAA' s limited 
rulemaking resources, those resources will be dedicated to higher 
priorities, as indicated in the Department of Transportation's 
Regulatory Agenda.
    Although we are declining to initiate rulemaking based on your 
petition, your comments and arguments for the proposed rule change will 
be placed in a database, which we will examine if we consider future 
rulemaking in this area. If the FAA does pursue rulemaking in this area 
in the future, you would be able to track it through one of the two 
following websites:

    <bullet>  For significant rulemakings, you can find the status on 
the Department of Transportation's (DOT) website (http://www.dot.gov/
regulations/report-on-significant-rulemakings).
    <bullet>  For non-significant rulemakings, you can find the status 
on the DOT's semi-annual regulatory agenda, through the Office of 
Management and Budget's (OMB) Office of Information and Regulatory 
Affairs' (OIRA) Unified Agenda website (http://www.reginfo.gov/public/
do/eAgendaMain).

    For the reasons stated herein, we continue to decline to initiate 
rulemaking based on your petition.
        Sincerely,
                                          Dorenda D. Baker,
Aviation Safety, Executive Director, Aircraft Certification Service

Enclosure

    Mr. Larsen. Thank you.
    I now turn to Captain Fox, representing ALPA, for 5 
minutes.
    Mr. Fox. Thank you, Chairman Larsen, Ranking Member Graves, 
Chairman DeFazio. Thank you for that last question to Captain 
Elwell.
    Specifically, the FAA does have what they need right now to 
implement the rule. They just have not implemented the rule on 
secondary barriers. That work was done in 2009 by a regulatory 
piece that they used for an advisory committee. The work is 
done. It covers 50 seats up to 777s and 787s. They are just 
stalling and not implementing the rule.
    I am proud to represent more than 63,000 members of the Air 
Line Pilots Association, which is the world's largest 
nongovernmental aviation safety organization.
    We commend this committee for its leadership in guiding 
Congress to pass a strong, safety-focused, and forward-thinking 
FAA reauthorization.
    The true test of success, however, will be how and when the 
executive branch implements these life-saving advances. 
Frankly, we are deeply dismayed by the lack of follow-through.
    A few weeks ago, the United States recognized the 18th 
anniversary of the attacks of 9/11. Mandating the installation 
of secondary barriers is one of the most important, cost-
effective security enhancements identified after the attacks.
    In the reauthorization, Congress called for the FAA to 
issue a rule mandating these barriers for newly manufactured 
passenger aircraft by October 5, 2019. Rather than issuing the 
order, as Congress intended, the FAA has bowed to a blatant 
stall tactic promoted by special interest, and created an 
Aviation Rulemaking Advisory Committee, which, like I just 
said, they have already done in 2009.
    Secondary flight deck barriers are already protecting U.S. 
airlines. I know, because I have flown the Boeing 757 at 
United, equipped with these security devices. The standard 
established at the FAA's request in 2009 is effective; no more 
study is needed.
    ALPA thanks the 110 U.S. House Members, including lawmakers 
on this committee, who signed a letter leaving no doubt that 
they expect the FAA to meet their deadline.
    We have the data. We know what works. It is time to 
implement the law.
    In addition, the FAA reauthorization also prescribed the 
automatic acceptance of voluntary safety reports obtained 
through the Aviation Safety Action Program, or ASAP. ASAP is a 
nonpunitive safety reporting program that allows frontline 
employees, including pilots, to voluntarily report safety 
issues.
    Right now, weeks pass before these reports are reviewed. 
Requiring their automatic acceptance means safety information 
will be reviewed more quickly, potentially preventing 
accidents. We have been waiting 3 years for the FAA to publish 
an advisory circular requiring automatic acceptance of these 
reports.
    Again, we know it works. Let's implement the law.
    In addition, the reauthorization directs the FAA to update 
its requirement for airline pilots to wear oxygen masks above 
certain altitudes. Currently, if one pilot leaves the flight 
deck while above flight level 250, the other was must wear his 
or her mask. Because of hygiene concerns and a priority on 
using masks only in emergencies, the International Civil 
Aviation Organization established an altitude standard of above 
flight level 410, a change that ALPA supports. The FAA 
reauthorization directs the FAA to issue new regulations 
consistent with the ICAO no later than October 5, 2019.
    Again, we know it works, and we urge the FAA and the U.S. 
airlines to act.
    Airline pilots are pleased that the FAA reauthorization 
maintains life-saving pilot qualification and training 
regulations. Thanks to this committee's leadership, these rules 
have helped ensure that the United States has not had a single 
fatality in part 121 passenger flight operations due to a pilot 
training issue in the past decade. ALPA pilots will spare no 
effort in fighting any attempt to weaken these requirements.
    Through ALPA's affiliation with the International 
Federation of Air Line Pilots' Associations, we are proactively 
engaging ICAO to establish a review of pilot qualification and 
training standards, given today's complex operating 
environment. We know, as do our passengers, that the presence 
of at least two fully qualified, highly trained, and adequately 
rested pilots on board our airliners contributes to a proactive 
risk-predictive safety culture, and is a major reason why the 
U.S. air transportation system is so safe.
    Clearly, Congress has the interest of the traveling public 
at heart in passing this FAA reauthorization. Others should 
follow your lead and implement as it is intended. We know that, 
for our passengers, our crews, and shippers, every day of delay 
is one too many.
    Thank you for this opportunity for me to be here today.
    [Mr. Fox's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Captain Bob Fox, First Vice President, Air Line 
                   Pilots Association, International
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify on the Federal Aviation Administration's (FAA's) 
implementation of the requirements of the FAA Reauthorization Act of 
2018. The Air Line Pilots Association, International (ALPA), represents 
more than 63,000 professional airline pilots flying for 35 airlines in 
the United States and Canada. ALPA is the world's largest pilot union. 
We are the recognized voice of the airline piloting profession in North 
America, with a history of safety and security advocacy spanning more 
than 85 years. As the sole U.S. member of the International Federation 
of Air Line Pilots' Associations (IFALPA), ALPA has the unique ability 
to provide airline pilot expertise to aviation safety and security 
issues worldwide, and to incorporate an international dimension to 
safety and security advocacy.
    As the first vice president and national safety coordinator for the 
world's largest non-governmental aviation safety organization, I can 
report that ALPA remains keenly focused on ensuring that the FAA 
implement these key legislative requirements as intended by Congress. 
It is our organization's top priority to stay focused on continual 
improvement and judicious oversight to ensure that air travel is as 
safe and secure as humanly possible.
    By way of background, I am a former Navy fighter pilot and 23-year 
airline pilot. I currently fly for United Airlines. I can tell you that 
achieving the highest standards of safety and security has been a 
personal commitment throughout my career. I can also tell you that all 
airline pilots share my dedication to advancing aviation safety and 
security, and that these principles have been the foundation of ALPA's 
work for more than 85 years.
    While aviation accidents are increasingly rare, ALPA has advocated 
for and helped develop a forensic approach to accident investigation 
designed to identify every factor involved in an airline accident and 
develop corrective actions to address them, with the sole objective of 
preventing similar accidents from occurring in the future. In the U.S. 
airline industry, we now have a more risk-predictive model to collect 
data, evaluate it, identify mitigations, and implement them to make a 
safe system even safer.
    Because of this commitment, ALPA is fully informed and involved in 
efforts to bring the Boeing 737 MAX safely back into service following 
the completion of the current FAA process. I have led our Air Safety 
Organization pilots and staff in collaborating with all appropriate 
regulatory authorities and stakeholders in the United States, Canada, 
and across the globe.
    ALPA has offered our airline pilot perspective on the issues 
related to the accidents, including the process and procedures used to 
certify aircraft in the United States. We have been in communication 
with Boeing, the FAA, the National Transportation Safety Board, and 
airlines, as well as with the U.S. Department of Transportation Special 
Committee and international bodies. We pledge to continue to be a 
resource for this Committee as well.
                                Overview
    Based on current statistics, 14 Code of Federal Regulations (CFR) 
Part 121 airlines carry approximately 900 million passengers and 18 
million tons of cargo annually. Notably, U.S. passenger airlines 
operated under 14 CFR Part 121 have had only one passenger fatality 
resulting from an accident since 2009. This safety record is not due to 
luck, but rather to the efforts of the aviation industry and our 
government partners, and it is due to the efforts of Congress and this 
Committee, in particular. During the 20 years prior to the passage of 
the Aviation Safety and Federal Aviation Administration Reauthorization 
Act of 2010, the U.S. passenger airline industry lost approximately 
1,100 passengers in aircraft accidents. Since the passage of that bill, 
there has not been a single passenger fatality due to ``pilot error.''
    Strikingly, since 2009, there have been 93 fatal passenger airline 
accidents around the rest of world, which includes more than 4,700 
fatalities. The U.S. passenger airline record is truly remarkable. For 
that reason, we believe that the most important work this Committee can 
accomplish is to continue to ensure the United States maintains the 
highest safety levels in the world and continues to lead by example in 
all areas of aviation, including aircraft certification, flight crew 
training and licensing, crew-duty and rest requirements, airport design 
standards, the safe introduction of new entrants, safety data analysis, 
and many others. This comprehensive safety mindset allows passengers to 
board a 14 CFR Part 121 passenger airline and know, with a very high 
degree of confidence, that they will get there safely. From day one in 
1931, ALPA has maintained our motto of ``schedule with safety.'' It 
hasn't changed; safety is still our top priority.
    This Committees' continued focus on safety is to be commended, and 
we thank you for using your time and resources--including today--to 
shine a spotlight on safety. Unless we keep airline safety the top 
priority, we risk digression and an increase in accidents, which impact 
our ability to make progress on other important aspects of aviation 
such as investments in increasing airspace capacity and the 
introduction of new types of aviation and space operations into the 
national airspace system.
                   FAA Reauthorization Implementation
    In October 5, 2018, the Federal Aviation Administration 
Reauthorization Act of 2018 became law (P.L. 115-254). The members of 
this Committee demonstrated significant leadership to ensure that the 
legislation ultimately became law, and you are to be commended for your 
efforts to advance aviation safety. This law, if implemented 
appropriately and as Congress intended, will improve the air 
transportation system for years to come.
   Retention of Congressionally Mandated First Officer Qualifications
    In 2018, Congress retained the current airline pilot training and 
qualification requirements that are the law of the land. ALPA was 
pleased with both this Committee and Congress for making this 
lifesaving and wise decision. The best and most important safety 
feature of any airline operation is at least two skilled, well trained, 
fully qualified, highly experienced, and adequately rested professional 
flightcrew members. With a solid foundation of training and experience, 
pilots are essential in maintaining the safety of our system and 
ensuring that aviation safety continues to advance. Several regional 
airline accidents from 2004 to 2009 identified numerous training and 
qualification deficiencies that ultimately led to Congressional action 
and regulatory changes that significantly improved airline safety. The 
last of these accidents occurred February 12, 2009, near Buffalo, N.Y. 
Fifty lives were lost--49 in the aircraft and one on the ground. This 
accident was a watershed event for the airline industry and aviation 
safety, resulting in regulations that enhanced pilot training, 
qualification, flight experience requirements, and the implementation 
of science-based flight, duty, and rest requirements.
    The pilot training and qualifications regulations specifically 
require that all airline pilots flying under 14 CFR Part 121 must hold 
the air transport pilot (ATP) or restricted ATP (R-ATP) certificate. 
The R-ATP certificate pathway can be obtained with fewer flight hours' 
experience than the ATP if the pilot applicant receives integrated 
academic and flight training from the military or an accredited 
aviation college or university.
    Today's training, qualification, and flight experience regulations 
emphasize significantly greater focus on academics and instruction, 
areas of knowledge, and flight experience in various weather and 
operational situations. The rules also require a type rating in the 
aircraft to be flown for the airline if operated in 14 CFR Part 121 
service and increased experience in multiengine aircraft, among other 
numerous safety improvements. The FAA made a specific mention of the 
importance of academic training when it published the final rule, and 
how the accredited academics along with ground and flight training was 
necessary to qualify for a reduction in hours. We applaud this 
Committee for its leadership in preserving the training and 
qualifications requirements last year and urge you to continue to do 
so. We are confident that lives have been and are being saved because 
of your steadfastness on this issue. The international aviation 
community, through the International Civil Aviation Organization 
(ICAO), would benefit greatly by adopting a similar philosophy, and we 
have asked ICAO to review current training, qualification, and flight 
experience standards.
Safety Regulations vs. Bad Airline Economics
    Despite the clear message sent by Congress in 2018, there are some 
people and organizations who want to address business-related industry 
issues by reducing the requirements currently in place to obtain an ATP 
or an R-ATP. These changes would weaken the first officer qualification 
(FOQ) rules. They believe that rolling back provisions in P.L. 111-216 
is the best way to fix their business challenges by widening the 
employment pool. We do not believe that those who are advocating for 
such measures are properly representing the issue of pilot 
availability, which is not pilot qualification requirements but an 
airline's attractiveness to the pilot community as an employer.
    It is somewhat ironic that some who originally called for the 
changes in P.L. 111-216 have since become critical of the rules, 
arguing that the first officer qualifications have created a pilot 
shortage. Small communities which have experienced changes in the 
levels of airline services are also citing a pilot shortage. However, 
in both cases, there is no reliable data to support these positions 
and, in fact, the data says just the opposite.
    In 2018, the FAA reported that it had issued 5,788 ATP 
certificates, which includes 1,762 R-ATP certificates. Our research 
revealed that the airlines hired approximately 4,600 pilots in 2018, 
which is considerably fewer than the number of pilots who became 
qualified to fly for the airlines that year. In fact, the number of ATP 
certificates issued by the FAA has been higher than the number of 
airline pilots hired for multiple years in a row. Clearly, the supply 
of pilots is currently keeping up with the demands. We realize that as 
the industry expands, more pilots will be needed. ALPA continues to 
promote the pilot profession far and wide, as a career of choice for 
men and women who enjoy all the benefits that the career has to offer.
           Promoting the Profession and Increasing Diversity
    ALPA continues to promote the airline pilot profession. This 
includes a team of ALPA pilots who promote the profession at several 
large aviation events including Women in Aviation; the Organization of 
Black Aerospace Professionals; AirVenture in Oshkosh, Wisconsin, and 
the National Gay Pilots Association. Hundreds of ALPA pilots also 
promote the profession to students of all ages in thousands of schools 
nationwide. And for those college students who are in the midst of 
their flight training activities, we work alongside them to help 
prepare them for their future airline career. You can see some of our 
work at www.clearedtodream.org.
    All of these activities to promote the profession have included a 
focused effort to diversify the pilot community. This includes our 
efforts to reduce barriers to entry for minorities and women. We 
believe that there is no shortage of individuals who have the 
motivation, skills, and aptitude to serve as pilots for a U.S. airline.
    We were pleased to support provisions in the Aviation Safety and 
FAA Authorization Act of 2018 promoting women in aviation. We 
wholeheartedly applaud the leadership by this Committee to include that 
section, and we strongly support the establishment of a board that will 
be solely focused on women in aviation. We look forward to engaging on 
this topic with our fellow industry colleagues. It is our hope the FAA 
will move quickly to name participants to this body so it can begin its 
important work without delay.
                       Secondary Barriers Delayed
    As we recently marked the 18th anniversary of the tragedy of 9/11, 
it is unfortunate that our airliners are still not adequately 
protected. Reinforced flight deck doors, mandated on passenger 
airliners by the U.S. Congress after the terrorist attacks of Sept. 11, 
2001, do not provide a complete solution to the problem they were 
intended to resolve. There are times when operational necessity 
requires that the flight deck door be opened in flight. That period, 
however slight, represents a vulnerability that must be addressed. An 
installed physical secondary barrier, accompanied by standardized crew 
procedures for protecting the flight deck when the reinforced door is 
opened in flight, will significantly augment the intended benefits of 
the fortified door and other TSA-approved onboard protective measures, 
and add an important layer of security to prevent hostile takeover of 
the flight deck.
    At the behest of this Committee, Section 336 of P.L. 115-254 
requires ``not later than 1 year after the date of the enactment of 
this Act, the Administrator of the Federal Aviation Administration 
shall issue an order requiring installation of a secondary cockpit 
barrier on each new aircraft that is manufactured for delivery to a 
passenger air carrier in the United States operating under the 
provisions of part 121 of title 14, Code of Federal Regulations.''
    However, with a deadline just a few weeks away, the FAA has 
inserted unnecessary roadblocks to stall progress on this important 
security provision. The FAA tasked the Aviation Rulemaking Advisory 
Committee (ARAC), over ALPA's stated objections, forming a working 
group to establish recommendations to the agency on the implementation 
of the Section 336 directive.
    Clearly, this is a move to slow down or otherwise not fulfill the 
obligations Congress placed on the FAA to implement the secondary 
cockpit barrier mandate. We would note that 110 members of this body, 
including many members of this Committee, transmitted a letter to the 
DOT unequivocally reinforcing the statutory intent of Section 336--
specifically, the FAA must issue an order, without delay, by October 5, 
2019, requiring the installation of secondary barriers on all new 
manufactured passenger aircraft off the assembly line. Failing to meet 
this requirement will delay implementation and evade congressional 
intent.
    Some may argue there are questions about how to implement the 
legislation. However, these questions were answered years ago by 
request from the FAA to RTCA--a private, not-for-profit corporation--to 
develop secondary barrier system guidelines containing design 
characteristics, minimum performance criteria, and installation and 
certification guidance.
    RTCA Special Committee 221 developed and published these guidelines 
in September 2011 as DO-329. This document provides the FAA with 
guidance needed to develop and issue a clear interpretation of 14 CFR 
Part 121.584 to its principal operations inspectors as they evaluate an 
airline's security procedures for compliance. It also provides airlines 
and manufacturers with approved performance standards that are suitable 
for meeting FAA aircraft equipment requirements for the production and 
installation of secondary barriers.
    We urge the Committee to continue to monitor this situation, and to 
ensure that the FAA carries out its requirements under the law and 
issue the requirement for secondary cockpit barriers by October 5, 
2019.
                 Safe Shipments of Hazardous Materials
    ALPA has long advocated for improved transport requirements for 
hazardous materials both as a member of IFALPA and here in North 
America as well. We have worked with this Committee to ensure that the 
safe transport of lithium batteries can occur with adequate risk-
mitigation techniques in place and are especially appreciative of 
Chairman DeFazio's long-standing commitment to improving the safety of 
lithium battery transport by air.
    Although lithium batteries represent a significant technological 
improvement over older battery technology, their high energy density 
and flammability make these batteries more prone to failure, resulting 
in fire and explosion. The lack of comprehensive hazardous materials 
regulations for the carriage of lithium batteries as cargo onboard 
commercial aircraft, both passenger and cargo, continues to pose risks 
to air transportation.
    New standards implemented by ICAO on April 1, 2016, made 
significant improvements to provisions under which lithium batteries 
are shipped as cargo by air around the globe. We are pleased that 
Section 333 of the FAA Reauthorization Act of 2018 directed the DOT to 
harmonize the U.S. regulations with those put in place by ICAO. This 
important and critical step ensures that until there are technologies 
that can fully contain a lithium battery-induced fire, the shipments 
are limited.
    While the harmonization of the U.S. regulations to ICAO limitations 
is a good first step, it does not go far enough in addressing the 
safety risk created by lithium batteries. Work must continue to develop 
and mandate performance-based packaging standards that will prevent 
and/or contain a lithium battery fire. Unfortunately, this work has 
taken much longer than ICAO had planned, and it will continue into 
2020. ALPA continues to advocate to ensure that the threat of external 
fires is addressed and that the battery/packaging testing ensures the 
safe transportation of these hazardous materials. We resolve to 
continue collaboration with the Committee to improve the shipment of 
lithium batteries by air.
              Undeclared Hazardous Materials Pose a Threat
    We are pleased that undeclared hazardous materials were addressed 
by Section 583 of the FAA Reauthorization Act of 2018, which directs 
the Department of Transportation (DOT) to develop an undeclared 
hazardous materials public awareness campaign. The DOT's Pipeline and 
Hazardous Materials Safety Administration (PHMSA) has developed the 
``Check the Box'' educational program to begin to address the risks 
posed by undeclared hazardous materials shipments, as well as the FAA's 
program on undeclared hazardous materials. This is an important effort 
that should help raise awareness among shippers.
    Hazardous materials, comprised of liquids, flammables, and other 
materials, shipped as cargo without being identified by the shipper are 
considered undeclared hazardous materials. There are no official 
estimates of what percentage of parcel shipments contain undeclared 
hazardous materials; however, the FAA tracks incidents where hazardous 
materials shipments create safety hazards for various reasons, such as 
a leaking package or other type of external evidence that the package 
is a safety concern. In 2018, the FAA received 1,346 reports of such 
events; 644 of the incidents involved undeclared hazardous materials.
           Reducing Health Risk with Oxygen Mask Rule Changes
    Section 579 of the FAA reauthorization Act of 2018 states that not 
later than one year after the date of enactment that ``the 
Administrator of the Federal Aviation Administration shall issue a 
final regulation revising section 121.333(c)(3) of title 14, Code of 
Federal Regulations, to apply only to flight altitudes above flight 
level 410.''
    In partnership with the airlines, ALPA supported this section of 
legislation. We are increasingly concerned that the FAA will fail to 
meet the required deadline for implementation of this rule. Airline 
pilots will immediately benefit from the implementation of this 
legislation reducing the frequency of oxygen mask use by flight crews. 
Currently, pilots are required to don the mask when operating above 
flight level 250 at all times when they are the only pilot in the 
cockpit. The legislation changes the minimum altitude for this 
requirement to flight level 410. The legislation brings the U.S. 
regulations into harmonization with ICAO and will ensure that aviation 
safety is maintained while also relieving pilots from potential health 
risks associated with using the oxygen masks that are not likely 
cleaned between each use.
           Strengthening Voluntary Safety Reporting Programs
    Voluntary safety reporting programs such as the Aviation Safety 
Action Program (ASAP) and Flight Operations Quality Assurance (FOQA) 
are important, collaborative tools that enhance aviation safety through 
the analysis of voluntarily reported safety events and discrepancies 
that lead to the prevention of accidents and incidents. The purpose of 
ASAP and FOQA is to encourage and use voluntarily reported safety 
information provided by frontline employees and airlines, respectively, 
to identify safety risks. Without these valuable safety reports, 
unidentified risks go unmitigated and remain within the system.
Automatic Acceptance
    We were pleased to see that Section 320 of the FAA Reauthorization 
Act of 2018 included the provision that ``there shall be a presumption 
that an individual's voluntary report of an operational or maintenance 
issue related to aviation safety under an aviation safety action 
program meets the criteria for acceptance as a valid report under such 
program.'' Directing the FAA to change ASAP to reflect this presumption 
will improve and increase the safety benefit of ASAP and voluntarily 
submitted aviation safety information by automatic acceptance of ASAP 
reports. This should be included in the new ASAP Advisory Circular, AC 
120-66C.
    Several airline ASAPs already have automatic acceptance protocols 
built in (e.g., American and Delta Air Lines). However, where ASAP 
reports are not automatically accepted, the safety benefit is delayed, 
sometimes by weeks or longer, waiting for an Event Review Committee 
(ERC) to meet, review, and accept these reports. Under an automatic-
acceptance scenario, the safety benefit of the information will be 
realized immediately. As recognized in Section 320, a report could 
still be ultimately excluded when the ERC convenes, and it is 
determined to meet established exclusionary criteria. The automatic-
acceptance model works and will now be universal to ASAP, thanks to the 
work of this Committee.
                     Improving Aircraft Air Quality
    Section 326 of the FAA Reauthorization called for expanded 
education programs, reporting guidelines, and research related to air 
quality on aircraft. ALPA supports these initiatives as critical first 
steps to improving air quality and health and safety aboard aircraft. 
We note that the FAA has missed the deadlines of 180 days for a study 
by the Airliner Cabin Environment Research Center of Excellence and for 
reporting guidelines. ICAO has reporting protocols (Advisory Circular 
344) that could easily be assimilated to use for fume events and would 
help to standardize reporting. Similarly, the one-year mark for 
educational materials is close approaching, and we hope the FAA will 
prioritize action on air quality.
        Safe Integration of Unmanned Aircraft Systems and Drones
    Section 341 of the FAA Reauthorization Act of 2018 establishes law 
that requires the FAA to continue to utilize comprehensive planning for 
the integration of unmanned aircraft systems (UAS). The comprehensive 
plan includes the identification of policies and regulations that need 
to be established in order to safely integrate UAS into the airspace 
system. However, contrary to the direction provided by Congress, the 
FAA is in the process of issuing waivers to large volumes of 
regulations to companies, allowing them to bypass many important safety 
regulations in order to start a commercial UAS package-delivery 
service. Several of the applications, if approved, would authorize the 
flights without any limitations to flying over large airports, 
residential areas, or other populated areas.
    While this ``regulation by exemption'' accelerates the FAA UAS 
implementation, it is counter to the FAA's stated policy of ``crawl, 
walk, run'' for the introduction of new technology, capability, and 
procedures. It also appears to be counter to Section 341 of the FAA 
Reauthorization Act which encourages the FAA to utilize traditional 
policy and rulemaking practices, not exemptions to waivers. The FAA has 
historically established regulations based on accidents and incidents 
to establish the current FARs. Aviation regulations represent a safety 
framework for which commercial for-hire operations are conducted. 
Issuing exemptions to so many of the requested areas appears to erode 
the safety levels established by the FAA through regulation, many of 
which were established as a result of accidents and incidents with 
injury and loss of life to passengers and people on the ground.
    We must not allow pressure to rapidly integrate UAS into the 
national airspace system without appropriate safeguards in place. This 
process must be focused on safety as the highest priority. Risk-
mitigation plans, which have yet to be fully developed, combined with 
consensus-based technology standards that will ensure interoperability 
with manned aircraft, must be in place before a UAS can occupy the same 
airspace as manned aircraft or operate in areas where it might 
inadvertently stray into airspace occupied by airliners. When UAS 
operate in the same airspace as airline aircraft, the pilots will need 
to be able to see them on cockpit displays, and air traffic controllers 
will also need to see them on their displays to safely separate air 
traffic. Further, the UAS must be equipped with active collision-
avoidance technology. We will oppose any integration that does not 
include collision-avoidance systems that are interoperable with airline 
collision-avoidance systems.
Small UAS (sUAS) Identification and Tracking Technologies Are Needed
    At the end of last month, the FAA announced that their rulemaking 
effort on sUAS identification and tracking has once again been delayed, 
this time until at least December.
    Now that Congress has removed the FAA's barriers to regulating 
model and hobby small UAS in the FAA Reauthorization Act of 2018, the 
FAA urgently needs to implement mandatory identification and tracking 
capabilities.
    If an identification and tracking system had been in place prior to 
the October 2016 collision with the Army helicopter, much more 
information would have been immediately available to accident 
investigators and law enforcement. Such a system would likely have 
prevented the collision in the first place, because law enforcement may 
have observed the sUAS operating on a previous flight, and proactively 
contacted the hobbyist about the illegal use of the aircraft. Until 
there is a way for law enforcement to identify and track down the sUAS 
operators, there is very little incentive for non-conformist hobby 
operators to operate sUAS safely.
                         Commercial Spaceports
    ALPA is pleased to see that Section 580 of the FAA Reauthorization 
Act addresses the topic of spaceports. The safe integration of 
commercial space operations is reliant on a safe location from which to 
launch and recover commercial space vehicles. The integration of 
commercial space operations likely requires the spaceports to be 
located in geographic areas that allow for the launch and recovery of 
commercial spacecraft without unacceptable levels of risk exposure to 
other nonparticipating aviation operations, including commercial 
airline operations. The strategic placement of commercial spaceports 
with safe integration of commercial space operations as a top priority 
should result in a solid foundation from which commercial space 
integration with other airspace system uses can be safely conducted. We 
urge Congress to monitor the FAA plan for commercial spaceports, to 
ensure that their placement does not add safety risk to commercial 
airline operations.
                  Addressing All-Cargo Airline Safety
    It is an unfortunate fact that many of the safety and security 
layers working to protect our passenger airline industry are absent 
from all-cargo operations. Cargo airlines fly the same aircraft, take 
off and land from the same airports, utilize the same airspace, and fly 
over the same cities as passenger aircraft. From a safety and security 
standpoint, there is every reason to hold all-cargo operations to the 
same safety and security standards as passenger operations. All-cargo 
airline operations currently experience an accident rate that is seven 
times higher than passenger airline operations worldwide.
    ALPA is pleased the FAA reauthorization included fatigue-mitigation 
provisions for flight attendants and FAR Part 135 operations. However, 
the continued exclusion of the all-cargo sector presents an ongoing 
threat to aviation safety for all of us. We look forward to the 
introduction of the Safe Skies Act in the House to eliminate the 
disparity between flight-time/duty-time rules for passenger and cargo, 
and we implore this Committee to work for its swift adoption and to 
hold the Administration accountable to ensure one level of safety.
    ALPA has maintained a strong stance that all-cargo operations must 
have the same level of safety as passenger airlines. The facts, 
however, speak for themselves. There have been five fatal all-cargo 14 
CFR Part 121 accidents in the United States in the past decade, with 15 
fatalities. This includes the fatal accident on February 23, 2019, of 
an Atlas Air Boeing 767, not far from Houston, Texas.
            Two Pilots Are Needed in Today's Airline Cockpit
    It is important to note that the FAA Reauthorization did not 
include a requirement for the FAA to establish a program related to the 
concept of single-pilot 14 CFR Part FAR 121 all-cargo airline 
operations. The program would have created a new multiyear funding 
obligation for the FAA to run a promotional program--despite, the 
agency's foundational safety mandate--in support of unsafe, single-
piloted commercial operations. ALPA took the initiative to measure 
public perception of the concept of a single pilot at the controls of 
an airline aircraft. In a public poll in 2018, 80 percent of 
respondents agreed that at least two pilots working together in the 
cockpit are best equipped to handle flight emergencies, while 96 
percent said federal aviation research dollars should be directed at 
projects other than those aimed at eliminating pilots from the cockpit.
    Even when the proposal for an FAA program was removed from the 
legislation, we continue to assess the feasibility of single-pilot 
airline operations. In short, we have documented many technical, 
regulatory, and financial barriers that indicate that single-pilot 
operations are a nonstarter either financially or due to safety and 
operational factors. More importantly, our continued record of safe 
landings clearly demonstrates that fewer than two pilots on commercial 
airliners is a threat to aviation safety and the concept should be 
shelved permanently. (See our white paper, ``The Dangers of Single-
Pilot Operations,'' at www.alpa.org/whitepapers.)
Fair and Open Skies--Ensuring that Aviation in America Remains Safe and 
                                 Strong
    While not specific to FAA implementation, we would be remiss not to 
highlight the work of this Committee to include the flag-of-convenience 
provision in the House-passed FAA reauthorization bill. ALPA would like 
to thank Chairman DeFazio and Chairman Larsen, as well as 
Representatives Davis, Davids, and Ferguson, for their ongoing 
leadership on an important issue that threatens thousands of high-
quality airline jobs in our country. On July 10, they introduced H.R. 
3632, the Fair and Open Skies Act. The legislation provides a 
bipartisan solution to ensure the enforcement of our Open Skies 
agreements by bolstering the DOT's oversight of an air carrier when it 
seeks an operating certificate to conduct service to the United States. 
Specifically, the Fair and Open Skies Act clarifies in statute that a 
multifactor public-interest test must be given consideration before the 
issuance of a foreign air carrier permit, revises the public-interest 
test to examine whether a foreign air carrier is a flag of convenience 
or is otherwise undermining U.S. labor standards, and requires European 
air carriers abide by the labor chapter of the U.S.-EU Open Skies 
Agreement as ratified by our government--ALPA has traditionally 
supported the opportunities created by our more than 120 Open Skies 
agreements. When properly enforced, these agreements promote benefits 
for U.S. carriers, workers, and passengers. Collectively, the reforms 
provided in the Fair and Open Skies Act will help ensure these 
agreements operate as intended and that the liberalization of air 
services is beneficial to all parties, including nation states, U.S. 
employees, and air carriers. This legislation will ensure that DOT 
gives proper consideration of a foreign airline's business practices, 
including those who may employ businesses practices with questionable 
safety oversight or regulatory schemes to be fully vetted before 
granting a permit to fly to the United States.
                               Conclusion
    We appreciate the Committee's invitation to offer our insights and 
perspectives on these important aviation safety issues today. More 
importantly, we appreciate the leadership that continues to be 
demonstrated by the Committee to advance these high-priority safety 
issues. The airline industry is best positioned to fully meet the needs 
of all passengers and shippers when safety levels remain at, or exceed, 
their current levels. It is in our collective best interest as 
legislative leaders, labor organizations, companies, and regulators, to 
ensure the foundation of safety is solid, and continues to lead the 
rest of the world. We look forward to working on these issues with you 
in the coming months as we strive to make meaningful safety 
improvements to aviation.

    Mr. Larsen. Thank you, Captain Fox.
    And I recognize the other Greg Walden from the Small UAV 
Coalition.
    Mr. Walden. Thank you, Chairman Larsen, Chairman DeFazio, 
Ranking Member Graves and Graves, and members of the 
subcommittee. Thank you for the opportunity to testify on the 
unmanned aircraft system subtitle. I am here on behalf of the 
Small UAV Coalition, whose members have been involved in every 
working group and industry partnership the FAA has established 
with the U.S. community.
    Coalition members represent the innovative, cutting-edge 
technological leadership that is poised to enable ubiquitous 
commercial UAS operations. We commend Congress for enacting a 
forward-looking policy roadmap for U.S. integration.
    Subtitle B addresses all of the issues that are critical to 
the development of a safe and secure regulatory framework.
    We also thank you for including two provisions that were 
necessary to lift the 2-year hold on UAS rulemakings, and we 
especially appreciate Chairman DeFazio's leadership in freeing 
the FAA to move forward with remote ID that we expect will 
apply to all UAS operators.
    We are encouraged that the remote ID rule, so far delayed, 
is now under review at OMB. Coalition members have demonstrated 
remote ID technology based on the ASTM standard, which can be 
implemented today without requiring costly infrastructure or 
equipage.
    With respect to unmanned traffic management, or UTM, 
coalition members had been working in partnership with NASA for 
several years when we first urged Congress to address UTM in 
FAA reauthorization. In 2016 you created the 2-year pilot 
program. And, with further direction into the 2018 law, the 
program is now underway. Unfortunately, UTM deployment has 
progressed slowly. While industry is ready to implement UTM 
capabilities, it must depend on a supportive policy framework 
to do so.
    As for aircraft certification, we support section 44807, 
which is used to authorize commercial packages, delivery 
operations, and operations of drones over 55 pounds.
    The law directs the FAA to set up a process to accept risk-
based industry consensus standards. We find much promise in 
this provision, but it will take some time to work through its 
complexity.
    Right now we support the Specific Operations Risk 
Assessment, or SORA, which is a process initially created by 
the Joint Authorities for Rulemaking of Unmanned Systems. It 
goes by the moniker JARUS.
    We also support the FAA's MOSAIC Airworthiness Rulemaking 
Project, and the FAA work on developing a type certification 
process for lower risk UAS operations that relies primarily on 
a demonstration of reliability and durability.
    We strongly endorsed the UAS integration pilot program when 
it was announced. Many coalition members are participating in 
one or more programs, and have had positive experience. On the 
other hand, we have other reports that suggest success has been 
uneven.
    We believe that plenary authority must remain with the FAA 
in four specific areas: aircraft, airmen, air carriers, and 
airspace. The FAA must retain its authority over UAS operations 
at any altitude. At the same time, State and local governments 
possess land use and other police powers, and these authorities 
can coexist, particularly with technical solutions like UTM.
    We support the requirement that recreational operators pass 
an online aeronautical knowledge test. We expect many 
recreational operators who would otherwise elect not to travel 
to a testing center will go online. Unfortunately, the FAA did 
not meet the April deadline to develop a test, and the process 
to select online testing vendors got off to a slow start. We 
certainly hope the FAA can begin online testing by the end of 
this year.
    The coalition supported extending counter-UAS authorities 
to DHS and DOJ. We believe the guidance required by section 
1602 should be in place before counter-UAS authority is 
exercised. For the same reason, we believe it is premature to 
extend these authorities to airports or State and local 
governments.
    The commercial UAS industry is international in reach, and 
it is thus very important that the United States assume its 
global leadership role. We urge the FAA to continue to engage 
with ICAO and with JARUS, which has developed an effective 
framework for evaluating complex UAS operations, and recently 
adopted a workplan to address UTM-air traffic control 
interface, autonomous operations, and the UAS flight rules.
    The FAA Reauthorization Act of 2018 was a major milestone, 
and we ask this committee to continue its vigorous oversight to 
ensure the important directives in the 2018 law are addressed 
in a timely manner.
    Thank you again for the opportunity to testify today. I 
look forward to your questions.
    [Mr. Walden's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Gregory S. Walden, Aviation Counsel, Small UAV 
                               Coalition
    Chairman Larsen, Ranking Member Graves, and members of the 
Subcommittee: on behalf of the Small UAV Coalition, to which I serve as 
Aviation Counsel, thank you for the opportunity to present testimony on 
the unmanned aircraft systems (UAS) subtitle in the FAA Reauthorization 
Act of 2018. I am also Senior Advisor with McGuireWoods Consulting LLC 
and Partner with McGuireWoods LLP. I served as FAA Chief Counsel from 
May 1988 through December 1990 and have been both practicing aviation 
law and teaching at George Mason University Law School for the last 20 
years.
    The Small UAV Coalition was organized in 2014 and is comprised of 
UAS operators, hardware and software manufacturers, and other companies 
involved in the commercial UAS sector. Coalition members have been 
involved in each and every committee, working group, and industry 
partnership the FAA has established with the UAS community. Together, 
Coalition member companies represent the innovative, cutting-edge 
technological leadership that in just a few short years, is poised to 
enable routine safe, secure, UAS integration. With your continued 
support, we are well on our way to securing a regulatory framework for 
commercial UAS operations that will not only capture, but exceed, our 
expectations and deliver untold economic and consumer benefits.
                          General observations
    The Coalition welcomes the UAS provisions enacted into law last 
year and commends Congress for establishing a forward-looking policy 
roadmap for UAS integration. Subtitle B of the Safety title addressed 
all of the issues we believe are critical to the development of a safe 
and secure UAS regulatory framework: remote identification, unmanned 
traffic management, air carrier certification, standards development, 
security, privacy, spectrum, and state and local authorities. 
Significantly, the 2018 reauthorization law included two key 
provisions--both of which the Coalition supported--necessary to lift 
the informal hold on FAA UAS rulemakings, which dated back to December 
2016.
                   Remote identification (Remote ID)
    We are encouraged that the remote ID proposed rule, mandated by the 
FAA Extension, Safety, and Security Act of 2016, is now under review at 
the Office of Information and Regulatory Affairs (OIRA). Remote ID is 
fundamental to the development of a mature UAS regulatory framework; it 
addresses safety, security, and privacy concerns. As Congress 
envisioned in the 2018 reauthorization law by establishing a pilot 
program to utilize available remote ID technologies for safety 
oversight (section 372), remote ID will assist the FAA in conducting 
safety oversight and taking enforcement actions when necessary. While 
this section sunsets in September 2023, remote ID should continue to 
serve as a compliance tool for the FAA.
    We are also pleased that ASTM Committee F38 has developed a remote 
ID standard, which is now out for ballot, and which will help to inform 
the remote ID rulemaking. We appreciate the role this Committee--in 
particular Chairman DeFazio--played in freeing the FAA to move forward 
with a rule that we expect will apply both to commercial and non-
commercial UAS operators. Section 349 allows recreational operators and 
hobbyists to work with FAA Air Traffic officials to designate discrete 
flying fields (``fixed sites'') where UAS perhaps need not be equipped. 
In other airspace, however, remote ID may be required of all UAS 
operators.
    We are mindful that the OIRA process may result in further delays, 
beyond the 90 day review period set out in Executive Order 12866. 
Coalition members have demonstrated remote ID technology based on the 
ASTM standard. They have shown that the standard can be implemented 
today across a range of commercial and recreational operators without 
requiring costly additional infrastructure or equipage. The ASTM 
standard balances transparency with the privacy interests of customers 
and operators by sharing information only as necessary. Remote ID based 
on the ASTM standard can deliver immediate safety, security, and 
privacy benefits at reasonable cost. Indeed, earlier this month several 
Coalition members participated in a demonstration of network-based 
remote ID.
    The FAA also tasked the Drone Advisory Committee (DAC) with 
recommending incentives to encourage early equipage, and the Coalition 
recently submitted its recommendations to the DAC. The Coalition urged 
that any pre-rule implementation be consistent with the ASTM standard. 
To demonstrate the potential of remote ID to address a number of 
concerns with UAS operations, the Coalition recommended the DAC urge 
the FAA to sponsor live remote ID demonstrations to Congress, Federal 
law enforcement and homeland security agencies, State and local law 
enforcement officials, and the general public. Remote ID demonstrations 
are critical to public acceptance of commercial drone operations in a 
range of use cases, including operations over people (OOP) and beyond 
visual line of sight (BVLOS) in both rural and urban environments. To 
incentivize companies to implement remote ID in compliance with the 
ASTM standard, the Coalition believes the FAA should prioritize Part 
107 waiver and section 44807 exemption petitions filed by UAS operators 
using ASTM standard-compliant remote ID, and that remote ID equipage 
should be considered favorably in evaluating the merits of a waiver or 
exemption request because it increases the margin of safety of the 
drone operations.
    In sum, the Coalition supports pre-rule equipage and encourages the 
FAA to move forward with incentives to equip.
                   Unmanned Traffic Management (UTM)
    When the Coalition was established in 2014, NASA was well along 
with its R&D work on developing a proposed UTM ecosystem. Coalition 
members partnered with NASA in this work and the Coalition urged 
Congress to address UTM design, development, and implementation in FAA 
reauthorization legislation. The 2016 extension law established a two-
year UTM System Pilot Program (UPP). With further direction from 
Congress contained in sections 376 and 377 of the 2018 reauthorization 
law, both of which we strongly supported, that Program is now underway.
    Unfortunately, UTM development has progressed slowly, and with 
little transparency. Industry is ready to implement UTM capabilities, 
but must depend on a supportive policy framework to do so. Earlier this 
year, the FAA selected three of the UAS test sites to serve as the UPP 
participants. The FAA recently showcased UTM demonstrations at these 
three sites, but there is no indication that any UPP participant is 
seeking to take advantage of two provisions in section 376: blanket 
BVLOS waiver authority for any UAS operating simultaneously in a swath 
of airspace and demonstration of multiple remote ID technologies. We 
remain hopeful that FAA will meet the April 2020 deadline for the UTM 
implementation plan, which should not only build upon the FAA's UTM 
Concept of Operations document, NASA's work, and the results from UPP, 
but also include the UAS industry's work, including as part of ASTM 
Committee F38.
    Section 377 encourages the FAA to determine, by February 2019, 
whether UTM services can be provided before the UTM implementation plan 
is completed. We are unaware whether the FAA has established a 
framework to evaluate and approve a request from a would-be UTM Service 
Provider.
                            Air carrier rule
    The Coalition has long supported the development of a rule to 
authorize UAS air carriers that would be tailored to the very different 
and lower risk profile small UAS pose compared with traditional manned 
air carriers. Section 348 requires the FAA to update its rules within 
one year of enactment. While that clearly will not occur, we 
acknowledge that the FAA is moving ahead to authorize package delivery 
for compensation or hire by granting exemptions from Part 135. Wing has 
obtained this authority, with petitions from Amazon Prime Air, Uber 
Elevate, and UPS Flight Forward pending.
    With respect to economic authority, DOT moved quickly to apply the 
existing Part 298 exemption process for air taxi operators to UAS 
operators.
                       State and local authority
    One of the greatest challenges to the development of a mature UAS 
regulatory framework is to achieve a proper understanding of the roles 
and responsibilities of Federal, State, and local governments. Section 
373, which the Coalition supported, tasks GAO with conducting a study 
and reporting to Congress by April 2019. The Coalition believed then, 
and believes now, that it is premature for Congress to make any changes 
to the FAA's exclusive authority over aviation safety.
    The Coalition believes that plenary authority must remain with the 
Federal Government in four specific areas: aircraft, airmen, air 
carriers, and airspace. With respect to drones, this means that UAS 
equipage and maintenance requirements, remote pilot qualifications, 
regulation of package delivery, and airspace classification and 
regulation are for the FAA to regulate and enforce. With respect to 
airspace, the Coalition believes that the FAA must retain its safety 
authority over UAS operators and operations at any altitude, no matter 
how close to the ground. At the same time, State and local governments 
possess land use and other police powers. These authorities can co-
exist, particularly with the support of technical solutions like UTM. 
We look forward to reviewing the findings and recommendations in the 
GAO report.
    The Coalition strongly endorsed the UAS Integration Pilot Program 
(IPP) when it was announced in 2018 and many Coalition members are 
participating in one or more programs. The IPP was created in large 
part to allow for State and local governments to inform the FAA about 
local interests in UAS operations. Indeed, DOT required lead applicants 
to be State, local, or tribal government entities. While many Coalition 
members have had very positive experiences under the auspices of the 
IPP that have demonstrated the promise of commercial UAS technology, 
generally speaking the IPP has lacked transparency; the initial report 
on this three-year program has not yet been published. Reports indicate 
that success has been uneven. From the start, the scope of projects in 
most IPP programs was significantly curtailed and waivers have taken 
longer than expected.
              Aircraft safety standards and certification
    As for aircraft certification, there remains much to do. The 
Coalition supports section 44807, which superseded section 333 
exemption authority, so that the FAA is permitted to authorize UAS 
operations over 55 pounds, as well as waive type, production, and 
airworthiness certification requirements. Indeed, commercial package 
delivery under Part 135 requires an exemption under section 44807, 
because otherwise an air carrier may operate only those aircraft with a 
valid airworthiness certificate.
    Section 202 created the Safety Oversight and Certification Advisory 
Committee (SOCAC) and provides for UAS industry representation. The law 
required the Secretary to establish the SOCAC by December 2018; this 
deadline was not met and the first meeting will not be held until this 
November. The Coalition supports the creation of this advisory 
committee and recognizes that the focus and attention this year has 
appropriately been on the response to the tragic Boeing 737 MAX 
accidents.
    Section 345 directs the FAA to set up a process to accept risk-
based industry-consensus standards and to allow UAS manufacturers to 
declare compliance with such standards. There is much promise in this 
provision, but it will take some time to work through its complexity, 
and therefore this is one provision for which the absence of a deadline 
makes sense. The Coalition believes the FAA shares with the UAS 
industry the desire to adapt the current type and airworthiness 
certification processes to unmanned aircraft, both small and large. It 
will be up to the UAS industry, working with various U.S. and 
international standards-setting groups, to develop standards for such 
technologies as detect-and-avoid. The Coalition supports the adoption 
as an industry consensus standard the Specific Operations Risk 
Assessment (SORA) process initially created by the Joint Authorities 
for Rulemaking on Unmanned Systems (JARUS). We also support the work 
the FAA is doing on the so-called MOSAIC (Modernization of Special 
Airworthiness Certificates) process: the FAA has current regulatory 
authority under 14 C.F.R. 21.17(b) to adopt Special Conditions for 
aircraft designs for which neither Part 23 nor Part 25 is appropriate.
    Section 345 recognizes that the initial and primary responsibility 
for designing and manufacturing safe and reliable drones rests with the 
UAS industry. The FAA must have the final say that a UAS has been 
designed and manufactured in compliance with FAA-approved standards. In 
reviewing the FAA's Organization Designation Authorization process, 
Congress should be mindful that, with respect to small UAS, the 
industry will lead in ensuring the safety and reliability of hardware 
and software innovations that increasing lead to autonomous operations.
    The Coalition also supports the FAA's work on developing an 
alternative certification process for lower risk UAS operations that 
relies primarily on a demonstration of reliability and durability, and 
that scales from remote, densely-populated area to high-density cities.
                                  Risk
    One of the central themes one can derive from the 2018 
reauthorization law is the imperative to base decision making on the 
nature and degree of risk to aircraft (so-called air risk) and to 
persons and property on the ground (so-called ground risk), and to 
evaluate how this risk can be mitigated. The Coalition strongly 
supports risk as the touchstone for UAS regulation. Based on the FAA's 
proposed rule for operations over people, however, the Coalition is 
concerned that the FAA may be approaching risk in an overly 
conservative way.
    The Coalition recommends a holistic approach to evaluating risk 
that takes into account avoided risk (such as the risks associated with 
alternatives such as manned aircraft, or road vehicles) and risk 
mitigation (measures that reduce the likelihood of failure and the 
likelihood of a collision, not just the consequences of a collision). 
At its most basic level, the risk model the FAA identifies in its 
proposed rule fails to consider the net reduction in risk in operating 
a small UAS rather alternatives, such as a manned aircraft of any size, 
operating a motor vehicle or, in some cases, undertaking the task 
personally (i.e. climbing a cell tower). UAS operations reduce risk by 
limiting the public's exposure to the greater dangers associated with 
operations of significantly larger, heavier, and faster fixed-wing 
aircraft that are fuel-powered, or the even greater danger posed by 
automobiles. UAS operations under 55 pounds are lightweight, nearly all 
battery-powered, have no on-board crew, and create no toxic emissions.
    Assessing the Risks of Unmanned Aircraft Systems into the National 
Airspace System, a recent Consensus Study Report commissioned by the 
National Academies of Sciences, Engineering and Medicine at the FAA's 
request in 2017, recommends this approach.
    In the OOP NPRM, the FAA uses a kinetic energy standard that 
assumes a small UAS has collided with a human being. In other words, 
the standard is not based on the probability of failure or the 
probability of impact, but only on the severity of impact. The FAA does 
not use this standard for manned aviation, whether transport category 
or small aircraft. If it did, no aircraft would ever be allowed to fly 
over people, and the aviation industry would not exist.
    As the Alliance for System Safety of UAS through Research 
Excellence (ASSURE) explained, ``FAA's safety program relies heavily 
upon the risk-based approach that includes hazard severity and 
probability of occurrence. . . . The NPRM proposes to achieve their 
safety objectives by establishing a performance-based standard on 
severity of the impact without any clear guidelines or application of 
probability of the collision even occurring.'' The Coalition urges the 
FAA to reconsider its risk assessment models, and revise its 
performance standards in line with ASSURE's recommendations.
                         Recreational operators
    The Coalition supports the requirement in section 349 that 
recreational operators pass an aeronautical knowledge test that is 
administered online. We expect online training and testing will 
encourage many recreational operators, who would otherwise elect not to 
travel to a testing center to take the test, to go online and come into 
compliance. The FAA set up an Aviation Exam Board to develop questions 
for the aeronautical knowledge test; a member of the Coalition serves 
on this Board. Unfortunately, the FAA did not meet the April 3, 2019 
deadline to develop a test and a request for information (RFI) to 
potential online aeronautical knowledge test vendors was not issued 
until August. Submissions were due September 19, so we are hopeful that 
the FAA can begin the online aeronautical testing by the end of this 
year or early in 2020. The Coalition encourages the FAA to ensure that 
the test is affordable and accessible to the recreational UAS community 
in order to maximize compliance.
                            Part 107 waivers
    A virtue of Part 107 is that several operational prohibitions in 
the rule are subject to waiver. In its early stages, the Part 107 
waiver process lacked transparency and was far from user-friendly. We 
applaud section 352's direction to the FAA to increase transparency and 
make technological improvements. FAA has significantly improved its 
guidance on seeking waivers, although the UAS community would benefit 
greatly from the availability of FAA staff after an application is 
filed. The application process has also improved, but waivers still 
take too long to be processed. The DAC has created a Task Group to 
develop recommendations on how to improve the Part 107 waiver process, 
and the Coalition urges the FAA to implement these recommendations. We 
do applaud the development of the Low Altitude Authorization and 
Notification Capability (LAANC) and facility maps that support 
approvals to operate in controlled airspace in a matter of minutes.
                                Spectrum
    Spectrum is another policy area that is important to UAS 
integration, as commercial licensed spectrum offers the security, 
reliability, and ubiquity, as well as the speed, latency, and bandwidth 
necessary to support sensitive UAS operations, including remote ID, 
UTM, and payload as control and non-payload communications (CNPC). 
Section 374 requires the NTIA, FAA, and FCC to report to Congress by 
July 2, 2019 on whether UAS operations should be permitted, but not 
required, to operate on the 960-1164 MHz and 5030-5091 MHz bands, on an 
unlicensed, shared, or exclusive basis, whether as part of or outside 
of a UTM system, and to make additional recommendations if these bands 
are unsuitable for BVLOS operations. The Coalition looks forward to 
reviewing this report when it is released.
      Protecting government facilities, operations, and critical 
                             infrastructure
    The Coalition supported extending counter-UAS authorities to DHS 
and DOJ in a manner consistent with authorities previously granted to 
DOD and DOE in recent National Defense Authorization Acts (NDAAs). We 
note that section 1602 permits the Departments to issue regulations, 
but requires them to issue guidance. We understand that DHS and DOJ 
each is working on guidance. Although there is no deadline in section 
1602 to develop such guidance, we believe that it should be in place 
before counter-UAS authority beyond detection is exercised.
    Section 364 requires the FAA by December 2018 to have initiated a 
review of counter-UAS activities by Federal agencies by April 2019 to 
have reported to Congress. To our knowledge, this report has not been 
provided. Section 1602 requires DHS to provide a report to Congress by 
October 5, 2019 on an evaluation of threats and current authorities. We 
are unaware of any reported use of counter-UAS authority by DOD, DOE, 
DHS, or DOJ.
    Because Executive Branch policies are not yet in place, and there 
appears to be little, if any, experience by these four Departments in 
using counter-UAS authorities, the Coalition believes it is premature 
to consider extending these authorities to other Federal agencies, 
airports, or State and local governments. Section 383 directs the FAA 
to develop a plan and to charter an aviation rulemaking committee (ARC) 
to consider allowing the deployment of UAS detection and mitigation at 
five airports. We suggest that any ARC that is established should 
consider Federal Department guidance required in section 1602 and the 
experience these Departments gain in using counter-UAS authorities in 
the future.
    With respect to protection of critical infrastructure, Section 369 
requires the FAA to propose a rule to implement Section 2209 of the 
2016 extension law by March 31, 2019, with a final rule by March 31, 
2020. The FAA's current timetable expects a proposed rule by December 
2019. We recognize that FAA has used its Temporary Flight Restriction 
(TFR) authority in the interim, and recommend the FAA continue to do so 
until a rule is in place.
                            U.S. leadership
    Aviation is international in its reach. While each country 
regulates aircraft and airlines within its borders, the International 
Civil Aviation Organization (ICAO) exists in part to promote uniformity 
and harmonization of regulations and standards throughout the world. 
Since the dawn of aviation, the United States had led the world in 
safety improvements, which ICAO has later used in standards to be 
adopted by United Nations Member States.
    The commercial UAS industry is likewise international in its reach. 
Many Coalition members are international companies that will 
manufacture, operate, and sell UAS in many countries. It is thus 
equally important that the United States remain the leader in aviation 
regulation. The Coalition urges the FAA to continue to engage with 
ICAO's RPAS Panel and with JARUS, which has developed an effective 
regulatory framework for evaluating complex UAS operations and recently 
adopted a work plan to address UTM-ATM interface, autonomous 
operations, and UAS flight rules.
                               Conclusion
    The FAA Reauthorization Act of 2018 was a major milestone in 
helping to shape and advance a mature UAS regulatory framework that 
will support continued innovation. There is much more to do before 
largely autonomous BVLOS UAS operations will be routine, and there 
remain some difficult issues to resolve. The Coalition therefore again 
commends the Committee for charting a forward-looking course for safe, 
secure UAS integration and urges this Subcommittee to continue its 
vigorous oversight to ensure its many directives are addressed in a 
timely manner.
    Thank you again for the opportunity to testify today, and I look 
forward to your questions.

    Mr. Larsen. Thank you for your testimony.
    I now turn to Mark Baker, president of AOPA.
    Mr. Baker. Thank you. Chairman Larsen, Ranking Members 
Graves, members of the subcommittee, thank you for the 
opportunity to discuss important provisions of last year's FAA 
Reauthorization Act that impact aircraft owners and pilots and 
the general aviation community.
    AOPA represents over 300,000 pilots and aircraft owners 
across the United States. We are fortunate to have very engaged 
members in every State and congressional district across the 
country.
    I am fortunate to have had the privilege to fly in our 
Nation's aviation system for over 40 years. It is an amazing 
system. It is very safe, modern, and the envy of the world. And 
this committee has a lot to do with that. I would like to 
commend the committee for its work in passing the bipartisan--

    Mr. Larsen. Mr. Baker, if you could just pull the 
microphone a little closer, or speak more directly into it----
    Mr. Baker. A little closer? How about that?
    Mr. Larsen. Thank you.
    Mr. Baker. We would like to thank and commend the committee 
for its work in passing a bipartisan 5-year FAA 
reauthorization. Public Law 115-254 is widely recognized for 
both what it includes and what it does not include.
    Today I will briefly mention the key provisions that 
directly and positively impact general aviation. I would like 
to give a special thanks to Ranking Member Sam Graves for his 
leadership on several of these provisions in the act.
    Thousands of public-use airports across this Nation rely 
solely on general aviation to connect over 170 million people 
each year. General aviation contributes over $200 billion 
annually to our Nation's economy, and produces 1.1 million 
jobs.
    With the support of this committee, Congress has 
appropriated an additional $1 billion in discretionary funds in 
the fiscal year 2018 that will meet the demand of airport 
infrastructure needs, and another $500 million in fiscal 2019. 
Speaking for myself and on behalf of those who fly in and out 
of small airports, we appreciate that support.
    For many private aircraft owners, aeronautical activity 
occurring in airport hangars include building and maintaining 
aircraft. AOPA has long advocated for changes to the definition 
of aeronautical activity in hangars. Section 131 codifies the 
FAA's updated hangar use policy so that the realities with 
general aviation flying, building, and maintenance can be 
realized.
    Several other provisions in the bill are important to the 
general aviation community, including section 556, which, as 
you know, requires the FAA to initiate rulemaking to increase 
the duration of general aviation aircraft registration from 3 
years to 7 years. This is a commonsense provision that will 
help reduce workload and the cost of aircraft ownership, which 
AOPA strongly supports.
    Section 518 will keep the aircraft registry open, should a 
Government shutdown occur in the future, which will have a 
positive impact on general aviation registration requirements.
    We also support Chairman DeFazio's Aviation Funding 
Stability Act, which would ensure that all FAA activities are 
funded in the event of a Government shutdown.
    Section 532 clarifies FAA policy regarding payment of 
living history flights, which will help continue our efforts to 
attract a new generation of aviation enthusiasts, a future 
workforce for the aviation community.
    Speaking of our future workforce, Congress and this 
committee specifically recognized the need to support aviation 
workforce development programs through section 625. This was a 
top priority for AOPA. The Pilot Education Grant Program and 
the Aviation Technical Workforce Grant Program were each 
authorized at $5 million per year for the next 5 years. We 
remain hopeful that the appropriations process will move 
forward, and that will be fully funded.
    AOPA has taken a leadership role in developing our future 
aviation workforce through AOPA's high school initiative, by 
providing high-quality, STEM-based aviation education to high 
school students nationwide. AOPA is opening the door to an 
aviation career for thousands of teens. For the 2018-19 school 
year our curriculum is being used on an estimated 2,200 
children, ninth grade students, over 80 schools in 27 States. 
Another 461 students at 25 schools in 15 States are using the 
10th grade curriculum. During the current year, 161 schools in 
34 States are delivering aviation curriculum to these students. 
Our 11th grade curriculum is currently being field tested, and 
our ultimate goal is to have a 4-year program that will enable 
students to take and pass a written test to become a private 
pilot.
    While not related to the FAA Reauthorization Act of 2018, I 
would like to thank the committee and mention the success of 
the bipartisan legislation passed into law, an extension of the 
Security Act, also known as a third-class medical, which is 
referred to now as the BasicMed. In just over 2 years that the 
program has been launched, more than 50,000 pilots are flying 
safely under these new medical standards. I am pleased to 
report the FAA implemented the statute expeditiously, and 
continues to support the success of the law.
    Finally, Mr. Chairman, we must continue to work together in 
industry and Government to ensure our Nation's leadership in 
all sections of aviation. We are hopeful that the committee 
will work through Senator Jim Inhofe of Oklahoma and others to 
establish the National Center for the Advancement of Aviation.
    Thank you very much.
    [Mr. Baker's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Mark Baker, President and Chief Executive 
            Officer, Aircraft Owners and Pilots Association
    Chairman Larsen, Ranking Member Graves, Members of the 
Subcommittee, on behalf of over 300,000 AOPA members, thank you for the 
opportunity to provide testimony on the recent bipartisan five-year FAA 
Reauthorization Act of 2018.
    The Aircraft Owners and Pilots Association (AOPA) is currently 
celebrating its 80th Anniversary and I am proud and humbled to be only 
the 5th President serving the Association since its inception in 1939. 
We have stayed true to our mission over these several decades by 
protecting and defending our freedom to fly, ensuring that safety 
remains our north star, and helping guide this uniquely American 
experience so we can pass it along, better than we received it, to the 
next generation of aviators.
    First, I would like to commend the Committee for its work in 
passing a five-year FAA reauthorization. PL115-254 is widely recognized 
for both what it includes and what it does not include and helps 
provide the tools necessary for the FAA to plan, prepare, and ensure 
that our aviation system remains the safest and most efficient in the 
world.
    We look forward to working with the Committee and all aviation 
stakeholders to bring efficiencies to the FAA, under its current 
construct, and develop a bright future for this amazing thing we call 
flight.
    Today, I will briefly discuss a number of key provisions included 
in the statute that directly and positively impact general aviation and 
would like to give a special thanks to Ranking Member Sam Graves for 
his leadership and perseverance on several of the provisions in the 
Act.
             Section 158--Supplemental discretionary funds.
    According to the U.S. Department of Transportation's Bureau of 
Transportation Statistics, there are over 19,000 public-use and private 
airports in the United States. These include general, commercial, 
military, heliports, seaplane bases, short takeoff and landing ports, 
ultralight, glider, and balloon ports.
    The Federal Aviation Administration's 2019-2023 National Plan of 
Integrated Airport Systems (NPIAS) report indicates that there are 
5,099 public-use airports in the United States of which the commercial 
airlines provide passenger service to 509 of these facilities and the 
remainder are used primarily by general aviation. As a point of 
reference, there are about 7,000 aircraft in the U.S. commercial fleet 
and over 200,000 aircraft in the general aviation fleet.
    Thousands of public-use airports across the nation rely solely on 
general aviation to connect over 170 million people each year. General 
aviation contributes over $219 billion annually to our nation's economy 
and produces 1.1 million jobs.
    These airports are often vital to the economies of small 
communities and are used in a variety of ways including business, 
recreation, natural disaster relief operations, medical emergencies, 
law enforcement, agricultural support, and others.
    With the support of this Committee, Congress appropriated an 
additional $1 billion dollars in discretionary funds through the 
Consolidated Appropriations Act of 2018, and an additional supplemental 
amount of $500 million dollars in fiscal year 2019.
    Speaking for myself and on behalf of those who fly in and out of 
small airports in rural communities across this country, we appreciate 
your support. These resources have provided a shot in the arm to our 
national airport system.
    We know the Committee has long recognized the importance of our 
nation's airports and again expressed its commitment by including in 
PL115-254 an authorization of supplemental discretionary grant funds in 
the amount of $1 billion dollars per year through fiscal year 2023. 
Funding for this authorization will help airports address safety 
improvement projects, including the nearly 3,000 non-primary 
entitlement (NPE) airports typically used by general aviation aircraft 
across the country.
    The committee did address the issue of NPE expired funds in Section 
155 of the FAA reauthorization bill and we look forward to continuing 
to work together on further reforms to the program to ensure that the 
NPE program works for airport sponsors and the funds are directed to 
airports for which they were intended.
                     Section 131--Grant assurances.
    AOPA has long advocated for changes to the definition of 
aeronautical activity in hangars and I thank Ranking Member Sam Graves, 
an avid aviator, for his leadership on this as well.
    For many private aircraft owners, aeronautical activities occurring 
in airport hangars include building and maintaining an aircraft.
    However, surprisingly, not until 2016 did the FAA decide to define 
aircraft building as an aeronautical activity and before then only 
permitted final assembly of aircraft in hangars located on federally 
obligated airports.
    In 2016, the FAA published a policy update to the Federal Register 
that was meant to clarify how aviation facilities including hangars can 
be used on airports that receive federal funds. Most notably, the FAA's 
update allowed noncommercial experimental amateur builders of aircraft 
to do more work at airport hangars.
    The FAA also clarified that aircraft needing repair and maintenance 
are still considered ``operational aircraft'' and may be kept in 
hangars at the discretion of airport sponsors. In addition, the storage 
of nonaeronautical items are permissible provided they do not interfere 
with the intended aeronautical use of the hangar and are allowed by the 
airport sponsor.
    While we applaud FAA's decision to update their hangar policy, 
Section 131 of the FAA Reauthorization Act codifies the FAA's updated 
hangar use policies so that the realities of general aviation flying, 
building and maintenance can be realized.
                  Section 556--Aircraft Registration.
    As you know, Section 556 of the FAA Reauthorization Act of 2018 
requires the FAA Administrator to initiate a rulemaking to increase the 
duration of aircraft registration for noncommercial general aviation 
aircraft from three years to seven years.
    AOPA strongly supports this common-sense provision. I don't believe 
FAA has initiated a rulemaking at this point but we look forward to its 
implementation as soon as possible.
                 Section 518--Aircraft Registry Office.
    Section 518, authored by Representative Sam Graves, deems the FAA 
Aircraft Registry in Oklahoma City, Oklahoma ``essential'' and 
therefore remains operational should a government shutdown occur. The 
FAA Registry office is responsible for most aircraft registrations, 
renewals, and other critical functions and handles thousands of 
transactions daily. This provision will have a significant and positive 
impact on general aviation registration requirements should a 
government shutdown occur in the future.
    We also support Chairman DeFazio's ``Aviation Funding Stability 
Act'', H.R. 1108, which would ensure that all activities of the FAA are 
funded in the event of a government shutdown.
                        Section 512--Air Shows.
    Temporary Flight Restrictions (TFRs) imposed by the FAA for large 
outdoor events has caused issues when the agency has also approved air 
shows being held during the same times in the same areas. Section 512 
of the Act encourages the FAA to work with general aviation, 
communities, and large outdoor event organizers to identify and resolve 
these scheduling conflicts. The FAA is following through on this and 
meeting with stakeholders, including AOPA, to discuss ways to 
facilitate a positive resolution to this issue.
 Section 532--Clarification of requirements for living history flights.
    We appreciate the Committee's support for living history flights as 
a way to attract a new generation of aviation enthusiasts and provide 
them with a flying experience and learning about aviation's past. This 
provision provided the needed clarification on the requirements for 
living history flights and is very much appreciated by those who 
participate in these activities.
    We are pleased the FAA is working with stakeholders and it is my 
understanding the FAA is on target for a federal register publication 
later this year.
                      Section 576--Tower Marking.
    Improving visibility of certain towers for low-flying aircraft will 
certainly improve the safety of pilots and aircraft. As you know, this 
provision directs the FAA to issue regulations that require certain 
towers to either be marked or included in an FAA database. We look 
forward to working with the FAA to enact these regulations as soon as 
possible and as outlined in the statute.
         Section 625--Aviation workforce development programs.
    This is an important provision intended to introduce high school 
students and others to STEM aviation education and opportunities, as 
well as training in aviation and aerospace skills. This issue is a top 
priority for AOPA.
    Congress, and this Committee specifically, recognized the need to 
support aviation workforce development programs by establishing this 
grant program.
    In July 2018, Boeing released its Pilot and Technician Outlook 
wherein they estimated a need for more than 800,000 new pilots 
worldwide of which more than 200,000 are needed in the United States 
over the next 20 years. The report also mentioned that 750,000 new 
aviation technicians will be needed around the world. This will be a 
formidable challenge and one we must confront together--industry and 
government.
    Most people that aspire to become aviators start in general 
aviation, so it is vital that we collaborate on efforts to ensure that 
this pipeline remains open to all. The pilot education grant program 
will support the creation and delivery of curriculum designed to 
provide high school students with meaningful science, technology, 
engineering, math and aviation education and encouraging our nation's 
youth to become the next generation of commercial, general aviation, 
drone or military pilots.
    The aviation technical workforce grant program includes 
scholarships, apprenticeships, establishment of new training programs, 
purchasing equipment for schools, and supporting career transition for 
members of the armed forces.
    These two programs are each authorized at $5 million per year over 
the next five years, it is imperative that Congress provide full 
funding in fiscal year 2020 and beyond to help ensure that we can meet 
the pilot and aviation technical workforce demands here in the United 
States.
    We appreciate the leadership of Chairman Peter DeFazio, Ranking 
Member Sam Graves, Aviation Subcommittee Chairman Rick Larsen, 
Subcommittee Ranking Member Garret Graves, Congressman Dan Lipinski and 
the entire Committee who expressed their support for full funding of 
these grant programs to the Appropriations Committee.
    AOPA has also taken a leadership role in developing our future 
aviation workforce by getting young people interested in aviation 
through programs such as the AOPA High School Initiative.
    By providing high-quality STEM-based aviation education to high 
school students nationwide, AOPA is opening the door to aviation 
careers for thousands of teens.
    The courses are designed to capture the imagination and give 
students from diverse backgrounds the tools to pursue advanced 
education and careers in aviation fields. Working with professional 
instructional designers, AOPA is currently offering three years of a 
four-year high school aviation STEM program that falls along two 
tracks--pilot and unmanned aircraft systems. The fourth year of the 
program is currently in development.
    The program conforms to Common Core math and science standards and 
Next Generation Science Standards and, in keeping with career and 
technical education best practices, will lead to a certification or 
industry-accepted test, such as the FAA Private Pilot knowledge test or 
a Part 107 small UAS (drone) pilot certification.
    For the 2018-2019 school year, our curriculum was being used by an 
estimated 2,282 ninth-grade students at 80 schools in 27 states. There 
were another 461 students at 25 schools in 15 states using the tenth-
grade curriculum.
    We are already seeing a dramatic improvement in gender demographics 
when comparing students using the ninth-grade and tenth-grade 
curriculum during the 2018-2019 school year compared to today's pilot 
population as indicated in the chart below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We are also seeing a dramatic improvement in diversity demographics 
where 52% of the students taking the ninth-grade curriculum and 44% 
taking the tenth-grade curriculum are non-white.
    The chart below shows the ethnicity of the students participating 
in our program for the 2018-2019 school year.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    For the 2019-2020 school year, we are seeing increased interest in 
using the AOPA high school curriculum. The number of schools using our 
ninth-grade curriculum has increased to 143 schools; while the tenth-
grade has increased to 114 and the eleventh-grade field test is 
currently at 23 schools.
    We are also increasing the footprint of the AOPA High School 
Initiative across the country for the 2019-2020 school year, as 
indicated in this chart.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The interest in our curriculum from high schools across the country 
has been overwhelming and we look forward to working with the Committee 
to ensure that high schools who want to teach students about aviation 
and all that if offers actually have that opportunity.
    Mr. Chairman, before I conclude my remarks, if I may, and while not 
related to the FAA Reauthorization Act of 2018, I would like to again 
thank the Committee and mention the success of bipartisan legislation 
passed and signed into law as part of the FAA Extension, Safety, and 
Security Act of 2016.
    Known as third class medical reform, and commonly referred to as 
BasicMed, this program is one of the most significant reforms for 
general aviation in decades. In just over two years since the program 
was launched, more than 50,000 private pilots are safely flying under 
these new medical requirements.
    The FAA's implementation of this program has been tremendous and 
more and more private pilots are moving to this program, which includes 
medical education training for pilots. It also reduces the bureaucracy 
and costs that have frustrated pilots for decades. So again, I want to 
thank this Committee for their support of this new program.
    Finally, Mr. Chairman, we must continue to work together, industry 
and government, to ensure we continue our nation's leadership in all 
sectors of aviation. The workforce grant programs this Committee 
included in the 2018 FAA Reauthorization are a great start.
    As the Committee is aware, in order to meet bold challenges, we 
need bold initiatives. Recognizing this, I am hopeful the Committee 
will work with Senator Jim Inhofe of Oklahoma and others to establish a 
National Center for the Advancement of Aviation. We strongly believe 
standing up such a center will facilitate cooperation, collaboration, 
and coordination across all sectors of aviation; civil, commercial, and 
military--and which is so desperately needed.
    A national aviation center would bring the industry together by 
fostering such things as programs that create a diverse and skilled 
aviation workforce, ensuring the deployment of STEM aviation 
educational opportunities for high school students, leveraging the 
sharing of new and emerging flight training methods, and conducting 
safety and economic data trend analysis. A national aviation center 
would do more to grow, develop, and promote aviation and bring the 
needed and long overdue collaboration of our collective industry that 
is so vital to our nation's economy. We certainly welcome the 
opportunity to work with the Committee on the development of this 
proposal.
    I would like to again thank the Subcommittee for this important 
hearing today and look forward to answering any questions.

    Mr. Larsen. Thank you very much. I appreciate it, and the 
committee appreciates it. And now I turn to Mr. John--is it 
Breyault? Is that the pronunciation?
    Mr. Breyault. It is Breyault, but I will----
    Mr. Larsen. Breyault, OK. We will take Breyault with the 
National Consumers League. You are recognized for 5 minutes.
    Mr. Breyault. Thank you. Good afternoon, Chairman Larsen, 
Chairman DeFazio, and members of the subcommittee. My name is 
John Breyault, and I am the vice president for public policy, 
telecommunications, and fraud at the National Consumers League. 
I very much appreciate the opportunity to appear before you 
today and provide the perspective of the flying public to the 
subcommittee.
    Founded in 1899, NCL is America's pioneering consumer and 
worker advocacy organization. Our nonprofit mission is to 
advocate for social and economic justice on behalf of consumers 
and workers in the United States and abroad.
    The DOT is the sole agency in the United States with the 
power to enforce consumer protection statutes in the air travel 
marketplace. Unfortunately, progress on too many important 
consumer protection rulemakings teed up by the 2016 and 2018 
FAA reauthorization bills has slowed to a crawl at best, and a 
halt at worst.
    In my written testimony I detail the harm suffered by 
consumers in a number of areas, including overbooking, fee 
refunds, and the availability of fair fee and schedule data. 
Today, however, my remarks will focus on two areas of 
particular concern: minimum seat size standards and family 
seating.
    Mr. Chairman, as you are no doubt painfully aware during 
your 5-plus hours of flights to and from Seattle, seat sizes on 
U.S. airlines have been steadily shrinking. Passengers and 
flight attendants have long expressed concerns about ever-
smaller seat dimensions and dwindling seat pitch that could put 
at risk passengers' ability to quickly evacuate an aircraft in 
the event of an emergency.
    In response, Congress directed the FAA to issue regulations 
establishing minimum seat sizes and pitch. Until today's 
testimony from Mr. Elwell, we had seen no indication that, 
however, the agency was prepared to initiate such a rulemaking 
by this October deadline. Indeed, the FAA has actively resisted 
judicial efforts by consumer advocates pressing it to act on 
this important safety issue.
    You must not sit by and allow the FAA to dither or, at 
worst yet, allow the FAA to simply adopt whatever inhumane and 
unsafe seat size standard the airline industry favors.
    A potentially even more serious problem is the issue of 
family seating. The 2016 FAA Reauthorization Act mandated that, 
within 1 year of enactment, the DOT must review and, ``if 
appropriate,'' create rules requiring airlines to seat children 
aged 13 or under next to an accompanying family member. 
Incredibly, after a review that apparently included no input 
from family advocates, no comments from psychologists, or any 
public statements from the airlines, the DOT merely decided to 
add a page to its website about family seating.
    The DOT's inaction is particularly troubling in the face of 
evidence that sexual assault on airplanes against minors is a 
significant safety concern. According to the FBI, in-flight 
sexual assaults increased by 66 percent from fiscal year 2014 
to fiscal year 2016. In 2017 alone the FBI opened 63 
investigations into sexual assault on aircraft. The FBI found 
that children as young as 8 years old have been victims of 
sexual assault in the air.
    Families are right to be concerned for their children's 
safety. In response to a FOIA request made by my colleagues at 
Consumer Reports, we now know that, from March 2016 to November 
2018, 136 complaints were filed at the DOJ regarding family 
seating. It is clear from these complaints that when families 
with young children seek to sit together, airlines regularly 
impose or attempt to impose expensive fees for preferred 
seating assignments and priority boarding.
    Numerous complaints involve airlines knowingly assigning 
seats apart from family to children as young as 2 years old. 
Families with children under the age of 5 reported being forced 
to rely on the kindness of strangers, or to beg other 
passengers to switch seats. In numerous cases, families were 
asked to deplane because of the inconvenience this caused. 
Parents cited the emotional trauma of children sitting alone, 
children who were autistic, or who suffer seizures. In multiple 
cases parents complained they were worried that young children 
sitting away from them were vulnerable to sexual assaults and 
could be in particular danger during emergencies.
    DOT complaints are almost certainly just the tip of the 
iceberg. And yet, in the face of this evidence, the DOT claims 
that the number of complaints about families sitting together 
in the air do not justify action by the agency to protect the 
most vulnerable fliers.
    Mr. Chairman, how many children will have to be assaulted 
on aircraft before the DOT acts? Is the DOT putting the desire 
of airlines to continue generating more than half a billion 
dollars annually in lucrative seat reservation fees ahead of 
children's safety? Simply creating a new consumer education 
webpage about family seating is not enough. The DOT's inaction 
on this issue has put children at greater risk.
    Congress should demand answers from the DOT on the process 
it used to determine that it should do nothing substantive on 
this important children's safety issue, and mandate that the 
agency follow through on Congress' clear intent.
    Chairman Larsen, Chairman DeFazio, Ranking Member Graves, 
and the members of the subcommittee, thank you for listening to 
the voice of consumers. I look forward to answering your 
questions.
    [Mr. Breyault's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of John Breyault, Vice President, Public Policy, 
        Telecommunications, and Fraud, National Consumers League
                                Summary
    The Department of Transportation (``DOT'') is the sole agency in 
the United States with power to enforce consumer protection statutes in 
the air travel marketplace. The Airline Deregulation Act largely 
preempts and prohibits state attorneys general, state legislatures, 
municipalities and private litigants from stepping in to protect the 
health and safety of the flying public and basic fairness in the air 
travel marketplace. Recognizing this, the last two FAA reauthorization 
bills rightly mandated that the agency takes steps to promulgate 
regulations addressing concerns of the flying public in multiple issue 
areas, including overbooking, fee refunds, minimum seat sizes and 
family seating, just to name a few.
    Unfortunately, progress on too many of these important consumer 
protection rules has slowed to a crawl at best and a halt at worst. 
Because of this, consumers continue to be harmed by abusive airline 
industry practices while the DOT dithers due to a combination of 
industry resistance, bureaucratic inertia and internal resistance to 
new regulations. October 2019 will mark one year since Congress passed 
the last FAA reauthorization bill. Many of the regulatory deadlines set 
in the legislation will soon come due. In addition, there are older 
rulemakings affecting family seating and data availability that the 
agency has indefinitely postponed or chosen not to act upon despite a 
Congressional mandates and compelling case for regulatory action.
    Taken together, the DOT's actions and inactions on these important 
rulemakings paint a picture of an agency that places consumer 
protection and consumer safety bottom of its list of priorities. A 
bipartisan majority of Congress gave the DOT statutory authority in the 
Airline Deregulation Act to promote competition and consumer 
protection. It is imperative that Congress act to ensure that its 
mandates are not unduly delayed, or worse, ignored completely.
                              Introduction
    The National Consumers League appreciates the opportunity to 
provide the subcommittee with our views on the implementation of 
Congressionally-mandated consumer protection regulations by the DOT and 
the Federal Aviation Administration (``FAA'').
    Founded in 1899, the National Consumers League (``NCL'') is the 
nation's pioneering consumer and worker advocacy organization. Our non-
profit mission is to advocate on behalf of consumers and workers in the 
United States and abroad.\1\ NCL has long advocated for a fairer and 
more competitive airline industry for the 2.8 million consumers who fly 
in and out of U.S. airports every day.\2\
---------------------------------------------------------------------------
    \1\ For more information, visit www.nclnet.org.
    \2\ Federal Aviation Administration. ``Air Traffic By the 
Numbers.'' June 2019. Online: https://www.faa.gov/air_traffic/
by_the_numbers/
---------------------------------------------------------------------------
FAA Reauthorization Legislation Mandated Important Consumer Protection 
       Regulations to Address Ongoing Harms to the Flying Public
    In 2016 \3\ and 2018 \4\, Congress passed FAA reauthorization bills 
directing the DOT and FAA to commence important consumer protection-
related rulemakings. These bills gave passengers and advocacy 
organizations like NCL hope that the DOT and FAA would begin to address 
some of the long-standing consumer protection concerns that have 
bedeviled and endangered the flying public for too long.
---------------------------------------------------------------------------
    \3\ Public Law 114-190: ``FAA Extension, Safety, and Security Act 
of 2016.'' (130 Stat. 615; Date: 7/15/2016). Online: https://
www.congress.gov/114/plaws/publ190/PLAW-114publ190.pdf
    \4\ Public Law 115-254: ``FAA Reauthorization Act of 2018.'' (Date: 
10/5/2018). Online: https://www.congress.gov/115/bills/hr302/BILLS-
115hr302enr.pdf
---------------------------------------------------------------------------
    Today we find ourselves nearly a year removed from Congress passing 
its 2018 reauthorization bill. Yet, whether because of bureaucratic 
inertia, industry resistance, or policy differences within the DOT 
itself, many of these rulemakings have languished. In too many cases, 
rulemakings that Congress mandated years ago have still not resulted in 
meaningful consumer protection regulations. The impact is that needed 
reforms to address consumer concerns languish. This dampens confidence 
of the flying public in the ability of the DOT--the sole agency charged 
with consumer protection in the airline marketplace--to do its job.
    The 2018 reauthorization bill included a number of consumer 
protection mandates that NCL supported but which have been neglected by 
the DOT. Among these are:

    <bullet>   421--Refunds for other fees that are not honored by a 
covered air carrier--The DOT is mandated to promulgate regulations 
requiring airlines to refund any ancillary fees paid by passengers for 
services that were not received.\5\ Congress directed this rulemaking 
to be initiated before October of this year. The DOT appears to have 
chosen to pair this rulemaking with action on baggage fee refunds that 
was initiated after the passage of the 2016 FAA reauthorization bill. 
In 2016, the DOT sought comments in response to an Advance Notice of 
Proposed Rulemaking (``ANPRM'') on baggage fee refunds. The agency has 
yet to issue a rule related to baggage fee refunds specifically or 
ancillary fee refunds generally. Consumers thus find themselves at the 
mercy of airlines when their bags are delayed and they request a 
refund. Similarly situated are consumers who do not promptly receive a 
refund of fees such as seat reservation fees when those services are 
not provided.
---------------------------------------------------------------------------
    \5\ Online: https://www.reginfo.gov/public/do/
eAgendaViewRule?pubId=201904&RIN=2105-AE53
---------------------------------------------------------------------------
    <bullet>   425--TICKETS Act--The TICKETS Act was designed to 
address the widespread practice of airline overbooking and the 
resultant bumping of ticketed passengers--sometimes involuntarily. The 
case for regulations to stop this was vividly illustrated by the 
shocking video of Dr. David Dao being forcefully and brutally dragged 
off United Express Flight 3411 on April 9, 2017.\6\  425 rightly 
removed arbitrary limits on the amount of compensation that airlines 
offer ticketed passengers who are denied boarding. Despite passage of 
the TICKETS Act, no U.S. carrier (including United) has amended its 
Contract of Carriage to publicize its intent to comply with this 
change. We look forward to seeing the findings of the U.S. Government 
Accountability Office (``GAO'') report on oversales, which is required 
to be communicated to Congress within a year of enactment of the 2018 
reauthorization bill.
---------------------------------------------------------------------------
    \6\ Victor, Daniel and Stevens, Matt. ``United Airlines Passenger 
Is Dragged From an Overbooked Flight,'' New York Times. April 10, 2017. 
Online: https://www.nytimes.com/2017/04/10/business/united-flight-
passenger-dragged.html
---------------------------------------------------------------------------
    <bullet>   577--Minimum Dimensions for Passenger Seats--Passengers 
and flight attendants have long expressed concerns about shrinking seat 
sizes, dwindling seat pitch and possible links to serious health 
conditions such as deep vein thrombosis (``DVT'') that could put at 
risk passengers' ability to quickly evacuate an aircraft in the event 
of an emergency. In response, Congress directed the FAA to issue 
regulations establishing minimum dimensions for seat pitch, width and 
length necessary for the safety of passengers. The FAA is required to 
issue regulations no later than October 2019 yet we have seen no 
indication that the agency is prepared to initiate such a rulemaking. 
Indeed, the FAA has actively resisted judicial efforts by consumer 
advocates pressing it to take action on this important safety issue.\7\ 
Concerns have also been expressed that such a rulemaking may give 
airlines a green light to shrink seats beyond their current cramped 
dimensions based on the statute's ``necessary for the safety of 
passengers'' language.\8\ Congress must not allow the FAA to simply 
adopt whatever inhumane seat size standard the airline industry favors.
---------------------------------------------------------------------------
    \7\ Glusac, Elaine. ``FAA Declines to Regulate Airplane Seat 
Size,'' New York Times. July 6, 2018. Online: https://www.nytimes.com/
2018/07/06/travel/faa-plane-seat-size.html
    \8\ Silk, Robert. ``FAA's seat size mandate likely changes 
nothing,'' Travel Weekly. November 1, 2018. Online: https://
www.travelweekly.com/Robert-Silk/FAA-seat-size-mandate-likely-changes-
nothing
---------------------------------------------------------------------------
    <bullet>   424--Aviation Consumer Advocate--The 2018 
reauthorization bill directed the DOT to create an Aviation Consumer 
Advocate (``ACA'') position within the Aviation Consumer Protection 
Division. The ACA is charged with assisting consumers in resolving 
complaints filed with the DOT, identifying ways that the Department can 
improve enforcement of aviation consumer protection rules and 
identifying and recommending regulations and policies to better resolve 
consumer complaints. In March 2019 the DOT named Blane Workie, 
Assistant General Counsel for the DOT's Office of Aviation Enforcement 
and Proceedings to serve as the ACA.\9\ While NCL and other advocates' 
views have been welcomed by the ACA, we believe that Congress's intent 
would be better served by having an ACA whose sole portfolio is 
consumer protection. We urge Congress to appropriate sufficient budget 
so that DOT can fund a standalone ACA position.
---------------------------------------------------------------------------
    \9\ Department of Transportation. ``DOT Announces April 4 Meeting 
of the Newly Reestablished Aviation Consumer Protection Advisory 
Committee, Names New Aviation Consumer Advocate.'' Press release. March 
20, 2019. Online: https://www.transportation.gov/briefing-room/dot1319
---------------------------------------------------------------------------
     Three Years of DOT Inaction on Family Seating Leaves the Most 
                   Vulnerable Flyers at Greater Risk
    While the 2016 FAA reauthorization bill required the DOT to 
undertake many consumer protection-related rulemakings, the lack of 
agency action on the issue of family seating is particularly egregious. 
 2309 mandated that within a year after enactment, the DOT review and 
``if appropriate'' create rules requiring airlines to seat children 
aged 13 or under next to an accompanying family member.
    This is a common-sense consumer protection issue. Parents should 
not have to absorb the expense of paying an expensive seat reservation 
or priority boarding fees in order to sit together with their young 
children. Incredibly, after a review that apparently included no input 
from family advocates, no comments from psychologists, or any public 
statements from the airlines, the DOT decided that no regulation was 
necessary.\10\
---------------------------------------------------------------------------
    \10\ McCartney, Scott. ``Flying Together With Your Children Keeps 
Getting Tougher,'' Wall Street Journal. (``The agency recently 
determined `issuing a policy was not appropriate at this time,' a DOT 
official says.'') September 12, 2018. Online: https://www.wsj.com/
articles/flying-together-with-your-children-keeps-getting-tougher-
1536764795
---------------------------------------------------------------------------
    Recently, in response to a Freedom of Information Act request by 
Consumer Reports, the DOT provided a number of complaints it had 
received from passengers regarding airlines' family seating policies. 
Several themes emerged. First, complainants mentioned consistently 
unhelpful airline employees, including reservation staff, gate agents 
and flight attendants. Second, the reactions by airline staff to 
concerns about families being separated were sometimes actively 
harmful, including ejecting families from flights. Finally, there 
appear to have been cases where children over the age of 2 were 
required to travel in their parents' laps, in violation of federal law.
    Since family seating was first raised, two trends have made the 
situation even more difficult for passengers traveling with small 
children. First, the number of seats that airlines consider ``premium'' 
(and which require an additional fee to reserve) continues to 
increase.\11\ The industry is moving beyond charging extra for seats 
with extra legroom and is now charging for seats that are a little 
closer to the front of the plane or are aisle or window seats. It is 
not uncommon for single, middle seats near the back of the aircraft to 
be the only seats available for assignment without an additional 
fee.\12\ Second, the percentage of seats that are occupied, known as 
``load factors,'' continues to increase.\13\ That means that if a 
flight is cancelled or a connection is missed, it will be much harder 
for families to find any seats together on another flight.
---------------------------------------------------------------------------
    \11\ Koenig, David. ``United is Adding 1,600 Premium Seats to Its 
Fleet,'' Associated Press. February 7, 2019. Online: https://
www.afar.com/magazine/united-is-adding-1600-premium-seats-to-its-fleet
    \12\ Villano, Matt. ``Airline seat selection fees: It's pay to 
play,'' CNN Travel. January 5, 2019. Online: https://www.cnn.com/
travel/article/airline-seat-selection-fees/index.html
    \13\ IATA. ``Passenger load factor hits 28-year high.'' October 19, 
2018. Online: https://airlines.iata.org/news/passenger-load-factor-
hits-28-year-high
---------------------------------------------------------------------------
    The DOT's inaction is especially troubling in the face of 
voluminous evidence that sexual assault on airplanes against minors is 
a significant safety concern.\14\ \15\ \16\ According to the Federal 
Bureau of Investigation (``FBI''), in-flight sexual assaults increased 
by 66% from FY2014 to FY2016. In 2017 alone, the FBI opened 63 
investigations into sexual assault on aircraft.\17\ DOT complaint data 
obtained by FlyersRights.org detailed 20 incidents of in-flight sexual 
assault from 2012-2018, including one against a child on an Air France 
flight in 2017.\18\ The cases that are reported to law enforcement are 
likely just the tip of the iceberg. And yet, the DOT claims that the 
number of complaints about families sitting together in the air do not 
justify action by the agency to protect the most vulnerable flyers.\19\
---------------------------------------------------------------------------
    \14\ Miller, Michael. `` `This was 30 minutes of hell for this 
young lady': Unaccompanied minor groped on flight,'' Washington Post. 
June 20, 2016. Online: https://www.washingtonpost.com/news/morning-mix/
wp/2016/06/20/this-was-30-minutes-of-hell-for-this-young-lady-
unaccompanied-minor-groped-on-flight/
    \15\ `` `Creep' harasses teen during flight; Canadian journalist 
intervenes,'' The Strait Times. March 27, 2019. Online: https://
www.straitstimes.com/world/united-states/creep-harasses-teen-during-
flight-canadian-journalist-intervenes
    \16\ Burton, Lynsi. ``Teen sexually assaulted on Seattle flight; 
lawsuit says United Airlines did nothing,'' SeattlePI.com. January 22, 
2019. Online: https://www.seattlepi.com/local/crime/article/Teen-
sexually-assaulted-on-Seattle-flight-13552767.php
    \17\ De Diego, Javier et al. ``FBI: Sexual assaults on flights 
increasing `at an alarming rate,' '' CNN.com. June 20, 2018. Online: 
https://www.cnn.com/2018/06/20/politics/fbi-airplane-sexual-assault/
index.html
    \18\ Applebaum, Andrew. ``Recent In-Flight Sexual Abuse Complaints 
to Feds Released By Airline Passenger Group . . . Nothing Done?'' 
FlyersRights.org. November 29, 2018. Online: https://flyersrights.org/
press-release/recent-in-flight-sexual-abuse-complaints-to-feds-
released-by-airline-passenger-group/
    \19\ U.S. Department of Transportation. ``DOT's Review of U.S. 
Airline Family Seating Policies.'' September 17, 2019. (``Based on the 
low number of complaints received and review of airline family seating 
policies, the Department determined that it was unnecessary to direct 
airlines to establish policies on family seating.'') Online: https://
www.transportation.gov/individuals/aviation-consumer-protection/review-
us-airline-family-seating-policies
---------------------------------------------------------------------------
    This begs the question: How many children will have to be assaulted 
on aircraft before the DOT acts? Is the DOT putting the desire of 
airlines to continue generating more than half a billion dollars 
annually in lucrative seat reservation fees ahead of children's safety? 
\20\ As FBI Special Agent David Gates, who regularly investigates 
instances of mid-air sexual assault, accurately stated ``even one 
victim is unacceptable.'' \21\ Congress should demand answers from the 
DOT on the process it used to determine that it should take advantage 
of a legislative loophole in the 2016 reauthorization bill and leave 
children at greater risk.
---------------------------------------------------------------------------
    \20\ Gilbertson, Dawn. ``Skyrocketing seat selection fees enrage 
flyers, enrich airlines,'' USA Today. December 18, 2018. Online: 
https://www.usatoday.com/story/travel/flights/2018/12/19/united-
american-delta-preferred-seat-fees/2293721002/
    \21\ Federal Bureau of Investigation. ``Sexual Assault Aboard 
Aircraft: Raising Awareness About a Serious Federal Crime,'' April 26, 
2018. Online: https://www.fbi.gov/news/stories/raising-awareness-about-
sexual-assault-aboard-aircraft-042618
---------------------------------------------------------------------------
  The DOT Should Reinstate the RFI on Fare, Schedule and Availability 
    Information and Act Promptly to Define Its Unfair or Deceptive 
                          Practices Authority
    In addition to rulemakings mandated by the last two FAA 
reauthorization bills, it is important to highlight pending 
interpretive and non-legislative consumer protection rulemakings that 
DOT should act upon.
    Of special note, the DOT should reinstate the Request for 
Information (RFI) on Airline Distribution and Display of Fare, Schedule 
and Availability Information that it suspended in March 2017.\22\ The 
DOT's October 2016 RFI inquiry came in response to concerns expressed 
by consumer groups, online travel bookings websites and Members of 
Congress regarding restrictions placed on distribution and display of 
airline flight information, such as fares, fees and schedules.
---------------------------------------------------------------------------
    \22\ Docket ID: DOT-OST-2016-0204
---------------------------------------------------------------------------
    Reinstating the RFI is supported by every major national consumer 
organization as well as travel industry economists and the General 
Services Administration (which oversees air travel by federal 
officials). This support is based on the knowledge that withholding of 
critical information from independent online travel agencies (``OTA'') 
and metasearch websites makes it more difficult for consumers to 
conveniently and reliably comparison shop.
    Research commissioned by the airlines themselves found that 40% of 
leisure travelers feel they have to visit too many sites when booking 
travel. The airlines' data found that the average number of digital 
channels being used increased 73% in five years, that 43% of travelers 
disclosed that they want to spend less time researching flights and 
that 56% of passengers say they will change airlines to save money. In 
the same study, the airlines reveal that they want to increase sales 
through their own sites at the expense of independent comparison 
websites, because they make more money on tickets sold on their 
websites, which only show their own fares and schedules.\23\
---------------------------------------------------------------------------
    \23\ International Air Transport Association. The Future of Airline 
Distribution, 2016-2021. October 2016. Online: https://www.iata.org/
whatwedo/airline-distribution/ndc/Documents/ndc-future-airline-
distribution-report.pdf
---------------------------------------------------------------------------
    A study commissioned by the Travel Technology Association found 
that consumers pay an average $30 more per ticket, or $6.7 billion more 
in airfare annually when airlines restrict flyers' ability to 
comparison shop. It is estimated that 41 million Americans will choose 
not to travel each year, as a result of sticker shock stemming from the 
airlines' blocking of flight data used by comparison sites.\24\ This 
finding is backed up by data from the GAO, which found that despite 
fewer passenger comforts, the cost of air travel has increased.\25\ As 
what consumers must pay to fly goes up, it will become even more 
critical for the DOT to safeguard consumers' ability to comparison 
shop.
---------------------------------------------------------------------------
    \24\ Charles River Associates. Benefits of Preserving Consumers' 
Ability to Compare Airline Fares via OTAs and Metasearch Sites. May 15, 
2015. Online: https://www.airtravelfairness.org/wp-content/uploads/
2017/09/CRAFinalReport.pdf
    \25\ Government Accountability Office. ``Information on Airline 
Fees for Optional Services.'' September 2017. Online: https://
www.gao.gov/assets/690/687258.pdf
---------------------------------------------------------------------------
    The evidence clearly shows that the airlines' practice of denying 
fare, fee and schedule data to OTAs and metasearch websites harms 
consumers. Unfortunately, the DOT acquiesced to the airlines' wish list 
and terminated even a cursory examination of their anticompetitive 
practices. Congress should press the DOT to reinstate this important 
proceeding.
    Finally, the DOT will soon publish proposed rules defining the 
agency's unfair or deceptive practices authority.\26\ The DOT is the 
sole agency at any level of government charged with consumer protection 
in the airline industry. Given the deregulatory stance of the current 
DOT leadership, we are concerned that the agency could potentially use 
this rulemaking as an excuse to weaken its already dubious willingness 
to hold airlines to account for their many anti-consumer practices. 
Congress should closely monitor this rulemaking to ensure that the DOT 
does not become a consumer protection agency in name only.
---------------------------------------------------------------------------
    \26\ RIN: 2105-AE72. Online: https://www.reginfo.gov/public/do/
eAgendaViewRule?pubId=
201904&RIN=2105-AE72
---------------------------------------------------------------------------
                               Conclusion
    The DOT is the agency that the millions of American travelers and 
foreign visitors to the U.S. depend on to hold the airline industry 
accountable for their safety, security, reasonability of fees and fair 
treatment in air travel. In addition, the DOT is charged with ensuring 
that the airlines do not abuse their dominant position in the domestic 
air travel marketplace. The numerous rulemaking processes mandated by 
Congress are intended to address many of the consumer protection ills 
that have frustrated and endangered the flying public for far too long.
    Unfortunately, in too many cases, it appears that industry 
resistance coupled with bureaucratic inertia and internal opposition at 
the DOT has caused important rulemakings to languish for months and 
even years. The DOT has availed itself of legislative loopholes, 
particularly in regards to families sitting together, to delay or deny 
rulemakings that would address pressing safety and competition issues 
in the industry.
    Allowing an industry like the airlines to self-regulate is a recipe 
for disaster. It is incumbent upon Congress to use its oversight role 
to ensure that the DOT is not asleep at the switch when it comes to 
consumer protection. States, counties and cities, are preempted from 
acting to hold the airlines accountable. Private litigants are largely 
restricted to small claims courts where compensation is limited. Only 
Congress and DOT have the power to protect competition, promote 
fairness and ensure the safety of all passengers, particularly 
children, in the air.
    Chairman Larsen, Ranking Member Graves and the members of the 
Aviation Subcommittee, on behalf of the National Consumers League, 
thank you for including the consumer perspective as you consider these 
important issues.

    Mr. Larsen. Thank you. And last--and the best--from the 
great State of Washington, Dave Zurfluh is the national 
president of the Paralyzed Veterans of America.
    And we really appreciate you making the trip out here.
    And I just want to--we were talking earlier before we got 
started about Ernie Butler, who is out of Monroe, Washington, 
and was a great advocate who passed away a few years ago. He 
was a great advocate for the PVA, as well. And I want to 
recognize the other folks from PVA here, and thank you for your 
service to the country, as well. Thanks a lot.
    Dave, go ahead.
    Mr. Zurfluh. Chairman Larsen, Ranking Member Graves, and 
members of the subcommittee, Paralyzed Veterans of America 
thanks you for the opportunity to testify for this oversight 
hearing regarding implementation of the FAA Reauthorization Act 
of 2018.
    This legislation included many provisions that, if properly 
implemented by the U.S. Department of Transportation, would 
improve the air travel experience of catastrophically disabled 
veterans and all people with disabilities.
    The Air Carrier Access Act is a civil rights law that 
protects not only PVA members, or all honorably discharged 
veterans with catastrophic disabilities, but also the rights of 
all individuals living with disabilities to access to air 
travel.
    Unfortunately, PVA members routinely report incurring 
bodily harm in boarding and deplaning aircraft, and their 
wheelchairs, particularly power wheelchairs, are often damaged 
while stowed.
    Today's aircraft present a rather hostile environment for 
the many passengers with disabilities, which often results in 
profound consequences for passengers with disabilities. PVA 
Senior Vice President Charles Brown, in attendance today--in 
today's hearing--was severely injured earlier this year when he 
was dropped while attempting to board an aircraft.
    Mr. Brown fractured his tailbone and, as a result of this 
incident, subsequently developed a skin breakdown and bone 
infection. As a result of his injuries, he spent 3 months as an 
inpatient at the spinal cord injury unit at the VA's Medical 
Center in Miami. Now he is very apprehensive about flying, and 
drove to Washington, DC, from south Florida to attend recent 
PVA meetings and events.
    Unfortunately, Mr. Brown's situation is not unique among 
PVA members. I, too, have experienced disability-related 
problems in air travel. In fact, problems with air travel are 
one of our most common complaints that we receive from our 
members.
    PVA was pleased to work with members of the House 
Transportation and Infrastructure Committee and other House 
disability champions on inclusion of several disability-related 
provisions in the FAA Reauthorization Act of 2018.
    The law included provisions that will inform air travel 
passengers about their rights under the ACAA, improve the 
assistance they receive from air carriers, and establish formal 
lines of communication between the air travel industry, the 
disability community, and the DOT to address barriers to air 
travel.
    The law also requires a forward-looking study designed to 
determine the feasibility of passengers flying while in their 
wheelchairs.
    In the interest of time I would like to discuss only a few 
of these provisions.
    Section 440 included requirement for the Secretary to 
determine whether the regulations governing training programs 
or assisting passengers like paralyzed veterans are sufficient, 
and whether hands-on training should be part of the regular 
required training regimen.
    It is unconscionable to think that someone with a spinal 
cord injury or disorder should be assisted in multiple 
transfers to board and subsequently deplane an aircraft without 
having been properly educated. It is dangerous for not only 
those passengers, but also for those who are assisting them. 
The experience of many of our members who have been injured 
during this process is evidence enough for PVA that current 
regulations are not sufficient to guarantee safe passage for 
these passengers.
    Section 439 required the Secretary to establish an advisory 
committee on the air travel needs of passengers with 
disabilities. I am pleased to report that the Secretary 
publicly announced the formation of the Air Carrier Access Act 
Advisory Committee last Friday. PVA was honored to have a 
member of our national staff chosen to represent the disabled 
veterans on this committee.
    We are hopeful that one of the committee's tasks will be to 
assist the Secretary in the development of the Airline 
Passengers with Disabilities Bill of Rights, required in 
section 434.
    I also want to highlight our support for a general consumer 
provision in the FAA reauthorization that required GAO to study 
lavatory access on aircraft. When I fly I purposely dehydrate 
myself to limit the possibility that I might need to use the 
lavatory while on the aircraft, because they are not accessible 
for people with mobility impairments. This is a typical 
protocol for many members of PVA's executive committee who are 
here in the audience today.
    When I fly to Washington, DC, from my home in Ruston, 
Washington, I intentionally book flights that require layovers 
in the middle of the country so that I will not have to deprive 
myself of using a lavatory on a cross-country flight. Even 
then, I only allow myself to begin rehydrating once the flight 
is approximately 30 minutes from landing.
    The dignity of being able to access a lavatory cannot be 
underestimated, and should not be measured against the cost of 
doing so. If lavatories are going to be made available on 
commercial aircraft, then they should be accessible to all 
passengers.
    The FAA Reauthorization Act represents an important step 
forward in efforts to improve the air travel experience of 
passengers with disabilities. However, more work remains to be 
done. We want air carriers to do the right thing. Many times 
that means we need Congress and the Department of 
Transportation to guide them.
    PVA thanks you for this opportunity to express our views, 
and we are happy to answer any questions you may have.
    [Mr. Zurfluh's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of David Zurfluh, National President, Paralyzed 
                          Veterans of America
    Chairman Larsen, Ranking Member Graves, and members of the 
Subcommittee, Paralyzed Veterans of America (PVA) thanks you for the 
opportunity to testify for this oversight hearing regarding 
implementation of the FAA Reauthorization Act of 2018 (Public Law 115-
254). This legislation included many provisions that if properly 
implemented by the U.S. Department of Transportation (DOT) would 
improve the air travel experience of catastrophically disabled veterans 
and all people with disabilities.
    Protections in air travel for people with disabilities began in 
earnest when President Ronald Reagan signed into law the Air Carrier 
Access Act (ACAA). The ACAA, which prohibits disability-based 
discrimination in air travel, was the result of a U.S. Supreme Court 
decision in Department of Transportation v. Paralyzed Veterans of 
America, 477 U.S. 597 (1986). In this case, the Court held that air 
carriers were not subject to Section 504 of the Rehabilitation Act of 
1973, as amended, unless they received direct federal financial 
assistance. As a result of this decision, PVA led the charge in 
advocating for Congress to pass protections that would finally end 
discrimination against people with disabilities in air travel.
    The ACAA is a civil rights law that protects not only PVA members, 
who are all honorably discharged veterans with catastrophic 
disabilities, but also the rights of all individuals living with 
disabilities to access air travel. Before the ACAA, people with 
disabilities were routinely forced to travel with an attendant at their 
own expense, even if they did not need assistance to fly safely; 
required to sit on a blanket for fears that they might soil the 
passenger seat; or simply refused passage. The ACAA has provided 
passengers with disabilities improved consistency in air travel. 
Through this law, air carriers must provide passengers with 
disabilities the opportunity to preboard, if additional time or 
assistance is needed in boarding the aircraft; timely assistance in 
boarding and deplaning; proper stowage of assistive devices; and 
appropriate seating accommodations.
    Despite improvements in air travel over the last three decades for 
passengers with disabilities, too many still encounter regular problems 
in air travel due to their disabilities. PVA members routinely report 
incurring bodily harm in boarding and deplaning aircraft, and their 
wheelchairs, particularly power wheelchairs, are often damaged while 
stowed. In addition, members have expressed difficulty in receiving 
appropriate seating accommodations on aircraft and often encounter air 
carrier personnel and contractors who are not appropriately trained in 
assisting passengers with catastrophic disabilities. Consequently, some 
of our members and other individuals with disabilities choose to drive 
long distances rather than risk personal injury or damage to their 
mobility devices.
    In order for a person with a permanent disability such as a spinal 
cord injury to board or deplane an aircraft, he or she has to be 
transferred from his or her customized wheelchair to an aisle chair, a 
small, narrow device, prior to entering the aircraft. The passenger is 
then maneuvered backwards onto the aircraft and pulled down the aisle 
to his or her seat. Within the confines of the cabin, the individual is 
then transferred to an aircraft passenger seat, where he or she will 
most likely remain until the process is repeated when the individual 
departs the aircraft.
    Today's aircraft present a rather hostile environment for many 
passengers with disabilities, particularly for those who are unable to 
ambulate. This environment often results in profound consequences for 
passengers with disabilities. For example, PVA's Senior Vice President, 
Charles Brown, in attendance at today's hearing, was severely injured 
earlier this year when he was dropped while attempting to board an 
aircraft. Mr. Brown fractured his tail bone as a result of this 
incident and subsequently developed skin breakdown and a bone 
infection. As a result of his injuries, he spent three months as an in-
patient at the Spinal Cord Injury unit at the VA's Medical Center in 
Miami. Because of his injuries, he is very apprehensive about flying 
and drove to Washington, D.C. from south Florida to attend recent PVA 
meetings and events.
    Unfortunately, Mr. Brown's situation is not unique among PVA 
members. From our former national treasurer's broken wheelchair; our 
deputy executive director's need to pull himself down the aisle to 
reach his own wheelchair because assistance never arrived; to a 
wheelchair athlete who developed stage three pressure ulcers on his 
backside after being asked to wait on an aisle chair for 30 minutes 
with the assurance that his own wheelchair would be delivered shortly, 
the barriers to safely access air travel are numerous. In fact, 
problems with air travel are one of the most common complaints that we 
receive from our members.
    Although I am currently using a cane to assist with mobility, I 
used a wheelchair for the first four years following my injury. As I 
age, I know that I will again be fully dependent on my wheelchair for 
mobility. Each year, I fly 25-40 round trips. I, too, have experienced 
disability-related problems in air travel.
    A couple of years ago, I severely injured my hip, and as a result, 
I needed to use my wheelchair instead of my cane for mobility. During 
this time, I needed to fly for PVA business but was apprehensive 
because of past problems that I had experienced and the problems 
relayed by many fellow PVA members. I transferred without assistance 
onto the aisle chair to avoid putting myself at too much risk. As I was 
pulled down the aisle, my knee hit nearly every armrest on the way 
back. Each time, the jolt sent pain radiating to my injured hip. Once I 
arrived at my seat, I was determined to transfer myself because I could 
not further risk my health and safety at the hands of the air carrier's 
assistant.
    To address disability-related complaints under the ACAA, passengers 
with disabilities may file complaints with the specific air carrier and 
DOT. In 2017, passengers filed 34,701 disability-related complaints as 
reported by 190 domestic and foreign air carriers, which represents a 
6.5 percent increase over 2016. Top complaints with U.S. carriers for 
passengers with paraplegia or quadriplegia include failure to provide 
passenger assistance and appropriate seating accommodations. During 
2018, passengers filed 828 disability-related complaints directly with 
DOT.
    It is because of the experiences of our members and those of people 
with disabilities more broadly that PVA has once again been leading the 
charge to improve air travel for all people with disabilities. PVA was 
pleased to work with members of the House Transportation and 
Infrastructure Committee and other House disability champions on the 
inclusion of several disability-related provisions in the FAA 
Reauthorization Act of 2018. Congress's recognition of the issues 
encountered by PVA members and millions of people with disabilities was 
a tremendous victory for all passengers with disabilities.
    Title IV, Subtitle B, Aviation Consumers with Disabilities, 
included 11 provisions focused solely on air travel for passengers with 
disabilities. These provisions include those that will inform air 
travel passengers about their rights under the ACAA, improve the 
assistance they receive from air carriers, and establish formal lines 
of communication between the air travel industry, the disability 
community, and DOT to address barriers to air travel. The law also 
requires a forward-looking study designed to determine the feasibility 
of passengers who depend on wheelchairs for their mobility to remain in 
them while on the aircraft.
    In December 2018, DOT complied with Section 441, Transparency for 
Disabled Passengers. This section required large domestic air carriers 
to report on a monthly basis the number of wheelchairs and scooters 
enplaned and subsequently damaged. Although DOT had finalized the 
regulation implementing this requirement in November 2016, DOT 
subsequently delayed implementation in March 2017 until January 1, 
2019.
    As a result of Congress's action, DOT implemented the requirement 
on December 4, 2018. For the first six months of 2019, 10 carriers 
reported enplaning 294,216 wheelchairs and scooters and mishandling 
4,777 of them.\1\ We are pleased that PVA members and all people with 
disabilities now have publicly available information about the 
treatment of assistive devices on U.S. air carriers and are able to 
make informed choices when they purchase their tickets. We are also 
working with several U.S. carriers and wheelchair manufacturers to 
improve handling of wheelchairs during transport.
---------------------------------------------------------------------------
    \1\ U.S. Department of Transportation, Aviation Consumer Protection 
Division, Office of Aviation Enforcement and Proceedings, Air Travel 
Consumer Report, Mishandled Wheelchairs and Scooters: Ranking of U.S. 
Reporting Marketing Carriers* (YTD) 42 (Aug. 2019), https://
www.transportation.gov/sites/dot.gov/files/docs/resources/individuals/
aviation-consumer-protection/346301/august-2019-atcrr1.pdf.
---------------------------------------------------------------------------
    Nearly a year after enactment of the FAA Reauthorization Act, 
however, we are still waiting for information from DOT regarding the 
Secretary's review and needed revision of regulations ensuring timely, 
dignified, and effective assistance for passengers with disabilities. 
Section 440, Regulations Ensuring Assistance for Passengers with 
Disabilities in Air Travel, required the Secretary to perform a review, 
and as necessary, to make revisions to the regulations governing 
assistance under the ACAA within 180 days of enactment. The Secretary 
was also required to determine whether the regulations governing 
training programs for assisting passengers, like paralyzed veterans, 
are sufficient and whether hands on training should be part of the 
required regular training regimen.
    It is unconscionable to think that someone with a spinal cord 
injury or disorder should be assisted in multiple transfers to board 
and subsequently deplane an aircraft without having been properly 
educated about how to assist them. It is dangerous for not only those 
passengers, but also for those who are assisting them. The experience 
of many of our members who have been injured during this process is 
evidence enough for PVA that the current regulations are not sufficient 
to guarantee safe passage for these passengers. We look forward to the 
Secretary's review.
    In the meantime, we are also waiting on DOT to publicly announce 
the members of the Advisory Committee on the Air Travel Needs of 
Passengers with Disabilities. Section 439 lays out the requirements for 
the Secretary to establish a committee that would identify disability-
related access barriers, recommend improvements, and anticipate future 
problems that may result from industry trends. The advisory committee 
is to include people with disabilities, disability organizations, air 
carriers, service providers, aircraft and wheelchair manufacturers, and 
organizations representing veterans with disabilities.
    PVA looks forward to the establishment of this advisory committee 
because we believe that it will provide a formal, ongoing opportunity 
for stakeholders to work toward solutions that will improve access to 
air travel for passengers with disabilities. We urge DOT to move 
forward as expeditiously as possible to officially establish the 
committee and schedule its inaugural meeting.
    Another key provision in the law that we believe will improve air 
travel for passengers with disabilities is the requirement for an 
Airline Passengers with Disabilities Bill of Rights. Section 434 
requires the Secretary to partner with disability community and air 
carrier stakeholders to develop a plain language bill of rights that 
governs the treatment that passengers with disabilities can expect to 
receive under the ACAA. A protection inherent in the ACAA that must be 
included is the right to be treated with dignity and respect.
    Although there is no deadline in the law for DOT to comply with 
this requirement, we hope that collaborative efforts to draft the bill 
of rights will begin this year. We believe that the bill of rights 
presents an important opportunity to increase awareness of the ACAA's 
protections for people with disabilities. In addition, the requirement 
for air carriers to train their personnel and their contractors on 
these rights has the potential to improve the assistance services that 
passengers with disabilities receive during travel.
    PVA also strongly supported the requirement in Section 432 for the 
U.S. Access Board to work with DOT on a study to determine the 
feasibility of in-cabin wheelchair restraint systems to allow 
passengers who are dependent on their wheelchairs to avoid transferring 
into an aircraft seat. Instead, passengers would be able to fly while 
seated in their wheelchair. A determination of the feasibility of 
flying while seated in a wheelchair is one of the first steps in the 
effort to bring air access in line with access in other modes of 
transportation such as buses, subways, and passenger trains that do not 
require people who use wheelchairs to stow them.
    If deemed compliant with cabin safety requirements, allowing 
passengers to fly while remaining in their wheelchairs would reduce 
risks to their health and safety and to those who currently must assist 
them in transferring to and from aisle chairs, passenger seats, and 
their own wheelchairs. We look forward to the study's findings. We also 
request that carriers and aircraft manufacturers take seriously these 
efforts to improve air travel for passengers who depend on wheelchairs.
    Although not included in the disability-specific provisions, I want 
to highlight our support for the requirement in Title IV, Subtitle A, 
Section 426 for the U.S. Government Accountability Office (GAO) to 
study lavatory access on aircraft. The law explicitly required GAO to 
assess lavatory accessibility for passengers with disabilities. Despite 
recent focus on the accessibility of aircraft lavatories for all 
passengers, PVA members have been involved for decades in efforts to 
provide access to lavatories on single-aisle aircraft for passengers 
with disabilities.
    When I fly, I purposefully dehydrate myself to limit the 
possibility that I might need to use a lavatory while on the aircraft. 
This is the typical protocol for many members of PVA's Executive 
Committee who are in the audience today. When I fly to Washington, D.C. 
from my home in Ruston, Washington, I intentionally book flights that 
require layovers in the middle of the country so that I will not have 
to deprive myself of using a lavatory on a cross country flight. Even 
then, I only allow myself to begin rehydrating once the flight is 
approximately 30 minutes from landing.
    GAO has been in contact with PVA regarding our efforts to improve 
access to lavatories for people with disabilities. We are pleased that 
the unique needs of passengers with limited mobility have been included 
in the broader discussion about the accessibility of lavatories for all 
passengers. The dignity of being able to access a lavatory cannot be 
underestimated and should not be measured against the cost of doing so. 
If lavatories are going to be made available on commercial aircraft, 
then they should be accessible to all passengers.
    We also hope that Congress will hold DOT accountable for meeting 
requirements in Section 2108 of the FAA Extension, Safety, and Security 
Act of 2016 (Public Law 114-190) to promulgate a rule regarding the 
accessibility of lavatories on single-aisle aircraft. To date, DOT has 
failed to publish a rule despite being given a deadline of July 2017 to 
do so. Access to lavatories was also the subject of a DOT negotiated 
rulemaking in 2016. In December 2016, DOT formally announced that the 
committee charged with the negotiation, comprised of disability 
advocates, air carriers, and aircraft manufacturers, had come to an 
agreement that would ultimately lead to accessible lavatories on 
single-aisle aircraft.
    Despite promises from DOT to move forward with an agreement, and a 
congressional requirement to publish a supplemental notice of proposed 
rulemaking, DOT has yet to publish the rule.\2\ Although DOT is 
planning to publish two rules by the end of the year regarding lavatory 
accessibility, the one regarding full access to lavatories will be an 
advance notice of proposed rulemaking regarding the cost benefit of 
requiring fully accessible lavatories.\3\ PVA believes that when 
industry and consumers agree on a proposed course of action, as they 
did with the negotiated rulemaking, that DOT should remove bureaucratic 
hurdles and move forward with those agreements.
---------------------------------------------------------------------------
    \2\ PVA filed a lawsuit in the U.S. Court of Appeals for the Tenth 
Circuit in July 2018 to compel DOT to publish the rule as agreed to 
during the negotiated rulemaking.
    \3\ PVA's litigation is stayed pending DOT's promise to publish a 
notice of proposed rulemaking on short-term accessibility improvements 
and an advance notice of proposed rulemaking on long-term accessibility 
requirements.
---------------------------------------------------------------------------
    The disability-related provisions in the FAA Reauthorization Act 
and the study on lavatory access represent an important step forward in 
efforts to improve the air travel experience of passengers with 
disabilities. However, more work remains to be done. Thus, we are proud 
to strongly support the Air Carrier Access Amendments Act, H.R. 1549, 
which was introduced in March by Rep. Jim Langevin (D-RI). This 
legislation would greatly improve accessibility within aircraft and 
strengthen enforcement of the ACAA.
    The Americans with Disabilities Act ensures access to mass 
transportation in the United States. Aircraft, however, are only 
covered by the ACAA and have very limited accessibility features for 
people with disabilities. Neither passenger seats nor the path to reach 
them meet any accessibility standards, other than a requirement for 
lowering of armrests on some seats. PVA believes that standards for new 
aircraft are necessary to ensure a future with aircraft that will meet 
the needs of passengers with disabilities and our aging population. 
Only when they are able to independently access aircraft without 
depending on unsafe, inefficient assistance will air travel truly be a 
viable option for all Americans.
    One of the most important changes needed to the ACAA statute 
concerns enforcement of its civil rights protections. The statute must 
be amended to require DOT to refer alleged violations that are matters 
of general importance to the Department of Justice. Furthermore, the 
statute must be amended to restore a private right of action for 
passengers with disabilities under the ACAA.
    Unlike laws governing access for people with disabilities in other 
forms of transportation, the ACAA does not explicitly allow people with 
disabilities to enforce their civil rights, if needed, in a court of 
law. Prior to 2001, some courts \4\ had held that the ACAA allowed for 
a private right of action. Following the U.S. Supreme Court's decision 
in Alexander v. Sandoval, 532 U.S. 275 (2001),\5\ however, the 
Second,\6\ Fifth,\7\ Ninth,\8\ Tenth,\9\ and Eleventh \10\ U.S. Courts 
of Appeals have ruled that there is no private right of action under 
the ACAA. We believe that Congress must act to restore this right to 
paralyzed veterans and all passengers with disabilities.
---------------------------------------------------------------------------
    \4\ The U.S. Courts of Appeals for the Fifth and Eighth Circuits 
had previously ruled that there is a private right of action under the 
ACAA. Shinault v. American Airlines, Inc., 936 F.2d 796 (5th Cir. 1991) 
and Tallarico v. Trans World Airlines, Inc., 881 F.2d 566 (8th Cir. 
1989).
    \5\ In Sandoval, the Court held that a private right of action 
should not be implied absent obvious congressional intent.
    \6\ Lopez v. Jet Blue Airways, 662 F.3d 593 (2d Cir. 2011).
    \7\ Stokes v. Southwest Airlines, 887 F.3d 199 (5th Cir. 2018).
    \8\ Segalman v. Southwest Airlines Company, 895 F.3d 1219 (9th Cir. 
2018).
    \9\ Boswell v. Skywest Airlines, Inc., 361 F.3d 1263 (10th Cir. 
2004).
    \10\ Love v. Delta Airlines, 310 F.3d 1347 (11th Cir. 2002).
---------------------------------------------------------------------------
    We believe that pilots, flight attendants, gate agents and other 
carrier personnel want to do their best to assist all passengers, 
including those who have disabilities. However, as an industry, air 
carriers' policies, procedures, and business decisions often prevent 
passengers with disabilities from having a safe, satisfying air travel 
experience. We want air carriers to do the right thing. Many times, 
that means we need Congress and DOT to guide them.
    PVA thanks you for this opportunity to express our views. We would 
be happy to answer any questions you may have.

    Mr. Larsen. Thank you, Mr. Zurfluh.
    I will start my questions with Mr. Zurfluh. The 
reauthorization bill directs the DOT to actually, as well, 
study the feasibility of in-cabin wheelchair restraint systems 
to cut down on the need to transfer folks from a wheelchair to 
a seat. Can you elaborate at all on how an in-cabin wheelchair 
restraint would change the flight experience with passengers 
with disabilities?
    Mr. Zurfluh. I can give you several, Mr. Larsen. I have 
been both a witness and experienced it personally.
    A couple of years ago I had fallen and hurt my hip. And the 
one scary thing that these individuals face is that--the aisle 
chair when you go down the back of an aircraft. I had hurt my 
hip, and I was scared that the people weren't trained to 
properly lift me into that seat. So I chose to do it myself the 
best I could.
    The individuals that were taking me back weren't paying 
attention. They banged my leg on every aisle chair, about 15 
rows back. And the pain was so intense, but I had an event that 
I promised I would come to DC for, and so I delivered on that 
promise.
    Ernie Butler also experienced similar situations, and he 
would, instead of being on an aisle chair, grab the back of 
chairs and get his wheelchair as close as he could into the 
cabin, grab the back of the seats, kind of bunny hop himself to 
wherever he needed to be, for fear that they would injure him 
like they did in the past.
    He did this probably 40 times before his passing, but it 
was--everybody here to my left has those stories, and 
experienced that situation. And the fear of getting on an aisle 
chair is immense to all of us.
    Mr. Larsen. In your written testimony--I believe in yours--
you recount the number of wheelchair damage reports. Was that 
in your written statement?
    Mr. Zurfluh. I don't have the exact number, but it is in 
the thousands.
    Mr. Larsen. Yes, OK. I just wanted to highlight that for 
the committee.
    Mr. Zurfluh. Actually, tens of thousands would be more 
specific.
    Mr. Larsen. OK. If we keep talking it might be 100,000.
    [Laughter.]
    Mr. Larsen. So thank you.
    Mr. Walden, let's just--during your testimony I was talking 
to the staff a little bit about the integration pilot program, 
and the fact that we gave direction to FAA to fund that for 2 
years. Do you have any thoughts about whether or not it needs 
to be extended beyond the 2-year legal limit?
    Mr. Walden. Thank you for the question. In my opening 
remarks I mentioned that success has been uneven. We have had 
reports.
    There are some participants that have beyond-visual-line-
of-sight authority that are engaged in package delivery, and 
only one for compensation or hire. Other test sites are--others 
have not been that active, and it has been taking a long time 
to get waivers.
    So we would recommend not only that the program be 
extended, but be broadened. I think when the Secretary 
announced the initial selection, it was the idea that others 
would be selected at a later time. There are a number of 
applicants that were very well qualified.
    With the matter--with regard to most of the IP programs, 
they were de-scoped at the start, so that if you--if an IPP 
said, ``We are selected, we have got 15 projects,'' and the FAA 
says, ``Well, we will go with three right now,'' and that left 
a lot of good work not done. So it needs to have more FAA 
resources. It needs to be extended. It needs to be broadened.
    Mr. Larsen. All right. Ms. Nelson, you testified that three 
airlines now have--your members have negotiated in the 
agreements a 10-hour rest rule, and Delta has made an 
announcement, as well. Any concerns that--not so much that the 
market is getting ahead of the FAA, but that the FAA is behind 
the market?
    And in that, will the FAA be able to develop a 10-hour rest 
rule that conforms to what your members and the airlines are 
actually negotiating?
    Ms. Nelson. What we have negotiated is language that 
mirrors what was written in the law. So it is the exact same. 
There is no conflict there at all.
    And I should also note that Horizon Air has agreed to 
implement this outside of contract negotiations, as well, but 
that there is a big difference between having negotiated 
contract language and having a regulation that the airlines 
must follow, and must follow through with, and expect that 
there will be enforcement from the FAA. There are many more 
higher penalties for violating that, as opposed to committing a 
contract violation.
    So this--we have been able to determine that there is not a 
cost factor of note to this, that the implementation can take 
place in a matter of weeks--actually, is what we have been 
experiencing--and that all that the FAA needs to do, based on 
all of the data that we already have from the seven 
commissioned fatigue studies, and from the data that we have 
compiled here, is simply follow the direction of Congress to 
update the rule and force the airlines to implement the rest.
    Mr. Larsen. All right, thank you. I recognize Mr. 
Fitzpatrick for 5 minutes.
    Mr. Fitzpatrick. Thank you, Mr. Chairman. Thank you to all 
the panelists for being here. I want to start with Ms. Nelson.
    First off, Ms. Nelson, thank you for your passion in 
fighting for the health, safety, and equality of the people you 
represent. You are doing a great job. And I can say that 
firsthand.
    You had mentioned the recent GAO study that identified 
ongoing problems facing passenger service agents. What steps do 
you believe that need to be taken, both us on the committee, 
and those implementing it, in light of that report?
    Ms. Nelson. The GAO study confirms what we already know, 
that customer service agents experience verbal and physical 
harassment regularly. And so what needs to happen is that most 
airlines have not complied with what is in the act, and that is 
to develop assault incident protocol where they have a clear 
process for handling assault when it happens, training for 
those customer service agents, and signage that makes it clear 
to the public what the penalties are if they conduct in this 
kind of behavior.
    Now, I will tell you from firsthand experience that I came 
around the corner on an evening in an airport where there were 
severe storms and flights were being canceled everywhere. 
Because staffing has been reduced both on the plane and at the 
gates to the lowest level, there was one customer service agent 
handling reporting that a flight was going to be canceled that 
night. And there was a family of five that were going on their 
vacation, who were there to scratch up her arm so badly that 
blood was dripping from her arms by the time I got there. There 
was no other airline personnel there to see it. There was no 
law enforcement to respond. And she was in shock coming around 
the corner, having been by herself.
    If we are going to take this seriously, then the airlines 
need to take this seriously with the protocol that they are 
required to submit to the FAA. The FAA needs to engage and 
enforce this portion of the act. And we need to be very clear 
in aviation, from the highest levels of leadership down to the 
signage at our airports, that assault of a customer service 
agent is a felony, people will be held accountable, we bring a 
coordinated roundtable with law enforcement at the airports, 
and we all understand what the protocol is to respond. That is 
the only way that we are going to stop what is happening. And 
it is an epidemic in our airports.
    And, as flight attendants, we want this to be addressed, 
because we do not need these passengers who are already 
expressing incredible aggressive behavior to slip through the 
cracks and get onto our planes. This is a very serious issue, 
and it needs to be taken more seriously.
    Mr. Fitzpatrick. Thank you, Ms. Nelson.
    Captain Fox, you are a subject matter expert in an area 
that you heard me question Mr. Elwell about: secondary 
barriers. Thank you for your advocacy for that.
    And, Ms. Nelson, perhaps you can opine on this, as well. 
Give us your perspective, representing the airline pilots and 
the flight attendants, on the, as of now, failure to implement 
what we passed in the FAA reauthorization. And that is only on 
new aircraft. As you know, we are fighting for retrofitting, as 
well. If you could, just share your thoughts on that, sir. I 
appreciate it.
    Mr. Fox. So thank you for the oversight and pressure from 
this committee. Because, clearly, from my standpoint of view, 
it is going to be required to get this law mandated, out there, 
and implemented.
    It is our opinion that forming this advisory committee 
working group right now, the FAA's looking at secondary 
barriers, is a waste of resources that they have. This work was 
done by a Federal advisory group, RTCA, back in 2008, and they 
produced the document that is the performance standard to 
implement this secondary barrier from 50 seats up to the 787.
    And when the Assistant Administrator addressed that it--
also the flight attendant piece was in there, the flight 
attendant piece was in there, but it was in there for an 
interim period of time, until the secondary barrier was put in 
place.
    They have the costing data, they know how to certify to put 
it in the airplanes. It needs to be done right now. They can 
issue tomorrow an interim final rule, an IFR. They can issue an 
interim final rule tomorrow to implement this law and take 
comments. And that is what I think should happen.
    Mr. Fitzpatrick. What do you suspect the reason is for the 
delay?
    Mr. Fox. There is--it is pure and simple. The reason, in 
our opinion, is there are special interests, the ones that have 
been fighting us all along to do what is right, are out there 
right now fighting again. And to me, it is a disrespect the 
Congress that passed that law.
    Ms. Nelson. It is a disrespect to Ellen Saracini, who is in 
the room today, and to my friends who were on flight 175 with 
her husband, Captain Victor Saracini. Eighteen years later, 
this is too long.
    The flight attendants who were standing there, using their 
own bodies as a guard against the flight deck, thought that 
they were doing that for an interim period of time. And we need 
these secondary barriers. They were on planes. There were 
decisions that were made by some of the airlines to remove them 
from preinstalled secondary barriers that were on new aircraft 
that were designed. And they did that for cost reasons.
    Aviation safety and security is written in blood, and 18 
years is long enough. We need to get this done, and I 
appreciate your leadership and your passion on this issue to 
make sure that it happens.
    Mr. Fitzpatrick. Thank you. And I ask my committee members 
and colleagues to really take note of this.
    Thank you, Mr. Chairman. I yield back.
    Mr. Larsen. Thank you. I am going to turn to Representative 
Garcia from Illinois.
    Mr. Garcia. Thank you.
    Mr. Larsen. Five minutes.
    Mr. Garcia. Thank you, Mr. Chairman. And thank all the 
panelists for their testimony.
    So I represent a lot of hard-working, working-class people 
in my district, folks who work day and night to make ends meet.
    When I learned about the long hours, often uncompensated, 
that flight attendants endure, I was really surprised. People 
think it is kind of a glamorous job still.
    Even more so, to find out that the meager changes made to 
flight attendants' adequate rest has been delayed--can you, Ms. 
Nelson, provide me with any additional comments about the 
strains that this puts on individuals, your families, staff 
morale, and performance?
    And separately, what impacts this may have on safety of the 
flying public?
    Ms. Nelson. Thank you very much for the question. Flight 
attendants are aviation's first responders, and they must be 
prepared to respond immediately. They switch back and forth 
between being safety professionals and serving with incredible 
emotional intelligence to be able to handle all of the people 
onboard.
    Oftentimes we have to de-escalate conflict, and when we 
don't get enough rest it is much harder to do that. It is much 
harder to respond to any safety issue. I have another report 
from a flight attendant who said that she was so fatigued from 
a short night that she forgot to do the safety demo on the 
plane.
    So these--oftentimes the flight attendants who are 
experiencing these short nights and long days are typically the 
more junior flight attendants. You brought up the issue of pay. 
These are people who are having to work long hours, not make 
enough money, and one of the issues of fatigue is also not 
getting enough nutrition. Oftentimes they don't have enough 
money to eat. These are the same people who are not getting 
enough rest to avoid fatigue and perform the very serious 
safety and security functions that they must perform.
    I mentioned earlier responding to a medical emergency. We 
are also trained that a medical emergency could be a diversion 
for a much more serious security attack. And we have to remain 
vigilant to all of these issues onboard, in addition to 
managing all the different personalities onboard that sometimes 
don't always get along.
    So this is a very serious stress. It happens every single 
day. And we continue to receive reports from flight attendants 
who are under great strain in their own personal health, and in 
their ability to perform their safety duties and respond in an 
evacuation. And also in their home lives, because when they go 
home they are beat, and they often then have to take care of 
children or other responsibilities.
    Mr. Garcia. Can you comment, Ms. Nelson, on the seat sizes 
and space between rows? The case that has been mentioned here 
at--American Airlines flight 383 at Chicago O'Hare is, I think, 
an occasion that raises much concern about this. Can you 
elaborate on efforts to put more passengers on planes, and how 
this may jeopardize safety?
    Ms. Nelson. Yes, we are very much in support of the 
evacuation certification standards study. And, in fact, we 
think we need to move forward with addressing the very real 
conditions in the cabin today.
    We suspect that the 90-second rule cannot be met with the 
current conditions on board if you were to conduct an actual 
evacuation certification, and in real time, with real people, 
who weren't told ahead of time, or volunteered and come to the 
test with tennis shoes on, and a good breakfast in their belly, 
and being prepared to respond, because they know that is why 
they are there.
    So we are very concerned about the shrinking seats, more 
and more people being packed on our planes closer and closer 
together, and no realistic assessment of today's passenger 
size, or the conditions in the cabin that include having 
personal electronic devices plugged in everywhere, people 
stuffing in their overhead baggage everywhere. These evacuation 
certification tests have never taken into consideration the 
bags that people are taking with them today. And so there is 
not a realistic assessment. And we believe that that is going 
to lead to a loss of life if we don't take action right now to 
correct it.
    Mr. Garcia. Thank you. I yield my time, Chairman.
    Mr. Larsen. Thank you. I recognize Ranking Member Graves 
for 5 minutes.
    Mr. Graves of Missouri. Thank you, Mr. Chairman. My 
question is mainly--and this goes back to--it is to Mr. Baker.
    From a pilot's perspective, I guess you might say, what can 
we do, or what should we be focusing on when it comes to our 
medium and smaller airports, to make sure they are viable, to 
make sure that they are part of an aviation system, that 
aviation system throughout the country, that, you know, we just 
want to make sure that they continue to function? Because 
without those, then, obviously, we crowd up the larger 
airports. We want to make sure that that is maintained.
    But from your perspective, what do we need to be focusing 
on? What do we need to be doing to do a better job when it 
comes to smaller airports?
    Mr. Baker. Thank you, Congressman Graves, for that 
question. Yes, these 5,000 public-use airports, which--airlines 
use around 500, the other ones are, as you know, small, rural, 
and serve the outer rings of the cities, if you will--are very 
important to this infrastructure system.
    It was well intended by this Congress to have money set 
aside, AIP funds, for these airports. And, unfortunately, there 
is a match caused out there that some cities, some communities 
are stressed, cannot afford to match those things. We get to 
roll over a $150,000 for a couple of years. And too often that 
money goes unspent--well intended by this Congress to have 
those investments.
    But I think we have to really look at--are there ways to 
help these communities invest in this incredible infrastructure 
that we have uniquely in this country, everything from 
paramedic relief, to agriculture, to business, to community 
access. These are important investments. We have got to figure 
out how you help that match come down. Some of these key 
airports, as you well know, there are 3,000 of them that have 
that entitlement opportunity.
    Mr. Graves of Missouri. I am going to pivot a little bit 
now, too, when it comes to GA and ADS-B, and requirements for 
that. And we still got a lot of GA aircraft out there that 
aren't equipped, and we got a deadline that is coming up very, 
very quickly. And are you concerned about that?
    Do you think that people are just waiting to see what 
happens with the price, because it is expensive?
    There are a couple options out there, but it is 
extraordinarily expensive to equip. What are your thoughts?
    Mr. Baker. Well, you know, the ADS-B equipment mandate, 
which starts January of this year, is very concerning. We have 
about 87,000 aircraft that probably will be equipped at that 
point time, leaving about 70-some-thousand aircraft that use 
that airspace that are close to the cities or above 10,000 feet 
that won't be equipped as of January 1, most likely.
    The cost of equipment has come down. But, as we all know 
here, the average age of an aircraft today is 45 years old. You 
got a quartile that are less than $40,000 in total value. And 
this equipment was running between $2,000 and $6,000 to put on 
these airplanes.
    General aviation owners have spent over $1\1/2\ billion so 
far to participate in this mandate. FAA had a $500 rebate 
program in place. It expired. It was very helpful for a lot of 
these owners that are doing this for the betterment of the 
system, for traffic. They don't have to do this. They want to 
do this. We are encouraging them to do it. But I would really 
encourage that $500 rebate be reenacted.
    Mr. Graves of Missouri. I yield back.
    Mr. Larsen. OK, I recognize Representative Norton for 5 
minutes.
    Ms. Norton. Thank you very much, Mr. Chairman. It was 
important to hear from this panel.
    I represent a region which has two major airlines. My 
question, I suppose, is for Mr.--am I pronouncing this right--
Breyault?
    Mr. Breyault, I have a special interest in your testimony 
about family seating. And that is not only, as you indicated, 
for convenience. A Republican not on this subcommittee, but a 
Republican cosponsor and I, Rick Crawford, have sponsored a 
bill. We call it the AWARE Act, that mandates that the FBI look 
at sexual assaults on airlines, on cruise ships, other forms of 
transportation, and disaggregate that information so we know 
where these assaults--apparently, there is some information 
that--but not disaggregated, so we know what we are talking 
about.
    This bill, my bill, would go before the Judiciary 
Committee, its Subcommittee on Crime, Terrorism, and Homeland 
Security. I have a special interest because I was a former 
chair of the U.S. Equal Employment Opportunity Commission, 
which wrote the first guidelines on sexual harassment and 
assault. And those guidelines probably don't even apply. And--
well, they may, but I am not even sure how they apply in the 
context of transportation.
    And I note that in your testimony, Mr. Breyault, on page 5, 
you say that section 2309--that is apparently of our 2016 FAA 
reauthorization bill--mandated--and here I am quoting--``that 
within a year after enactment, the DOT review and `if 
appropriate' create rules requiring airlines to seat children 
aged 13 or under next to an accompanying family member.'' This 
would seem to be much more urgent, given what we now know about 
sexual assaults on airlines, and I think your testimony that 
even children had been sexually assaulted.
    Do you have any information whatsoever on whether the 
airlines have been approached? I mean that is 2 years. That is 
3 years ago, when we mandated that these rules be created.
    Mr. Breyault. Congresswoman, thank you for the question.
    As I mentioned in my oral statement, my colleagues at 
Consumer Reports magazine recently released records of their 
interactions with the Department of Transportation over just 
this issue. And from what I understand, the DOT looked at the 
mandate in the bill, which also includes, I believe, some ``as 
appropriate'' message, as a--basically, a legislative loophole, 
from our opinion. They looked at the number of complaints that 
they were receiving about family seating, and decided that what 
they wanted to do would be to create a consumer education 
website about family seating.
    Based on what we have been able to tell, to see, there has 
been very little substantive research in terms of talking to 
family advocates, psychologists, much beyond looking at how 
many complaints they have gotten, and making a determination 
that the percentage of----
    Ms. Norton. Of course, this mandated a rule.
    Mr. Breyault. I am sorry?
    Ms. Norton. You indicated in your testimony their website.
    Mr. Breyault. Yes.
    Ms. Norton. Have they indicated anything about the mandate 
from this committee for a rule?
    Mr. Breyault. I understand that what they have done is 
create a website. And I believe that that is how they believe 
they have successfully applied the rule, applied the mandate 
that Congress has given them.
    Ms. Norton. Mr. Chairman, could I ask that the committee 
write to the Department of Transportation? This is 3 years ago 
we mandated a rule. The testimony here is they have created a 
website. We have had testimony here of sexual assaults on 
airplanes. Now, that is bad enough for anybody. But involving 
children, it does seem to me that the committee should be in 
touch not only about the tardiness, but about the effect of 
this tardiness on children and other passengers on airlines. 
And I ask that a--that--whether in a letter or however the 
chairman suits, that we reach the airlines to get a prompt 
answer.
    Mr. Larsen. Yes, I will make a note of that, and I will 
have staff follow up with you, so we can get the appropriate 
communication out.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Larsen. Thank you.
    A final question, Mr. Walden. In your written testimony you 
mentioned the importance of risk-based decisionmaking when it 
comes to UAS integration. You go on to state that you are 
concerned that the FAA may be approaching risk in an overly 
conservative way. Could you elaborate on that?
    Mr. Walden. Thank you for your question. In the proposed 
rule to allow operations over people, the FAA adopts a risk 
model that assumes a drone has hit a person. And whether the 
drone would be able to fly over people depends on the severity 
of that impact.
    That is not the test in manned aviation, where you look at 
the probability of failure, the probability of impact, and then 
the severity of the injury. That is the holistic risk model 
that has been recommended by peer-reviewed groups, recommended 
by the Centers of Excellence ASSURE, and we are hoping that the 
FAA will reconsider that proposed rule.
    It will--it wants to time that proposed rule with the 
remote ID final rule. And so there is time for the FAA to adopt 
a risk model that is the one that is consistent with manned 
aviation.
    Mr. Larsen. OK, thanks. Thank you.
    Before I close I want to just make a note of how much 
overlap there was between the questions the Members asked of 
the FAA and the DOT and the issues that you, yourselves, have 
brought up. So it seems that, at least at this point, we seem 
to be on track with the stakeholders with regards to pressing 
the FAA on the right things. And we will continue to try to do 
that.
    The testimony provided has been a good direction to the 
full committee, as well, certainly, to the subcommittee.
    I know it is late, I know I haven't had lunch, and I am 
sure some of you want to have lunch, as well. So, with that, we 
have a lot of work left to do, and I really appreciate this 
panel's efforts.
    And I ask unanimous consent, as well, today that the record 
of today's hearing remain open until such time as our witnesses 
have provided answers to any questions that may be submitted to 
them in writing, and unanimous consent--any objections?
    OK, and unanimous consent that the record remain open for 
15 days for any additional comments and information submitted 
by Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    If I don't have anything to add, the subcommittee now 
stands adjourned.
    [Whereupon, at 1:38 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


 Prepared Statement of Hon. Eddie Bernice Johnson, a Representative in 
                    Congress from the State of Texas
    Thank you, Mr. Chairman.
    It is with great appreciation that I thank the Chairman for holding 
this hearing today, as it allows us to hear, for the first time, from a 
senior Trump Administration appointee at the Department of 
Transportation (DOT), regarding aviation consumer protection concerns 
and explain what DOT has done to improve the consumer experience, as 
mandated by the FAA Reauthorization Act of 2018.
    The United States maintains the world's safest and most complex 
aviation system in the world. Maintaining safety of our national 
airspace is paramount.
    Dallas is home to Dallas-Fort Worth International Airport, the 
fourth busiest airport in the United States and the eleventh busiest 
airport in the world. As an aviation hub, consumer protection and 
customer experience are very important.
    Members of Congress fly back and forth from their districts to 
Washington, DC frequently. During my trips, I have witnessed the 
frustration of passengers being bumped off of over-booked flights or 
when flights are cancelled, leaving them stranded and unable to 
complete their trip as planned.
    To address these concerns, the FAA Reauthorization Act of 2018 
included many consumer protections that DOT was mandated to implement. 
Even though the statute became law about a year ago, it appears that 
DOT has implemented very few of the provisions involving consumer 
protections. For instance, it was only last week that DOT established 
the Air Ambulance and Patient Billing Advisory Committee, missing the 
statutory deadline of December 2018. This advisory committee was 
established only after this Committee had notified DOT of today's 
hearing.
    Passenger violations of consumer protections are reported by news 
outlets almost weekly. It is disappointing that DOT has not made 
implementing the 2018 statute's consumer protection mandates a 
priority.
    I look forward to hearing the testimony from the Administration 
witnesses explaining why the consumer protection mandates have not been 
implemented.
    I am also eager to hear from the second panel of stakeholders on 
how DOT's and FAA's delay in implementing the mandates Congress passed 
a year ago have impacted them.
    Thank you. I yield back.

                                 <F-dash>
Letter of September 23, 2019, from Consumer Reports, Submitted for the 
                       Record by Hon. Rick Larsen
                                                September 23, 2019.
Hon. Peter A. DeFazio, Chairman,
Hon. Sam Graves, Ranking Member,
Committee on Transportation and Infrastructure.
Hon. Rick Larsen, Chairman,
Hon. Garret Graves, Ranking Member,
Subcommittee on Aviation, U.S. House of Representatives, Washington, 
        DC.

    Dear Chairman DeFazio, Ranking Member Graves, Chairman Larsen, and 
Ranking Member Graves:
    Consumer Reports \1\ is writing to inform the Committee of our 
continuing serious concerns about the U.S. Department of 
Transportation's failure to protect young children from being separated 
from their family members on commercial airline flights.
---------------------------------------------------------------------------
    \1\ Consumer Reports is the world's largest independent product-
testing organization. It conducts its advocacy work in the areas of 
privacy, telecommunications, financial services, food and product 
safety, health care, among other areas. Using its dozens of labs, auto 
test center, and survey research department, the nonprofit organization 
rates thousands of products and services annually. Founded in 1936, 
Consumer Reports has over 6 million members and publishes its magazine, 
website, and other publications.
---------------------------------------------------------------------------
    Under Section 2309 of the FAA Extension, Safety, and Security Act 
of 2016, DOT was instructed to:

        review and. if appropriate, establish a policy directing all 
        air carriers providing scheduled passenger interstate or 
        intrastate air transportation to establish policies that enable 
        a child, who is age 13 or under on the date an applicable 
        flight is scheduled to occur, to be seated in a seat adjacent 
        to the seat of an accompanying family member over the age of 
        13, to the maximum extent practicable and at no additional 
        cost, except when assignment to an adjacent seat would require 
        an upgrade to another cabin class.

    Three years after enactment of this directive, DOT has taken 
virtually no action to address this serious problem.
    Family seating is a compelling matter of child safety and security. 
As the Federal Bureau of Investigation noted in its April 2018 report 
``Sexual Assault Aboard Aircraft,'' these assaults are increasing, and 
the victims have included children at least as young as 8 years old.\2\ 
And it is understandably a concern to families who learn, often after 
they buy tickets, that their children may not be able to sit with them 
on the flight.
---------------------------------------------------------------------------
    \2\ Federal Bureau of lnvestigation, ``Sexual Assault Aboard 
Aircraft,'' April 26, 2018 (https://www.fbi.gov/news/stories/raising-
awareness-about-sexual-assault-aboard-aircraft-042618). In FY 2017, 63 
cases were reported to the FBI, up from 38 in 2014. According to an FBI 
airport liaison: ``It's safe to say that many incidents occur that are 
not reported.''
---------------------------------------------------------------------------
    Due to the long silence from DOT, in September 2018, Consumer 
Reports filed a Freedom of Information Act request to determine what 
actions the Department had taken to comply with the directive. After 
almost an additional year, during which we made repeated inquiries, we 
finally received a reply on August 27.\3\ The reply reveals that the 
Department contacted major airlines over a several-week period in late 
2017, to inquire about their family seating policies and the complaints 
received, but did little more than that.
---------------------------------------------------------------------------
    \3\ Available at https://advocacy.consumerreports.org/research/
department-of-transportation-reply-to-cr-freedom-of-information-
request-on-family-seating/
---------------------------------------------------------------------------
    Unfortunately, the internal DOT summaries and discussion of those 
conversations were redacted. But the reply, which includes summaries of 
more than a hundred consumer complaints, demonstrates that consumers 
have serious concerns about airline family seating practices.
    Of the 136 complaints provided to CR for events occurring between 
March 2016 and November 2018, 82 were filed against the domestic ``Big 
Three'' carriers American Airlines, Delta Air Lines, and United 
Airlines, along with their regional and codeshare partners. These 
complaints detail a pattern of insensitivity by the airlines against 
hundreds of families with young children.

    <bullet>  It is clear from these complaints that when families with 
young children seek to sit together inflight, airlines regularly impose 
or attempt to impose fees for ``preferred'' seat assignments and/or 
priority boarding, the very issues that Congress directed DOT to stop. 
Several complaining parents made clear that they did not understand 
that purchasing a Basic Economy class ticket would prevent them from 
being able to sit with their children.
    <bullet>  Numerous complaints involve airlines knowingly assigning 
seats apart from family to children as young as 2 years old.
    <bullet>  Parents cite the emotional trauma of children sitting 
alone, including children who are autistic or who suffer seizures. In 
multiple cases, parents complain they were worried that young children 
sitting away from them were vulnerable to sexual assaults; others noted 
that young children sitting alone are particularly vulnerable during 
life-threatening emergencies.
    <bullet>  Families with children under the age of 5 report being 
forced to beg other passengers to switch seats, what one parent called 
``relying on the kindness of others.'' In numerous cases families were 
asked to deplane because of the inconvenience this caused, while others 
ultimately decided they had to deplane because of their concerns for 
their children.
    <bullet>  In several cases, parents complained that children over 
the age of 2 were forced to fly as ``lap children,'' in clear violation 
of Federal Aviation Regulation 14 CFR  135.128.
    <bullet>  Numerous complaints detail a family having lost 
reservations with seats together due to cancelled flights, aircraft 
equipment changes, and airline information technology failures. In the 
most egregious cases, families who had to re-book their flight to 
ensure they were seated together were forced to pay exorbitantly higher 
fares, in one case totaling $4,341 more, and in another case totaling 
$14,084 more.

    The Department has provided two explanations for its failure to 
take action. Last week, DOT issued a public statement and updated the 
Department's website page. The ``DOT's Review of U.S. Airline Family 
Seating Policies'' states: ``Based on the low number of complaints 
received and review of airline family seating policies, the Department 
determined it was unnecessary to direct airlines to establish policies 
on family seating.'' \4\ Instead, as it tells families who manage to 
find the information on its website, DOT is leaving the burden on the 
families to check and comply with whatever the airline's policies and 
restrictions might be.\5\
---------------------------------------------------------------------------
    \4\ U.S. Department of Transportation, ``DOT's Review of U.S. 
Airline Family Seating Policies,'' updated September 27, 2019 
(www.transportation.gov/individuals/aviation-consumer-protection/
review-us-airline-family-seating-policies).
    \5\ U.S. Department of Transportation, Aviation Consumer Protection 
(https://www.transportation.gov/individuals/aviation-consumer-
protection/family-seating.
---------------------------------------------------------------------------
    This is a flawed basis for inaction. Failure to implement this 
Congressional mandate based on the number of complaints received about 
family seating problems disregards the physical and emotional 
vulnerability of young children traveling apart from their caregivers.
    Previously, when we raised the family seating issue at a meeting 
between DOT officials and consumer advocates in August 2019, a DOT 
official stated that the Department wanted to ensure that any 
regulation regarding family seating ``doesn't impose undue burdens'' on 
the airlines. That is likewise not an acceptable basis for ignoring 
this problem.
    The DOT web page claims that the Department ``recognizes the 
importance that families place on sitting together when flying.'' \6\ 
It is clear from the Department's inaction, and the fact that families 
continue to submit complaints about being separated from their small 
children, that DOT does not recognize the importance of this problem.
---------------------------------------------------------------------------
    \6\ Id.
---------------------------------------------------------------------------
    We hope you will agree that the response of the Department of 
Transportation--to do nothing, after three years of silence--is 
unacceptable. And we urge the Subcommittee to use time at the oversight 
hearing this week to demand that the Department do more to protect 
children and to ensure that small children are able to sit together 
with their families on flights--at no extra cost, and without having to 
beg their fellow passengers to switch seats with them.
    Thank you for your attention to our concerns. We request that this 
letter be made part of the hearing record.
        Respectfully,
                                   William J. McGee,
                                           Aviation and Travel Adviser, 
                                               Consumer Reports.
                                   George P. Slover,
                                           Senior Policy Counsel, 
                                               Consumer Reports.
                                   Anna Laitin,
                                           Director, Financial 
                                               Services, Consumer 
                                               Reports.

cc: Members, Committee on Transportation and Infrastructure

                                 <F-dash>
       Letter of July 3, 2019, to Hon. Elaine Chao, Secretary of 
     Transportation, Submitted for the Record by Hon. Andre Carson
                                                      July 3, 2019.
Hon. Elaine Chao,
Secretary of Transportation,
U.S. Department of Transportation, 1200 New Jersey Ave, SE, Washington, 
        DC.

    Dear Secretary Chao:
    We are writing to clarify the legislative intent for a provision in 
the FAA Reauthorization (P.L. 115-254), which requires the installation 
of secondary cockpit barriers on all new passenger aircraft. It has 
come to our attention that certain parties are seeking to undermine the 
clear statutory meaning of the provision or otherwise delay the law's 
implementation. The provision (Section 336, the Saracini Aviation 
Safety Act of 2018) specifically requires the ``installation of a 
secondary cockpit barrier on each new aircraft that is manufactured for 
delivery to a passenger air carrier in the United States operating 
under the provisions of part 121 of title 14, Code of Federal 
Regulations.'' Congress drafted this language with the clear intent to 
apply secondary barriers to all new manufactured aircraft; therefore, 
any attempt by the FAA to reinterpret the provision more narrowly or to 
further study these well-understood security barriers would 
substantially delay implementation and evade incontrovertible 
Congressional intent.
    What is so profoundly troubling is the assertion made by opponents 
of the provision claiming that the statute was intended to apply only 
to new ``models'' of aircraft that require a new type certificate. This 
was not our intent. If this had been our original intent, the language 
would have specifically mentioned new type certificated aircraft. 
Requiring the application of secondary barriers for only new type 
certificates is a vastly different standard than the new aircraft 
requirement that was agreed to on a bipartisan basis in both the House 
and Senate. A ``new type'' standard would only cover aircraft that are 
not currently in production and for which a ``proposed change in 
design, power, thrust, or weight is so extensive that substantially 
complete investigation of compliance with the applicable regulations is 
required.'' \1\ Orders requiring new type certificates are quite rare; 
in fact, a 2015 ICF International report finds it is ``unlikely a new 
type design will seek certification in the next 10 to 15 years.'' Even 
in the event an order is placed on a new type design, it takes on 
average 8-10 years to develop such an aircraft. Effectively, this new 
type standard would delay application of this post-9/11 security 
requirement for decades. This is the reason our language is specific to 
exclude any mention of new type certificates and instead deliberately 
chose secondary barriers to apply to all newly manufactured aircraft 
off the production line after the specified date in the provision. On 
this point, the provision's language could not be more clear.
---------------------------------------------------------------------------
    \1\ 14 CFR 21.19
---------------------------------------------------------------------------
    The legislative history from each chamber of Congress is 
unambiguous on this matter. The language in the Senate bill base text 
and the language that was added to the House bill by amendment during 
full committee markup both clearly require the installation of 
secondary barriers on all newly manufactured aircraft delivered to part 
121 passenger air carriers. There had never been any deviation to 
consider new type certificate aircraft at any time during the bill's 
consideration.
    Similarly, opponents are also suggesting that secondary barriers 
need further study, require the establishment of an aviation rulemaking 
committee, or that manufacturers should be allowed an alternative means 
of complying with the legal mandate. The design of secondary barriers 
is well established, studied, have been installed on part 121 carriers 
dating back more than a decade, and their installation is required by 
the law. In 2011, RTCA Inc.--a private sector firm that works with the 
FAA--completed a comprehensive study at the request of industry 
stakeholders on secondary barriers to provide manufacturers and 
carriers with an acceptable means of understanding and complying with 
regulations on secondary barriers. Therefore, attempts to exhaust more 
resources or time studying these barriers can only be interpreted as a 
diversionary delay tactic; and any effort to find another means of 
complying violates the clear terms of the statute to install these 
barriers by October 2019.
    Safety and security are our foremost priorities and secondary 
cockpit barriers address known weaknesses and risks that will help keep 
passengers, flight crew, and the American public safe. An FAA official 
testified before the Transportation and Infrastructure Committee that 
some types of barriers have already been approved for use. Our intent 
is to have secondary cockpit barriers adopted as soon as possible as 
required by P.L. 115-254.
    We appreciate your time and look forward to working with you to 
implement the provision as intended by Congress.
        Sincerely,
                    Andre Carson, Member of Congress; Brian K. 
                            Fitzpatrick, Member of Congress; Jerrold 
                            Nadler, Member of Congress; Peter T. King, 
                            Member of Congress; Josh Gottheimer, Member 
                            of Congress; Donald M. Payne, Jr., Member 
                            of Congress; Alan Lowenthal, Member of 
                            Congress; Raja Krishnamoorthi, Member of 
                            Congress; Thomas R. Suozzi, Member of 
                            Congress; Val Butler Demings, Member of 
                            Congress; Ann M. Kuster, Member of 
                            Congress; James P. McGovern, Member of 
                            Congress; Tom Malinowski, Member of 
                            Congress; Xochitl Torres Small, Member of 
                            Congress; Cedric L. Richmond, Member of 
                            Congress; Kathleen M. Rice, Member of 
                            Congress; Elaine Luria, Member of Congress; 
                            Paul Cook, Member of Congress; J. Luis 
                            Correa, Member of Congress; Earl 
                            Blumenauer, Member of Congress; Katie 
                            Porter, Member of Congress; Kim Schrier, 
                            Member of Congress; James A. Himes, Member 
                            of Congress; Derek Kilmer, Member of 
                            Congress; Tulsi Gabbard, Member of 
                            Congress; Raul M. Grijalva, Member of 
                            Congress; Frank Pallone, Jr., Member of 
                            Congress; Diana DeGette, Member of 
                            Congress; Tom Cole, Member of Congress; Gus 
                            Bilirakis, Member of Congress; Ben Ray 
                            Lujan, Member of Congress; Sean Patrick 
                            Maloney, Member of Congress; Bill Johnson, 
                            Member of Congress; Henry C. ``Hank'' 
                            Johnson, Jr., Member of Congress; Paul 
                            Tonko, Member of Congress; Brian Higgins, 
                            Member of Congress; David B, McKinley, 
                            P.E., Member of Congress; Pete Aguilar, 
                            Member of Congress; Vicente Gonzalez, 
                            Member of Congress; Debbie Dingell, Member 
                            of Congress; Abby Finkenauer, Member of 
                            Congress; John Curtis, Member of Congress; 
                            Ross Spano, Member of Congress; Filemon 
                            Vela, Member of Congress; Chris Pappas, 
                            Member of Congress; Cynthia Axne, Member of 
                            Congress; Glenn ``GT'' Thompson, Member of 
                            Congress; Eric Swalwell, Member of 
                            Congress; Jamie Raskin, Member of Congress; 
                            Jack Bergman, Member of Congress; Mark 
                            DeSaulnier, Member of Congress; Susie Lee, 
                            Member of Congress; Jesus G. ``Chuy'' 
                            Garcia, Member of Congress; Don Bacon, 
                            Member of Congress; Matt Cartwright, Member 
                            of Congress; Donald S. Beyer, Member of 
                            Congress; Katie Hill, Member of Congress; 
                            Ruben Gallego, Member of Congress; Ed 
                            Perlmutter, Member of Congress; Joe Neguse, 
                            Member of Congress; Mark Pocan, Member of 
                            Congress; Salud Carbajal, Member of 
                            Congress; Pramila Jayapal, Member of 
                            Congress; Angie Craig, Member of Congress; 
                            Jared Huffman, Member of Congress; Max 
                            Rose, Member of Congress; Elissa Slotkin, 
                            Member of Congress; Sharice L. Davids, 
                            Member of Congress; Grace F. Napolitano, 
                            Member of Congress; Adriano Espaillat, 
                            Member of Congress; Michael F.Q. San 
                            Nicolas, Member of Congress; Jim Costa, 
                            Member of Congress; Steve Cohen, Member of 
                            Congress; David Price, Member of Congress; 
                            Eleanor Holmes Norton, Member of Congress; 
                            Fred Upton, Member of Congress; Bobby L. 
                            Rush, Member of Congress; Grace Meng, 
                            Member of Congress; Julia Brownley, Member 
                            of Congress; Adam Smith, Member of 
                            Congress; Albio Sires, Member of Congress; 
                            Harley Rouda, Member of Congress; Peter 
                            Visclosky, Member of Congress; Suzan K. 
                            DelBene, Member of Congress; Joe Courtney, 
                            Member of Congress; Scott Peters, Member of 
                            Congress; Daniel W. Lipinski, Member of 
                            Congress; Janice Schakowsky, Member of 
                            Congress; John Garamendi, Member of 
                            Congress; Bill Pascrell, Jr., Member of 
                            Congress; Gregorio Kilili Camacho Sablan, 
                            Member of Congress; Eliot Engel, Member of 
                            Congress; Tony Cardenas, Member of 
                            Congress; Bonnie Watson Coleman, Member of 
                            Congress; Ed Case, Member of Congress; 
                            Norma J. Torres, Member of Congress; Bob 
                            Gibbs, Member of Congress; Dina Titus, 
                            Member of Congress; Kurt Schrader, Member 
                            of Congress; Jackie Speier, Member of 
                            Congress; Frederica S. Wilson, Member of 
                            Congress; William R. Keating, Member of 
                            Congress; Gilbert Ray Cisneros, Jr., Member 
                            of Congress; Linda T. Sanchez, Member of 
                            Congress; Debbie Mucarsel-Powell, Member of 
                            Congress; Brendan F. Boyle, Member of 
                            Congress; Mark Meadows, Member of Congress; 
                            Lee Zeldin, Member of Congress; Seth 
                            Moulton, Member of Congress; Kevin Brady, 
                            Member of Congress.


                                Appendix

                              ----------                              


      Questions from Hon. Albio Sires to Daniel K. Elwell, Deputy 
             Administrator, Federal Aviation Administration

    Question 1. Given the prevalence of food allergy among children and 
Congress' mandate to the Federal Aviation Administration (FAA) to take 
the needs of children into account when evaluating the appropriate 
contents of medical kits on planes, can you please update me on the 
status of FAA's evaluation of emergency medical kits?
    Answer. In response to Section 307 of the FAA Reauthorization Act 
of 2018 (2018 Act), the FAA received information from the Aerospace 
Medical Association (AsMA), which conducted a study of the required 
Emergency Medical Kit contents on commercial aircraft. To conduct the 
study, AsMA utilized their Air Transport Medicine Committee composed of 
Aerospace Medicine experts from the U.S. and internationally. This 
Committee also collaborated with the American Academy of Pediatrics 
related to specific pediatric contents. We received their report in 
June 2019.
    Our subject experts in the Office of Aerospace Medicine completed 
their review of the AsMA report in late August. The agency is currently 
considering issuing a notice to part 121 air carriers to inform them of 
the study and remind them that no regulation prohibits them from 
voluntarily carrying additional medications in their aircraft emergency 
medical kits at their discretion. The agency remains committed to 
continuing its review of the study as well as other information the 
agency might receive. The agency does not rule out other activities in 
response to the results of the study or receipt of other relevant 
information.

    Question 2. Can you please assure me that countermeasures for food 
allergy and anaphylaxis are being addressed in terms of the evaluation, 
with a focus on the needs of children?
    Answer. Yes. The FAA is taking the needs of children into account 
under our review of aircraft medical kit contents in accordance with 
Section 307(b) of the 2018 Act. Our review includes consideration of 
medications for the treatment of food allergies and anaphylaxis.

    Question 3. If the evaluation is not yet complete, can you confirm 
that the FAA is taking under consideration new products including those 
that allow for infants and toddlers to be protected?
    Answer. Yes, as noted above, the FAA is taking the needs of 
children into account under our review of aircraft medical kit contents 
in accordance with Section 307(b) of the 2018 Act.

      Questions from Hon. Sam Graves to Daniel K. Elwell, Deputy 
             Administrator, Federal Aviation Administration

    Question 1. In your written testimony you explain that for a 
variety of reasons FAA has prioritized its Reauthorization 
implementation strategy. Can you describe what the strategy is and how 
you prioritized the many mandates in the Reauthorization Law?
    Answer. Safety is the Federal Aviation Administration's (FAA's) 
first priority and the agency is working hard to implement the hundreds 
of specific deliverables in the 2018 Reauthorization Act (2018 Act or 
Act) while we simultaneously continue to carry out our mission and 
daily operations. It has also been our approach, generally, to work 
toward completion of the mandates in the order in which they are due. 
Although the 2018 Act reauthorized aviation programs for five years, 
the majority of the congressional mandates are due within the first 
year. To illustrate the magnitude of the FAA's first year requirements, 
consider the following approximate numbers. The 2018 Act requires the 
FAA to:

    <bullet>  complete 33 rulemakings--13 of which are due within one 
year;
    <bullet>  complete 79 reports to Congress--54 of which are due 
within the first year;
    <bullet>  conduct 21 studies or briefings--all of which are due 
within one year;
    <bullet>  complete 15 new advisory committee, working group or task 
force actions--10 of which are due within the first year;
    <bullet>  carry out 12 new programs or pilot programs--6 of which 
are due within the first year; and
    <bullet>  develop 51 plans/processes/performance metrics/databases 
or guidance--27 of which are due within the first year.

    The FAA will continue to work as quickly as possible to address all 
of the congressional mandates required under the 2018 Act.

    Question 2. Realistically, when will Remote ID for drones be in use 
in the National Airspace System?
    Answer. The Notice of Proposed Rulemaking (NPRM) for the ``Remote 
Identification of Unmanned Aircraft Systems'' is currently in Executive 
Branch clearance. We anticipate the NPRM will be published soon. The 
FAA has been engaging with industry to help establish foundational 
elements that will facilitate future implementation of the rule. In 
December of 2018, we issued a Request for Information (RFI) to seek 
industry partners interested in becoming a UAS Service Supplier (USS) 
with the intent of establishing a practical approach to information and 
data sharing. This opportunity will support the FAA's ability to 
develop data exchange strategies between UAS and appropriate 
stakeholders. In June of 2019, we tasked the Drone Advisory Committee 
(DAC) with developing recommendations on voluntary equipage prior to 
the effective date of the rule. The DAC formally provided these 
recommendations on October 17, 2019. The recommendations are in FAA 
review for effectiveness, feasibility, and safety/security 
implications.
    The recommendations of the DAC can be viewed here: https://
www.faa.gov/uas/programs_partnerships/drone_advisory_committee/media/
eBook_10-17-2019_DAC_Meeting.pdf
    The FAA is planning an aggressive implementation schedule, and 
after the NPRM is published, the FAA will review the comments and 
determine impact to the schedule.

    Question 3. FAA has issued a lot of AIP grants in the last few 
weeks. Can you talk about how these funds are benefitting aviation 
infrastructure and small airports?
    Answer. In Fiscal Year 2019, The FAA issued grants for 
approximately $3.6 billion in AIP dollars. This includes $265 million 
in Supplemental Appropriations. In the last few weeks of this fiscal 
year, 439 grants and over $1.4 billion in funding were issued for 
various airport infrastructure improvements. These improvements include 
rehabilitation and construction of runways, taxiways, and apron 
pavements along with terminal building construction and improvements. 
Of the grants issued in September 2019, 45 percent of these grants 
funded airport improvements at small or general aviation airports. This 
infusion of capital for airport development i.e. maintenance and 
expansion of the airport facilities greatly enhances the local 
communities' ability to serve the flying public in their area where 
transportation connectivity is often critical.

    Question 4. What are the ``lessons-learned'' so far from the 
President's Integration Pilot Program for unmanned aircraft systems or 
drones?
    Answer. The work being done through the UAS Integration Pilot 
Program (IPP) is helping us understand what the future UAS Traffic 
Management System will need to look like. We are also learning more 
about the public's perception of UAS and the need for community 
engagement. While local communities are generally supportive of UAS 
operations related to emergency response, infrastructure inspection, 
and medical package delivery, there are still concerns about privacy, 
safety, and noise.
    The IPP is also helping to establish the safety cases needed to 
conduct advanced UAS operations like Beyond Visual Line-of-Sight 
(BVLOS). In July 2019, the FAA issued the first BVLOS waiver that did 
not require visual observers (VOs). Subsequently, the FAA has approved 
additional BVLOS waivers that do not require VOs.
    Through the IPP, Wing Aviation and UPS Flight Forward have received 
certification under 14 CFR part 119 to operate UAS flights as an air 
carrier under 14 CFR part 135 for compensation or hire. We've seen that 
air carriers that are already certificated for operations with manned 
aircraft are better positioned to be successful with certification for 
operations with UAS because these companies have experience with the 
certification process. Going forward, we are encouraging potential 
applicants for part 135 certification to consider working with 
certificated air carriers and providing more resources to assist the 
applicants that are not familiar with the process.
    Lastly, this effort is assisting the Department in the collection 
of data and proofs of concept that will better allow the Department to 
address the concerns of our security partners in future rulemakings and 
FAA actions.

    Question 5. Deputy Administrator Elwell, as you know the Federal 
contract tower program is a great example of a successful public/
private partnership, but it is also vitally important to small, rural, 
and general aviation airports. The Reauthorization law made a number of 
significant reforms to the way the FAA manages the program. Can you 
provide an update on the status of those reforms?
    Answer. Key reforms to the Federal contract tower (FCT) program 
have been integrated into the FAA's processes and procedures for 
administering the program. The most notable reforms include processing 
benefit-cost (BC) ratios using the previously established method from 
1990 (FAA-APO-90-7), and doing so within 90 days of receiving a 
complete application. The FAA has received nine applications from new 
applicants since the bill was enacted, and has been processing these 
applications as expeditiously as possible.
    The revised law prohibits the FAA from conducting a BC analysis on 
FCT program participants unless air traffic at a participating facility 
has decreased by more than 25 percent in one year or more than 55 
percent in the preceding three-year period. The FAA will reassess 
towers only if these criteria are met.
    The Reauthorization language also provided that if an existing 
participant in the FCT program is operating under the cost-share 
program, the Secretary shall annually calculate a BC ratio with respect 
to the tower. The calculations for these cost-share towers are 
underway.
    In addition, the FAA has eliminated the $2 million cumulative 
Airport Improvement Program (AIP) cap and provided guidance to FAA 
personnel regarding the availability of Small Airport Funds (a 
discretionary fund set aside under the AIP) for eligible contract tower 
projects. The FAA issued updated guidance on these changes in July 2019 
and is working with potential recipients of these funds for any high-
priority tower projects.

     Questions from Hon. Garret Graves to Daniel K. Elwell, Deputy 
             Administrator, Federal Aviation Administration

    Question 6. The Committee is especially aware of concerns with the 
cybersecurity of both aircraft and air traffic control systems. We 
firmly believe that the FAA is and must remain the lead on these issues 
given its expertise and understanding of the technologies, security 
risks, and safety implications. Two questions:
    a.  The Reauthorization includes a number of mandates related to 
cybersecurity, including section 506, Securing aircraft avionics 
systems; section 509, Review of FAA strategic cybersecurity plan; and 
section 549, Study on cybersecurity workforce of FAA. What is the 
status of these mandates?
    Answer:

Section 506. Securing aircraft avionics systems:

    The Aviation Rulemaking Advisory Committee (ARAC) Aircraft Systems 
Information Security and Protection (ASISP) Working Group delivered a 
total of 30 recommendations to the FAA and industry pertaining to: 
rulemaking; policy and guidance; best practices; leveraging and/or 
updating of industry standards; continued operational safety; specific 
technologies, designee standards; and research and development. The 
strategy to address the recommendations is documented in the FAA's 
Office of Aviation Safety (AVS) ASISP Strategic Plan. The plan details 
initiatives designed to address security risks and the protection of 
critical aircraft systems, including avionics suites and associated 
networks. AVS has completed 17 recommendations and is tracking the 
completion of the remaining 13 recommendations on a monthly basis.

Section 509. Review of the FAA strategic cybersecurity plan:

    The FAA completed its review and update to the Cybersecurity 
Strategy in September 2019. Overseen by the FAA Cybersecurity Steering 
Committee (CSC), the strategy articulates the Agency's strategy for 
protecting the FAA's information systems and critical infrastructure. 
It guides the development and execution of the FAA Cybersecurity 
Program and strengthens FAA's overall cybersecurity posture. More 
specifically, the plan identifies five goals that describe a strategic 
approach to cybersecurity for the FAA enterprise. The five goals are 
to:

    <bullet>  Refine and maintain a cybersecurity governance structure 
to enhance cross-domain synergy;
    <bullet>  Protect and defend FAA networks and systems to mitigate 
risks to FAA missions and service delivery;
    <bullet>  Enhance data-driven risk management decision 
capabilities;
    <bullet>  Build and maintain workforce capabilities for 
cybersecurity; and
    <bullet>  Build and maintain relationships with, and provide 
guidance to, external partners in government and industry to sustain 
and improve cybersecurity in the aviation ecosystem

Section 549. Study on cybersecurity workforce of the FAA:

    In September 2019, the FAA awarded a contract to the National 
Academy of Sciences to initiate a cybersecurity workforce study. This 
study will be completed by the end of FY 2021 and will include: the 
FAA's cybersecurity workforce challenges; a review of the FAA's current 
strategy for meeting those challenges; and recommendations related to 
strengthening the FAA's cybersecurity workforce. Quarterly updates on 
the progress of the study will be provided to the FAA Cybersecurity 
Steering Committee.

    b.  Can you explain how the FAA interacts with other government 
agencies on cybersecurity issues and efforts?
    Answer. The FAA continues to engage in cybersecurity information 
sharing with the Department of Homeland Security (DHS) National 
Cybersecurity & Communications Integration Center (NCCIC), United 
States Computer Emergency Readiness Team (US-CERT) and Industrial 
Control Systems Cyber Emergency Response Team (ICS-CERT). Our 
participation facilitates the exchange of critical cybersecurity 
information and creates situational awareness of malicious cyber 
activity.
    The FAA validates, coordinates, and responds to requests for 
information from the National Security Council and the interagency 
community requiring FAA support. FAA identifies, assesses, and works to 
mitigate national security risks ranging from nation-state and non-
nation state actors to transnational organizations' cyber intrusions 
and intelligence collection activity directed against the FAA.
    As a tri-chair member of the Aviation Cybersecurity Initiative 
(ACI), an interagency partnership with DHS and Department of Defense 
(DoD), we work together to improve cybersecurity across the aviation 
ecosystem.

    Question 7. Mr. Elwell, section 2209 of the FAA Extension, Safety, 
and Security Act of 2016 required the FAA to establish a process for 
operators of sensitive facilities, such as energy production and 
chemical facilities, restrict the operation of unmanned aircraft 
systems over or adjacent to their facilities. What is the status of the 
creation of this process, and what other steps is FAA taking to ensure 
that unmanned aircraft are not operated over or near sensitive 
facilities?
    Answer. In order to implement section 2209 of the FAA Extension, 
Safety, and Security Act of 2016 (FESSA), the Department of 
Transportation's (DOT's) Office of the Secretary and the FAA determined 
that Notice and Comment rulemaking is required and initiated a 
regulatory action. DOT and FAA are currently working on the rulemaking 
required to implement section 2209.
    In the interim, in order to begin meeting the intent of 2209, the 
FAA used existing authority to put restrictions over security sensitive 
sites identified by federal security agencies (such as military 
installations, sensitive energy facilities, and iconic landmarks like 
the Statue of Liberty, Hoover Dam, and Mount Rushmore), and recently 
expanded the sites to include federal prisons in urban settings using 
existing authority under 14 CFR Sec.  99.7. As we proceed with the 
rulemaking work, the FAA continues to meet with critical infrastructure 
owners and associations to support incident response planning, law 
enforcement engagement, public education and community outreach.
    Ultimately, though, we believe remote ID requirements and a robust 
unmanned aircraft system (UAS) traffic management (UTM) suite of 
services are going to resolve many of the challenges Congress 
anticipated with 2209 to address the concerns of critical 
infrastructure owners.
    We have issued hundreds of flight restrictions and learned a lot 
that is helping to shape the rulemaking. This work is incredibly labor-
intensive, and FAA is concerned that, once a 2209 process is 
implemented, we will be flooded with potentially tens of thousands of 
requests and will be challenged in taking a risk-based, efficient 
approach to assessing and responding to these requests. We hope to 
implement criteria that will help protect the highest-risk facilities 
that could impact national security and economic stability, as well as 
public safety, if damaged by a UAS incident, without impeding legal UAS 
operations.

    Question 8. Mr. Elwell, the negligent or nefarious use of unmanned 
aircraft systems in a way that disrupts airport operations has become a 
major concern, especially after the high profile incident near Gatwick 
airport last December. However, the use of counter-UAS systems in an 
airport environment poses a number of operational and safety challenges 
that need to be overcome, which is why Congress directed the FAA to 
carry out an Airspace Hazard Mitigation Pilot Program. What is the 
status of this pilot program and what barriers remain to the safe use 
of counter-UAS systems in an airport environment?
    Answer. The FAA is in the planning stages of the Airspace Hazard 
Mitigation Pilot Program required under section 383 of FAA 
Reauthorization Act of 2018. The FAA will build upon previous work 
performed under section 2206 of FESSA, enacted in 2016, to inform 
testing and evaluation of UAS detection systems and mitigation systems, 
also known as counter unmanned aircraft systems (C-UAS). The FAA's 
evaluations, under 2206, were limited to only some types of detection 
since the Agency lacked relief from various provisions in title 18 and 
title 49, United States Code. The FAA is working closely with federal 
security partners to develop a program structure and plan to address 
the variety of detection and C-UAS test activities occurring across the 
interagency. Results will inform test activities at pilot airports.
    As part of the tasking in section 383, the FAA will also initiate 
an Aviation Rulemaking Committee to gain industry input on necessary 
performance standards to support the safe and effective use of 
detection and mitigation systems in the NAS. The FAA expects this 
effort to be informed by the Airspace Hazard Mitigation Pilot Program 
mentioned above. Standards development is vital, among other things, to 
enabling potential use of Airport Improvement Program (AIP) funding for 
UAS detection and C-UAS system procurement. Even when standards are 
developed, however, airports cannot use certain detection equipment, 
nor can they use any C-UAS equipment since C-UAS authority is limited 
to certain federal agencies. The FAA is in the process of planning how 
best to incorporate industry input on standards development.
    Results from the testing and evaluation and standards development 
activities will be used as input to the plan for certifying, 
permitting, authorizing, or allowing the deployment of C-UAS equipment 
to detect and mitigate UAS. Until the FAA completes the tasks in 
section 383, the Agency cannot identify all of the barriers that may 
remain to the safe and effective use of detection and C-UAS equipment 
in the airport environment. Right now, the two identified barriers are 
the safety impacts of some C-UAS systems on aviation safety and NAS 
efficiency and the barrier to airport procurement and use of some 
detection and any mitigation systems due to the fact that C-UAS 
authority is limited to certain federal agencies.

     Questions from Hon. David Rouzer to Daniel K. Elwell, Deputy 
             Administrator, Federal Aviation Administration

    Question 9. It is my understanding that NCDOT is working with FAA 
under the IPP to develop a safety case to enable their partners to fly 
beyond visual line of sight in our state. Are there opportunities for 
FAA to share existing radar coverage feeds with the state to help 
deconflict drone operations with manned aircraft?
    Answer. Currently, the FAA is providing limited flight data to Lead 
IPP Participants. Our efforts to fully integrate UAS operations into 
the NAS will include significant engagement with our federal agency 
partners to address their security concerns.

     Questions from Hon. Mark Meadows to Daniel K. Elwell, Deputy 
             Administrator, Federal Aviation Administration

    Question 10. Mr. Elwell, prior to the 2018 Reauthorization, the 
last long-term FAA Reauthorization was passed in 2012. Section 821 of 
that Act directed the FAA to allow fuel reimbursements for private 
pilots providing volunteer medical transportation. It is clear that 
Congress wanted the FAA to change its regulations to ease the burden on 
these volunteer pilots. Yet the FAA certified it complied with the law 
based on a pre-existing exemption process. Why did the FAA maintain the 
status quo when Congress clearly wanted a change?
    Answer. The FAA has not been able to complete rulemaking on fuel 
reimbursement due to competing rulemaking priorities. However, we 
maintain that we can comply and are complying with the intent of the 
law. The FAA has worked to ensure this activity continues to be 
conducted safely through the exemption process. The exemptions we issue 
contain conditions and limitations on organizations, operations, 
pilots, and aircraft, and are targeted to raise the safety level of 
such flights. We systematically review and update these conditions and 
limitations to ensure these practical and beneficial operations 
continue to meet an equivalent level of safety.

       Questions from Hon. Don Young to Daniel K. Elwell, Deputy 
             Administrator, Federal Aviation Administration

    Question 11. Recently there has been a lot of talk about 
infrastructure and infrastructure development projects that are needed 
around the country. I understand that Seattle-Tacoma International 
Airport has one such effort currently in environmental review with 
FAA--a multi-billion-dollar master plan to solve its capacity problems 
through the addition of new facilities on the ground--but that the 
restrictions on the surrounding airspace would remain. In a situation 
like this, what role does the FAA play in ensuring that as a country we 
are strategically building airport infrastructure and considering 
capacity issues both on the ground and in the air so that our 
facilities can be effectively utilized?
    Answer. The FAA routinely monitors system performance in order to 
identify constrained airport infrastructure and/or airspace. We work 
with airports to advance needed airport infrastructure, such as 
additional gates and ramp areas in the case of Seattle-Tacoma 
International Airport (SEA). Airspace improvements are implemented by 
the FAA, preferably with support from the airport to assist with 
community involvement and noise concerns. Sometimes both airport 
infrastructure and airspace improvements are undertaken in tandem. This 
happens when there is a direct operational linkage; i.e., the airspace 
is needed to serve a new runway. An example of this is the ongoing 
improvements with the Chicago O'Hare Modernization Program. However, at 
other locations it can be advantageous to pursue projects separately if 
they have independent utility.
    At SEA, the quantitative analysis shows that the most critical near 
term constraints are gate and ramp capacity. Later in the mid-term 
period, airspace constraints will be a growing concern in the Seattle 
area. However, additional gates have significant benefit at SEA in the 
near term even without airspace improvements. As a result, the FAA is 
supporting the Port of Seattle's efforts to develop new gates as soon 
as possible. However, the FAA does expect to work with the airport and 
airlines on airspace improvements in Seattle in the coming years as a 
separate project.
    Overall, while implementation can vary depending on local details, 
the FAA recognizes our role in actively engaging with all stakeholders 
to continuously improve system capacity.

    Question 12. I wanted to ask you about NextGen and investment in 
West Coast/Pacific. We need to make sure that as we keep NextGen 
technologies moving forward that we don't leave behind those in the 
West and Pacific. I know with the shutdown there was a delay in rolling 
out DataComm that is lasting months. As you know, DataComm allows a 
much more efficient ``certified text messaging'' between the 
controllers and pilots for more efficient reroutes in bad weather 
situations and in otherwise busy times. Can you update the committee on 
how the FAA is working to get that project back on track across the 
country--East and West?
    Answer. The Government shutdown created significant impacts to the 
en route phase of the Data Comm program and required the FAA to replan 
the entire en route deployment schedule. In addition, issues 
experienced with aircraft avionics and with legacy air-to-ground 
networks over the last year of testing in the NAS have impacted 
operational acceptability in the field. Action plans have been put in 
place for industry (e.g., Boeing, Airbus; multiple avionics 
manufacturers; L3Harris, Collins and SITA; and the Operators) to 
address the aircraft/avionics issues. The NEXTGEN Advisory Committee 
has been actively engaged to assist in addressing these issues and 
progress is being made. To minimize the impacts to the deployment 
schedule, the FAA moved forward with several changes in the FAA's 
ground automation (ERAM) to mitigate issues with aircraft avionics. 
These software updates have been delivered ahead of schedule and are 
working as designed.
    We are projecting that the first two key site Air Route Traffic 
Control Centers (ARTCCs)--Indianapolis (ZID) and Kansas City (ZKC) will 
be fully operational by the end of 2019, which will allow us to move 
forward with deployment to the rest of the ARTCCs--roughly deployed 
from the east to the west--in the 2020-2021 timeframe. These schedule 
changes represent an approximate five month slip to the baseline first-
site date, and approximate seven month slip to the last site from the 
projected initial operating capability date.
    This is a very complex system of systems acquisition currently 
being deployed into the NAS. As a reminder, the tower phase of the Data 
Comm program was delivered 2.5 years early and several million dollars 
under budget, and is delivering significant benefits in the NAS at the 
62 airports across the country, including 12 airports in Washington, 
Oregon, and California, where the services are deployed.

    Question 13. I'd also like to specifically inquire on tower and 
EnRoute DataComm services at Honolulu (HNL) and Anchorage (ANC) at this 
time. This technology increases accurate receipt of air traffic control 
messages and reduces the possibility of message transfer error when 
compared to the current methods available at HNL and ANC. There is a 
solid operational and benefits case for deploying at HNL and ANC, 
however, I understand some infrastructure and technical issues at these 
locations need to be addressed by the FAA. Can you please provide an 
update on the plan and timeline for this to occur at these key 
locations so we can start seeing these and other benefits to our air 
traffic control system in the Pacific?
    Answer. We are currently evaluating alternatives for a replacement 
of our offshore automation platforms. We are planning an Initial 
Investment Decision in 2020, followed by a Final Investment Decision 
(FID) in 2021. The final deployment schedule will be determined at FID, 
but is estimated to begin in the 2024 timeframe. Our objective is to 
provide nationally supported National Air Space (NAS) standardized 
platforms at the offshore facilities (HNL, ANC, Guam and SJU) which 
will bring the four facilities into strategic alignment with the 
Continental United States NAS.
    The benefits of this effort will allow for future Next Generation 
Air Traffic System (NextGen) capabilities and will ease future 
lifecycle sustainment challenges associated with the legacy systems, 
including reducing the number of automation platforms requiring 
separate maintenance and training support, and allow for greater 
workforce flexibility.

  Questions from Hon. Greg Stanton to Hon. Joel Szabat, Acting Under 
           Secretary for Policy, Department of Transportation

    Question 1. Section 427 of the FAA Reauthorization Act requires the 
Department to issue a final rule to require large ticket agents--those 
whose revenue total more than $100 million--to adopt minimum customer 
service standards. The purpose of Section 427 is to ensure that, to the 
extent feasible, there is a consistent level of consumer protection 
regardless of where consumers purchase air fares.
    Can you please provide me an update on the status of the 
Department's implementation of Section 427.
    Answer. The Department has committed to moving forward with a 
rulemaking that would require ticket agents with annual revenues of 
$100,000,000 or more (large ticket agents) to adopt minimum customer 
service standards as mandated by Section 427 of FAA Reauthorization Act 
of 2018. The rulemaking, which is identified on the Spring 2019 Unified 
Agenda of Regulatory and Deregulatory Actions, would enhance airline 
passenger protections by requiring large ticket agents to adopt minimum 
customer service standards. A rulemaking schedule has not been 
established at this time.

    Question 2. Sexual harassment is a significant and ongoing issue 
for flight attendants and passengers on commercial aircraft and it is 
important that the FAA prioritize efforts to combat and address it. 
Flight crews need to feel confident that their complaints are being 
taken seriously and that the appropriate penalties are being applied to 
deter this type of unacceptable behavior. Section 339A of the FAA 
Reauthorization Act requires the Secretary of Transportation to 
establish a task force to evaluate current practices in responding to 
and reporting allegations of sexual misconduct on aircraft and provide 
best practices.
    Can you please provide me the work plan and timeframe for the task 
force's work on this important issue.
    Answer. In February 2019, the Secretary established the National 
In-Flight Sexual Misconduct Task Force (Task Force) and announced its 
members. The Task Force met in April, May, June, July and September of 
2019. During these meetings, the Task Force examined best practices 
relating to training, reporting, and data collection regarding 
incidents of sexual misconduct by passengers on board commercial 
aircraft. Task Force members also heard and reviewed first-hand 
accounts from passengers and flight attendants who experienced sexual 
misconduct. The Task Force expects to conclude its work in early 2020, 
at which time the Task Force will submit a report to the Aviation 
Consumer Protection Advisory Committee with recommendations relating to 
training, reporting, and data collection regarding incidents of sexual 
misconduct. At the same time, this report will be made public.

   Questions from Hon. Sam Graves to Hon. Joel Szabat, Acting Under 
           Secretary for Policy, Department of Transportation

    Question 1. The Essential Air Service program ensures that rural 
towns and communities remain connected to our national air 
transportation system. The FAA bill included a provision allowing the 
Department to exempt communities from certain EAS service requirements 
if a community requests it. This is intended to ensure that DOT and 
communities have the flexibility they need to implement the program in 
the best manner possible for the community and the taxpayer. Can you 
give us a sense of how DOT is planning on implementing this provision? 
(Section 456)
    Answer. The Department has implemented this provision and has 
already provided waivers for several communities that requested to 
waive part of basic EAS, 49 U.S.C. Sec.  41733(a) & (b), or EAS 
termination notice requirements, 49 U.S.C. Sec.  41734(a)-(c). Waivers 
were granted to Greenbrier/White Sulphur Springs, WV, Moab, UT, and 
West Yellowstone, MT to allow carriers to provide less than basic EAS 
(fewer than 12 round trips per week) during off-peak periods, while 
correspondingly operating more round trips during peak season. 
Greenbrier, Moab, and West Yellowstone are all seasonal markets, making 
this adjustment economical and practical. We are also working with a 
community on its request for a waiver for its air carrier from certain 
notice requirements under 49 U.S.C. Sec.  41734.

    Question 2. How does the DOT prioritize the many FAA 
Reauthorization mandates?
    Answer. The FAA Reauthorization Act of 2018, which provided much 
needed stability and direction for the Department's work, contained 550 
sections and approximately 360 deliverables. The Department is working 
to implement the provisions of the Act as expeditiously as possible, 
prioritizing those provisions that address aviation safety and the 
efficient use of the airspace. A review of the Department's August 2019 
Significant Rulemaking Report reflects these priorities, as 70 percent 
of the Federal Aviation Administration (FAA)'s ongoing rulemaking work 
deals primarily with safety. Working with the FAA, other modal 
administrations within the Department, and other cabinet agencies as 
necessary, we are also implementing provisions addressing accessibility 
and consumer rights, infrastructure, and innovation. We also are 
placing a high priority on the integration of new technologies into the 
airspace that hold promise for improved safety, accessibility, and 
economic opportunity, such as Unmanned Aircraft Systems (UAS).

  Questions from Hon. Garret Graves to Hon. Joel Szabat, Acting Under 
           Secretary for Policy, Department of Transportation

    Question 1. How has the creation of the position of Aviation 
Consumer Advocate changed the work of the Department's Office of 
Aviation Enforcement and Proceedings?
    Answer. The Aviation Consumer Advocate, a position created by the 
FAA Reauthorization Act of 2018 (the Act), is tasked with the 
following: (1) assisting consumers in resolving airline service 
complaints filed with the Department; (2) reviewing the Department's 
resolution of airline service complaints; (3) identifying and 
recommending actions the Department can take to improve the enforcement 
of aviation consumer protection rules and resolution of airline service 
complaints; (4) identifying and recommending regulations and policies 
that can be amended to resolve more effectively airline service 
complaints; and (5) submitting an annual report to Congress. Many of 
the specified functions of the Aviation Consumer Advocate overlap with 
the functions of the Department's Office of Aviation Enforcement and 
Proceedings. For this reason, the Assistant General Counsel (AGC) of 
the Office of Aviation Enforcement and Proceedings was selected to 
serve as the Aviation Consumer Advocate. Shortly thereafter, the AGC 
established two new positions within the Office of Aviation Enforcement 
and Proceedings--Director of Consumer Advocacy and Director of Civil 
Rights Advocacy--to help fulfill the responsibilities of the Aviation 
Consumer Advocate. The Directors serve as an extension of the Aviation 
Consumer Advocate and play a key role in educating and assisting 
consumers, resolving airline service complaints, and identifying 
actions to improve the resolution of airline service complaints. The 
creation of the Aviation Consumer Advocate position has resulted in 
more visibility and focus on the issues identified in the Act as being 
priorities for the Department.

    Question 2. What will the Air Carrier Access Act Advisory Committee 
be working on and how will their efforts assist the Department in 
implementing the various mandates of the Reauthorization Law?
    Answer. The Department's Designated Federal Officer for the Air 
Carrier Access Act (ACAA) Advisory Committee is working closely with 
ACAA Advisory Committee members to determine the topics to be discussed 
at the first meeting. In considering potential topics, the ACAA 
Advisory Committee is keeping in mind that the FAA Reauthorization Act 
of 2018 (the Act) outlines specific tasks that the committee must 
complete within a specified time. Specifically, section 438 of the Act 
states that, no later than six months after the first meeting, the 
committee must submit to the Secretary and the appropriate committees 
of Congress a report that assesses the current regulations with respect 
to practices for ticketing, pre-flight seat assignments, access to 
bulkhead seating, and stowing of assistive devices for passengers with 
disabilities. In addition, section 439 of the Act states that, no later 
than fourteen months after the establishment of the committee, and 
annually thereafter, the committee must submit to the Secretary a 
report on whether the current regulations, programs, and activities of 
the Department are addressing the disability-related access barriers 
encountered by air travelers with disabilities. Further, section 434 of 
the Act requires the Secretary to develop an ``Airline Passenger with 
Disabilities Bill of Rights.'' Section 434 states that, in developing 
the Airline Passengers with Disabilities Bill of Rights, the Secretary 
shall consult with stakeholders, including disability organizations and 
covered air carriers and their contractors. The ACAA Advisory Committee 
members have discussed these various mandates of the Act and the 
importance of giving priority to mandates in the Act when selecting 
topics for discussion at the ACAA Advisory Committee meeting. The 
Department will issue a Federal Register notice announcing the date of 
the first meeting and topics to be discussed after agreement is reached 
with the ACAA Advisory Committee members.

    Question 3. Can you explain the responsibilities of the Air 
Ambulance and Patient Billing Advisory Committee?
    Answer. The Air Ambulance and Patient Billing (AAPB) Advisory 
Committee, which was established pursuant to the FAA Reauthorization 
Act of 2018 (the Act), is tasked with advising the Secretary on issues 
related to the air medical service industry and the bills that 
consumers receive after using air medical services. The charter 
specifies that the AAPB Advisory Committee will review options to 
improve the disclosure of charges and fees for air medical services, 
better inform consumers of insurance options for such services, and 
protect consumers from balance billing. Based on its review, the AAPB 
Advisory Committee will make recommendations regarding disclosure of 
charges and fees for air ambulance services and insurance coverage, as 
well as consumer protection and enforcement authorities of both the 
Department and state authorities, and balance billing issues for 
consumers.

    Question 4. What is the status of the Department's efforts related 
to service animals and emotional support animals in air transportation?
    Answer. The Department is committed to ensuring that individuals 
with disabilities can continue to use their service animals while also 
deterring the fraudulent use of animals not qualified to be service 
animals. Last year, in response to concerns expressed by various 
stakeholders, the Department issued an advance notice of proposed 
rulemaking regarding the need for a change in the Department's service 
animal regulation. The Department expects to issue a notice of proposed 
rulemaking (NPRM) this calendar year. This NPRM is currently under 
executive review.
    Because the rulemaking process can be lengthy, we also recently 
issued a Statement of Enforcement Priorities Regarding Service Animals 
that reflects the Department's view of where to focus its limited 
resources with respect to service animals. Focus will be on clear 
violations of the current rule that have the potential to adversely 
impact the largest number of persons.

  Questions from Hon. Pete Stauber to Hon. Joel Szabat, Acting Under 
           Secretary for Policy, Department of Transportation

    Question 1. I am concerned that PHMSA did not comply with the 
legislative language in the FAA Reauthorization Act (H.R. 302) to 
provide ``Exceptions for Air Transportation of Medical Device 
Batteries'' in the HM-224 (RIN 2137-AF20--Hazardous Materials: Enhanced 
Safety Provisions for Lithium Batteries Transported by Aircraft, FAA 
Reauthorization Act of 2018) Interim Final Rule. Will PHMSA address 
this issue in the Final Rule?
    Answer. In Section 333(b)(1) of the FAA Reauthorization Act of 
2018, Congress mandated a 45-day time frame in which the Secretary must 
consider and grant or deny applications for special permits or 
approvals for the air transportation of lithium ion cells or batteries 
specifically used by medical devices. In Section 333(b)(2), Congress 
required the Secretary to issue limited exceptions to the restrictions 
on the transportation of lithium ion and lithium metal batteries to 
allow the shipment on a passenger aircraft of not more than two 
replacement batteries specifically used for a medical device if certain 
conditions are met.
    The Department is implementing the provisions of the Act through 
the rulemaking process. In its March 6, 2019, Interim Final Rule, 84 FR 
8006, Hazardous Materials: Enhanced Safety Provisions for Lithium 
Batteries Transported by Aircraft, PHMSA established an exception in 49 
CFR 173.185(g) that permits the transport of up to two lithium 
batteries for medical devices on a passenger aircraft, with the 
approval of PHMSA's Associate Administrator, and waives the state of 
charge limit under the conditions specified in Section 333(b) of the 
Act. The Interim Final Rule included exceptions through an approval 
authorization consistent with the legislative mandate.
    Additionally, the regulatory text includes the definition of a 
medical device, conditions on the use of the exception, and the 
packaging requirements set forth in the Act's limited exceptions to 
restrictions on air transportation of medical device batteries in 
Section 333(b)(2). PHMSA requested and received comments on the 
provision and will address these comments in a Final Rule that is 
currently being drafted.

    Question 2. What progress has PHMSA made in establishing the 
``Lithium Battery Safety Working Group'' or the Lithium Battery Federal 
Advisory Committee (FACA)?
    Answer. In July 2019, pursuant to Section 333(c) of the FAA 
Reauthorization Act of 2018, PHMSA established a lithium battery safety 
working group to promote and coordinate efforts related to the 
promotion of the safe manufacture, use, and transportation of lithium 
batteries and cells. The Working Group includes members from three DOT 
operating administrations (Pipeline and Hazardous Materials Safety 
Administration, the Federal Aviation Administration, and the National 
Highway Traffic Safety Administration), the Consumer Product Safety 
Commission, the National Institute of Standards and Technology and the 
Food and Drug Administration.
    Guided by the language in Section 333(c) of the Act, PHMSA created 
a group with diverse expertise that reflects the range of applications 
for lithium battery technology and unique hazards associated with the 
air transport of lithium batteries. The Working Group jointly developed 
a charter to outline the scope of the work and facilitate advancement 
of its objectives, and the group is actively meeting to fulfill those 
objectives.
    Additionally, on May 9, 2019, pursuant to Section 333(d) of the 
Act, and in accordance with the Federal Advisory Committee Act (FACA) 
as amended (5 U.S.C., App. 2), PHMSA filed a charter formally 
establishing the Lithium Battery Air Safety Advisory Committee. 
Following a public recruitment process to nominate members, 
Transportation Secretary Chao appointed 20 members to serve on the 
committee October 2, 2019. The Advisory Committee is expected to hold 
its first meeting in January 2020.

    Question 3. What progress has the agency made in relation to 
Section 333(e): Cooperative Efforts to Ensure Compliance with Safety 
Regulations for enhancing international enforcement efforts to promote 
lithium battery regulatory compliance and safety?
    Answer. On October 5, 2018, Section 333 of the FAA Reauthorization 
Act of 2018 directed the Secretary of Transportation to carry out a 
wide range of activities related to lithium batteries, from revising 
regulations to harmonize with international standards, to evaluating 
packaging standards and providing forums to enhance stakeholder input. 
Section 333(e) directs the Secretary to improve interagency and 
international cooperative efforts to ensure compliance with safety 
regulations for air transport of lithium batteries. The mandate 
includes an initial report to Congress describing cooperative efforts 
carried out, or planned to be carried out, under this subsection. The 
Secretary will also provide Congress annual updates for the subsequent 
two years following the initial report.
    PHMSA and FAA have increased stakeholder engagement and enforcement 
related to battery transport requirements. A draft report to Congress, 
which is currently under review within the Department, provides the 
initial update related to stakeholder engagement and enforcement 
activities being taken to reduce noncompliance with battery transport 
requirements. The information provided in the report will identify the 
domestic and international efforts currently underway by the Department 
of Transportation.

    Questions from Hon. Don Young to Hon. Joel Szabat, Acting Under 
           Secretary for Policy, Department of Transportation

    Question 1. As you know I am a strong supporter of the Essential 
Air Service program, which is vital to rural America, but specifically 
to Alaska and Alaskans. I understand you visited Alaska last year to 
meet with EAS stakeholders in my state. Thank you for your attention to 
this vital program and for visiting. Will you commit to continuing to 
support this vital program?
    Answer. The Department understands the importance of this 
Congressionally-funded program to the communities it serves. During my 
visit to Alaska last year, I heard first-hand accounts of the role that 
Essential Air Service flights play in connecting Alaskans to the 
National Transportation System. I will continue to provide good 
stewardship of Essential Air Service funding, and implement the program 
in the most efficient and cost-effective way possible. One-third of the 
active EAS communities are in the state of Alaska, and the Department 
continues to work with the State of Alaska and the communities to 
support their varied needs across the State.

    Questions from Hon. Garret Graves to Sara Nelson, International 
       President, Association of Flight Attendants--CWA, AFL-CIO

    Question 1. How will the provision that prohibits the involuntary 
bumping of passengers after they have boarded improve the boarding 
process and experience for both flight attendants and passengers?
    Answer. Typically, a Flight Attendant would not be responsible for 
removing a passenger from a flight. If there was a discrepancy a Flight 
Attendant would refer to the Customer Service agent. However, Flight 
Attendant staffing, on most flights, is at FAA minimums which means 
that when a situation arises, such as duplicate seat assignments, 
Flight Attendants are not able to leave the aircraft to coordinate with 
gate agents and to gain/relay information to the passengers. Provisions 
that prevent involuntary bumping after a passenger has boarded will 
help to ensure some of these issues are resolved before passengers get 
on the aircraft.

    Question 2. How will revised regulations related to service animals 
and emotional support animals be received by flight attendants? What 
are some of the issues that you believe need to be clarified as part of 
that process?
    Answer. We support guidance and better regulations which protect 
the rights of people with disabilities and our veterans who 
legitimately need to travel with service animals. We applaud the DOT's 
needs to move forward with setting standards to cut down on fraud. 
Clear rules are necessary to ensure access to service animal assistance 
for people with disabilities and our veterans, while maintaining the 
safety, health and security of all passengers and crew onboard our 
planes.
    However, we believe ESAs should not be included in the DOT 
definition of a service animal under the ACAA. We recommend they be 
regulated separately and distinctly from service animals.
    Airlines should be allowed to limit the size of ESAs and other 
service animals to account for the available space in the cabin. This 
determination should be made at check-in by an airline employee who is 
properly trained and experienced.
    To mitigate such issues, in addition to chronic understaffing, 
flight attendants have suggested solutions that could be mandated in a 
revision to the ACAA regulation. These include the following:

    <bullet>  Require airlines to develop specific procedures and 
concomitant training and information to address attacks and other non-
compliant behavior by service animals and their owners in the cabin.
    <bullet>  Require use of a form or other sort of informational tool 
to give to passengers who are non-compliant with respect to their 
animal in the cabin. This form would state the airline's rules and 
thereby reinforce the flight attendant requests.
    <bullet>  Require that some form of accurate, pre-flight, 
standardized documentation be provided to crewmembers specifying the 
category of each animal in the cabin (e.g., whether they are pets, 
emotional support, or service animals.)
    <bullet>  Require that flight attendant manuals, training 
materials, and other bulletins better reflect the rules and policies of 
the airline and the contents of its contract of carriage.

     Questions from Hon. Sam Graves to Captain Bob Fox, First Vice 
         President, Air Line Pilots Association, International

    Question 1. In your written testimony you point out that in 2018 
the FAA issued 5,788 Air Transport Pilot (ATP) certificates and that 
your research showed that airlines hired 4,600 pilots that year.
    a.  Does the 4,600-pilot number include hiring by all Part 121 air 
carriers?
    b.  For instance, do you know whether the 4,600-pilot number 
includes hiring by regional air carriers?
    Answer. The number of 4,600 pilots includes most of the Part 121 
air carriers. It includes the large passenger airlines (e.g., American, 
Delta, United, JetBlue, and Spirit) and also the large cargo carriers 
(e.g., FedEx and UPS). However, the figure does not include regional 
air carriers. It should be noted that a very high percentage of the 
4,600 pilots hired by the large airlines in 2018 will be sourced from 
regional air carriers (with the remaining candidates generally hired 
directly from the military). In turn, the regional air carriers that 
lose pilots to the large airlines will end up hiring new pilots from 
their available source of pilots, most of which will be from the newly 
issued ATP's and Restricted ATP's.

    Question 2. In your written testimony you state that the supply of 
pilots is keeping up with demands. Can you tell me, is pilot hiring 
keeping up with projected commercial pilot retirements?
    Answer. Pilot hiring at mainline carriers is keeping up with 
existing and projected pilot retirements. For the large airlines, there 
are two main reasons for hiring: (1) mandatory retirements at age 65 
and (2) airline fleet growth. Over the last 3 years (2016-2018), the 
FAA has issued over 19,500 new ATPs (including R-ATPs), and over 33,000 
new ATP's have been issued in the last 5 years. The large airlines have 
not reported any shortage in the pool of available pilots.

    Question 3. What is the failure rate for new pilots going through 
airline training? Is this failure rate typical or has it increased?
    Answer. Anecdotally the failure rate is very low historically and 
continues to be. FAA monitors failure rate as a measure of the quality 
of the airline's training program. Even at individual airlines the 
numbers are difficult to determine due to how the data is collected. 
For instance, airlines typically don't differentiate those who actually 
failed from those who were performing well but left before training was 
completed to accept a more attractive job at a different airline. This 
is prone to occur over the past few years due to the majority of 
airlines hiring. With the advent of social media, pilots these days are 
very well educated on the culture, work/life balance, pay, benefits, 
career progression opportunities, etc. at each airline. Therefore, the 
airlines with the most attractive employee package to offer are likely 
to be able to pick from the most qualified pilots available and as a 
result see fewer training failures or difficulties. In addition, 
airlines that tailor their training based on the pilots hired, to 
account for things such as having very little experience or not having 
flown much in recent years, also see fewer training failures.

    Question 4. Can you talk about the importance of voluntary 
reporting programs and data sharing and how it has improved aviation 
safety across the industry?
    Answer. Voluntary safety reporting programs provide critical data 
that has moved the aviation industry from a reactive approach to safety 
to one that is proactive. These programs allow us to identify risk in 
the system before an accident occurs so that the appropriate changes 
necessary to mitigate the risks can be implemented. Analysis is done at 
individual airlines but is also valuable through data sharing programs 
such as the Aviation Safety Information Analysis and Sharing (ASIAS) 
program to identify opportunities for improvement within areas such as 
training, procedural designs, and other aspects of an operation. 
Individual voluntary programs can also improve the safety culture at an 
airline, allowing each employee the opportunity to recognize the role 
they play in safety and take ownership. Voluntary safety reporting 
programs are currently at the core of aviation safety risk management 
within the United States because of the unique information they are 
able to provide.

   Questions from Hon. Garret Graves to Gregory S. Walden, Aviation 
                      Counsel, Small UAV Coalition

    Question 1. In your testimony, you mention concerns that the UAS 
Integration Pilot Program (IPP) lacks transparency. While the initial 
report on the program has not yet been published, in your opinion what 
changes would you like to see to create greater transparency in the 
waiver processing?
    Answer. Before Part 107 was effective, drone operators were 
required to obtain an exemption under section 333 of the FAA 
Modernization and Reform Act of 2012. Section 333 petitions for 
exemption were docketed and available to the public in full, except for 
proprietary materials such as an operations manual. Today, the public 
does not see any part of a Part 107 waiver application. While waivers, 
like exemptions, are made public, the drone community is not able to 
glean from successful waivers guidance on what the FAA will accept to 
demonstrate safety.
    The FAA's Drone Advisory Committee (DAC) recently adopted several 
recommendations to improve the Part 107 waiver process that the FAA 
should accept. Among them are two recommendations addressing 
transparency:

    <bullet>  FAA should create a checklist to inventory examples of 
acceptable safety cases for waiver approvals that will serve as 
constructive feedback for denied waiver applications.
    <bullet>  The FAA should increase transparency and accountability 
by creating a pathway for applicants to learn why their applications 
were not approved and by whom.

    In addition to these two recommendations, it would also benefit the 
UAS industry to receive periodic reports on projects being undertaken 
within the rubric of each IPP participant, including the operational 
environment in which UAS operations have been conducted.

    Question 2. As you know, national security agencies, airports, 
state and local governments, and many others, are concerned about the 
risk posed by users of UAS. While most UAS users are responsible and 
adhere to the rules of the sky, operations by ``the clueless, the 
careless, and the criminal'' can pose risks to people on the ground and 
other airspace users. How do we turn ``the clueless and the careless'' 
into responsible users so that we can focus on countering the criminal?
    Answer. Congress took the first step in the FAA Reauthorization Act 
of 2018 when it repealed section 336 of the 2012 law to ensure all UAS 
operators are subject to FAA safety regulations.
    The second step is to require recreational users to pass an 
aeronautical knowledge test, which section 349 of the 2018 law 
requires. The Small UAV Coalition also supports online testing, as 
directed in section 349. Online testing will likely attract many 
recreational users who otherwise would elect not to travel to a testing 
center. For it to be effective, online testing must cover the relevant 
subjects and the testing process must be secure against cheating.
    A third step is to implement a remote identification rule that 
applies to recreational operators. Remote ID will promote 
accountability and discourage those who might be inclined to invade a 
neighbor's privacy believing they will not be caught. FAA will need to 
conduct a campaign to promote equipage and compliance with the rule, 
after which time enforcement action should be considered.
    A fourth step is to use traditional and social media to alert 
recreational users about no fly zones and other restrictions to avoid 
any adverse impact on air carrier operations and to protect the 
public's safety. To expand beyond the reach of Know B4U Fly, Public 
Service Announcements (PSAs) should be made before certain events and 
during forest fire season. These announcements should reach all 
segments of recreational UAS operators. Local drone groups can also 
sponsor drone training programs to make it easy to learn how to operate 
a drone safely.


                                 [all]
                                    
</pre></body></html>
